<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        RODNEY P. FRELINGHUYSEN, New Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 MARCY KAPTUR, Ohio                 JACK KINGSTON, Georgia
 ALLEN BOYD, Florida                KAY GRANGER, Texas
 STEVEN R. ROTHMAN, New Jersey      HAROLD ROGERS, Kentucky             
 SANFORD D. BISHOP, Jr., Georgia    
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Paul Juola, Greg Lankler, Sarah Young, Linda Pagelsen, Paul Terry, 
 Kris Mallard, Adam Harris, Ann Reese, Brooke Boyer, Tim Prince, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 4
                                                                   Page
 Defense Health Program...........................................    1
 Fiscal Year 2010 Air Force Posture...............................  199
 Navy and Marine Corps Posture....................................  259
 Army Posture.....................................................  355
 Statements for the Record........................................  435
                                ________

         Printed for the use of the Committee on Appropriations


         PART 4--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010
                                                                      ?

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        DAVID L. HOBSON, Ohio
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROGER F. WICKER, Mississippi
Alabama                             JACK KINGSTON, Georgia              
 ALLEN BOYD, Florida                
 STEVEN R. ROTHMAN, New Jersey      
 SANFORD D. BISHOP, Jr., Georgia    
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Paul Juola, Greg Lankler, Sarah Young, Linda Pagelsen, Paul Terry, 
 Kris Mallard, Adam Harris, Ann Reese, Brooke Boyer, Tim Prince, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 4
                                                                   Page
 Defense Health Program...........................................    1
 Fiscal Year 2010 Air Force Posture...............................  199
 Navy and Marine Corps Posture....................................  259
 Army Posture.....................................................  355
 Statements for the Record........................................  435
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-286                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma             
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

                              ----------                              

                                            Thursday, May 21, 2009.

                          DEFENSE HEALTH PLAN

                               WITNESSES

ELLEN EMBREY, DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR FORCE HEALTH 
    READINESS AND PROTECTION
LIEUTENANT GENERAL ERIC SCHOOMAKER, ARMY SURGEON GENERAL AND COMMANDER, 
    U.S. ARMY MEDICAL COMMAND
VICE ADMIRAL ADAM M. ROBINSON, SURGEON GENERAL OF THE NAVY
LIEUTENANT GENERAL JAMES G. ROUDEBUSH, SURGEON GENERAL OF THE AIR FORCE
VICE ADMIRAL JOHN M. MATECZUN, COMMANDER, JTF CAPMED
BRIGADIER GENERAL PHILIP VOLPE, DEPUTY COMMANDER, JTF CAPMED

                              Introduction

    Mr. Murtha. The committee will come to order.
    We appreciate this distinguished panel. Mr. Young is caught 
in traffic. He has a long ways to travel, but there has been 
nobody more involved than he and his wife. And I assume all 
three of you have heard from his wife periodically, all four, 
if there is something wrong. But I appreciate her dedication to 
the military and dedication to make sure that people are taken 
care of, and we appreciate what you folks do.
    As I said to you privately, lately when I go to the 
hospitals there are a lot less patients there, but I hear 
nothing but compliments. In fact, when I stopped at Landstuhl, 
two patients were having babies, so those were the only two 
patients that I saw. So that was a real change from the time I 
went and they didn't have air-conditioning.
    But we appreciate--we think you put the money to good use 
that we have added, and we compliment you on the fact that you 
have added money this year, and we don't have to make up for 
that $1 billion that you were short every year.
    But with that, I will ask Ms. Embrey to give her opening 
statement, and any other statements we will put in the record 
or let you say a few words, and we will put your full statement 
in the record.
    If you will summarize it for us.

                    Summary Statement of Ms. Embrey

    Ms. Embrey. Mr. Chairman, Mr. Dicks, Mr. Moran. I am 
honored to be today to present the priorities of the Military 
Health System (MHS) in its Fiscal Year 2010 budget.
    America's Armed Forces are our country's greatest strategic 
assets, and apart from defending the Nation, DOD has no higher 
priority than to provide the highest quality health care and 
support to our force and its families. Secretary Gates has said 
that at the heart of the all-volunteer force is a contract 
between the United States of America and the men and women who 
serve, a contract that is legal, social, and sacred.
    When young Americans step forward of their own free will to 
serve, he said, they do so with the expectation that they and 
their families will be properly taken care of. And we 
wholeheartedly agree.
    Indeed, the MHS has one overarching mission: to provide 
optimal health services in support of our military's mission 
anytime, anywhere.
    Today, the Military Health System serves more than 9.4 
million beneficiaries. In addition to ensuring force health 
protection and delivering the full range of beneficiary health 
services, the military health system provides world-class 
medical education, training and research and support to 
military and humanitarian assistance operations at home and 
abroad.
    In addition to sustaining a fit and healthy protected 
force, our goals include achieving the lowest possible rate of 
death, injury and disease during military operations; 
delivering superior follow-up care that includes smooth 
transition to the Department of Veterans Affairs; and to build 
healthy and resilient individual family and communities and 
improve access to high-quality, cost-effective care.
    I want to especially thank this committee and you, Mr. 
Chairman, for your leadership and support, financially and 
otherwise, as we strive to provide the best possible care for 
our forces and their families. Your support for them and 
especially for our combat wounded, ill, and injured is greatly 
appreciated.
    While there is always much more to be done, I believe we 
have made significant progress towards our goals. I have 
provided this information in some detail in my formal 
statement, which is submitted for the record.
    I briefly would like to discuss a broad summary of the 
Unified Medical Budget request for 2010. DoD's total budget 
request for health care in 2010 is $47.4 billion. This includes 
the Defense Health Program; wounded, ill and injured care and 
rehabilitation; military personnel; military construction and 
Medicare-eligible retiree health care.
    The largest portion of the budget request, $27.9 billion, 
is requested for the Defense Health Program, which includes $27 
billion for operations and maintenance, $300 million for 
procurement, $600 million for military-relevant medical 
research and development.
    For military personnel, the budget request includes $7.7 
billion to support more than 84,000 military personnel who 
provide health-care services to our forces around the world, 
including those involved in air or medical evacuation, 
shipboard and undersea medicine, and global humanitarian 
assistance and response.
    Funding for military construction includes $1 billion for 
23 medical construction projects in 16 locations, including two 
of the Department's highest construction priorities: Phase 1 of 
a hospital replacement project in Guam, and Phase 1 of a new 
ambulatory air care center at Lackland Air Force Base, Texas.
    The estimated normal costs for the Medicare-eligible 
retiree health care fund in the budget request is 10.8 billion, 
which includes payments for care and Military Treatment 
Facilities (MTFs), to provide health-care providers, and to 
reimburse the services for military labor used in the provision 
of health-care services.
    For wounded, ill, and injured service members, the budget 
request includes $3.3 billion for enhanced care, new 
infrastructure and research efforts to mitigate the effects of 
traumatic stress and traumatic brain injuries.
    The Secretary funded all Fiscal Year 2010 medical 
requirements identified by the Service medical departments and 
the TRICARE Management Activity. It is important to note that 
the budget does not include any benefit reform savings, and 
beneficiary enrollment fees and copays remain unchanged.
    MTF efficiency savings, previously assumed, have been fully 
restored to the Services medical departments and previously 
programmed mil-to-civ conversions are being restored in 
accordance with the Fiscal Year 2008 National Defense 
Authorization Act (NDAA). Pursuant to this restoral, the 
Services have submitted memorandums of agreement to restore 
5,443 billets in Fiscal Year 2010.
    Mr. Chairman, the MHS is doing the very best we can for the 
men and women who give everything they have for each one of us. 
We can never fully repay them for their sacrifices on our 
behalf. We can and will continue to do all that we can to 
protect and strengthen their health, heal their wounds, and 
honor their courage and commitment to our Nation.
    I look forward to answering your questions.
    [The statement of Ms. Embrey follows:]

    [GRAPHIC] [TIFF OMITTED] T6286A.001
    
    [GRAPHIC] [TIFF OMITTED] T6286A.002
    
    [GRAPHIC] [TIFF OMITTED] T6286A.003
    
    [GRAPHIC] [TIFF OMITTED] T6286A.004
    
    [GRAPHIC] [TIFF OMITTED] T6286A.005
    
    [GRAPHIC] [TIFF OMITTED] T6286A.006
    
    [GRAPHIC] [TIFF OMITTED] T6286A.007
    
    [GRAPHIC] [TIFF OMITTED] T6286A.008
    
    [GRAPHIC] [TIFF OMITTED] T6286A.009
    
    [GRAPHIC] [TIFF OMITTED] T6286A.010
    
    [GRAPHIC] [TIFF OMITTED] T6286A.011
    
    [GRAPHIC] [TIFF OMITTED] T6286A.012
    
    [GRAPHIC] [TIFF OMITTED] T6286A.013
    
    [GRAPHIC] [TIFF OMITTED] T6286A.014
    
    [GRAPHIC] [TIFF OMITTED] T6286A.015
    
    [GRAPHIC] [TIFF OMITTED] T6286A.016
    
    [GRAPHIC] [TIFF OMITTED] T6286A.017
    
    [GRAPHIC] [TIFF OMITTED] T6286A.018
    
    [GRAPHIC] [TIFF OMITTED] T6286A.019
    
                Summary Statement of General Schoomaker

    General Schoomaker. Mr. Chairman, Ranking Member Young, 
distinguished members of the Defense Subcommittee, thank you 
for the opportunity to discuss Army medicine and the Defense 
health program.
    Army medicine in the past few years, due in no small 
measure to this committee and your leadership, sirs, and in 
general this year, is well funded in fiscal year 2010.
    The President has requested sufficient funding to support 
the growth in Army end strength, wounded, ill, and injured 
care, traumatic brain injury and psychological health programs, 
and specialized casualty care.
    The medical treatment facility efficiency wedge, as it was 
called, was fully restored and, as Ms. Embrey has commented, 
all military-to-civilian conversions were reversed. We received 
partial rebasing for the workload increases we have achieved 
since 2003, but expect the balance to come in this year of 
execution.
    Facilities sustainment is funded at 100 percent. We have 
added significant funding to the human capital programs to 
include our civilian hiring incentives, our three Rs, 
recruiting, retention and relocation; our health profession and 
scholarship program and loan repayment, and continuation of 
civilian nurse loan repayment and special civilian salary 
rates.
    While the Presidents's budget is adequate, fiscal year 2010 
may present some financial challenges for Army medicine as new 
and expanded missions emerge to meet the increasing health-care 
requirements of the Army at war.
    I strongly believe that we must focus on building health 
and resilience and in conducting science-driven, evidence-based 
practices, focusing on the ultimate clinical outcomes when bad 
things happen to good people and they fall off the balance of 
good health, such as with combat wounds, injuries, serious 
illnesses and the like.
    Sir, before the meeting, we were talking about the utility, 
for example, of scanning procedures for, say, colon cancer. And 
good evidence-based practices would always look at whether that 
procedure, when applied to patients, truly does extend life and 
find disease earlier. If it is just technology that has not 
added value, that is what we talk about when we talk about 
evidence-based practices and optimal outcomes. I believe that 
this approach will ultimately lead to the best results for our 
Army and military community and the most cost-effective system 
of health and health-care delivery.
    I would also like to comment upon the efforts to prevent, 
to mitigate, to identify, manage and treat behavioral health 
consequences of service in uniform and those arising from 
frequent deployments, from long family and community 
separations, and the exposures to the rigors of combat.
    Army leaders at all levels recognize that combat and 
repeated deployments are difficult for soldiers and stress our 
families, especially the short dwell times between deployments.
    We are making bold, sustained efforts to improve the 
resilience of the entire Army and family and to reduce the 
stigma associated with seeking mental health care. We want to 
provide multidisciplinary care that addresses specific 
behavioral health-care needs, both promptly and expertly.
    We are resolved to prevent adverse social outcomes 
associated with military service in combat, such as driving 
while intoxicated and family violence.
    Suicides are unacceptable losses of our soldiers. Realizing 
that the loss of even one soldier to suicide is one too many, 
we are looking closely at the factors involved. Rather than 
post-traumatic stress disorders, as one might expect, we 
continue to see that fractured relationships and work-related 
stressors are the major factors in soldier suicides.
    We have numerous coordinated and integrated initiatives in 
place to help soldiers and their families. Key among them is a 
new comprehensive soldier fitness initiative which is being led 
by the Chief of Staff himself and is being implemented by 
Brigadier General Rhonda Cornum, an Army medical department 
general officer.
    This improves the resilience of the soldier and the whole 
family, really, by focusing on five areas of fitness and 
resilience: physical, emotional, spiritual, social and family.
    I believe that your leadership has heard about this, and I 
certainly will expand upon that today if you desire.
    In closing, I want to thank one of my colleagues at the 
table. I mentioned it sir, informally. This is one of our 
wingmen, Jim Roudebush's last hearings. He has been a terrific 
partner in military medicine and we certainly admire his 
service. He is leaving behind a soldier in uniform assigned to 
and a Stryker brigade in Fort Lewis, for which we are very 
grateful, and we wish him the very best.
    I would thank the committee for their terrific support of 
the Defense health program and Army medicine. Thank you for 
holding this hearing and for your continued support of Army 
medicine and the entire medical force.
    Thank you.
    [The statement of General Schoomaker follows:]

    [GRAPHIC] [TIFF OMITTED] T6286A.020
    
    [GRAPHIC] [TIFF OMITTED] T6286A.021
    
    [GRAPHIC] [TIFF OMITTED] T6286A.022
    
    [GRAPHIC] [TIFF OMITTED] T6286A.023
    
    [GRAPHIC] [TIFF OMITTED] T6286A.024
    
    [GRAPHIC] [TIFF OMITTED] T6286A.025
    
    [GRAPHIC] [TIFF OMITTED] T6286A.026
    
    [GRAPHIC] [TIFF OMITTED] T6286A.027
    
    [GRAPHIC] [TIFF OMITTED] T6286A.028
    
    [GRAPHIC] [TIFF OMITTED] T6286A.029
    
    [GRAPHIC] [TIFF OMITTED] T6286A.030
    
    [GRAPHIC] [TIFF OMITTED] T6286A.031
    
    [GRAPHIC] [TIFF OMITTED] T6286A.032
    
    [GRAPHIC] [TIFF OMITTED] T6286A.033
    
    [GRAPHIC] [TIFF OMITTED] T6286A.034
    
    [GRAPHIC] [TIFF OMITTED] T6286A.035
    
    [GRAPHIC] [TIFF OMITTED] T6286A.036
    
    [GRAPHIC] [TIFF OMITTED] T6286A.037
    
    [GRAPHIC] [TIFF OMITTED] T6286A.038
    
    [GRAPHIC] [TIFF OMITTED] T6286A.039
    
    [GRAPHIC] [TIFF OMITTED] T6286A.040
    
    [GRAPHIC] [TIFF OMITTED] T6286A.041
    
    [GRAPHIC] [TIFF OMITTED] T6286A.042
    
    [GRAPHIC] [TIFF OMITTED] T6286A.043
    
                 Summary Statement of Admiral Robinson

    Mr. Murtha. Admiral Robinson.
    Admiral Robinson. Mr. Murtha, Mr. Young, distinguished 
members of the Committee, since I testified last year we have 
seen the emergence of impressive changes and unique challenges 
to this Nation and the global community.
    Navy Medicine continues on course because our focus has 
been and will always be providing the best health care for our 
Soldiers, Marines, and their families while supporting the 
CNO's Maritime Strategy.
    Our Navy Medicine team is flexible enough to participate in 
overseas contingency operations, homeland defense missions, 
humanitarian civil assistance missions, disaster relief 
missions, while at the same time providing direct health care 
to our Nation's heroes and to their families and those who have 
worn the cloth of the Nation.
    In spite of all the missions we are currently prepared to 
participate in, we are continuously making the necessary 
changes and improvements to meet the requirements of the 
biggest consumer of our operational health-support efforts, the 
Marine Corps.
    Currently we are realigning medical capabilities to support 
operational forces in emerging theaters of operation. Our Navy 
humanitarian efforts have continued to grow, and this year we 
will visit sites in the U.S. Pacific and Southern Command's 
areas of operation.
    We will not be deploying the USS DUBUQUE because of an 
outbreak of H1N1 in the past several weeks. We are, however, 
working on other alternatives; and in fact, a USNS ship has 
been named the USS BYRD to replace the USS DUBUQUE. Our 
Nation's humanitarian efforts serve as a unique opportunity to 
positively impact the perception of the United States and our 
allies by other nations, so this is a critical part of of the 
CNO's strategic initiatives.
    We continue to make improvements to meet the needs of 
Sailors and the Marines who have become injured while serving 
in theater or training at home. Over the last year, Navy 
medicine significantly expanded services so that the wounded 
warriors have access to timely, high-quality care.
    In addition, Navy Medicine's concept of care is always 
patient- and family-focused. We never lose our perspective in 
caring for our beneficiaries. Everyone is a unique human being 
in need of individualized, compassionate, and professionally 
superior health care.
    At our military treatment facilities, we recognize and 
embrace the military culture and incorporate that into the 
healing process. The Bureau of Medicine and Surgery Wounded 
Warrior Regiment medical review team and the Returning Warrior 
Workshop supports Marines and Navy Sailor reservists by 
focusing on key issues faced by personnel during their 
transition from deployment to home. Navy and Marine Corps 
liaisons at medical treatment facilities aggressively ensure 
that orders and other administrative details such as extending 
reservists are completed.
    Much attention has been focused on ensuring service 
members' medical conditions are appropriately addressed upon 
return from deployment. The predeployment health assessment, 
PDHA, is one mechanism used to identify physical and 
psychological health issues prior to deployment. The post-
deployment health assessment and the post-deployment health 
reassesment, PDHRA, help to identify employment-related health-
care concerns on return to home station, and 90 to 180 days 
post-deployment.
    Navy Medicine's innovative deployment health centers, 
currently in 17 high Fleet and Marine Corps concentrations 
areas, support the health deployment assessment process and 
serve as easily accessible nonstigmatizing portals for mental-
health care. The centers are staffed with primary care and 
mental-health providers to address deployment-related health 
issues such as traumatic brain injury, post-traumatic stress 
and substance misuse.
    Navy Medicine's partnership with the Department of Veterans 
Affairs medical facilities is evolving into a mutually 
beneficial partnership. This coordinated care for our warriors 
who transfer to or are receiving care from a Veterans 
Administration facility ensures their needs are met and their 
family concerns are addressed.
    Working closely with the Chief of Naval Personnel, medical 
recruiting continues to be one of the top priorities for 2009.
    In spite of successes in the HPSP Medical and Dental Corps 
recruitment, meeting our direct accession missions still 
remains a challenge. I anticipate increased demand for Medical 
Service Corps personnel with respect to individual augmentation 
missions supporting the current mission in Iraq and 
Afghanistan, and the planned humanitarian assistance and 
unexpected disaster relief missions that we will certainly 
have.
    These demands will impact the Medical Corps Service 
specialties linked to mental, behavioral, and rehabilitative 
health and operational support such as clinical psychiatrists, 
social workers, occupational therapists, physicians assistants 
and physical therapists.
    For the first time in 5 years Navy Nurse Corps officer 
gains in 2008 outpaced losses. Despite the growing national 
nursing shortage and the resistance of the civilian nursing 
community to the recession, the recruitment and retention of 
nurses continues to improve.
    It is important to recognize the unique challenges before 
Navy Medicine at this particularly critical time for our 
Nation. Growing resource constraints for Navy Medicine are 
real, as is the increasing pressure to operate more efficiently 
without compromising health-care quality and workload goals.
    The Military Health System continues to evolve, and we are 
taking advantage of opportunities to modernize management 
processes that will allow us to operate as a stronger 
innovative partner within the Military Health System.
    Chairman Murtha, Ranking Member Young, I want to express my 
gratitude on behalf of all of Navy Medicine, uniformed, 
civilian contractor, and volunteer personnel who are committed 
to meeting and exceeding the health-care needs of our 
beneficiaries.
    I would also like to take a moment to thank General 
Roudebush, sitting to my left, who has been a wonderful 
partner. He has been a wonderful professional to work with, and 
most of all, he has been a great friend to have. And we will 
miss him, as General Schoomaker has already alluded to.
    So happy retirement to you and thank you very much. He has 
been an excellent wingman.
    Thank you again for providing me this opportunity to share 
with you Navy Medicine's mission and what we are doing today. 
It has been my pleasure to testify before you and I look 
forward to answering your questions.
    Thank you.
    [The statement of Admiral Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T6286A.044
    
    [GRAPHIC] [TIFF OMITTED] T6286A.045
    
    [GRAPHIC] [TIFF OMITTED] T6286A.046
    
    [GRAPHIC] [TIFF OMITTED] T6286A.047
    
    [GRAPHIC] [TIFF OMITTED] T6286A.048
    
    [GRAPHIC] [TIFF OMITTED] T6286A.049
    
    [GRAPHIC] [TIFF OMITTED] T6286A.050
    
    [GRAPHIC] [TIFF OMITTED] T6286A.051
    
    [GRAPHIC] [TIFF OMITTED] T6286A.052
    
    [GRAPHIC] [TIFF OMITTED] T6286A.053
    
    [GRAPHIC] [TIFF OMITTED] T6286A.054
    
    [GRAPHIC] [TIFF OMITTED] T6286A.055
    
    Mr. Murtha. General Roudebush.

                 Summary Statement of General Roudebush

    General Roudebush. Thank you. Chairman Murtha, Ranking 
Member Young, distinguished members, it is a pleasure to be 
here before you today. This is my last time. It has been a 
privilege to be part of this process, to have the opportunity 
to share issues, concerns, opportunities with you, and to 
invariably receive your full attention, your full support, and 
the unflagging intent and vector to assure that every soldier, 
sailor, airman, and marine has the care that they need, as well 
as their family members. And we truly thank you for that, sir.
    Air Force medicine contributes significant capability to 
the joint warfight in combat, casualty care, wartime surgery 
and air and medical evacuation.
    On the ground at both the Air Force Theater Hospital at 
Balad and the Craig Joint Theater Hospital in Bagram, we are 
leading numerous combat casualty care initiatives that will 
positively impact combat and peacetime medicine for years to 
come.
    Air Force surgeons have laid the foundation for a state-of-
the-art in-the-field vascular operating room at Balad, the only 
DOD facility of its kind. Their use of innovative technology 
and surgical techniques has greatly advanced the care of our 
joint warfighter and coalition casualties. And their work with 
their Army and Navy brothers and sisters have truly rewritten 
the book on combat casualty care in our theater of operation.
    To bring our wounded warriors safely and rapidly home, our 
critical care medical transport teams provide unique ICU care 
in the air, within DOD's joint en route medical care system. We 
continue to improve the outcomes of the CCAT wounded warrior 
care by incorporating lessons learned in the clinical practice 
guidelines and modernizing the equipment to support the 
mission.
    This Air Force unique expertise pays huge dividends back 
home as well. When Hurricanes Katrina and Rita struck in 2005, 
Air Force Active Duty, Guard, Reserve and medical American 
personnel were in place conducting lifesaving operations. 
Similarly, hundreds of members of this Total Force team were in 
force in September of 2008 when Hurricane Gustav struck the 
Louisiana coast and when Hurricane Ike battered Galveston, 
Texas less than 2 weeks later.
    During Hurricane Gustav, Air Mobility Command coordinated 
the movement of more than 8,000 evacuees, including 600 
patients. Air crews transported post-surgical and intensive-
care unit patients from Texas area hospitals to Dallas medical 
facilities. I am truly proud of this incredible team effort.
    The success for our Air Force mission directly correlates 
with our ability to build and maintain a healthy, fit, force at 
home and in theater. Always working to improve our care, our 
Family Health Initiative establishes an Air Force medical home. 
This medical home optimizes health-care practice within our 
family health-care clinics, positioning a primary care team to 
better accommodate the enrolled population and streamline the 
processes for care and disease management. The result is better 
access, better care and better health.
    The psychological health of our airmen is critically 
important as well. To mitigate their risk for combat stress 
symptoms and possible mental health problems, our program known 
as Landing Gear takes a proactive approach with symptom 
recognition both pre- and post-deployment.
    We educate our airmen to recognize risk factors in 
themselves and others, along with a willingness to seek help, 
is the key to effectively functioning across the deployment 
cycle and reuniting and reintegrating with their families.
    Likewise, we screen carefully for traumatic brain injury at 
home and at our forward-deployed medical facilities. To respond 
to our airmen's needs, we have over 600 Active Duty and 200 
civilian and contract mental health providers.
    This mental-health workforce has been sufficient to meet 
the demand signal that we have experienced to date. That said, 
we do have challenges with respect to Active Duty psychologist 
and psychiatrist recruiting and retention. And we are pursuing 
special pays and other initiatives to try to bring us closer to 
100% staffing in these two specialties. And we thank you for 
your support in this critically important endeavor.
    For your awareness, over time we have seen an increased 
number of airmen with post-traumatic stress disorder; 1,758 
airmen have been diagnosed with PTSD within 12 months from 
return of deployment from 2002 to 2008. As a result of our 
efforts at early PTS identification and treatment, the vast 
majority of these airmen continue to serve with the benefit of 
support and treatment.
    Understanding that suicide prevention lies within and is 
integrated into the broader construct of psychological health 
and fitness, our suicide prevention program, a community-based 
program, provides the foundation for our efforts.
    Rapid recognition, active engagement at all levels, and 
reducing any stigma associated with help-seeking behavior are 
the hallmarks of our program. One suicide is too many and we 
are working hard to prevent the next.
    Sustaining the Air Force Medical Service requires the very 
best in education and training for our professionals. In 
today's military, that means providing high-quality programs 
within our system as well as strategically partnering with 
academia, private sector medicine, and the VA to assure that 
our students, residents, and fellows have the best training 
opportunities possible.
    While the Air Force continues to attract the finest health 
professionals in the world, we still have significant 
challenges in recruiting and retention. We are working closely 
with our personnel and recruiting communities using accession 
and retention bonus plans to ensure full and effective staffing 
with the right specialty mix to perform our mission today and 
tomorrow.
    At the center of our strategy is the Health Profession 
Scholarship Program. HPSP is our most successful recruiting 
tool, but we are also seeing positive trends in retention from 
our other financial assistance programs and pay plans. Again, 
thank you for your unwavering support in this critical 
endeavor.
    In summary, Air Force medicine is making a difference in 
the lives of airmen, soldiers, sailors, marines, family 
members, coalition partners and our Nation's citizens. We are 
earning their trust every day. And as we look to the way ahead, 
I see a great future for the Air Force Medical Service built on 
a solid foundation of top-notch people, outstanding training 
programs, and strong partnerships.
    It is indeed an exciting, challenging, and rewarding time 
to be in Air Force medicine and, indeed, in military medicine. 
I couldn't be more proud of my Air Force and Joint Medical 
Team. We join our sister services in thanking you for your 
enduring support, and I look forward to your questions.
    [The statement of General Roudebush follows:]

    [GRAPHIC] [TIFF OMITTED] T6286A.056
    
    [GRAPHIC] [TIFF OMITTED] T6286A.057
    
    [GRAPHIC] [TIFF OMITTED] T6286A.058
    
    [GRAPHIC] [TIFF OMITTED] T6286A.059
    
    [GRAPHIC] [TIFF OMITTED] T6286A.060
    
    [GRAPHIC] [TIFF OMITTED] T6286A.061
    
    [GRAPHIC] [TIFF OMITTED] T6286A.062
    
    [GRAPHIC] [TIFF OMITTED] T6286A.063
    
    [GRAPHIC] [TIFF OMITTED] T6286A.064
    
    [GRAPHIC] [TIFF OMITTED] T6286A.065
    
    [GRAPHIC] [TIFF OMITTED] T6286A.066
    
    [GRAPHIC] [TIFF OMITTED] T6286A.067
    
    [GRAPHIC] [TIFF OMITTED] T6286A.068
    
    [GRAPHIC] [TIFF OMITTED] T6286A.069
    
    [GRAPHIC] [TIFF OMITTED] T6286A.070
    
    [GRAPHIC] [TIFF OMITTED] T6286A.071
    
    Mr. Murtha. Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. First let me 
apologize for being late for the beginning of the hearing; but 
for me to get to work, I have got to travel on probably the 
heaviest traffic highway in the world, and there were three 
accidents on that highway this morning.
    Mr. Chairman, I want to welcome the Surgeons General. In 
one of our previous hearings with the Surgeons General, I made 
the comment that I complimented the witnesses for the really 
outstanding medical care that our military troops and their 
families receive in the military hospitals.
    And I will tell you, I took a couple of really tough 
blogger hits, because it was right about the time when there 
were some negative stories about one of our hospitals. But I 
will do it again today. I will tell you that Mr. Murtha and I 
have visited your hospitals so many times, and I think he would 
agree that we have actually seen miracles take place at your 
hospitals; miracles, at least from the layman's perspective.
    And I just want to compliment you for the military medical 
care that you provide for our troops and for their families. No 
one is perfect. We certainly aren't perfect, but you just do a 
really good job.
    But Jim Roudebush, the last time I saw Jim Roudebush, 
Admiral Robinson, was at your hospital at Bethesda about 3 
weeks ago, and he was in his flight suit. I don't know if he 
was getting ready to fly off somewhere but I tell you what: 
That flight suit fit him just like it did about 30 years ago 
when he first put it on.

                           MILITARY MEDICINE

    Jim, I know the Air Force will miss you; military medicine 
will miss you.
    Military Medicine has done a really good job promoting the 
United States and the generosity of the American people around 
the world.
    And one of the early projects of this committee was the 
creation of the hospital ships, the USNS MERCY and the USNS 
COMFORT. But I have learned some interesting information, 
because we send the USNS MERCY and USNS COMFORT around the 
world to natural disasters that are not related to any military 
operations, but we still do it. And I think it speaks well for 
the United States, but it also helps those who have been 
injured and who become sick because of those natural disasters.
    But I am getting some word that maybe the Navy has to pick 
up the cost of even those non-Navy, non-military operations. 
And, Admiral, I wonder if you might explain that to us. In 
fact, does that come out of your regular budget that you would 
use for treating military troops?
    Admiral Robinson. Congressman Young, humanitarian and civil 
assistance missions are actually funded out of Fleet Forces 
Command in Norfolk, so the humanitarian missions are funded in 
that regard. What I have testified before is a nuance of that 
goes something like this: As we staff the humanitarian civil 
assistance missions and over the course of the last year we 
have done approximately 130,000 outpatient visits and about 
1,400 in-patient visits from around the world the workload of 
those visits isn't captured by any of the data systems that we 
use in DoD. And so as my men, women, corpsmen, nurses, 
physicians, and Medical Corps dentists leave the medical 
treatment facilities to go do those missions, and as we then 
backfill with contractors--which is also paid for--the workload 
often doesn't reflect the additional work that those men and 
women are doing; and therefore, as we get into our pay-for-
performance systems, how we will calculate moneys back to the 
Military Treatment Facilities (MTFs).
    Often, I actually end up being taxed for those humanitarian 
civilian assistance. So I have previously testified to that and 
that is, I think, what you are alluding to in terms of the 
impact on the Military Health System and specifically on Navy 
Medicine.
    Mr. Young. Well, that maybe explains the effect of what you 
are not able to do for our troops in the Navy hospitals.
    Admiral Robinson. Well, I would say that, in fact, we are 
not negatively affected by our ability to do the care and do 
the missions that we have. But I would suggest that as we look 
at our workload and as we look at metrics that help explain the 
efficiency of particularly our hospitals, our MTFs, what you 
will find is that instead of not being as efficient--which 
often is reflected in the workload data because the workload 
data, as I said, that is being done on USNS MERCY, USNS COMFORT 
and other humanitarian assistance missions isn't being 
captured--instead of being less efficient, I actually think we 
are more efficient.
    But specifically as we look at the inefficiencies that can 
occur, we only get graded as not being as efficient, but we 
also get taxed by not being able to participate in the 
compensation and the pay-for-performance, so the PPS becomes an 
issue. So we send people, we do missions and we still get taxed 
for that. And I just bring that up because I think that is a 
real factor in Navy Medicine.
    Mr. Young. Well, let me direct this question to all three 
of you, or all four of you. The budget, I personally think that 
the budget is a little--the budget request is lacking in some 
of the needs for military service-wide. Are there any things 
that you all need that are not in the budget request that would 
become an unfunded requirement?
    Ms. Embrey. As you know, sir, I am performing the duties. I 
am not currently on appointment of the current administration, 
so I am serving in an acting capacity. They call it performing 
the duty. I think I won't be performing the duties much longer 
if I identified anything other than the needs of the 
President's budget.
    Mr. Young. No, I understand that. But we are not going to 
tell the President what you tell us.
    General Schoomaker. Well, sir, I will echo Ms. Embrey's 
comments. As I said in my opening statement, Army medicine is 
sufficiently funded in the fiscal year 2010 budget. But I think 
you are asking us to give you an assessment, our gut check on 
where we think we are taking risks.
    If I would say that probably if there is an area that I am 
concerned about, it is that you all have been extraordinarily 
generous in helping us reverse several decades of 
undercapitalization of our physical plants, our hospitals, our 
clinics. You heard the list from all of us of what you have 
done for us.
    But our initial outfitting and transition cost associated 
with that, we call them IO&T costs, are funded in the budget 
year.
    So with the increased use of--that is, more users coming 
into our system, more unique Social Security numbers, more 
unique individual patients, and with our patients who are 
enrolled in our system using it more frequently, that is a good 
thing in the sense that people have reduced stigma to get 
mental health, so they have been coming in and are using it 
more.
    Wounded and ill and injured soldiers, much like Vice 
Admiral Robinson commented about the military unique missions 
of the Navy, in Army medicine we are caring for close to 10,000 
wounded, ill and, injured soldiers. They take a significantly 
larger amount of care.
    And so with this growth in care competing with initial 
outfitting, I think there is some risk there, sir. But I would 
have to say at this point in time we are sufficiently budgeted.
    Admiral Robinson. I would echo what Ms. Embrey has said 
already. I would also suggest that and Navy Medicine is fully 
funded also.
    I would suggest that as we look at the DHP, though, the 
private sector care moneys, I am not suggesting that they are 
not fully funded, but that is a risk area because we on the 
MHS, we in the Active Duty side, don't really have visibility 
of those amounts of funds, so those are types of issues that 
come into play.
    I don't know that that is going to be an issue. It is just 
that the visibility is lacking from my point of view, so I 
can't see that.
    So that would be my only comment.
    General Roudebush. Sir, I would agree we are adequately 
funded. But I think it is also going to be challenging this 
year, challenging next year. We are operating at a very high 
ops tempo with the mil-to-civ billets coming back on our books. 
As we work to fill those with military personnel, we are 
working to be sure that we keep those gaps filled by other 
means, whether it is just short-term overhires, whatever the 
methodology.
    But we wanted to assure that we maintain ready access and 
that we are, in fact, able to provide that care. So it does 
provide a challenge.
    I would like to offer an observation, however. I think you 
and we are especially well-served by your staffers, who really 
engage with us at a variety of levels, quite often as that 
early warning radar to pick up the issues as they are emerging 
and working through.
    So we find that as we do deal with items that come about, I 
believe we are well-served on both sides. But I believe we will 
get there this year and continue to deliver the care that our 
beneficiaries, men and women, so richly deserve.
    Mr. Young. Again, thank you very much for being here. Thank 
you very much for the good job that our military medical 
professionals provide for our troops.
    Mr. Chairman, I have additional questions, but I will wait 
for another turn. Thank you very much.
    Mr. Murtha. Mr. Dicks.

                       HYPERBARIC OXYGEN THERAPY

    Mr. Dicks. I want to compliment you for the incredible job 
that is being done. I mean, just the survival rate, I think, is 
an amazing feat, and its improvement over years is quite 
impressive.
    I wanted to go back, this is a question I asked before when 
we had an earlier hearing, with regard to the hyperbaric oxygen 
therapy treatment. Ms. Embrey, the text of your testimony is 
nearly verbatim from your previous testimony before the 
committee in March.
    Has any progress been made in getting this trial underway?
    Ms. Embrey. Yes, sir. I wish Loree Sutton was here so she 
could give you exactly the details. But we have worked with the 
Services and with our outside experts to develop a protocol. We 
have three different sites where we are planning to do that.
    Because the Food and Drug Administration (FDA) has 
identified oxygen in the hyperbaric chamber as an 
investigational new drug for this kind of treatment, we need to 
seek their authority to use that in this protocol. When FDA 
gives us that authority, then we can begin to execute----
    Mr. Dicks. Would you tell the committee, again, in what 
circumstances this would be utilized; or maybe one of the 
Admirals, Generals, could do it?
    Ms. Embrey. I am sorry, in----
    Mr. Dicks. When would you use this? Under what 
circumstances would this be used?
    Ms. Embrey. Well, the Navy uses it routinely for diving 
issues. But for the purposes that you are talking about, we are 
talking about this as a treatment for traumatic brain injuries 
and other mental health symptoms.
    Mr. Dicks. And it has been prescribed. You can do--it has 
been utilized. It has been quite effective, I am told.
    Ms. Embrey. Doctors have the ability to identify, because 
of their personal relationship with their patients, anything 
that they believe in their judgment would assist them in 
achieving a better outcome.
    And so they have the authority to use and prescribe 
alternative therapies. Even if they are an off-label use, 
hyperbaric chambers are safe for certain things. The challenge 
is that we don't know, there is no evidence currently that 
indicates that putting a person who has had a traumatic brain 
injury in a hyperbaric chamber may or may not do harm evidence-
wise.
    The reason we are doing these studies is to make sure that 
we do no harm.
    Mr. Dicks. Are the studies underway yet?
    Ms. Embrey. In one site I believe they are, sir.
    General Roudebush. Sir, if I can comment, we initiated a 
study at Wilford Hall beginning back in February, which will be 
completed within a year's time, which uses hyperbaric oxygen 
with pre- and post-neurocognitive testing to see if, in fact, 
there is a beneficial effect.
    I think the more definitive study is the study that Ms. 
Embrey refers to, wherein the FDA has identified hyperbaric 
oxygen as an investigative--as a new drug, if you will. And we 
are just on the verge of getting their approval and moving 
forward with this study.
    True, there have been anecdotal reports of the benefits of 
hyperbaric oxygen, but there has not been a thoroughly prepared 
and conducted study to see if, in fact, that is the case. And 
that is precisely what we are doing, and actually doing it in a 
very aggressive manner, to get this done as expeditiously as we 
can.
    Mr. Dicks. Admiral, do you have any comment on this? The 
Navy is the reservoir of expertise on this.
    Admiral Robinson. The Navy helped facilitate a meeting in 
which many of the professionals who have contributed to the 
hyperbaric oxygen therapy literature came together with other 
professionals, who have been doing a great deal of work with 
neuroscience and with the effects of different modalities, 
treatments, medications and also oxygen on neural and brain 
tissue.
    We did that in the January-February timeframe. We spent 2 
days. It was widely attended by these professionals. It was 
very informative.
    From that, we have gone out with Air Force, the Wilford 
Hall study, also with Louisiana University--LSU, and others, in 
fact--to try to find the best method of doing a prospective 
randomized trial that we could utilize to make sure that if we 
say that hyperbaric oxygen is a therapy for traumatic brain 
injury, that we can prove that and that we can write clinical 
practice guidelines that can be utilized across the United 
States--actually, across the world--because to put the 
imprimatur of a success on a therapy that has not been proven 
in the standard medical methodology, it has been proven in 
terms of anecdotal information--
    Mr. Dicks. Let me just ask you on that point.
    Admiral Robinson. Yes.
    Mr. Dicks. Has there ever been any adverse consequence 
where it has been prescribed and utilized, has there been any 
adverse consequence?
    Admiral Robinson. None that I have ever heard of, 
Congressman Dicks. But that doesn't necessary nearly mean it 
hasn't occurred; it just means that I don't know about it.
    People who tend to give anecdotal information often don't 
necessarily tell all of the story, which is the reason that in 
medicine--which is prospective, randomized, multidisciplinary, 
and also multicentered--evidence-based trials are necessary to 
make sure that we can get the best evidence to go with the 
clinical practice guidelines.
    The end result is, whatever I say is going to work for a 
Sailor, Airman, Marine, Soldier, a Coast Guardsman or their 
family member; but if whatever I say works from a Navy 
perspective or from an Army or Air Force perspective, we really 
base that on randomized, prospective, reproducible data that we 
can live with and build practice guidelines on. That is what we 
don't have yet.
    Mr. Dicks. How long do you think this will take?
    Admiral Robinson. I would anticipate--this is going very 
rapidly--I would say probably within the next 18 to 24 months 
we may have some evidence of how hyperbaric oxygen therapy is 
working in the trials that we have going. But that is a guess. 
I am not quite sure.
    General Schoomaker. Sir, and I will add to that, everything 
that has been said by my colleagues is exactly our position on 
this. I think one of the frustrations here is that hyperbaric 
oxygen has been around for many, many years.
    Mr. Murtha. Would you explain for the committee what we are 
talking about here?
    General Schoomaker. Sir, this is pressurized. This is 
putting a patient, with staff support, because it is fairly 
labor-intensive, into a high-pressure environment where the 
oxygen pressure around the patient and what is breathed in 
their lungs is higher than sea level.
    So when you are recovering, for example, from a deep diving 
problem, what we call the bends, you have to be put back into 
an environment where you push, literally, air and oxygen and 
nitrogen back into the body to then slowly decompress them and 
reverse the problem.
    In cases of resistant infection where we have bacteria that 
are growing deep in wounds, where we think if we raise the 
oxygen retention we may encourage wound healing, it has been 
used in that setting as well.
    But in this setting, sir, it has never been demonstrated to 
be effective in a standard way where we know, number one, who 
are we treating? We are already having difficulty separating 
mild brain injury from post-traumatic stress because the 
symptoms are so overlapping. And then what are the total 
outcomes of that, positive and negative?
    As Dr. Robinson said--I agree totally--unless you do a 
careful study you don't know if you are doing harm, and there 
are potentials for harm.
    One of the frustrations we have had with this is a 
technology which has been around for decades, and concussions 
which have occurred on sports fields and on highways for 
decades has never been studied by this group. And when we 
offered, through your generosity, money to do careful studies, 
nobody came forward with credible research proposals that we 
do.
    Finally, the military services said, enough, we are going 
to conduct the research. And that is what we are doing.
    Mr. Murtha. I appreciate that. Mr. Tiahrt.

                       WOUNDED WARRIOR TRANSITION

    Mr. Tiahrt. Thank you, Mr. Chairman. I was recently up at 
Fort Riley and not long after that I went pheasant hunting with 
some soldiers that were in the Wounded Warrior unit. We had a 
great day. I spent all day with them. Some of the things they 
were going through I wasn't aware of, I don't think many 
Americans are aware of, especially in the area of TBI where we 
understand the long-term impact of having their brain jostled 
around.
    The good thing about the MRAPs, for example, is we have a 
lot higher survivability rate. One of the downsides is, though, 
that these soldiers going through two or three or four major 
explosions like that can impact their brain because of the 
impact to it.
    And would you explain so that we better understand what a 
Wounded Warrior transition unit is, like the one we have at 
Fort Riley?
    General Schoomaker. Yes, sir. The Army today has 36 such 
units across the Army and nine what we call community-based 
warrior transition units. These are special units that were 
developed after the problems were highlighted earlier of the 
transitional care that takes place from in-patient, outpatient, 
and beyond the traditional VA system and back into private 
medicine, or VA medicine, or back into uniform.
    What we realized was that we had world-class, even cutting-
edge patient care, and we had established outpatient practices, 
but very, very rudimentary. And, in fact, we had forgotten many 
of the lessons of earlier wars, where we transitioned patients 
successfully from in-patient to outpatient care, and then back 
into uniform or into private life or continued care, if 
required.
    So we stood up a number of units actually staffed by 
nonmedical soldiers from all backgrounds. Young officers and 
enlisted, we trained them how to do that. We have put nurse 
case managers in place and primary care managers, physicians, 
nurse practitioners, physicians assistants, who provide primary 
care assistance. And that triad, then, is responsible for 
carrying the soldier, in a sense, with family, along the 
traditional pathway.
    Currently we have 7,700, roughly, soldiers in the warrior 
transition units; wounded, ill, and injured soldiers. About 15 
percent combat-wounded. About 50 percent are evacuated with 
other medical problems. About 30 percent identify problems like 
concussive injury or post-traumatic stress after they return. 
And about 30 percent are, frankly, injuries, illnesses that are 
not associated with the deployment, but may be training 
injuries or cancers or heart disease or other problems that 
soldiers are prone to, or motor vehicle accidents.
    That is the construct, and it is working quite well. Our 
focus this year, now that we have set these units up and have 
staffed them successfully and standardized their practices, is 
to focus on what we call the comprehensive transition plan, 
which is a soldier- and family-developed plan for what they 
want to do, where they are going to go with this injury or 
illness, how we are going to recover them and get them back 
into uniform. And that is our highest priority, to get them 
back in uniform, if possible, or transition them back into 
private life, into the VA system if necessary.
    Does that answer the question, sir?
    Mr. Tiahrt. Yes, it does. Thank you. It was a very good 
explanation.
    There are some instances around the country where there is 
a high discipline rate for these wounded soldiers that come 
back. And some bases have a different rate than others. Fort 
Drum, New York has every month, one out of 76 soldiers are 
going through article 15. In Kansas, where we have this Wounded 
Warrior transition unit, it is only 1 out of 309.
    And I think it is because they have focused on working with 
these folks who have come back, and my personal experience in 
meeting one of these soldiers, a young sergeant had been 
through six explosions, he told me he has trouble reasoning 
with things he didn't before, like small calculations. He now 
carries a calculator around in his pocket because small 
addition problems is one evidence.
    There was an article done by the AP back in March. I don't 
know if you are familiar with it or not, but it highlights how 
some bases are not working with these soldiers as well as 
others. And I would like you--it is called Disciplined Wounded 
Warriors--I would like you to check out that article, because I 
think there is a problem about being consistent in the military 
and helping these folks transition back to either Active Duty, 
full time, or back to civilian life.

                        MILITARY MEDICAL RECORDS

    The last thing I wanted to ask you about, in both the 
military medical records and in private sector or health-care 
records, we are moving towards electronic medical records.
    But I have noticed that in the VA, and certainly in the 
private sector, there is no standard interface for these 
different electronic record programs that are out there. So you 
can have, within the VA, somebody's military records or health-
care records--excuse me--not being read when they change to a 
different facility.
    They may be working at one of our remote clinics and then 
when they come into the VA hospital, there is not always a 
connection that is usable. In the private sector it is the same 
thing. Now, in any government program, they always have an 
interface control document that manages all the interfaces 
between the working systems.
    Yet I don't think we have one in any of the services when 
it comes to medical records. And yet we are seeing services 
develop these medical records. So I would suggest somewhere 
inside the services--and I think you guys would be the logical 
initiator in this--develop an interface control document so 
that when medical records software is developed, it has the 
ability to interface with other softwares that are trying to do 
the same task.
    General Schoomaker. Yes, sir. Let me comment very quickly, 
first, on discipline rates. We are very concerned about 
installation-focused allegations that we are not sensitive to 
medical problems of soldiers who may have been brought up for 
administrative or nonjudicial punishment.
    We have very active policies that soldiers not undergo 
administrative actions or nonjudicial punishment without a very 
thorough incorporation of their medical history and problems.
    Brigadier General Gary Cheek, who commands the Warrior 
Transition Command overseeing all these units and their 
standard practices, has just completed a review of nonjudicial 
punishment at nine different installations. While we don't 
direct them, they can't direct that installation commanders or 
warrior transition commanders employ a kind of standard 
approach, because every case stands on its own, he is very 
reassuring that in fact our policies are working out there. 
Commanders are taking into account the medical conditions and 
problems of soldiers before implementing or taking 
administrative and nonjudicial action.
    Quickly on the electronic health record, sir, we do have 
with the VA system a standard interface. In fact, we have a 
Bidirectional Health Information Exchange. Now it is called 
BHIE. It isn't to where we want it right now. We have very good 
exchange of information to the four polytrauma centers where 
the most severely injured soldiers are being sent.
    General Schoomaker. But you are absolutely right. We do not 
have with the private sector, to include our purchased care 
partners that were referred to by my colleagues earlier--we do 
not have a standard interface with thousands of practices and 
hospitals out there, and this is a national problem.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Murtha. We have two panels today.

                            CONTINGENCY PLAN

    Mr. Moran. Except that what happens, Mr. Chairman, as you 
particularly will know, in the National Capital region affects 
the ability of this panel to carry out its mission. There is a 
relationship here.
    I would like to ask Ms. Embrey, I understand the 
constraints you already explained. I don't think you ought to 
be worried about your job, but you are doing a fine job, but 
what if we don't make the deadline for Walter Reed in time? I 
know we talk about another panel who is focused on the weeds in 
this garden, but I want you to look at the larger picture, 
because many of us feel there are some very serious problems 
that need to be addressed if we are not able to achieve what 
needs to be achieved in what is now a pretty short period of 
time. We are talking really a year and a half. And as far as I 
can see, you are not going to meet that deadline, so that is 
going to have a major impact on all the operations you are 
responsible for. What are your contingency plans, Ms. Embrey?
    Ms. Embrey. Officially I think my contingency plan is to 
press harder and faster with the current program. But truly the 
contingency plan is when we get closer, we realize that as a 
Department we can't--we understand what the negative and 
positive effects are of where we are, and at a point in time we 
need to inform people about, you know, what they are and how we 
can come together to work through those problems. But right now 
we have a plan, we are committed to meeting it, and we are 
working it very hard.
    Mr. Moran. I know you are working hard, I know you have a 
plan, and I know you are committed to meeting it. In fact, when 
we tried to inject some judgment into the process, somebody 
over at DoD threatened to veto the whole bill if we suggested 
that you might extend the deadline so that we can actually 
achieve this transition in a reasonable period of time. That 
was probably true--or somebody like that. But he is gone now.
    Mr. Murtha. He is gone now.
    Mr. Moran. He is gone now. So now we are going to find out 
who reports to who.
    Ms. Embrey. We recognize we report to you.

                         CENTERS FOR EXCELLANCE

    Mr. Moran. There you go. I will wait until the chairman at 
least. Certainly, Vice Admiral Kearney understands that behind 
you there. Some of the problems here at Walter Reed, we are 
going to get into the nitty-gritty with the next panel, but we 
love the Centers for Excellence, you are doing a great job. But 
the space that you provided for the Centers for Excellence in 
the new facilities are considerably smaller than the space you 
have now; isn't that right? How is that going to affect Centers 
for Excellence, which we like, which undoubtedly would need to 
expand to deal with the needs?
    Ms. Embrey. Centers of Excellence institutes and centers 
and the concept of how we are going to implement that across 
the Department, is actively being discussed now. Centers of 
Excellence may not necessarily need to have brick and mortar. A 
Center of Excellence by its terms implies that if you have a 
Center of Excellence, the other places aren't excellent, and we 
don't want that. We want to have a mechanism by which to ensure 
that the whole system is apprised and kept current on the best 
possible practices and deliver the best possible care anywhere. 
So the physical location and the brick-and-mortar location at 
Bethesda right now for the Defense Center of Excellence for 
Traumatic Brain Injury and Psychological Health, the location 
of the Defense Center of Excellence for Vision, I believe, is 
also going to be there. But there are going to be other 
locations and hubs throughout our system.
    Mr. Moran. I understand that, but I have a suspicion that 
in order to meet this arbitrary deadline, you are trying to 
stuff stuff into Fort Belvoir and the new--the other new 
hospital that you are building. Instead of looking for the most 
excellent design, you are just trying to figure out the 
expedient way to meet, again, the deadline. But I won't argue 
about that, I just want to raise it as an issue.
    Apparently the Surgeon General wanted to comment on that.
    General Schoomaker. The only comment I would like to make, 
in addition to the fact that in every forum where we jointly go 
out, for example, in new Belvoir or the new Walter Reed 
National Military Medical Center, and is true throughout the 
BRAC process, we take a pause and say, no kidding, are we on 
track; are we going to run into problems? In every one of those 
fora, we have been assured by engineers and designers and the 
people building these things that we are going to meet the 
deadlines.
    The second point I would like to make, and I hope it is 
developed in the next panel, is there has been a lot of focus 
on this new Walter Reed National Medical Center at the Bethesda 
campus, but, in fact, the beauty of the JTF CapMed--and with 
apologies, Vice Admiral Madison, I hope I am not putting words 
in your mouth here--but is that we have 500,000 beneficiaries 
in the Greater Metropolitan Washington area in 37 facilities, 
from Carlisle Barracks, Pennsylvania, to Quantico and Belvoir, 
the National Military Medical Center, Meade and others. And it 
is the coordination of care across this very dynamic 
metropolitan area, and to follow the movement of our families 
and soldiers and sailors, airmen and marines to the places 
where they can live and they can come.
    So frankly, I am as excited or almost more excited about 
the new Belvoir, which has got tremendous capacity, and which 
is going to take some of the capacity and some of the 
functional elements of the centers for breast cancer, prostate 
cancer, heart disease, amputee recovery and the like and 
distribute those to where we can best serve the public. So this 
is a coordinated plan for the entire metropolitan area. We are 
too focused on one institution within that bigger plan.
    Mr. Moran. We want you to do it right.
    General Schoomaker. Yes, sir.
    Mr. Moran. Mr. Surgeon General. And to do that, you ought 
not have an arbitrary time line that fits an arbitrary decision 
of September of 2011, that is the whole point. And we are up 
against people who say, well, you may be right in terms of 
judgment, it is just that I have been given a job, so I am 
going to do the job come hell or high water. So that is our 
concern.

                                TRICARE

    Let me ask a more general issue here. I have to obviously 
get into the Walter Reed stuff, but one of the problems that we 
are facing is that a lot of our soldiers and families after 
they return, they go back in the field, but we have long-term 
responsibility for their medical care. There is a high level of 
diabetes, obesity, lack of physical fitness once they get out 
of the military, and we wind up paying for that through 
military health-care programs, particularly TRICARE.
    What are you doing in terms of preventive efforts to save 
us money to deal with some of these almost endemic problems 
with families, and particularly the soldiers who just don't 
maintain their physical fitness regimen?
    Ms. Embrey. In 2003, we developed a system to track the 
individual medical readiness of folks across the force, Active 
Duty and Reserve component. And we measure whether or not they 
have been assessed both physically and dentally and mentally on 
an annual basis. We assess people's health status through 
screenings, predeployment and postdeployment, twice.
    We also have engaged in campaigns based on information and 
trends in utilization of alcohol, substance abuse of various 
types, tobacco principally. We have looked at obesity as an 
issue, and we have stepped up campaigns through the line who 
owns those programs for us and runs them for us. Each Service 
has significant programs that are addressing those issues. Some 
are more effective than others. We still do have an obesity 
problem, but frankly it is because we recruit folks who have 
these issues. And part of it is addressing cessation of those 
bad and risky behaviors.
    We also have introduced and will be introducing in the next 
60 days pilot programs to incentivize people to engage in more 
healthy behaviors, paying people to go to the gym and to not 
smoke and to do different things. It is a pilot. It is detailed 
in my testimony, and I outline some of the highlights of it, 
and I can give you more information about those. But that is a 
pay for--it is incentivized pay for outcomes that we are trying 
to achieve.
    Mr. Moran. It is just what I was looking for. You didn't 
mention it in your summary, so I didn't realize it was in your 
testimony. That is exactly what we ought to be doing. It is a 
small fraction of the cost of taking care of them, obesity and 
all kinds of other problems that are behaviorally related. 
TRICARE is going through the roof, and a little bit of money to 
incentivize them to be healthy now is going to save us billions 
in the long run. Thank you, Ms. Embrey.
    General Schoomaker. If I could just comment quickly, I 
think at the execution within hospitals and clinics, we have to 
incentivize commanders and clinics to do that, too. This is a 
problem in American health care. What we have been doing in 
Army medicine for the last 4 or 5 years is to shift the pay for 
performance toward population health and toward preventive 
measures. In the last 2 years, we have 50,000, roughly, over-65 
patients we care for. When we started this campaign, 25 percent 
of them, roughly, had their vaccination for common pneumococcal 
vaccine complete. We started incentivizing commanders and 
clinics that if you can raise the vaccination levels higher, we 
will pay you for it. We pay generously, handsomely, if they are 
brought to the emergency room with pneumonia or admitted; why 
don't we pay better if you prevent it? And now we are at 85 
percent vaccinated.
    General Roudebush. Sir, if I might add, Congressman Murtha 
has been instrumental in helping us establish diabetes outreach 
with UPMC and Wilford Hall, and, in fact, we have identified a 
cadre of folks. We are employing strategies and methodologies, 
and we are starting to see beneficial outcomes. So there is, I 
think, an active program to improve the health, improve the 
outcomes and ultimately certainly cut costs, but most 
importantly improve the health.
    Mr. Moran. Thank you.
    Mr. Murtha. Mr. Rogers.

                      VISION CENTER OF EXCELLENCE

    Mr. Rogers. Mr. Chairman, I know you want to get to the new 
panel, so I will be brief. I don't know who can answer this. 
Let me ask you about the Vision Center of Excellence, which I 
understand is in the works. What can you tell us about that?
    Ms. Embrey. It is a very high priority for us. We have 
appointed a director. We found a temporary location. We have 
five employees from the VA who are joining us. They have just 
visited the spaces. They have been in effect for a short time, 
but they haven't really gotten off the ground too well, 
primarily because we were authorized a considerable amount of 
money, but not appropriated any for that purpose. And so we 
took some money out of hide this last year to try to get it 
started, but we have a full complement of funds to expand and 
engage more fully an operating center.
    Mr. Rogers. When will that be in operation?
    Ms. Embrey. By next year. It is operating now, but next 
year we will have it fully operating.
    Mr. Rogers. Now, would you integrate with the VA?
    Ms. Embrey. Yes. Actually we just brought over five VA 
folks to actually staff the current temporary location in 
Skyline, and they are going to be moving over in the next 
couple of weeks. So we have five VA folks working in the center 
with the DoD folks.
    Mr. Rogers. Here is a problem: a constituent of mine, a 
young soldier who was injured about his head and face by an 
IED, but got out and had some vision in his right eye, but none 
in the other; enrolled in school, college, and then developed a 
problem. He had had operations in Germany at Walter Reed with 
head injuries; went to the VA hospital in Lexington, Kentucky, 
because he had had an infection and swelling bad. And the VA 
hospital there could not operate because they did not have the 
records of what they had done to him in Walter Reed in Germany, 
and he lost his eye, what was left of his eye, so he is blind 
now, because apparently they could not get access to the 
military records of his previous treatment at the Army 
hospitals. Will that be remedied in this process?
    Ms. Embrey. Sir, I think the access to records, images 
particularly, we are working on a standard with the VA to 
ensure a standard exchange of imaging so that people can see. 
Right now there is no standard for medical imaging in any 
health-care environment. So what we are trying to do, by this 
fall we intend to have a standard that will enable rapid 
sharing of imaging anyplace in our system. But in the meantime, 
we had been working around by sending information, FedEx-ing 
and other kinds of things, but I am not familiar with this 
particular case, so if you would like to comment.
    General Schoomaker. I am very familiar with the case. I 
have spoken with the patient and reviewed all the records. Not 
to in any way discount the challenges of exchanging information 
between different systems, I have to say, sir, our review and 
the VA's review concluded that this was not a problem of 
exchange of medical records. In fact, the physician involved in 
the VA hospital had the entire medical record at his disposal. 
It happened to be a hard copy record.
    So I don't want to back away from the problem that was 
raised earlier about the bidirectional exchange of the 
information and a digital record. That is our goal, and we do 
continue to work through problems there. But in this particular 
case, that young soldier's continued problem with vision, 
despite how the media has depicted it, frankly did not revolve 
around the exchange of medical records.
    Mr. Rogers. Well, I am glad to hear your report.
    Let me conclude by saying that it just seems 
incomprehensible to me that the VA hospitals and the military 
hospitals have not had their records shared a long time ago. 
That seems a basic, elementary problem; do you not agree?
    General Schoomaker. Yes, sir. I think that all of us are 
frustrated by the pace at which this has taken place. I do also 
know that we are probably, in terms of national landscape of 
this problem, at the leading edge of solving problems for the 
Nation in this exchange of information. If it is problematic 
for us as two big, large Federal systems, we have no trouble 
within the military side, then out there in all of the 
practices and all of the different mom-and-pop operations 
around the electronic health record, it is truly problematic. 
So we are trying to solve some of these problems to demonstrate 
how it can and should be done.
    Mr. Rogers. What can we do to help with that problem?
    General Roudebush. Sir, if I may comment, sir, and go back 
to Congressman Tiahrt's question about interface. Secretary 
Gates and Secretary Shinseki have taken a personal and very 
active interest in this in terms of mandating driving towards a 
common solution; not down-selecting to VistA or down-selecting 
to AHLTA, but going to a service-oriented architecture that 
gets to the interfaces, the architectures and the basic 
taxonomy that allows you to link these systems to get to a 
truly transparent and interchangeable health-care record that 
just has one record wherever that patient finds themselves.
    Now, we live in the greater context of American medicine. 
So as we move this along, we do need to do it with policy, 
processes and practices that are consonant with what we see in 
the private sector. And it is slow, and it is frustrating, but 
I think in terms of the last probably 2 to 3 months, we have 
seen more focus, the right focus, in my view, moving us towards 
that common solution. In the meantime we will continue to work 
the day-to-day interfaces.
    Mr. Murtha. The gentleman's time has expired. We are going 
to dissolve this panel. I ask that Mr. Bishop and Ms. 
Kilpatrick ask the first questions of the next panel.
    Thank you very much.
    Mr. Bishop. Mr. Chairman, can I ask the next panel the 
questions I wanted to ask this panel?
    Mr. Dicks. Are they going to stay?

                              Introduction

    Mr. Murtha. Welcome, gentleman. Gentlemen, we appreciate 
your patience. Next year I think we will separate the panel, 
because there is nobody more involved in health care that this 
subcommittee. Bill Young, his wife, myself. I just was out to 
Bethesda the other day, only a couple of patients, I am glad to 
hear that. But we can take a lot of credit for what has 
happened in health care, and we certainly do, but we appreciate 
and are gratified by the result. Of course, here we are talking 
about the region, and Mr. Moran has left.
    Mr. Moran. I am right here. I am trying to do my job here.
    Mr. Murtha. I appreciate it.
    Mr. Dicks. Don't get him started.
    Mr. Murtha. If you could abbreviate your statements and let 
us get right to questions, because the Members obviously have 
all kinds of concerns about what is going on here in the 
region. And we depend on Mr. Moran to make sure he takes care 
of those problems, so we appreciate your coming before the 
committee.
    Mr. Young, do you have any comments?
    Mr. Young. No, Mr. Chairman, I am anxious to hear the 
statements.

                 Summary Statement of Admiral Mateczun

    Admiral Mateczun. Thank you, Chairman Murtha, Ranking 
Member Young, committee members. Thank you for the opportunity 
to share with you the Department's progress on realigning 
medical assets in the National Capital Region to create an 
integrated delivery system; a fully integrated, jointly 
operating and staffed health-care region. This transformation 
will allow DoD and the services to capitalize on their 
collective strengths; maintain high levels of readiness; 
provide second-to-none, world-class health care to 
servicemembers, retirees and their families.
    Being responsible for delivering this integrated, world-
class health care in the National Capital Region Joint 
Operating Area, JTF CapMed will operate two jointly manned 
treatment facilities comprising nearly 10,000 individuals, more 
than 3 million square feet clinical and administrative space, 
providing 465 beds of inpatient capability.
    To achieve this we must oversee the transition of 
operations from the current Walter Reed Army Medical Center and 
National Naval Medical Center to the new Walter Reed National 
Military Center and to the Fort Belvoir Community Hospital.
    Our primary mission is the delivery of health-care 
services, including casualty care. The National Capital Region 
currently is our Nation's primary casualty reception site, and 
we have significant and world-class capabilities at Walter Reed 
Army Medical Center. The prosthetic capabilities are second to 
none in the world and are leading the world, as is the 
abilities, the capabilities at the National Naval Medical 
Center today to provide care for open traumatic brain injuries 
that are returning to our country.
    The Aeromedical Staging Facility at Malcolm Grow is an 
extraordinarily capable facility, the best Aeromedical Staging 
Facility, I believe, today, and together they compromise a 
seamless reception capability for those patients that are 
returning on C-17s from across the world.
    Fortunately, as the Chairman points out, casualty rates for 
complex trauma care are significantly down in the NCR; however, 
the number of psychological health cases is increasing at the 
same time. So we have seen a switch in the emphasis of the care 
that we need to deliver, but not in the need to be able to 
provide care for the wounded warriors who are returning here.
    Mr. Murtha. Does that include inpatient and outpatients?
    Admiral Mateczun. Yes, sir, it does.
    We will continue to have capability to maintain this 
capability to receive casualties in the National Capital Region 
during transition to these new facilities and throughout the 
entire BRAC operation. We will, in fact, have significant new 
capabilities, including a comprehensive cancer center, which 
puts together many of the centers of which this committee, in 
particular members of this committee, have been so helpful in 
making sure that we maintain these capabilities. It will bring 
together the ability for the Trauma Registry--I'm sorry, the 
Bone Marrow Registry, Congressman Young, to bring those 
together with the Comprehensive Cancer Center in a way that has 
never been done before within the military health system.
    There are also significant new capabilities at the Fort 
Belvoir Community Hospital. In fact, out of the 500,000 
beneficiaries that live in the region, about half of them live 
in the southern half of the region, and that Fort Belvoir 
Community Hospital will grow to a 120-bed facility with 
significant new capabilities, including linear accelerators for 
oncology care, for radiation oncology and cardiac 
catheterization. So significant new capabilities there.
    I will abbreviate any statement. I would be remiss as we 
near Memorial Day if I did not remember the 221 service medical 
members who have made the ultimate sacrifice in their service 
of both country and their fellow soldiers, sailors, airmen, 
marines, Coast Guardsmen. Your support, your extraordinary 
support, pays great honor to their service, and I will conclude 
my statement.

                   Summary Statement of General Volpe

    General Volpe. Chairman Murtha, Ranking Member Young, 
committee members, good morning. Thank you for giving us an 
opportunity to share with you the great effort that is made by 
the Department to enhance the health care in the National 
Capital Region. As we forge a new frontier in military medicine 
in the National Capital Region by leveraging joint solutions 
and initiatives, we are committed to ensuring a more effective 
and more efficient delivery of health care.
    For the first time in history, the Department will deliver 
health care in a fully integrated region, and JTF CapMed will 
oversee through operational control the first two truly joint 
hospitals at the Walter Reed National Military Medical Center 
at Bethesda as well as the Fort Belvoir Community Hospital in 
Virginia.
    The two hospitals will be jointly staffed, jointly 
operated, jointly led and jointly governed. Servicemembers, 
veterans and their families will be better served by being able 
to receive their health care in a regional system which 
leverages the outstanding capabilities that each service has to 
offer.
    We at JTF CapMed are very mindful that the massive 
transformation in the National Capital Region comprises more 
than BRAC alone and is a conglomerate of numerous complex 
initiatives. While BRAC provided the initial stimulus to 
realign the military health system resources within the 
National Capital Region, the Department utilized and will 
continue to utilize it as an opportunity to transform, 
integrate and reengineer how we deliver health care in the 
region.
    I will abbreviate much of my opening statement, but I would 
like to mention finally that the real beauty of JTF CapMed is 
that it is a mechanism to integrate health care across the 
three services' medical system, to leverage the common 
capabilities that each service has to offer, while still 
respect unique requirements that each service must maintain. We 
are very proud to have an open working relationship with the 
three services, and the Assistant Secretary of Defense of 
Health Affairs, those on the Joint Staff in OSD, and there are 
procedures in place for us to work through the challenges that 
we face and to capitalize on the opportunities to improve the 
delivery of health care. The fact is that we all have a very 
common goal and culture of providing warriors and their 
families the world-class health care that they deserve.
    Again, thank you for allowing us to share in the progress 
and the transformational efforts in the National Capital 
Region, and submitted the rest of my comments in the written 
statement, and look forward to your questions.
    [The joint statement of Admiral Mateczun and General Volpe 
follows:]

[GRAPHIC] [TIFF OMITTED] T6286A.072

[GRAPHIC] [TIFF OMITTED] T6286A.073

[GRAPHIC] [TIFF OMITTED] T6286A.074

[GRAPHIC] [TIFF OMITTED] T6286A.075

[GRAPHIC] [TIFF OMITTED] T6286A.076

[GRAPHIC] [TIFF OMITTED] T6286A.077

[GRAPHIC] [TIFF OMITTED] T6286A.078

[GRAPHIC] [TIFF OMITTED] T6286A.079

[GRAPHIC] [TIFF OMITTED] T6286A.080

[GRAPHIC] [TIFF OMITTED] T6286A.081

[GRAPHIC] [TIFF OMITTED] T6286A.082

[GRAPHIC] [TIFF OMITTED] T6286A.083

[GRAPHIC] [TIFF OMITTED] T6286A.084

[GRAPHIC] [TIFF OMITTED] T6286A.085

[GRAPHIC] [TIFF OMITTED] T6286A.086

[GRAPHIC] [TIFF OMITTED] T6286A.087

[GRAPHIC] [TIFF OMITTED] T6286A.088

[GRAPHIC] [TIFF OMITTED] T6286A.089

    Mr. Murtha. General, you didn't mention the committee. You 
mentioned all the work you guys are doing. This is the first 
time that I remember that you stepped up to the table and put 
enough money in the budget. I mean, this committee has been in 
the forefront of health care, and you just gloss over that like 
we weren't even there.
    General Volpe. Sir, we are greatly appreciative of all the 
support by you, the Chairman, the Ranking Member and all the 
committee members through the years in the military.
    Mr. Murtha. Beverly Young ever talk to you about any of 
this health care?
    General Volpe. No, sir.
    Mr. Murtha. She is slipping.
    Mr. Young. If we give Beverly his name, I am sure she will.
    Mr. Murtha. Mr. Bishop.

                                  PTSD

    Mr. Bishop. Thank you, Mr. Chairman.
    May I just mention from the previous panel some concerns I 
had for the record. With regard to Lieutenant General 
Schoomaker's testimony, he had stated in his opening testimony 
that the fractured relationships and not PTSD account for or 
are related to many of the suicides, and I found that a little 
bit incredulous because many times the suicides relate to 
relationships that became fractured as a result of PTSD. And I 
was wanting for the record the Department to submit any studies 
that have been done to track the relationship and to test the 
relationship between fractured relationships and PTSD, because 
there is, I think, a great deal of likelihood that the 
underlying causes of the suicides relate to the PTSD as well as 
the multiple deployments that strain those familiar 
relationships.
    And also, Ms. Embrey stated that doctors may prescribe 
whatever treatment they want if they think it will help the 
servicemember, and I think that, for the most part, folks have 
done that. The witness that was a three-star general who got 
the hyperbaric oxygen treatment for injuries he sustained and 
swears by it anecdotally, I might add. And I know that there is 
a need for the establishment of medically and scientifically 
proven studies, General Schoomaker, but if, in fact, these 
anecdotal studies document some benefit from the hyperbaric 
oxygen treatment, it would appear that if the doctors made--if 
it is made known to them that they do, in fact, as Ms. Embrey 
suggests, have leeway to recommend or prescribe some of these 
treatments, it perhaps would help the thousands of our Army and 
Marine soldiers suffering--who are suffering from PTSD, the 
spinal injuries and other nerve damage injuries which 
anecdotally suggest can be cured or definitely treated with the 
hyperbaric oxygen treatments.
    Now, getting to the subject of this panel, I would just 
like to ask, I think it was in the appropriations report, in 
the language entitled ``Medical Care in the National Capital 
Region,'' the committee expressed concern that in spite of the 
significant cost increases at the new Walter Reed, funding 
still had not been included for a number of facilities that 
already exist at the current Walter Reed center. And the 
planners hadn't solved the ingress and the egress problems and 
how that will be accomplished for patients and staff, given the 
fact that the patient and staff population will virtually 
double in a little more than 2 years.
    Has the report been completed with regard to that? Have 
those ingress and egress problems been solved? Do you have a 
plan that speaks to that? When will the construction be 
completed for each of the two facilities? And when can the 
staff at Walter Reed be notified of their future employment, 
and vice versa, I guess, at Bethesda?
    There are a number of these issues that we are concerned 
about. If you would sort of address those, I would be 
appreciative.
    Admiral Mateczun. Thank you, Congressman Bishop.
    There is a 2721 NDAA 2009 report which was delivered 2 days 
ago, which includes an integrated master schedule of over 
10,000 line items on tasks that must be accomplished to 
coordinate and finish these moves. That report, that integrated 
master schedule will lead to a master transition plan, which we 
will be completing this summer which have all the steps 
outlined, and that will be in fulfillment of the 1674 
requirement of the NDAA 2008.
    Mr. Bishop. It was delivered to the committee, or it was 
delivered to the Secretary; to whom was it delivered?
    Admiral Mateczun. To the committee, sir. And so that may 
answer some of those questions.
    In terms of being able to reach with 10,000 individuals 
that we have, and a fair number of them moving primarily out of 
Walter Reed and into both Bethesda and Fort Belvoir, we have 
significant resources devoted to try to make sure that we are 
letting them know in a timely way where they might be going. 
There is a guaranteed placement program available under the 
BRAC. We do need all of the workforce that we have today to be 
distributed amongst those two hospitals of the future.
    The demanding documents themselves, we are in the process 
of finalizing coordination within the Department. And so once 
those two documents are finalized, we will know each of the 
positions at those hospitals, and then we will be able to start 
the process of working through who will fill each of those 
positions.
    Mr. Bishop. What about the equipment; how much of the major 
equipment at Walter Reed is going to be utilized at the new 
Walter Reed or at Fort Belvoir? And how much additional 
equipment is going to be required, have to be procured for each 
of those transitions?
    Admiral Mateczun. The Army's JTARA team did a review of all 
the equipment in the National Capital Region. About $50 million 
of the equipment that exists at Walter Reed today of the major 
equipment will be reusable within the new facilities. There is 
about a $400 million----
    Mr. Bishop. Fifty thousand dollars?
    Admiral Mateczun. Fifty million dollars.
    There is about a $400 million initial outfitting and 
transition cost of the two new facilities. Those are included 
in the budget that was just--the President's budget that was 
just submitted.
    Mr. Bishop. So that $400 million includes the movement of 
the existing equipment that you will be able to continue to 
use, as well as acquisition or the procurement of new equipment 
for the new facilities.
    Admiral Mateczun. Yes. Our strategy is to have a single 
contractor that does all of that, which is the norm out in the 
civilian world today.
    Mr. Bishop. What is the planned disposition for the 
existing facility there on 14th Street?
    Admiral Mateczun. Sir, I would have to go to the Department 
and get an answer. I believe that the BRAC law requires that 
the facilities be turned over to the General Services 
Administration, and that the General Services Administration 
make disposition.
    Mr. Bishop. Will it be part of your budget to do the 
cleanup and disposition, or that will be totally--normally 
under BRAC we have to do some cleanup. That is under the 
military construction bill. Usually there is a significant lag 
time for the cleanup, but it has to be budgeted and 
implemented, and, of course, it has to be paid for.
    Admiral Mateczun. Yes, sir. The business plan details on 
that I don't know. I am not responsible for executing the 
closure of Walter Reed. The move-out, I am responsible for it. 
But we will take that and come back with an answer for you.
    [The information follows:]

    The Army is responsible for the disposition and cleanup of the 
existing Walter Reed Army Medical Center (WRAMC). Current plans call 
for a Federal to Federal transfer of the 113 acres of WRAMC main post. 
The General Services Administration (GSA) has requested 34 acres and 
the Department of State the remaining 79 acres. The Department of State 
has recently amended their request asking for only 18 acres. The Deputy 
Assistant Secretary of the Army for Installations and Housing is 
working with GSA to see if GSA is interested in amending their request 
for the now remaining 61 acres. If no interest is found, the 61 acres 
will be declared surplus.
    The extent of clean up is partially dependent on the future use of 
the facility (e.g. Federal tenants vice non-Federal tenants). However, 
regardless of who the future owners will be, DoD must terminate its 
Nuclear Regulatory Commission (NRC) license. The current estimate is 
approximately $14M to decommission all locations where radiological 
substances have been used and terminate the NRC license in order to 
release all buildings for unrestricted use. Estimates were based on the 
NRC-required Decommissioning Funding Plan of 2005.

    Mr. Bishop. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Hinchey.

                         REMARKS OF MR. HINCHEY

    Mr. Hinchey. Thank you, Mr. Chairman.
    And I want to thank you both for all the important work 
that you do and the way in which you oversee all the work that 
a lot of other people do. But as we know, no matter what we do 
and how focused we are on it, nothing is perfect. There are a 
lot of issues that come up and a lot of problems that result. I 
know particularly over the last couple of years, you have 
really been doing a lot of really good work.
    We have all had experience within the last few years of 
constituents of ours coming back from situations in Iraq and 
elsewhere and the consequences that they face. And in one 
particular case--more than one, but I have one in mind 
particularly because of the very dire circumstances. The guy 
was almost killed, but because of the very good medical 
attention he got instantly in Iraq and in Germany, and then 
over here it declined, but nevertheless he has improved 
significantly, but there has been declining attention that has 
been focused on him. And I think that the circumstances there 
are that somebody who is no longer going to be functional in 
the context of the military, or maybe not even particularly 
functional in any context, may not be getting attention. And so 
I think that is something we really need to look at.

                          MEDICAL MALPRACTICE

    There is another aspect, too, I just wanted to draw 
attention to, and that is back in the 1950s, maybe 1953, where 
the issue of medical malpractice was dealt with in a way that 
made--or eliminated responsibility, frankly, for medical 
malpractice. So we know that in the human context, no matter 
what we are doing, even in military and maybe even more so in 
military situations because of the tough circumstances that we 
have to experience in the military from time to time, that it 
may be more likely for military people to get disease, get 
normal kinds of things that anybody is subject to. And whether 
or not that is true, we know that at least it is going to be 
average for human beings, for normal people.
    And what I have seen happen is that people who get sick, 
including specific dire elements like cancer, are not attended 
to effectively, and in some cases, even as I have seen the 
presence of cancer in people, even though the evidence of it is 
so apparent, has not been dealt with, not been admitted to, not 
been addressed in any way. So I am just wondering what you 
might be thinking about this.
    I think that there are some things that we have to do here 
in the Congress to deal with this more effectively, and I just 
wonder what you may be thinking, particularly with regard to 
trying to as much as possible eliminate medical malpractice. We 
have not been able to do that, eliminate medical malpractice, 
in the normal medical circumstance for citizens, in normal 
hospitals and anyplace across the country. And I am from New 
York, and we haven't been able to do it there.
    But this is something that I think needs attention, and I 
think that the situation of medical malpractice may be worse in 
the military than it is out in the general public. And I am 
just wondering what you think and what we need to do to address 
that problem.
    Admiral Mateczun. Congressman Hinchey, I will respond in 
some background ways, tell you what we are doing in the 
National Capital Region and what is happening in the military.
    The malpractice rates, I think, in the military are not 
higher than they are out in the civilian world. There are 
statistics that go back years that take a look at the 
denominator of all the practice and the number of cases where 
we have actually made a settlement or reported somebody to the 
National Practitioner Data Bank.
    I think the route to quality, the route to improvement is 
by reducing variation particularly in the way we practice, and 
elevating the standards so that here in the Capital Region, for 
instance, as we take a look at working across all of the 
hospitals and clinics that we have--I will just take a 
procedure, conscious sedation, what you get when you go to the 
dentist, or when you are getting a colonoscopy or other 
procedures, can be done in 37, if not 57, different ways just 
in a couple of facilities. So one of the ways to improve is to 
make sure that we are doing it all the same way in an evidence-
based way across all of those clinics that we have within the 
NCR, just as a quick example of how we might be able to, in an 
integrated delivery system, provide the care that these 
beneficiaries need.
    Also we need to integrate that care consistently across 
them. So cancer care needs to be the same no matter what your 
entry point is into the system. So just a couple of examples on 
how to improve care.
    General Volpe.
    General Volpe. Yes, sir. Thank you.
    There are a few things that I think are fairly inherent to 
our military health system in all of the services, and that is 
between our fairly strict recruiting standards, our graduate 
medical education programs are second to none, and that is 
pretty much shown out on national board examinations in various 
specialty areas. And all of our physicians and clinicians do a 
magnificent job in leading the Nation in those scores. And our 
credentialing processes and procedures and maintenance of 
certification is also second to none throughout our system.
    So from a quality aspect of the clinician that is in the 
military, we believe this is the best quality system there is, 
and I believe that is one of the reasons why Admiral Madison 
mentioned that our malpractice rate is less than what it would 
be in the general population.
    Mr. Hinchey. So do you think, as it is out in the rest of 
the country, that the people who deliver health care within the 
military context should be held accountable for medical 
malpractice escalations?
    Admiral Mateczun. They are held accountable for medical 
malpractice escalations.
    Mr. Hinchey. They are not held legally accountable.
    Admiral Mateczun. The providers have the same actions taken 
against them.
    You may be referring to the Feres doctrine.
    Mr. Hinchey. Yes.
    Admiral Mateczun. Feres doctrine is beyond my expertise in 
answering the questions. I think we would be glad to take it 
back and get a written response back to you.
    [The information follows:]

    The Feres Doctrine is a legal doctrine that prevents Service 
members who are injured as a result of military service from filing 
claims against the federal government under the Federal Tort Claims 
Act. However, as stated below this does not mean that providers in 
military treatment facilities are not held responsible for care 
provided.
    The Department of Defense (DoD) Military Health System (MHS) holds 
medical practitioners responsible for care provided. Even though they 
are not financially liable, their continued eligibility to practice 
medicine is at risk. There are several layers to the practitioner 
quality assurance program.
    When a MHS beneficiary experiences an unanticipated outcome or 
adverse event, risk management and patient safety subject matter 
specialists collaborate to identify, analyze, and appropriately report 
these events. Processes are in place (for example, incident reporting 
and occurrence screens) to identify adverse events. Immediate action is 
taken to ensure patients, staff, and visitors are protected from 
additional injury and minimize the untoward effects of the event.
    Every healthcare adverse event involving a MHS patient (Active Duty 
Service member or other TRICARE beneficiary) is reviewed whether or not 
harm occurs to the patient. The risk manager, patient safety officer, 
senior clinical staff, and MTF attorney, if available, will collaborate 
to determine the appropriate investigative processes for the adverse 
event. An adverse event that resulted in harm to the patient and 
presents a possible financial loss to the Federal Government (a 
malpractice claim or death/disability payment) is referred to as a 
potentially compensable event (PCE) and is investigated by the Risk 
Management Program. Significantly involved providers are identified and 
informed that a review of the PCE will take place.
    A standard of care (SOC) review is conducted on the event in 
question with all significantly involved providers being considered. 
The SOC investigation includes a professional review of the care with a 
determination as to whether the SOC was ``met'' or ``not met.'' Claims 
of alleged malpractice filed under the Federal Tort Claims Act, the 
Military Claims Act, or the Foreign Claims Act (Title 10 U.S.C., 
Chapter 163) (reference (c)), or death or disability payments are 
documented, tracked, and analyzed to determine contributory causes. 
Every alleged malpractice claim and every death or disability of a 
military member as a result of healthcare services includes a SOC 
determination for each significantly involved practitioner.
    If a malpractice payment is made, or a death/disability payment 
related to healthcare is awarded, the Surgeon General will ensure a 
thorough and unbiased review of the facts of the case to determine if 
any of the significantly involved healthcare practitioner(s) did not 
meet the SOC. Reasonable cause to initiate an adverse privileging 
action includes, but is not limited to, a single incident of gross 
negligence, especially if it causes death or serious bodily injury, a 
pattern of inappropriate prescribing, a pattern of substandard care, 
abuse of legal or illegal drugs, and significant unprofessional 
conduct.
    Our MTFs' SOC reviews, Risk Management Program, provider 
credentialing, and privileging and adverse actions meet the 
accreditation standards of the Joint Commission or the Accreditation 
Association for Ambulatory Health Care.

    Mr. Hinchey. If someone experiences medical malpractice, 
and they get seriously ill and even die, they, if they are 
still alive, or their family after they die cannot legally hold 
accountable the instrumentation of medical malpractice that 
caused the serious illness or the death.
    Admiral Mateczun. Yes, sir. We, I think, looking at it from 
our side, on the provider side, look at the compensation that 
they get. I am not an expert on it. I can tell you that as 
providers, we do hold them accountable. If they have had 
malpractice, they are reported to the National Practitioner 
Data Bank, and their privileges are removed or changed.
    Mr. Hinchey. Thank you. It is something we need to pay 
attention to. I thank you very much.
    Mr. Murtha. Well, now, without objection, we go to Mr. 
Moran.

                   PLAN FOR MOVING MEDICAL FACILITIES

    Mr. Moran. Thank you very much, Mr. Chairman.
    As the panelists know, you required a comprehensive report 
to be delivered to this subcommittee so that we could have some 
confidence that the move from the three medical facilities into 
the two medical facilities would be done not just on time, 
which is not our major concern, but would be done right.
    Now, we got late, very late, the report yesterday, within 
the last couple of days. Was it yesterday? Anyway, it was just 
a short while ago. But nevertheless, our superb staff, 
particularly Mr. Horner, has gone through it. But it is not 
adequate, it is not a comprehensive plan. What we were looking 
for is what steps need to be taken by when so that you can get 
this done without our warriors being adversely impacted by the 
move. And you gave us this broad picture without adequate 
specificity.
    I think you may want to have your staff talk to Mr. Horner, 
and he will tell you what it is we envision. We thought it was 
clear. But, for example, we would like to know how much it is 
going to cost. One of the things that concerns us is that BRAC 
in 2005 had a number of cost estimates, costs saved, and what 
it would cost us, and all of those estimates have been wrong, 
all of them. It said that it would cost $20 billion, and now we 
are told it is $32 billion. It said that we would save $36 
billion, and now we are told we are lucky if we save $4 billion 
annually. That was the broad picture. There are 230 locations 
as a result of BRAC that have to be completed, and we are being 
told they are all going to be completed within the last 2 weeks 
of September 2011, including the realignment of Walter Reed 
Hospital. So you are going right up to the deadline. There is 
no plan B, and that is the concern of the committee and has 
been all along.
    Now you can, first of all, respond, would the original 
savings and payback period from the transition to Walter Reed, 
are those numbers still accurate, the cost and the savings?
    Admiral Mateczun. No, sir.
    Mr. Moran. No, they are not. Do you have new numbers?
    Admiral Mateczun. Yes, sir. We can provide those to you. 
The COBRA estimates were not anywhere near what this project is 
going to cost.
    Mr. Moran. Well, Mr. Chairman, so here we are again. The 
BRAC estimates were nowhere near what it is actually going to 
cost us and what savings are going to be achieved. But again, 
we asked for a report; those numbers are not in the report.
    I don't want to give you a hard time, because I know you 
were given an impossible mission, and to some extent you are 
the messenger of what we expected would be bad news in terms of 
adequate implementation. But that report was supposed to 
include cost estimates. So now, yes, we do need those cost 
estimates to be provided--this is a the committee that provides 
the money. We don't want to be told at the 11th hour, unless 
you give us all this extra money, we can't get it done. So, 
yes, we need those estimates.
    Can you tell us----
    Mr. Murtha. Let me reinforce what the gentleman is saying. 
I went to the BRAC hearings. I very much opposed to closing 
down Walter Reed. Well, I lost that battle, but I remember 
distinctly they said it would cost $232 million to close it 
down. That was the figure that they gave. Principi, who was the 
Chairman, said the same thing: He was concerned about it. All 
of us were concerned about it. But over and over from the 
Defense Department we get inadequate figures, and then the 
taxpayer has to pay. Something happens, you come to us, 
representing the taxpayer, we do, and then we have to fork over 
money which we didn't anticipate, which then makes it very 
difficult to solve our budget problem.
    So you need--and I told the Secretary of Defense this 
yesterday--you need to go back and start to get accurate 
figures for us so that we have a better estimate of how we can 
put a budget together. For instance, there was a $2\1/2\ 
billion shortfall in personnel costs. We have two or three 
hearings, two or three meetings in addition to the hearings 
about the military shortfall, we couldn't get it until the last 
minute exactly what those figures were.
    Now, we have 15 people on our staff. It is impossible for 
us to have oversight, so we depend on you to give us that kind 
of information so that we can put together a logical budget.
    So with that, I yield back to Mr. Moran.

                ACCESSABILITY TO FACILITIES BY PERSONNEL

    Mr. Moran. Thank you, Mr. Chairman.
    We have some problems. I know you are supposed to be 
looking at this, but I know they seem minor. The personnel, the 
employees at these facilities. One thing, for example, it is at 
a Metro stop at Bethesda. There is no Metro stop where they are 
going at Fort Belvoir. Have any of them been notified as yet 
where they will be going within a year and a half?
    Admiral Mateczun. No, sir. Until we have the actual manning 
documents themselves, which are 3,000 people, 3,200 people out 
at Fort Belvoir, 6,000 at Bethesda, we can't say this is the 
spot you are going to.
    I can tell you in general the vast majority of civilian 
personnel will be accommodated where they would like to be. We 
surveyed the workforce at Walter Reed. Approximately 10 to 15 
percent of them plan on taking retirement or some other BRAC-
related eligibility, which would remove them from the 
workforce, and we estimate in our last run-through--this is a 
preliminary number--90 percent of the them would be able to 
stay north where they needed or if they wanted to stay north; 
i.e., at the Bethesda campus. We need to incentivize the other 
personnel, if we need to, to go down to Fort Belvoir, although 
Colonel Callahan has been doing a great job in recruiting 
people to come down there as part of the workforce.
    Mr. Moran. I appreciate that, but I need to underscore this 
again. We have a year and a half. None of the people have been 
told where they are going. Most of them are going to Fort 
Belvoir, but most in Bethesda want to stay in Bethesda, and you 
are telling them they can't. You are also telling us that 15 
percent of them were going to drop out and take retirement. We 
have expanded facilities, we have a greater need for personnel, 
and yet 15 percent them are going to leave.
    Our concern is the quality of care provided to the 
residents, the patients. So I don't know how you are going to 
get the new people to staff these expanded medical facilities 
when 15 percent have already notified you they are leaving, and 
the majority at Bethesda are going to stay at Bethesda when 
most are supposed to be going to Fort Belvoir.
    I know my time is up, but these are issues that we need 
resolved, and you have been given an impossible task. The 
problem is the subcommittee made it clear this is impossible. 
And if the highest priority is the care of the patients, then 
we are going to fall short. And now we have a year and a half, 
and we are very much concerned that inadequate planning and 
certainly the estimates we demanded have not been provided, and 
they need to be.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Young.

                   COMBINING ARMY AND NAVY HOSPITALS

    Mr. Young. Mr. Chairman, thank you very much.
    In following the same line that Mr. Moran has initiated, 
General Volpe, you said that you had the two hospitals, and you 
don't have to respond to this, but my question is is one of 
them a Navy hospital, or is one an Army hospital, or are they 
both hybrid?
    General Volpe. Sir, we have the approval from the 
Department that both of these facilities will be joint. They 
will be placed on a joint table of distribution, which is a 
document that allows the commander of that facility to be 
responsible for all the people that are working in that 
facility regardless of what service that they are in. So we are 
able to get unity of effort through unity of command in those 
facilities and have one person responsible for the good, the 
bad and ugly that occurs in that facility.
    Mr. Young. You said, General, that two hospitals are 
jointly staffed, jointly managed and jointly governed. Somebody 
has to be in charge. When it is jointly, who is in charge?
    General Volpe. Sir, there will be a commander that is 
selected. It will either be by a rotational basis or nomination 
basis that is yet to be determined, but we have to work with 
the services on that process to do that. It will be under the 
operational control of JTF CapMed.
    Mr. Young. Will there be a super commander that would be in 
charge of both facilities, Fort Belvoir and Bethesda? 
    Admiral Mateczun. Yes, sir. That is the joint task force.
    Mr. Young. Do we know who that is?
    Admiral Mateczun. That is me, sir.
    Mr. Young. And then each hospital will have a commander?
    Admiral Mateczun. Yes, sir.
    Mr. Young. Will Army and the Navy share those roles?
    Admiral Mateczun. That is one of the options, yes, sir, 
either to do it on a rotational basis or a nominative basis 
like all their joint positions.
    Mr. Young. Outside of the normal grumbling that takes place 
at any kind of merger whether it is military, civilian, 
political, whatever, and I am sure you have heard some of that, 
Mr. Moran has indicated some, is the merger going well, is it 
on track?
    Admiral Mateczun. Yes, sir, it is. And I would like to say 
that our concern, our primary concern, is and will always be 
the health care that we deliver. If we were not able to meet 
any of the deadlines that we think are out there, I would have 
no hesitancy about telling you about that and asking for your 
help.
    Mr. Murtha. Let me just interrupt Mr. Young. We need you to 
give us a plan.
    Now, first time I heard we would have 35 different 
installations. My wife told me the other day, look over there, 
that is going to be part of the new Walter Reed. I didn't know 
that. I mean, I had no idea. It is along 95.
    She may be wrong. She is not wrong very often, but you 
know, the wives talk to each other. And I don't say she is 
wrong, she is probably right. But the point I am making, we 
need to see what you are going to do here and what it is going 
to cost. That is what we need.
    Now, we shift money to military construction, in many 
cases, because they need the money. So give us a plan so that 
we can live with it and figure out, in increments, what needs 
to be done.
    Because what Mr. Moran is worried about is not going to 
happen--I mean it is going to happen as he predicts, unless you 
have the funding that is necessary in order to implement this. 
And all of us want to do the same thing. All of us want to have 
the money that is necessary for the troops to make sure there 
is care for not only the troops coming back, the troops that 
need care that have been back, and also the retirees, because 
there are so many of them in this general vicinity.
    Okay, that is it. Without objection, the committee adjourns 
until after the recess.
    [Clerks note.--Questions submitted by Mr. Bishop and the 
answers thereto follow:]

    Question. LTG Schoomaker, you stated in your opening statement that 
``fractured relationships not PTSD account for a majority of the 
numerous suicides in the U.S. Army;'' however, how can you be sure? Has 
an extensive study been done on the impact PTSD has on relationships 
and on families? If so what are the results?
    Answers. Completed suicide is one of the leading causes of death 
among U.S. Soldiers, and suicide behaviors lead to unnecessary Soldier 
and family suffering. Based on our own data and what has been published 
in the peer reviewed literature, relationship issues are a very 
important factor in suicides. According to the most recent published 
DoD Suicide Event Report (DoDSER), 50% of individuals who committed 
suicide in 2007 had a failed spousal relationship (15% had a failed 
``other'' relationship). By contrast, since 2003 only 5.5% of 
individuals who committed suicide had a medical encounter with a 
diagnosis of post traumatic stress disorder (PTSD).
    According to analyses of Army suicides conducted by the Army's 
Center for Health Promotion and Preventive Medicine, there were 650 
potential Army suicides from 1 Jan 2003--15 Apr 2009. Overall, 273/650 
or 42% had a record of an outpatient encounter for a behavioral health 
diagnosis. Of the 650 suicides since 2003, 36 (5.5%) had a record of an 
outpatient encounter with a diagnosis of PTSD. That is very similar to 
the overall percentage of Soldiers with PTSD. Adjustment disorders 
(20.6%), mood disorders (17.7%), and substance abuse (16.3%) were the 3 
most common categories of outpatient behavioral health encounters among 
those who committed suicide.
    Intuitively, the notion that premorbid psychological/marital 
status, PTSD, suicide, and family pathology are intimately connected 
seems reasonable. PTSD is also thought to disturb the family system in 
those Families with good premorbid adjustment and to exacerbate 
pathology in those Families with maladaptive premorbid adjustment. 
These disturbed family interactions can increase the distress 
experienced by service members suffering from PTSD. Chronically 
increasing distress on the part of the service member may then cause 
increased family disturbance, and a downwardly spiraling vicious cycle 
results. The inability to escape this cycle may be a contributor to 
suicidal behaviors, especially among members with limited coping skills 
due to psychopathology and/or cognitive limitations. Although PTSD may 
be a contributing factor to the increase in suicides, by itself it does 
not explain the rising rates.
    Question. LTG Schoomaker, on page 9, of your written testimony for 
record you state that the Chief of Staff of the Army, General Casey, 
has identified several shortcomings in his own Army health experience 
and that the ``Army does not routinely assess all the elements of 
weilness, fitness, and human performance, other than the physical.'' 
Part of wellness is mental fitness. Mental fitness is compromised 
during PTSD. You have admitted that the Army does not routinely assess 
weliness or mental health in your testimony. How can you say that PTSD 
and suicides are not related?
    Answer. Historically, the Army did not routinely assess all the 
elements of wellness, fitness, and human performance, other than the 
physical. We identified this as a shortcoming and have been developing 
a new approach to total fitness. On October 1, 2008 the Army 
established the Comprehensive Soldier Fitness Program with a mission to 
develop and institute a holistic, resiliency-building fitness program 
for Soldiers, Families, and Army civilians. The program focuses on 
optimizing five dimensions of strength: Physical, Emotional, Social, 
Spiritual, and Family. This holistic approach to fitness will enhance 
performance (capability) and build resilience (capacity) of the Force 
in this era of persistent conflict and high operational tempo.
    PTSD may be a contributing factor to the increase in suicides, but 
by itself it does not explain the rising rates. While this disorder 
draws significant media attention, it is only one of many behavioral 
health diagnoses that impact Soldiers and their Families. According to 
analyses of Army suicides conducted by the Army's Center for Health 
Promotion and Preventive Medicine, between 2003 and April 2009, a total 
of 650 potential suicides were committed by Army personnel. Overall, 
273/650 or 42% had a record of an outpatient encounter for a behavioral 
health diagnosis. Of the 650 suicides since 2003, 36 (5.5%) had a 
record of an outpatient encounter with a diagnosis of PTSD. That is 
very similar to the overall percentage of Soldiers with PTSD. 
Adjustment disorders (20.6%), mood disorders (17.7%), and substance 
abuse (16.3%) were the 3 most common categories of outpatient 
behavioral health encounters among those who committed suicide.
    Question. LTG Schoomaker, on page 9 of your testimony you state 
that ``The Army does not always link available life skills and 
performance programs and interventions with Soldiers and Families until 
the need has been demonstrated by a negative behavior. And the Army 
does not teach Soldiers about the potential for post traumatic growth, 
nor give Soldiers the opportunity to validate their post traumatic 
growth during Post Deployment assessments.'' If the Army does not teach 
nor give Soldiers the opportunity to measure post traumatic growth or 
the lack of growth, how can you state before this committee that Post 
traumatic Stress Disorder (PTSD) is not related directly or indirectly 
to suicides? Your opening statement and your written statements 
contradict themselves and cause serious concern about the thoroughness 
that the Army is approaching the suicide epidemic within its ranks. 
What is your plan to start looking at PTSD and its relationship to 
suicides and the strain that PTSD puts on families? Please submit for 
record your plan and the results of any study done concerning PTSD and 
suicide.
    Answer. Suicide is a tragic event and the Army is making a 
concerted effort to provide a holistic approach to address the 
increasing number of these events. Under the direct leadership of Vice 
Chief of Staff of the Army (VCSA), General Peter Chiarelli, the Army's 
holistic approach addresses not only suicide, but the underlying issues 
and factors that may contribute to the problem, including post 
traumatic stress. In March 2009, the VCSA established and chartered the 
multi-disciplinary Suicide Prevention Task Force. In April 2009 the 
Task Force published the Army Campaign Plan for Health Promotion, Risk 
Reduction, and Suicide Prevention. This Campaign Plan puts the Army on 
an aggressive schedule to address about 250 tasks related to doctrine, 
organization, training, materiel, leadership, personnel, and 
facilities. The plan also gives installation, garrison and military 
treatment facility commanders a checklist of items to guide immediate 
improvements in programs and services for Soldiers based on best 
practices gleaned from installation visits. Field commanders 
immediately notify the VCSA of every suspected suicide. He conducts a 
monthly review on every Soldier suicide with commanders and a Senior 
Review Group. The review challenges leaders and helps to share lessons 
learned to improve outreach efforts for Soldiers. This recurring review 
ensures the Army maintains an intense focus at the highest levels of 
leadership and allows for sharing information and learning from 
individual cases.
    On October 1, 2008 the Army established the Comprehensive Soldier 
Fitness (CFS) Program with a mission to develop and institute a 
holistic, resilience-building fitness program foroldiers, Families, and 
Army civilians. The program focuses on optimizing five dimensions of 
strength: Physical, Emotional, Social, Spiritual, and Family. This 
holistic approach to fitness will enhance the performance (capability) 
and build resilience (capacity) of the Force in this era of persistent 
conflict and high operational tempo. One goal of the CSF program is to 
enhance post-traumatic growth.
    The Army is working closely with some of the Nation's foremost 
experts on suicide prevention, to include the National Institute of 
Mental Health, to ensure their efforts reflect the most current mental, 
behavioral and psychological health research and treatments. This five 
year, longitudinal study will help identify modifiable risk and 
protective factors associated with suicide, mental disorders, and 
psychological resilience, by evaluating Soldiers across all phases of 
Army service. The goal of the study is to identify intervention options 
based on empirically-identified risk factors.
    In March 2009, the Office of the Surgeon General engaged the RAND 
Arroyo Center to design and carry out a longitudinal study of Army 
families. This study, currently in the design phase, will recruit and 
follow 3000 married Soldiers and their Families across all phases of 
deployment. The objective is to assess the impact of deployment on Army 
families by measuring several outcomes including health, marital and 
family functioning, and child wellbeing. The study is due to begin in 
the fall 2009 (following receipt of all necessary approvals and 
information for recruitment) and will gather data regularly over three 
years. Findings from the first wave should be available by early 2010.
    Question. Ms. Embrey has stated that doctors can prescribe whatever 
treatment they desire if they believe that it would help the service 
member. In a previous appearance before this subcommittee she noted 
that alternative treatments such as yoga were being utilized to help 
treat patients. Why is there a resistance among the various service 
Surgeon Generals against the use of the hyperbaric chamber to treat 
Traumatic Brain Injury (TBI)?
    LTG Roudebush's Answer. The Air Force Medical Service is open to 
new and progressive treatments for those with TBI; however, the 
Department of Health and Human Services has not yet approved HBOT 
hyperbaric chamber (HBOT) therapy for the treatment of traumatic brain 
injury (TBI) as a covered condition, due to the lack of supporting 
evidence for its clinical efficacy. There is some evidence that this 
treatment may improve survival in those with serious TBI although there 
is no evidence yet that HBOT improves functional outcomes in acute 
severe TBI. Overall, based on a thorough review of all available 
scientific information, there does not appear to be adequate support 
for the recommendation of HBOT in the acute or chronic management of 
individuals with TBI. As a result, HBOT is not currently considered the 
standard of care for TBI. The Defense Center of Excellence for 
Psychological Health and TBI issues is sponsoring a large, multi-site, 
randomized clinical trial with Food and Drug Administration 
investigational new drug to answer the question of HBOT (hyperbaric 
chamber) efficacy. We are fully engaged with the Defense Center of 
Excellence in order to initiate this effort as soon as possible and 
look forward to the outcomes. There are also two other Defense 
Department level pilots studies that have recently begun. These and 
future studies will assure that we are utilizing safe and effective 
treatments for our patients with TBI.
    Question. Ms. Embrey has stated that doctors can prescribe whatever 
treatment they desire if they believe that it would help the service 
member. In a previous appearance before this subcommittee she noted 
that alternative treatments such as yoga were being utilized to help 
treat patients. Why is there a resistance among the various service 
Surgeon Generals against the use of the hyperbaric chamber to treat 
Traumatic Brain Injury (TBI)?
    LTG Schoomaker's Answer. I am very supportive of conducting high 
quality clinical trials to determine the effectiveness of hyperbaric 
oxygen therapy (HBOT) for traumatic brain injury (TBI). According to a 
review of the medical literature, the clinical evidence remains 
insufficient to prove effectiveness of HBOT for TBI. The Department of 
Health and Human Services has not approved use of HBOT for the 
treatment of TBI as a covered condition due to the lack of supporting 
evidence for clinical efficacy. There is evidence from trials in humans 
to support that HBOT may improve survival, but not functional outcomes, 
in cases of acute severe TBI. There are no high quality clinical trials 
in humans of HBOT for acute mild TBI or for sub-acute or chronic 
complications from TBI of any severity.
    Question. Ms. Embrey has stated that doctors can prescribe whatever 
treatment they desire if they believe that it would help the service 
member. In a previous appearance before this subcommittee she noted 
that alternative treatments such as yoga were being utilized to help 
treat patients. Why is there a resistance among the various service 
Surgeon Generals against the use of the hyperbaric chamber to treat 
Traumatic Brain Injury (TBI)?
    Admiral Robinson's Answer. While yoga is an essentially risk-free 
activity, there is risk associated with the use of hyperbaric oxygen 
therapy (HBOT). This is dramatically evidenced by a chamber fire on May 
1, 2009 at Ocean Hyperbaric Neurological Center in Lauderdale by the 
Sea that resulted in 90% second and third degree burns to a four-year-
old patient, and the death of his grandmother on May 2, 2009 who 
accompanied him in the chamber. This tragedy involved a child being 
treated for cerebral palsy, like TBI, a condition for which HBOT is not 
a recognized treatment. No validated scientific evidence or peer 
community review has established that hyperbaric oxygen is either safe 
or effective in the treatment of traumatic brain injury. To this end, 
three DoD supported clinical trials are underway and/or under 
development to evaluate the feasibility and efficacy of hyperbaric 
oxygen therapy for this indication. Scientifically determining whether 
hyperbaric oxygen is efficacious in treating traumatic brain injury is 
an essential first step in establishing the potential risk/benefit 
ratio of this therapy.
    Question. I have heard several of the service Surgeon Generals 
describe anecdotal reports of success using the hyperbaric chamber to 
treat TBI. Please provide the committee a list and report of these 
anecdotal successes of the hyperbaric chamber treatments for TBI 
treatment and provide a report of your current medically approved 
method. What is the status of your medical validation of the hyperbaric 
chamber for use as a treatment of TBI? How long has this validation 
been underway and how long will it take to complete? Please provide the 
committee with these answers.
    LTG Roudebush's Answer. The anecdotal reports primarily come from 
civilian providers, most notably Dr. Paul Harch at Louisiana State 
University. He presented some of his cases at the Defense Center of 
Excellence sponsored HBO2 in Traumatic Brain Injury (TBI) Consensus 
Conference held in Alexandria, VA, in early December 2008. Dr. Harch 
would need to be separately contacted for any details as he has not as 
yet published them, at least to our knowledge.
    The Air Force Medical Service is open to new and progressive 
treatments for those with TBI, however, the Department of Health and 
Human Services has not yet approved hyperbaric chamber (HBOT) therapy 
for the treatment of TBI as a covered condition, due to the lack of 
supporting evidence for its clinical efficacy. There is some evidence 
that this treatment may improve survival in those with serious TBI 
although there is no evidence yet that HBOT improves functional 
outcomes in acute severe TBI. The Defense Center of Excellence for PH 
and TBI issues is sponsoring a large, multi-site, randomized clinical 
trial with Food and Drug IND to answer the question of HBOT efficacy. 
We are fully engaged with the Defense Center of Excellence in order to 
initiate this effort as soon as possible and look forward to the 
outcomes. There are also two other Department of Defense level pilots 
studies that have recently begun. These and future studies will assure 
that we are utilizing safe and effective treatments for our patients 
with TBI.
    Question. I have heard several of the service Surgeon Generals 
describe anecdotal reports of success using the hyperbaric chamber to 
treat TBI. Please provide the committee a list and report of these 
anecdotal successes of the hyperbaric chamber treatments for TBI 
treatment and provide a report of your current medically approved 
method. What is the status of your medical validation of the hyperbaric 
chamber for use as a treatment of TBI? How long has this validation 
been underway and how long will it take to complete? Please provide the 
committee with these answers.
    LTG Schoomaker's Answer. The Defense Centers of Excellence (DCoE) 
for Psychological Health and Traumatic Brain Injury sponsored a 
consensus conference in December 2009 regarding Hyperbaric Oxygen 
Therapy (HBOT) in TBI. Over 60 subject matter experts from the 
Department of Defense (DoD), Department of Veterans Affairs (VA), and 
academia attended. The DCoE directed the HBOT in TBI Steering Committee 
to conduct a clinical research trial to investigate the efficacy of 
HBOT for Service members with mild to moderate TBI. The study, titled 
``Hyperbaric oxygen applied late after mild to moderate traumatic brain 
injury: A prospective multicenter double-blind randomized controlled 
trial,'' is anticipated to begin in Aug 2009, pending approval from the 
Food and Drug Administration (FDA). Institutional Review Board (IRB) 
approval is close to completion. Study completion is anticipated within 
18 months. This study is a Phase 3 or definitive clinical trial 
intended to answer the important question of efficacy. The entire 
project represents a unique ``joint'' approach to rapidly conduct 
urgently needed clinical research. The study will enroll 300 active 
duty subjects at four DoD clinical HBOT sites (WHMC/Brooks City Base, 
TX; Ft Carson, CO; Ft Hood, TX; and Camp Pendleton Marine Base, CA). 
Baseline and outcome assessments will be conducted at Ft Carson, CO.
    Three complementary ``pilot'' or phase 2 studies are also underway 
that could also show efficacy. First, a study by Dr. Lindell Weaver, 
LDS Hospital/Intermountain Medical Center, Salt Lake City, UT titled 
``Hyperbaric oxygen for brain injury''. This began in 2003 to study the 
feasibility of hyperbaric oxygen for patients with persistent chronic 
TBI sequelae greater than one year following brain injury. Second, a 
study by Dr. Jason Cho, Wilford Hall Medical Center and Brooke Army 
Medical Center, San Antonio, TX titled ``Treatment of moderate to mild 
cognitive dysfunction caused by TBI with hyperbaric oxygen therapy 
(HBOT)''. This study has enrolled 10+ subjects with a target of 50 
subjects, 25 treated and 25 sham treated subjects with diagnosis of TBI 
and perception of cognitive dysfunction. Third, a study by Dr David 
Cifu, Virginia Commonwealth University/Medical College of Virginia 
Hospital, Richmond, VA titled ``Hyperbaric Oxygen Therapy (HBO2T) for 
Post-Concussive Symptoms (PCS) after mild TBI: A Randomized, Double 
Blinded, Sham-Controlled, Variable Dose, Prospective Trial'' is 
anticipated to begin in summer 2009 and be complete within six months.
    The DoD is committed to rapidly, but safely, determining the 
efficacy of HBOT for mild to moderate TBI. Findings from these studies 
may warrant a new standard of care for patients with chronic TBI, 
justify future research, and change reimbursement policy regarding HBOT 
for TBI.
    Question. I have heard several of the service Surgeon Generals 
describe anecdotal reports of success using the hyperbaric chamber to 
treat TBI. Please provide the committee a list and report of these 
anecdotal successes of the hyperbaric chamber treatments for TBI 
treatment and provide a report of your current medically approved 
method. What is the status of your medical validation of the hyperbaric 
chamber for use as a treatment of TBI? How long has this validation 
been underway and how long will it take to complete? Please provide the 
committee with these answers.
    Admiral Robinson's Answer. Navy medicine has no anecdotal 
information from the use of hyperbaric medicine to treat TBI. There 
have been no treatments performed on TBI patients in Navy operational 
hyperbaric chambers that have received Navy medicine authorization.
    Currents studies include:
    1. The Air Force at Wilford Hall has been conducting clinical 
trials using hyperbaric oxygen for TBI since January 2009. Air Force is 
currently still enrolling subjects. Completion is projected at one year 
after initiation but may be delayed due to recruitment difficulties.
    2. DARPA has funded a VA Richmond Virginia study headed by Dr. 
David Cifu, a nationally recognized TBI expert. It is awaiting final 
IRB approval prior to initiation. This study will use the Naval 
Operation Medicine Institute hyperbaric chamber facility in Pensacola, 
Florida. Start projected August 2009 and completion in one year.
    3. Defense Center of Excellence for Psychological Health and 
Traumatic Brain Injury is pending final IRB approval for a very large 
multicenter study utilizing Navy mobile fly away recompression chambers 
and mobile standard Navy double lock chambers placed at Ft Carson, CO; 
Ft Hood, TX; and Camp Pendleton Marine Base, CA, in addition to use of 
the fixed hyperbaric facility at Brooks City-Base, TX. This study is 
currently pending completion of IRB review and is projected to start 
mid-August 2009 based on chamber availability. Hyperbaric trials are 
expected to be completed in one year's time.
    Question. The Army and its integrated healthcare partners and 
providers are manned at 60% of the current mental healthcare need. 
PTSD, TBI, Mental and Behavioral Health are being treated in variant 
ways throughout the DOD, VA, and civilian healthcare systems. There are 
currently no mechanisms to control the quality of care, certify the 
standardization of patient centric evidence-based best practices, and 
knowledge to ensure the integration of culturally competent care by 
Physicians and Allied Health Providers. Thus, the service members, 
their families, and our veterans are being sub-optimally screened, 
diagnosed, treated and managed by mental Healthcare Physicians and 
Allied Health Providers. The lack of core universal patient centric 
training is resulting in poor outcomes. For example, there are sub-
populations of the military community that may be disproportionately 
impacted by PTSD, TBI, Mental and Behavioral Health conditions. It is 
critical to recognize that 46% of the Army's enlisted ranks are between 
17-25 years of age. This age range is medically classified as 
adolescence (10-25 years) and will require Mental Healthcare Physicians 
and Allied Health Providers to be uniformly trained in the age 
appropriate related care management. Does the military have providers 
trained to look at this age group? Does the military provide cultural 
competency training for its providers so that they can recognize 
cultural traits that impact the diagnosis of PTSD or TBI?
    LTG Roudebush's Answer. It's an excellent point that a large 
percentage of military members are between 18 and 25 years of age. In 
fact, 38.9 percent of active duty Air Force members are below the age 
of 26, including 45.2 percent of our enlisted force. The American 
Psychiatric and Psychological Associations, as well as the National 
Association of Social Workers, have stated that there is a critical 
shortage of child and adolescent mental health providers in the United 
States. Currently 10 percent of Air Force psychiatrists are Child and 
Adolescent Fellowship trained, while all our psychiatry residents 
receive child and adolescent training and are licensed to provide care 
to this age group. The majority of active duty clinical social workers 
receive Air Force facilitated age appropriate training throughout their 
careers as part of their annual continuing medical education, as well 
as age appropriate training being part of their graduate degree 
programs. Active duty clinical psychologists are trained in child and 
adolescent treatment as part of their post-doctoral internships, and we 
have fellowship trained child psychologists serving in our Educational 
and Developmental Intervention Services program sites.
    All Council on Social Work Education accredited graduate schools 
must include course work in cultural diversity as well as being 
considered a core competency for clinical social workers. The American 
Psychological Association also requires all accredited graduate degree 
programs to include course work in cultural diversity.
    In general, civilian accreditation agency guidelines such as the 
2008 Joint Commission require staff participation in education and 
training specific to the needs of the patient population served by the 
medical facility whether inpatient or outpatient. The patient 
population is inclusive of all age groups and addresses cultural 
diversity of patients and staff members.
    Other means of training include professional standards of practice, 
licensure, certification, and continuing education. Pre-deployment and 
cultural specific orientation programs help familiarize deploying 
medical members prior to arriving ``in-country''.
    Recognition, diagnosis, and care of all patients returning with 
possible PTSD or TBI are a high priority of military medical staff. 
Pre- and Post-Deployment Health Assessments are required for all 
deploying personnel and are reviewed closely. Additionally, multiple 
education and training initiatives have been initiated for medical 
staff to more rapidly recognize PTSD or TBI and provide timely and 
appropriate care for our returning warriors.
    Question. The Army and its integrated healthcare partners and 
providers are manned at 60% of the current mental healthcare need. 
PTSD, TBI, Mental and Behavioral Health are being treated in variant 
ways throughout the DOD, VA, and civilian healthcare systems. There are 
currently no mechanisms to control the quality of care, certify the 
standardization of patient centric evidence-based best practices, and 
knowledge to ensure the integration of culturally competent care by 
Physicians and Allied Health Providers. Thus, the service members, 
their families, and our veterans are being sub-optimally screened, 
diagnosed, treated and managed by mental Healthcare Physicians and 
Allied Health Providers. The lack of core universal patient centric 
training is resulting in poor outcomes. For example, there are sub-
populations of the military community that may be disproportionately 
impacted by PTSD, TBI, Mental and Behavioral Health conditions. It is 
critical to recognize that 46% of the Army's enlisted ranks are between 
17-25 years of age. This age range is medically classified as 
adolescence (10-25 years) and will require Mental Healthcare Physicians 
and Allied Health Providers to be uniformly trained in the age 
appropriate related care management. Does the military have providers 
trained to look at this age group? Does the military provide cultural 
competency training for its providers so that they can recognize 
cultural traits that impact the diagnosis of PTSD or TBI?
    LTG Schoomaker's Answer. I respectfully dispute the allegation that 
we do not have mechanisms to control the quality of care, certify the 
standardization of patient centric evidence-based best practices, or 
knowledge to ensure the integration of culturally competent care. The 
Army Medical Department Center and School (AMEDD C&S) provides training 
that includes instruction by the foremost experts in the field of Post 
Traumatic Stress Disorder which include Dr. Foa and her team providing 
insight regarding Prolonged Exposure; Dr. Resick and her team with a 
focus of expertise in Cognitive Processing Therapy; and Dr. Silver and 
his team who provide training for providers on Eye Movement 
Desensitization & Reprocessing. These experts provide ongoing 
consultation for the AMEDD C&S instructors and selected students 
currently being trained to become subject matter experts (SME) in 
evidence based research practices for the Army. The treatment protocols 
being used and taught have been identified as proven evidence-based 
therapies by the American Psychiatric Association and American 
Psychological Association and are approved clinical practice guidelines 
of the Departments of Veterans Affairs and Defense. These patient-
centric, evidence-based practices are being widely used in the Army, 
the Veterans Health Administration, and across the Department of 
Defense. These three treatment protocols have proven to provide solid 
research outcomes for effective treatment of trauma injuries of 
patients from diverse backgrounds and age-groups.
    The AMEDD C&S provides the most up-to-date, current, and effective 
on-line training addressing the issues of PTSD and Trauma Brain Injury 
(TBI). This training is required for all social workers and nurses, and 
is also available to all medical providers. This Distributive Learning 
product includes 12 modules that are readily available and located on 
the Military Health System (MHS) learning portal. This portal has 
modules addressing issues related to PTSD and families; general cross-
cultural considerations; and PTSD training for the Primary Care 
Clinician. This training is a required pre-requisite for behavioral 
health personnel to attend formal clinical training.
    The behavioral health professional working in the Army is 
accustomed to working with the 17-25-year-old Soldiers. The percentage 
of Soldiers in this age group is not a new phenomenon. It is not 
unusual for providers to adjust their assessment and treatment 
interventions to various age groups based on their training. Even 
though age, culture, at risk populations, and trends are addressed in 
the AMEDD C&S curriculum, the curriculum developers are consistently 
and continually reviewing current literature and tapping the extensive 
knowledge base provided by their consultants for ways to improve 
courses and programs. Our curriculum is systematically updated to 
incorporate lessons learned, new processes and approaches, and 
adjustments to ensure age-appropriateness of the content and teaching 
methodology. The AMEDD C&S is in the process of assessing and 
evaluating numerous courses to determine whether or not there is a need 
to create formal uniform lesson plans to specifically focus on the 17-
25 age group.
    Lastly, the Army Medical Department has a process to ensure 
credentialing of medical treatment facilities (MTF) responsible for 
providing clinical experiences of students. Much of the accreditation 
responsibility rests with each MTF and includes ensuring that providers 
are credentialed based on age competency levels. Supporting 
documentation such as diplomas, licensing certificates, letters of 
recommendation, and proof of training are required. This requirement 
supports our declaration that our Soldiers and their Families are 
receiving the best treatment possible from qualified staff.
    Question. The Army and its integrated healthcare partners and 
providers are manned at 60% of the current mental healthcare need. 
PTSD, TBI, Mental and Behavioral Health are being treated in variant 
ways throughout the DOD, VA, and civilian health care systems. There 
are currently no mechanism to control the quality of care, certify the 
standardization of patient centric evidence-based best practices, and 
knowledge to ensure the integration of culturally competent care by 
Physicians and Allied Health Providers. Thus, the service member, their 
families, and our veterans are being sub-optimally screened, diagnosed, 
treated and managed by mental Healthcare Physicians and Allied Health 
Providers. The lack of core universal patient centric training is 
resulting in poor outcomes. For example, there are sub-populations of 
the military community that may be disproportionately impacted by PTSD, 
TBI, Mental and Behavioral Health conditions. It is critical to 
recognize that 46% of the Army's enlisted ranks are between 17-25 years 
of age. This age range is medically classified as adolescence (10-25 
years) and will require Mental Healthcare Physicians and Allied Health 
Providers to be uniformly trained in the age appropriate related care 
management. Does the military have providers trained to look at this 
age group? Does the military provide cultural competency training for 
its providers so that they can recognize cultural traits that impact 
the diagnosis of PTSD or TBI?
    Admiral Robinson's Answer. By providing decentralized, primary 
care-centric, and multi-disciplinary healthcare services, Navy 
Medicine's psychological health (PH) program reduces Mental Health 
stigma, establishes and supports evidenced-based best practices, and 
ensures culturally competent healthcare practices. Utilizing a 
Deployment Health, readiness-based model understandable to all service 
members irrespective of age, Deployment Health Clinic providers 
involved with warrior care are provided supplemental training to help 
reduce stigma, foster cultural tolerance, and offer evidenced-based 
practices. Navy Medicine does employ mental health providers 
specifically trained in child and adolescent care. Navy Medicine is 
profoundly aware of the additional challenges related to the healthcare 
needs of the 17-25 year age group--inclusive of higher suicide risk, 
motor-vehicular accident rate, and substance abuse predilection; and 
contributes regularly to these efforts through line-sponsored Cross 
Functional Teams. Fiscal Year 2008 saw the establishment of the Navy 
Operational Stress Control (OSC) program. Navy Medicine is actively 
supporting this line-owned program to build resilience and reduce 
mental health stigma across the broader Navy/Marine Corps culture, 
including various training programs that address age, ethnic and 
socioeconomic differences as well as various provider-specific training 
programs. Cultural Diversity is a CNO initiative. Navy Medicine 
augments these efforts in two ways: (a) Education and training for 
individual Sailors and Marines that normalizes MH care and appreciation 
of cultural diversity across the military and civilian population, and 
(b) education and training for healthcare providers that establishes 
evidence-based practices and supports cultural diversity.

    [Clerk's note.--End of questions submitted by Mr. Bishop. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

    Question. It is the Committee's understanding that there is a 
national shortfall of psychiatrists and other mental health providers.
    Is the Department of Defense (DoD) utilizing web-based clinical 
mental health resources to help compensate for this personnel 
shortfall?
    Answer. The DoD has several ongoing initiatives to address web-
based technologies. On June 1, 2009, TRICARE Management Activity (TMA) 
issued a contract modification to its three Managed Care Support 
Contractors, identifying a 60-day implementation timeline to institute 
the following requirements:
    <bullet>  Develop a 24/7 web-based educational and TRICARE employee 
assistance program counseling via interactive audio-visual 
telecommunications to Service members and their families; and,
    <bullet>  Develop a network of originating sites capable of 
providing telemedicine/telepsychiatry care.
    DoD is using web-based mental health resources to provide both pre-
clinical and clinical services and to ensure that technology is fully 
leveraged across the spectrum of care for mental health concerns. It is 
expected that such resources will augment the overall range of services 
in the Military Health System, and may help to compensate for 
shortfalls in clinical personnel at some sites. Resources such as 
afterdeployment.org, realwarriors.net, and MilitaryOneSource provide a 
range of ``pre-clinical'' psycho-educational, self-assessment, and 
self-care resources for warriors, veterans, and military families.
    TMA is revising its policy manual to reimburse network providers 
for clinical services using synchronous audio and visual technologies 
including web-based care. It is anticipated that this policy revision 
will increase the number of web-based clinical resources.
    Mental health providers within military medical treatment 
facilities are evaluating web-based services such as Defense Connect 
Online to provide clinical care between facilities. Currently, there 
are several initiatives underway to evaluate and expand this capacity, 
most of which are led by the National Center for Telehealth and 
Technology, a Center in the Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury.
    Question. What are the challenges in utilizing web-based clinical 
mental health resources relative to face-to-face visits with mental 
health professionals?
    Answer. Web-based clinical mental health resources can be either 
``pre-clinical,'' entailing educational support and stress- and other 
self-management tools (e.g., afterdeployment.org), or ``clinical,'' in 
which counseling services are rendered in real time by a credentialed 
provider. For web-based clinical applications, telemedicine is 
generally safe and efficacious but that telemental health delivered 
directly into a user's home raises concerns about safety and the 
management of potential high-risk behaviors. Traditional face-to-face 
counseling provides a relatively secure setting in which safeguards can 
be quickly implemented regarding such high-risk concerns.
    We have initiated a demonstration project to provide a telemental 
health component that includes real time clinical services delivered by 
a credentialed provider from the provider's location to a supervised 
originating site. The TRICARE Managed Care Support Contractors will 
establish multiple originating locations to allow users to access 
telemental health services.
    Question. How has the Department of Defense (DoD) utilized web-
based clinical mental health resources for Guard and Reserve soldiers?
    Answer. Resources such as afterdeployment.org, realwarriors.net, 
NationalResourceDirectory.org, and MilitaryOneSource provide a range of 
web-based ``pre-clinical'' psycho-educational, self-assessment, and 
self-care resources for warriors, veterans, and military families--
whether Active Duty, Guard, or Reserve. These resources are available 
24/7, linked to triage call centers, and are easily accessed.
    The TRICARE Management Activity issued a contract modification to 
the three Managed Care Support Contractors to institute 24/7 web-based 
educational and TRICARE employee assistance program counseling via 
interactive audio-visual telecommunications to Service members and 
their families, and to develop a network of originating sites capable 
of providing telemedicine/telepsychiatry care.

           Fiscal Year (FY) 2010 Defense Health Program (DHP)

    Question. Madame Secretary, David Chu, then Undersecretary of 
Defense for Personnel and Readiness, testified on the FY 2007 DHP 
budget that the projected total military health spending to pay for all 
health-related costs including personnel expenses, and the contribution 
to fund retiree health costs to be $39 billion. The FY 2010 budget 
request, including all costs associated with the DHP is $46.8 billion. 
This request is $7.8 billion above the estimate in 2007.
    What accounts for the increase?
    Answer. The Department's continued commitment to the care of its 
troops and their families accounts for the increase. This is most 
evident by adding baseline funding for traumatic brain injury and 
psychological health, wounded, ill, and injured, and enduring 
requirements for Overseas Contingencies Operations which have been 
historically funded by way of supplemental appropriations. Significant 
restoration and modernization funding was added to ensure energy 
efficient, state of the art military treatment facilities. 
Additionally, funding is increased to meet growing healthcare costs 
driven by greater demands for healthcare due to both increased users 
and higher utilization of benefits.
    Question. What does this figure include?
    Answer. The $46.8 billion reflects the Military Health System's 
total Unified Medical Program. The specific amounts which comprise this 
number are included in the table below. The DHP Appropriation includes 
Operation and Maintenance (O&M), Research, Development, Test, and 
Evaluation (RDT&E), and Procurement budget activities. Costs outside of 
the DHP include Military Construction (MILCON), Medicare Eligible 
Retiree Healthcare Fund (MERHCF), salaries for Military Personnel 
(MILPERS), and Base Realignment and Closure (BRAC).


                        [In millions of dollars]
------------------------------------------------------------------------
                                                               FY 2010
                       Appropriation                         President's
                                                                Budget
------------------------------------------------------------------------
O&M........................................................      $26,968
Procurement................................................          322
RDT&E......................................................          613
MILCON.....................................................        1,042
MERHCF.....................................................        9,104
MILPERS....................................................        7,672
BRAC.......................................................        1,076
                                                            ------------
    Total Cost of Military Healthcare......................       46,798
------------------------------------------------------------------------


     UNIFIED MEDICAL PROGRAM WITH NORMAL COST CONTRIBUTION LESS BRAC
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               FY 2010
                       Approp;riation                        President's
                                                                Budget
------------------------------------------------------------------------
O&M........................................................      $26,968
Procurement................................................          322
RDT&E......................................................          613
MILCON.....................................................        1,042
MERHCF Normal Cost Contribution............................       10,751
MILPERS....................................................        7,672
                                                            ------------
    Total Cost of Military Healthcare......................       47,368
------------------------------------------------------------------------

    Question. What factors are increasing the cost of the total 
program?
    Answer. From a Military Health System perspective, the major cost 
drivers increasing the cost of the DHP are increased users of the 
benefit, increased utilization by these users, and healthcare 
inflation. Simply put, TRICARE is an excellent healthcare benefit which 
is extremely cheap by any standard and satisfaction rates are very 
high. With the help of the Congress, we have significantly improved 
restoration and modernization, sustainment, and construction of 
facilities to provide world class healing environments for our wounded, 
ill, and injured, and invested substantially in increased staff to 
improve access. Finally, we have added significant research funding to 
our baseline request focused on the signature wounds of the current 
battlefield.
    Question. Were the pharmacy copayments assumed as well, even though 
in previous years the dollar totals have not been reached?
    Answer. The FY 2010 President's Budget, Private Sector Care (PSC) 
controls only assume that portion of pharmaceutical costs that the 
Department historically pays. In other words, PSC pharmaceutical costs 
reflect the drug costs less the copayments made by the beneficiaries.
    This question does not apply to the In-House Care Pharmacy program 
as beneficiaries are not required to make copayments for 
pharmaceuticals dispensed in military treatment facilities.

                       Military Healthcare System

    Question. The military medical services continue to adapt to the 
changing needs of military members and their families, but one of the 
major issues is recruiting and retention of qualified healthcare 
personnel. A problem faced in previous years was access to facilities 
and promptness of care.
    Can you please explain how each of you has made adjustments to 
address access to facilities and improve the care received?
    Ms. Embrey's Answer. We have established a network of private care 
providers to augment the MTF's capability and capacity around each 
military treatment facility (MTF). When an MTF cannot satisfy the 
demand for healthcare, it uses the established referral process to 
obtain timely care for TRICARE beneficiaries from private care sources. 
As a result of the combination of MTF and network healthcare resources, 
TRICARE is able to provide its beneficiaries timely access to care.
    LTG Schoomaker's Answer. The Army Medical Command (MEDCOM) has 
directed significant attention and effort over the last year to 
improving access to care. The Surgeon General published an Access to 
Care (ATC) Campaign Plan containing eleven focus areas that cover a 
wide spectrum of ATC and customer service issues.
    Increasing access to enrolled beneficiaries is a specific focus 
area. This initiative benefits all enrolled beneficiaries, to include 
new recruits, potential re-enlistees, and their families. An emphasis 
on enrollment capacities and patient assignment to Primary Care 
Providers by name ensures that all beneficiaries enrolled to an MTF are 
assured timely medical care from their Primary Care Manager using the 
most appropriate healthcare venue: ``The right provider, at the right 
time, in the right venue.'' Ensuring our MTFs' capabilities align with 
the number of beneficiaries assigned improves access by reducing over-
enrollment in inadequately staffed facilities. Our goal is to ensure 
each MTF tracks daily to ensure they have Primary Care Providers 
available to meet our enrolled beneficiaries' needs. MTFs are required 
to offer beneficiaries a referral to the TRICARE civilian network when 
the MTF is unable to provide care within access to care standards. 
Another key and closely related element is reducing administrative 
burdens on health care providers, to ensure they are available for 
patient care. MEDCOM is also increasing beneficiary awareness and 
understanding of the various ways to obtain care and the processes 
involved, including how to obtain appointments by phone and via the 
Internet (TRICARE On-Line).
    Admiral Robinson's Answer. Navy Medicine has revised its Access to 
Care (ATC) Strategy to provide Medical Treatment Facilities (MTFs) and 
clinics a framework to implement and sustain a systemic, proactive, and 
responsive access plan that meets or exceeds beneficiary expectations 
and ATC standards. The ATC strategy and Access to Care Management 
Policy for Navy Medicine Military Treatment Facilities are designed to 
ensure the most optimal patient and family-centered care. With strong 
senior leadership and support, the policy articulates roles, 
responsibilities, and expectations for all of Navy Medicine.
    LTG Roudebush's Answer. The Air Force Medical Service (AFMS) is in 
the midst of deployment of a Family Health Initiative model to improve 
medical operations for providers and beneficiaries. The model provides 
greater access for patients, improved Primary Care Manager (PCM) 
continuity, and a simplified process for appointments. This model has 
lowered the number of enrolled beneficiaries from 1,500 per PCM to 
1,250 to increase continuity, quality of health care, and to retain 
greater numbers of family practitioners. Additionally, the AFMS has 
streamlined the hiring of contract and GS providers to increase the 
supply of appointments to its beneficiaries.
    The AFMS has developed a set of comprehensive metrics. Measures 
address access to care for TRICARE beneficiaries, to include Wounded 
Warriors and their families, to determine if services at Air Force 
Military Treatment Facilities (MTFs) are provided within 
congressionally enacted access standards. The access standards are 1 
day for urgent care, 7 days for routine appointments, and 28 days for 
specialty care.
    If capacity does not exist or the care cannot be provided within 
the access to care standards in accordance with 32 CFR 199.17, AFMS 
MTFs are directed to refer their enrollees to the network for not only 
specialty care, but for primary, urgent and routine care. To ensure 
that this arrangement is running optimally, the Air Force Surgeon 
General has requested the Air Force Audit Agency audit primary care, 
urgent and routine network care referrals in Fiscal Year 2010 to see if 
network capacity is available and to determine if any inefficiency in 
the process can be found.
    Question. How can this Committee help the Military Health System 
remain vital?
    Ms. Embrey's Answer. This Committee has been extremely helpful in 
providing direction and resources to the Defense Health Program (DHP) 
for improvements to facilities and access, enhancements to healthcare, 
and case management for our wounded, ill, and injured Service members, 
as well as enhancements to our baseline research efforts. We are 
extremely grateful for the marvelous support this committee has 
provided.
    The largest problem we face is the escalating cost of the 
healthcare benefit and its impact to the Department's other competing 
missions. The current benefit structure is a bargain, and includes no 
mechanism to maintain balance between the Government and the 
beneficiary share of healthcare costs. We must engage in open dialogue 
with the Congress and explore options to restore the fiscal balance to 
the DHP and reduce the burden of healthcare costs to the Department.
    LTG Schoomaker's Answer. The Committee has been exceptionally 
generous and supportive in recent years. That generosity has enabled 
significant improvements in our Service Medical Departments. The most 
important thing the Committee can do is to continue to recognize and 
support the value that robust Service Medical Departments bring to the 
Department of Defense and the Nation. Capable Service Medical 
Departments are essential for promoting the health and optimal clinical 
outcomes for our beneficiaries, recruiting and retaining medical 
personnel, as well as training and sustaining essential skills. Robust 
Service Medical Departments produce strong and ready military forces in 
support of the Nation and optimize the care, rehabilitation, and 
transition of our wounded, ill, and injured Soldiers. Specifically, to 
remain robust we must have the resources necessary to invest in 
infrastructure and human capital in order to generate the comprehensive 
healthcare capacity required to meet the needs and expectations of the 
Department and our beneficiaries.
    Recent investment in facility infrastructure has been without 
precedent. However, additional funding in facility renovation and 
modernization, information technology infrastructure, capital equipment 
and Military Construction (MILCON) is still beneficial and necessary. 
Almost a third of Army hospitals are over 50 years old, and another 
third are 25-50 years old. They require continued renovation and 
modernization to operate effectively. Our information technology 
infrastructure needs to keep pace with the technology we employ in 
cutting edge healthcare. We must have the procurement and operating 
funds necessary to equip our new facilities and recapitalize equipment 
beyond its useful life. Our older hospitals must be replaced because 
they cannot be effectively renovated to the outpatient based healthcare 
delivery model used today. The recent increase in the medical MILCON 
program significantly addressed some of our pressing needs. We also 
continue work towards recapitalizing medical clinics, dental clinics, 
medical research and force protection type facilities (blood 
processing, preventive medicine, etc).
    Healthcare relies almost completely on skilled people to deliver a 
service. To attract and retain the people we need we must invest in 
human capital. We must offer people rewarding work in a safe and 
professional environment. We must adequately train and compensate them. 
Today there is keen competition in most markets for the highest quality 
uniformed, civil service, and contract medical-nursing professionals, 
administrative staff (such as contracting officers, safety and surety 
experts, technical specialists and the like), and scientists. We must 
have the funding available to offer competitive wages as well as 
civilian and military incentives in the form of recruiting and 
retention bonuses, scholarships, and loan repayments. Funding the 
authorized civilian pay raise is one critical action in this area.
    A robust Service Medical Department not only delivers healthcare to 
the sick or injured, it also provides extensive and effective health 
promotion and prevention services. Attempts to resource the Services 
only for coded healthcare payable by commercial sector insurance 
companies threatens the resources necessary to provide the 
comprehensive health programs that our military requires. We need 
continued support to expand the comprehensive health and Soldier 
fitness programs that truly strengthen our Army.
    We must also continue to recognize the effects of protracted 
overseas contingency operations on our military. The demand for and 
utilization of healthcare services is on the rise. The Service Medical 
Departments must be funded to build the capacity necessary to meet that 
demand within reasonable access standards while improving quality and 
patient satisfaction. Managing the care of our beneficiaries within the 
Service Medical Departments is the best value option for the long term.
    Carry over authority is a key provision that provides much needed 
flexibility to meet changing demands in the medical community. 
Supporting this authority at no less than 2% of appropriated amounts 
would be of significant benefit. The carry over authority serves to 
help us optimize resources in support of new programs such as Traumatic 
Brain Injury, Brain Health, Warrior Transition and Care Program, Army 
Substance Abuse Program, and other Wounded Ill and Injured initiatives.
    Admiral Robinson's Answer. One of the major challenges facing Navy 
Medicine, and the Military Health System in general, is meeting the 
operational wartime requirements while at the same time providing a 
well-deserved health care benefit within the funding constraints of the 
Defense Health Program. Since the inception of the TRICARE program, 
overall cost-sharing elements have remained the same in spite of 
increasing health care costs and expanding benefits. To address these 
challenges, the Department of Defense (DoD) needs congressional 
authority to change fees and co-payments in an effort to maintain both 
a generous health care benefit and a fair and reasonable cost-sharing 
arrangement between beneficiaries and the DoD.
    Additionally, Navy Medicine welcomes the Committee's continued 
support in maintaining the right workforce to deliver medical 
capabilities across the full range of military operations, through the 
appropriate mix of accession, retention, education, and training 
incentives.
    LTG Roudebush's Answer. People are our most critical asset and it 
is, therefore, imperative that the Air Force Medical Service recruit 
and retain the very best. The Health Professions Scholarship Program 
(HPSP) is our most successful recruiting tool, and we are seeing early 
positive trends in retention from our other financial assistance and 
pay plans. The Fiscal Year 2009 Defense Appropriations bill 
appropriated of $13 million to support the Air Force Reserve portion of 
HPSP. This appropriation was critical in maintaining a viable program 
this year.
    We also appreciate the tremendous support provided to modernize our 
aging Air Force medical infrastructure. Your continued strong support 
of our recapitalization and sustainment, restoration and modernization 
initiatives will allow us to deliver quality care in state-of-art 
facilities.
    Question. Are there any claims or reimbursement issues/delays 
relating to the beneficiary population? If so, please explain the 
problems and what you are doing to rectify the situation.
     Ms. Embrey's Answer. There are no claims processing issues or 
delays relating to the TRICARE beneficiary population. The TRICARE 
Managed Care Support Contracts include a requirement for compliance 
with stringent claims processing accuracy and timeliness standards. The 
contractors provide guarantees that they will meet these standards and 
are subject to financial penalties for falling short. They have 
consistently operated at or above the standards, placing TRICARE among 
the leading health plans in claims processing performance.
    A key principle of the Department of Defense's activity in 
reimbursement design has been the protection of access to services. The 
statute requires that TRICARE reimbursement rates be determined, to the 
extent practicable, in accordance with the same reimbursement rules as 
apply to payments for similar services by Medicare. In the following 
circumstances waivers of this requirement are permitted by statute and 
used to ensure adequate access to care:
    <bullet>  Network Waivers--If it is determined that higher rates 
are necessary to ensure availability of an adequate number and mix of 
qualified network providers, TRICARE can increase reimbursement to the 
lesser of (a) an amount equal to the local fee for service charge or 
(b) up to 115 percent of the CHAMPUS Maximum Allowable Charge.
    <bullet>  Locality Waivers--If it is determined that access to 
specific healthcare services is severely impaired, higher payment rates 
can be applied to all similar services performed in a locality. Payment 
rates can be established through the addition of a percentage factor to 
an otherwise applicable payment amount, by calculating a prevailing 
charge, or by using another Government payment rate.
    LTG Schoomaker's Answer. The Office of The Army Surgeon General 
supports expedited claims processing under the TRICARE program. Timely 
claims processing is essential to ensure provider willingness to 
participate in the TRICARE program. Further, this has a relational 
impact on beneficiary access to civilian care. We are not aware of any 
issues or delays in the claims reimbursement process. Furthermore, 
there continues to be multiple sources of information to assist 
beneficiaries in this process. The TRICARE web site has a separate 
claims information web page where beneficiaries can obtain relevant 
information and check the status of a claim. DoD continues to 
administer the Debt Collection Assistance Officer (DCAO) program which 
helps beneficiaries needing assistance to resolve claims issues/
problems.
    Admiral Robinson's Answer. Navy Medicine is committed to ensuring 
beneficiary claims are properly and promptly processed. Through the 
Beneficiary Counseling and Assistance Coordinator (BCAC) and Debt 
Collection Assistance Officer (DCAO) Programs, we have made great 
progress with addressing claims and reimbursement issues and delays 
with the support of our Managed Care Support Contractors. A challenge 
remains with enrollment and eligibility of our Reserve Component (RC) 
members when activated and de-activated. Gaps in coverage due to the 
Service members' lack of understanding of the benefit structure, and 
their lack of timely enrollment can result in ``gaps'' in coverage 
which ultimately result in unpaid claims. Navy Medicine continues to 
promote education and awareness through the BCAC, DCAO as well as 
information shared during Transition Assistance Program (TAP) classes 
which are provided to all exiting Service members.
    LTG Roudebush's Answer. We are not aware of claims or reimbursement 
issues that would negatively affect a beneficiary's access to care in 
the Continental U.S. TRICARE Private Sector Claims processing has 
improved substantially over the past several years. With few 
exceptions, the vast majority of TRICARE network claims are processed 
and paid within 30 days or less. The very few that are not paid within 
30 days are usually due to incorrect personal information on the 
beneficiary's claim form, or involve claims that may potentially 
involve third party liability payers and thus require more thorough 
legal reviews, or are high dollar claims which require medical review 
due to their complexity.
    At our overseas locations where there is no TRICARE network, we are 
working with the TRICARE Management Activity on refining host-nation 
medical claims payments to overseas providers to ensure good 
relationships with those healthcare providers who support us with a 
steady-state continuum of care for our forces and their families 
stationed overseas.
    Question. What has been done to increase efficiencies in healthcare 
delivery?
    Ms. Embrey's Answer. Efficiencies have been achieved in the 
delivery of healthcare in the direct care and purchased care sectors 
through a variety of mechanisms. These include leveraging information 
technology, enhancing the pharmacy program, improved customer service 
and claims processing, and partnering with our Managed Care Support 
Contractors (MCSCs) to improve business processes. Benefits achieved 
from each of these are discussed below.
Information Technology
    TRICARE has improved its health information technology systems to 
facilitate the rapid exchange of health information. These systems are 
designed to improve data management and to streamline applications and 
processes, thereby making access to services and benefits for our 
beneficiaries easier, faster, and more secure. Examples include: secure 
electronic health records (document medical conditions, prescriptions, 
diagnostic tests); online enrollment and information updates; online 
drug comparisons with the Uniform Formulary Search Tool (lists 
medication availability and alternatives, compares costs, provides drug 
information); and, automated patient safety with the Pharmacy Data 
Transaction Service (tracks all prescriptions whether filled through a 
Military Treatment Facility, network, or mail order pharmacy, reducing 
the likelihood of adverse drug to drug interactions or duplicate 
treatments).
Pharmacy Program Enhancements
    TRICARE fills more than 100 million prescriptions annually for the 
6.6 million beneficiaries who use their pharmacy benefit. The TRICARE 
Mail Order Pharmacy (TMOP) is the largest commercial mail-order account 
within the pharmacy industry. It takes only seven minutes for a 
beneficiary to telephonically convert a prescription from the retail to 
mail order pharmacy system. Although beneficiaries with other health 
insurance (OHI) for prescription drugs must first file with their 
primary payer, once completed, their claim can be filed electronically 
with TRICARE when using a TRICARE retail network pharmacy. Due to an 
online, real-time coordination of benefits (COB) program, there is no 
longer a need to file a paper claim. The COB program is managed by 
Express Scripts and other Department of Defense (DoD) contractors. 
Express Scripts is one of the nation's largest Pharmacy Benefit 
Management companies. The COB program simplifies the reimbursement 
process for beneficiaries who have drug benefit coverage with multiple 
sources and saves DoD an estimated $1 million annually in claims 
processing costs. The implementation of the on-line COB program allows 
pharmacies to submit both primary and secondary coverage online for 
TRICARE beneficiaries, resulting in the beneficiary incurring little or 
no out-of-pocket expenses. Prior to the COB program, beneficiaries 
would have to pay for expenses not covered by their primary health 
insurance and then file a manual claim after the fact for reimbursement 
under TRICARE for their secondary coverage.
    Although TMOP and its predecessor, the National Mail Order 
Pharmacy, have been available to DoD beneficiaries since the late 
1990s, they have never been heavily used. TMOP offers benefits to both 
DoD and its beneficiaries since DoD negotiates prices that are 
considerably lower than those for retail drugs and the beneficiary 
receives up to a 90-day supply for the same copayment as a 30-day 
supply at a retail pharmacy. Concerned that beneficiaries were not 
taking advantage of a good benefit, DoD launched a marketing campaign 
in February 2006 to increase beneficiary awareness of the benefits 
offered by the TMOP. As a result, utilization increased from 26.2 
percent in Fiscal Year (FY) 2006 to 30 percent in FY 2007.
Customer Service and Claims Processing
    The number of claims processed continues to increase, reaching more 
than 158 million in FY 2007. The processing of retained claims for the 
past six years continues to exceed the TRICARE performance standard of 
95 percent retained claims processed in 30 days.
    TRICARE continues to work with providers and claims processing 
contractors to increase processing of claims electronically, rather 
than in mailed, paper form. Electronic claims submissions use more 
efficient technology requiring less transit time between the provider 
and payer, are usually less prone to errors or challenges, and usually 
result in prompter payment to the provider. The TRICARE Regional 
Offices have been actively collaborating with the MCSCs to improve the 
use of electronic claims processing.
    The percentage of non-TRICARE for Life claims processed 
electronically for all services increased to more than 85 percent in FY 
2007, up 4 percentage points from the previous year, and more than 27 
percentage points since FY 2004.
    The congressionally mandated TRICARE Encounter Data (TED) record 
system collects, verifies, and tracks billions of dollars annually in 
purchased care claims and encounter data for the Military Health 
System. TEDs are submitted by TRICARE claims processing contractors in 
batches for processing, and volumes frequently exceed more than one 
million records a day. TED's automated prompt processing of purchased 
care claims data records is a measurable incentive for more health 
providers to accept and treat over nine million TRICARE beneficiaries. 
TED helps ensure that purchased care claims reimbursement is faster and 
more efficient by tracking claims immediately after submission, posting 
payments and denials, and systematically following up on unpaid claims. 
The result is shorter billing cycles and reimbursements paid within 30 
days, one of the fastest claims processing cycles in the healthcare 
industry. In FY 2006, nearly 177 million TED records were processed for 
an estimated Government expenditure of more than $13 billion.
Electronic Surveillance System for Early Notification of Community-
        based Epidemics (ESSENCE) Medical Surveillance
    DoD has developed an improved version of ESSENCE, a Web-based 
syndromic surveillance application, to examine DoD healthcare data for 
rapid or unusual increases in the frequency of certain syndromes. An 
increase in frequency may be a sign of diseases occurring during 
possible outbreaks of communicable illnesses or from the possible use 
of biological warfare agents. Earlier identification of a disease 
outbreak may allow for an earlier intervention and a reduced incidence 
of illness.
    LTG Schoomaker's Answer. Of the three Services, the Army delivers 
healthcare most efficiently. In fiscal year 2008, the Army Medical 
Department (AMEDD) delivered more than 49% of the outpatient and 53% of 
the inpatient healthcare provided by the DoD Service Medical 
Departments with only 43% of the funding. Additionally, the AMEDD had 
the lowest cost per disposition and lowest cost per visit of the three 
services, 17% and 13% below the service averages respectively. The 
AMEDD continues to concentrate on improving access to healthcare and 
was able to provide over 1.1 million more outpatient encounters to our 
beneficiaries in FY08 than we did just two years prior. In the past 
five years we have achieved an 11.6% increase in total healthcare 
output. That represents care that did not go to the TRICARE contractor 
but instead remained in the direct care system where we were able to 
continue providing high quality, well-managed healthcare documented in 
our electronic health record.
    To help achieve efficiency, MEDCOM uses the Balanced Scorecard 
strategic management system as the principal tool by which to guide and 
track the Command to improve operational and fiscal effectiveness, and 
better meet the needs of patients, customers, and stakeholders. One of 
our strategic objectives is to Optimize Resources and Value. An 
initiative to help achieve this is the implementation of Lean Six Sigma 
(LSS). Our command-wide LSS Program is a leader among the Army and 
fuels continuous performance improvement through data-driven decision-
making and strategically-aligned project execution.
    Additionally, we have implemented a process that aligns resources 
to outputs and outcomes to incentivize efficient and effective 
operations. This methodology is known as the Performance Based 
Adjustment Model (PBAM) and has recently won recognition from Army as a 
best practice. The PBAM provides financial incentives for improvements 
in access, efficiency, healthy outcomes, and patient satisfaction. It 
has contributed not only to efficiency gains but also to quality gains. 
Since October 2006 the percentage of our beneficiary population that 
meets the Healthcare Effectiveness Data and Information Set (HEDIS) 
screening criteria for the nine preventive medicine HEDIS metrics has 
steadily climbed from less than 29% to greater than 48%. Pneumococcal 
vaccinations for the over-65 beneficiaries alone increased from less 
than 24% to greater than 80%. The AMEDD continues to seek effective 
strategies and incentives that optimize resources and value.
    Admiral Robinson's Answer. Navy Medicine issued revised policy on 
Access to Care, ``Navy Medicine Policy 09-004-Access to Care Management 
Policy for Navy Medicine Military Treatment Facilities (MTFs).'' This 
policy provides tools to help MTF Commanding Officers ensure efficient 
MTF business processes that support access to care (ATC) are developed 
and implemented. These business processes are designed to identify and 
eliminate barriers to accessing care, and optimize patients' ability to 
get needed care in a timely manner. This policy directs MTF Commanding 
Officers to implement consistent business processes and guidance 
endorsed by all the Surgeons General. The policy establishes 
standardized roles, responsibilities, definitions, and guidance for 
implementing, sustaining, and managing ATC throughout Navy Medicine. 
The implementation of the processes and procedures in the policy are a 
central component of MTF access processes.
    LTG Roudebush's Answer. The Air Force Medical Service is making 
continuous progress in improving the efficiency of our healthcare 
delivery through partnerships between our medical treatment facilities 
and Veterans Affairs (VA) facilities; and also through vigorous 
activities to enhance processes in our hospitals and clinics.
    We continue to add new joint initiatives with the VA, sharing 
facilities, specialty services to improve access and provide a broader 
range of services for both beneficiary populations. These initiatives 
are good for the patients and help ensure our specialists provide the 
full range of clinical care needed for their own currency. We meet 
regularly with our VA counterparts through the Department of Defense 
Healthcare Executive Council to review new initiatives.
    In October 2008, we stood up the Air Force Medical Operations 
Agency (AFMOA) in San Antonio, Texas to consolidate support and 
oversight to healthcare operations for all 75 Air Force hospitals and 
clinics. A prime driver for this action was the intent to enhance 
efficiency through standardized processes in our healthcare operations 
aimed at improving quality of care and getting the most clinical 
production from resources. AFMOA is now applying efficiency tools such 
as Lean and Six Sigma in two major Air Force-wide initiatives: the 
Family Health Initiative and the General Surgery Currency/Operating 
Room Efficiency Project.
    The Family Health Initiative reconfigured primary care staffing and 
established standard procedures that are improving access, improving 
continuity of care and enhancing coordination of care for patients with 
complex health disorders. This initiative implements the Patient 
Centered Medical Home concept in Air Force Family Health Clinics. 
Implementation began in 2008 and will be completed at all Air Force 
medical treatment facilities by 2012.
    The General Surgery Currency/Operating Room Efficiency Project 
developed a standard approach to improving access for surgical 
consultations and increasing the utilization of operating rooms. This 
project employs innovative metrics to monitor progress in maximizing 
use of the clinical capacity in our hospitals. The project will improve 
access for patients needing surgical care while also ensuring the 
clinical currency of surgeons, critical care physicians, nurses and 
technicians needed for aeromedical evacuation and deployed trauma care.
    AFMOA is currently considering other projects focused on quality, 
efficiency and clinical currency. A review of Air Force Medical Service 
manpower and funding standards is under way to provide the tools to 
optimally match distribution of resources to requirements driven by the 
mission and demand for healthcare. We will use the results of this 
review to strategically provide resources at locations where healthcare 
demand needs to be met, while providing clinical currency opportunities 
needed for the readiness of our physicians, nurses, and technicians.
    Our medical treatment facilities and AFMOA maintain strong working 
relationships with their Army and Navy counterparts and the TRICARE 
Regional Offices to ensure a coordinated, unified effort to provide 
services in each location.

                      Navy Specific Medical Issues

    Question. Does the President's Budget submission for fiscal year 
2010 reflect what you need for combat casualty care?
    Answer. Yes, based on current requirements. A portion of funding 
that had been provided via Supplementals has been added to our program 
of record budget control, beginning in Fiscal Year 2010. If 
requirements increase in the future, additional funding may be required 
to continue the same level of patient care.
    Question. How has the Navy adjusted its medical end-strength, both 
operationally and for beneficiaries, to account for the recent growth 
in Marine Corps?
    Answer. Marine Corps (Blue in Support of Green) Operational End 
Strength Plus Up by Medical Corps and Fiscal Year:

                                               ANNUAL GROWTH BY FY
----------------------------------------------------------------------------------------------------------------
                Designator/Rate                    FY07       FY08       FY09       FY10       FY11      Total
----------------------------------------------------------------------------------------------------------------
Medical Corps.................................         17         17        116         13        122        155
Dental Corps..................................  .........         18          6  .........          6         30
Med Svs Corps.................................          2          7         23          4          7         43
Nurse Corps...................................  .........  .........          6          1          9         16
Subtotal ``O''................................          9         32         51          8         44        144
Subtotal ``E'' (HM)...........................         68        356        169         27        144        764
                                               -----------------------------------------------------------------
    Total.....................................         77        390        220         35        188        908
----------------------------------------------------------------------------------------------------------------


                                            CUMMULATIVE GROWTH BY FY
----------------------------------------------------------------------------------------------------------------
                     Designator/Rate                          FY07       FY08       FY09       FY10       FY11
----------------------------------------------------------------------------------------------------------------
Medical Corps............................................          7         14         30         33         55
Dental Corps.............................................          0         18         24         24         30
Med Svs Corps............................................          2          9         32         36         43
Nurse Corps..............................................          0          0          6          7         16
Subtotal ``O''...........................................          9         41         92        100        144
Subtotal ``E'' (HM)......................................         68        424        593        620        764
                                                          ------------------------------------------------------
    Total................................................         77        465        685        720        908
----------------------------------------------------------------------------------------------------------------

                                                                                                       [GRAPHIC] [TIFF OMITTED] T6286A.090
                                                                                                       
                                                                                                       [GRAPHIC] [TIFF OMITTED] T6286A.091
                                                                                                       
                                                                                                       [GRAPHIC] [TIFF OMITTED] T6286A.092
                                                                                                       
                                                                                                       [GRAPHIC] [TIFF OMITTED] T6286A.093
                                                                                                       
                         In-House Medical Care

    Question. The Department has been using the ``Efficiency Wedge'' to 
encourage the Services to treat more patients at the military treatment 
facilities (MTFs). This practice withholds some healthcare funding 
centrally. Funds are released based on the Services' success in 
achieving throughput at their MTFs.
    Please describe the Department of Defense budgeting practice known 
as the ``efficiency wedge.''
    Answer. A valuation study based on workload produced by the MTFs in 
Fiscal Year (FY) 2003 revealed that the cost to provide services in the 
direct care system generally exceeds the cost to purchase the care 
through the Private Sector Care network. To contain costs, a negative 
wedge was removed from Service budgets and was phased in over the 
period FY 2005 to FY 2009, based on each Service's relative efficiency. 
The intent was for the Services to carefully analyze the costs to 
produce care versus purchase care from the private sector and shape the 
care delivered in the direct care system based on the most cost 
effective delivery method.
    The primary reason our direct care facilities exist is to provide 
healthcare training for medical personnel who must be prepared to 
deploy anywhere in the world to provide medical support to our Armed 
Forces. Thus, inherently there will be significant inefficiency in such 
a system. Each year, the Service Surgeons General sought relief from 
Congress for the negative wedge included in their respective programs. 
The Congress consistently restored significant amounts of the wedge 
through the appropriations process. The Department understood 
Congressional guidance and, effective with the FY 2010 budget request, 
fully restored all funding removed based on inefficiency.
    Question. What issues arise from these efficiencies? Please be 
specific.
    Answer. The removal of the wedge was intended to align quality care 
with the most cost-effective venue, whether that is in the military 
treatment facilities (MTFs) or through the Managed Care Support 
Contract network. Achievement of that goal requires buy-in and precise 
analytical work. Such buy-in was never fully achieved and, as the 
Operational Tempo of current operations increased, along with the 
casualties from ongoing operations, efficiency became a very low 
priority. There were claims that the wedge forced the Services to 
remove capacity, which resulted in care shifting from the MTFs to the 
managed care network. An opposing view would be that the beneficiary 
chose to receive care through the managed care network and has freedom 
of choice since 2004 when the requirement to obtain a non-availability 
statement from the MTF to receive care through the network was removed.
    Question. Does this hinder your budgeting process?
    Answer. Health Affairs' role has always been to ensure the taxpayer 
receives maximum value for their contribution to the Department of 
Defense. In principle, the efficiency wedge was appropriate to match 
resources to the value of care produced in the Direct Care System. As 
workload declines and facilities are downsized or closed, the 
responsible action in the best interest of the American taxpayer is to 
align the funding where the demand for healthcare exists, either in the 
military treatment facilities or in the private sector.
    Question. Is the amount provided in the budget request sufficient 
for the Services?
    Answer. The funding requested in Fiscal Year 2010 is sufficient for 
all three Services. Each of the Surgeons has testified in support of 
this statement.
    Question. How else have you been increasing workload at the 
military treatment facilities?
    Answer. Comparing overall workload between Fiscal Year (FY) 2003 
and FY 2008, the Army has increased workload while the Navy and Air 
Force have declined. However, each Service has committed to increasing 
their overall productivity by reconfiguring or adding infrastructure, 
optimizing provider/support staff mix, and working to recapture 
workload where it makes financial and clinical sense. As their workload 
increases, they are reimbursed financially via the Prospective Payment 
System in which additional workload is rewarded with additional 
funding.
    Question. Has lack of personnel or infrastructure played any role 
in decreased workload?
    Answer. Personnel deployments, unavailability of suitable 
replacements, and hiring lag all adversely affect workload. 
Infrastructure limitations may also hinder workload productivity. 
However, the Services continue to work aggressively to overcome these 
challenges and increase workload where it makes clinical and financial 
sense.
    One way we attempt to mitigate the impact is by providing 
additional funding. In Fiscal Year (FY) 2008, we provided roughly $207 
million via the Overseas Contingency Operations Supplemental 
Appropriations to hire contractors and temporary civilians for medical 
backfill, to replace deploying members. In FY 2009, we anticipate 
providing up to $224 million in such funding. Congress and the 
Department have, in recent years, committed substantial additional 
funds to sustainment, restoration, and modernization which offered the 
Services an opportunity to improve their infrastructure. Additional 
workload is also rewarded with additional funding via the Prospective 
Payment System which provides resources that can be used to modify or 
increase available space.
    Question. Has the funding Congress provided for Facilities, 
Sustainment, Restoration and Modernization (FSRM) increased the ability 
of the medical facilities writ large increase workload capacity?
    Answer. FSRM funding provided to the Defense Health Program has 
enabled significant repair, restoration, and modernization of our aging 
military treatment facilities. This work has generally facilitated 
workload capacity, improved functionality, and enhanced the appearance 
and aesthetic environment at many of our locations. Ultimately, the 
improvements are accomplished to improve patient outcomes, enable 
better clinical performance, and generally enhance our beneficiaries' 
healthcare experiences.

           Evaluating the Condition of Healthcare Facilities

    Question. What have you done to evaluate the quality of medical 
care being provided at medical treatment facilities?
    Ms. Embrey's Answer. We have a robust mechanism to ensure the 
quality of healthcare delivered in our military treatment facilities 
(MTFs). We utilize nationally recognized quality metrics to continually 
assess the care provided and to identify opportunities for improvement 
in both the inpatient and outpatient settings. All MTFs are required to 
maintain accreditation by an approved healthcare accrediting 
organization. The Joint Commission and Accreditation Association for 
Ambulatory Health Care survey the MTFs to meet this requirement. 
Additionally, MTFs are inspected through specific program 
accreditations/certifications such as blood bank, laboratory, and 
mammography. These accreditation and certification processes facilitate 
our ability to ensure our performance is consistent with national 
civilian healthcare standards.
    We are involved in a number of national initiatives focused on 
healthcare quality, including the Centers for Disease Control and 
Prevention National Healthcare Safety Network, National Surgical 
Quality Improvement Program, National Perinatal Information Center, and 
the Agency for Healthcare Research and Quality (AHRQ) quality and 
patient satisfaction indicators. In collaboration with AHRQ, we 
developed and nationally disseminated TeamSTEPPS, an evidence-based 
teamwork system aimed at optimizing patient outcomes by improving 
communication and teamwork skills among healthcare professionals.
    Clinical subject matter experts from the Department of Veteran 
Affairs and the Department of Defense work collaboratively to develop 
and maintain current clinical practice guidelines based on ever 
evolving scientific evidence. Clinical quality studies are conducted 
annually through a contract with a civilian organization to assist us 
with the assessment and improvement of the care we provide. In addition 
to the system-wide quality activities noted, each MTF and parent 
Service monitors the quality and safety of healthcare delivered in our 
MTFs. Information from the MTFs is shared via the Service 
Representatives on established collaborative working groups and forums. 
This infrastructure is designed to ensure maximum communication of 
quality related information and knowledge exchange.
    LTG Schoomaker's Answer. We have a robust mechanism to ensure the 
quality of healthcare delivered in our military treatment facilities 
(MTFs). We use nationally recognized quality metrics to continually 
evaluate the care provided and to identify opportunities for 
improvement in both the inpatient and outpatient settings. All MTFs are 
required to maintain Joint Commission accreditation. Additionally, MTFs 
are inspected through specific program accreditations/certifications 
such as blood bank, laboratory, and mammography. These accreditation 
and certification processes facilitate our ability to ensure our 
performance is consistent with national civilian healthcare standards. 
We are involved in a number of national initiatives focused on 
healthcare quality including the Centers for Disease Control and 
Prevention National Healthcare Safety Network, National Surgical 
Quality Improvement Program, National Perinatal Information Center, and 
the Agency for Healthcare Research and Quality (AHRQ) quality and 
patient satisfaction indicators. In collaboration with AHRQ, we 
developed and nationally disseminated TeamSTEPPS, an evidence-based 
teamwork system aimed at optimizing patient outcomes by improving 
communication and teamwork skills among health care professionals. The 
Army Medical Department serves as the Department of Defense (DoD) lead 
for the development of evidence based clinical practice guidelines in 
collaboration with the Department of Veterans Affairs. Clinical quality 
studies are conducted annually through a DoD contract with a civilian 
organization to assist us with the assessment and improvement of the 
care we provide. In addition to the system-wide quality activities 
noted, each MTF monitors the quality and safety of healthcare delivered 
in our MTFs. Information from the MTFs is reported to Headquarters, 
Army Medical Command and shared with the other Services through 
Military Health System level quality committees. This infrastructure is 
designed to ensure maximum communication of quality related information 
and knowledge exchange.
    Admiral Robinson's Answer. Navy Medicine's Quality Assurance system 
provides continuous monitoring of the quality of healthcare delivered 
in our military treatment facilities (MTFs) by using nationally 
recognized quality metrics for assessment of the care provided and 
identification of opportunities for improvement. Navy Medicine actively 
participates in DoD sponsored national initiatives including the 
Centers for Disease Control and Prevention National Healthcare Safety 
Network and the National Perinatal Information Center.
    In addition, all Navy Medicine's hospitals and clinics are 
evaluated using the same Joint Commission (TJC) standards as US 
civilian hospitals. TJC focuses on improving the safety and quality of 
healthcare provided to the public by accrediting healthcare 
organizations and offering healthcare improvement services. Navy 
hospitals and clinics are accredited, while individual healthcare 
providers are licensed and certified. As active participants in TJC 
accreditation process, we embrace TJC standards that focus on 
maintaining the clinical skills of our providers. TJC standards include 
the Focused Provider Performance Evaluation (FPPE) and Ongoing Provider 
Performance Evaluation (OPPE) programs.
    To maintain an infrequently used skill, a provider may be assigned 
to another facility for temporary duty where the patient volume and MTF 
capacity and capability exist. In the event that a specific medical 
procedure cannot be safely supported with the required staff and 
resources at a facility, clinical privileges to perform that procedures 
will not be granted to the provider and the medical procedure will not 
be performed.
    Upon a provider's transfer to another MTF, the provider 
participates in FPPE to assure clinical competency. Navy Medicine 
quality scope is broad and includes: partnering with external 
organizations that evaluate Navy Medicine's clinical programs; 
maintaining robust internal programs that focus on risk management, 
patient safety and patient advocacy; establishing personal 
relationships with each patient who becomes a vital member of the 
health care team; and facilitating continuing education efforts for all 
staff members.
    LTG Roudebush's Answer. The Air Force Medical Service (AFMS) uses 
multiple measures and agencies to evaluate and sustain our high quality 
of medical care. Overall quality is assessed through National 
Accreditation Agencies--The Joint Commission (TJC) and the 
Accreditation Association for Ambulatory Health Care. These two 
agencies validate our compliance with clinical quality assurance and 
allow comparison with civilian healthcare agencies. Second, we 
participate in several national initiatives including Centers for 
Disease Control and Prevention, The National Surgical Quality 
Improvement Program, the National Perinatal Information Center and the 
Agency for Healthcare Research and Quality quality and satisfaction 
indicators. Third, we follow national metrics for inpatient care 
through TJC's ORYX measurements and outpatient care through the Health 
Employer Data Information Set published by the National Committee for 
Quality Assurance. Within the AFMS, we centrally participate, track, 
and publish ``Lessons Learned'' from each Root Cause Analysis review of 
all significant medical incidents, and from each Medical Incident 
Investigation. Finally, each Medical Treatment Facility performs at a 
minimum one Failure Effects Analysis a year. These are also tracked 
centrally and lessons shared throughout the Air Force.
    Question. Have you evaluated the physical state of your facilities?
    Ms. Embrey's Answer. At least once every three years all of our 
medical treatment and research facilities are inspected, the physical 
state evaluated, and documented. Deficiencies are addressed as funds 
become available.
    LTG Schoomaker's Answer. Yes, every three years all medical 
facilities (category 500 buildings) and medical research facilities are 
evaluated by an engineered assessment to determine system component 
deficiencies and years remaining of service life. The data is used to 
formulate annual objectives for funded programs. Activities review and 
update facility deficiency data annually for appropriate priorities and 
costs associated with the deficiencies. Annual investment plans are 
created in conjunction with the updated analysis.
    Admiral Robinson's Answer. Per the FY 2008 National Defense 
Authorization Act (NDAA) (Section 1648), Bureau of Medicine and Surgery 
(BUMED) activities inspect military medical treatment facilities (MTFs) 
and specialty medical care facilities. The inspections are conducted by 
BUMED annually using standards and checklists developed by the Senior 
Oversight Committee, Line of Action (LOA) 5 Working Group in 2007.
    In addition, the material condition of BUMED's facilities has 
historically been inspected by professional engineering teams once 
every three years using a single inspection service provider and a 
common set of evaluation criteria that are consistent with all 
applicable codes and standards. Sustainment Restoration and 
Modernization (SRM) requirements identified during the inspection 
process are documented in single web accessible database using the COTS 
product VFA facility.
    All of BUMED's hospitals participate in the accreditation process 
for the Joint Commission. The accreditation process is continuous, 
data-driven and focuses on operational systems critical to the safety 
and quality of patient care.
    At the activity level, facility management personnel conduct zone 
inspections as required with non facilities management personnel 
assigned to the activity (typically E-7 and above corpsman), 
participate in fire inspections, and review deficiencies identified by 
maintenance personnel (government or contractor) while performing 
preventative maintenance inspections (PMIs).
    LTG Roudebush's Answer. Yes. The Air Force Health Facilities 
Division, at a minimum, conducts biennial comprehensive assessments of 
our medical facilities worldwide to determine adequacy of clinical 
space, patient access, and reliability of facility infrastructure. 
Deficiencies identified and validated through these visits, and those 
identified locally, are continually prioritized and addressed as funds 
become available.
    Question. What changes/improvements have you made to your medical 
care continuum and/or facilities with all of the Facilities 
Sustainment, Restoration, and Modernization (FSRM) provided by this 
Committee? What is the status of any backlog?
    Ms. Embrey's Answer. The age and dated designs of many of our 
facilities create numerous obstacles to providing modern world-class 
healthcare. Functional modifications and infrastructure repairs are 
necessary to optimize the delivery of state-of-the-art healthcare to 
our beneficiaries. In addition to routine annual utility and 
infrastructure upgrades across the entire inventory, we have begun 
renovations to create more efficient layouts of clinical, ancillary, 
and support spaces in our facilities. The funding provided has 
stabilized backlog growth.
    LTG Schoomaker's Answer. The committee's support of the Army's 
healthcare facilities and infrastructure has been superb and has 
enabled the Army to provide consistently reliable facilities across the 
medical care continuum. Over the past several years this funding has 
allowed the Army to eliminate a majority of its backlog of critical 
infrastructure deficiencies, ensuring our mechanical, electrical and 
other critical building systems continue to operate reliably every day. 
Besides the millions of dollars of improvements to our hospitals and 
medical clinics, the Army was also able to drastically improve the poor 
conditions of nine of our dental clinics and seven of our veterinary 
clinics.
    Admiral Robinson's Answer. With the FSRM provided by the Committee, 
Navy Medicine has executed and/or is planning to execute construction 
contracts to perform various repairs and restorations throughout Navy 
Medicine. For example, Navy Medicine is planning to execute a contract 
to complete the renovation of the Wounded Warrior Barracks at Naval 
Medical Center San Diego, CA; and also to restore the Heating, 
Ventilating, and Air Conditioning (HVAC) systems at Naval Hospital 
Yokosuka, Japan and Naval Health Clinic Whiting Field, FL.
    Annual major facility projects programming is approximately $100M 
per year. The FSRM provided by the Committee supplemented Navy 
Medicine's Fiscal Year 2009 budget for facility changes/improvements to 
ensure that we stayed consistent with the annual programming 
requirement.
    LTG Roudebush's Answer. Since 2007, one third of our medical sites 
have benefited from increased FSRM funding for modernization. In 
addition to routine annual utility and infrastructure upgrades across 
the entire inventory, we have begun renovations to create more 
efficient layouts of clinical, ancillary and support spaces in our 
facilities. The age and outdated designs of many of our facilities 
create numerous obstacles to providing modern world-class healthcare. 
Functional modifications and infrastructure repairs are necessary to 
optimize the delivery of state-of-the-art healthcare to our 
beneficiaries.
    The Air Force Medical Service has a $298.7 million backlog of 
currently identified sustainment, restoration and modernization 
projects.
    Question. Please explain how the services' ``case manager'' will 
effect the medical care of wounded or ill service members.
    LTG Schoomaker's Answer. The Army's Warrior Care and Transition 
Program, established two years ago, uses a team approach to case 
management referred to as the Triad of Care. Each wounded, ill, or 
injured Soldier (Warrior in Transition) in the program is assigned to a 
triad consisting of a Primary Care Manager (usually a Physician), a 
Nurse Case Manager, and a Squad Leader. This team, along with the 
Soldier and the Soldier's family, work together to coordinate the care 
and support each Warrior in Transition receives to ensure a 
coordinated, directed, and effective approach to recovery, 
rehabilitation, and reintegration either back to duty or prepared to 
transition to productive private citizen and veteran status.
    Central to the management of medical care for Warriors in 
Transition is the Comprehensive Transition Plan (CTP). The CTP serves 
as each Soldier's road map on the way to recovery and integration. The 
CTP is developed by the Warrior in Transition with the support of a 
multidisciplinary team of medical, rehabilitative, and behavioral 
health professionals, chaplains, social workers, and the Soldier's 
Triad of Care. With the CTP to which to refer, review, and follow, the 
entire care team is able to work in concert to deliver the most 
effective outcome for each Soldier. This is the true value of case 
management--a comprehensive assessment and approach to help each 
Soldier reach his or her desired goal. Along the way to this goal, the 
Triad of Care continues to manage the process by regularly evaluating 
each Soldier's progress, making any necessary adjustments in approach 
to keep the process moving forward, and functioning as the rudder that 
steers each Soldier along the way to recovery.
    Effective case management ensures timely and efficient use of 
resources; keeps the process of care and recovery moving in the desired 
direction; allows timely and effective intervention to avoid 
unnecessary delay or concern; and in no small way provides the 
reassurance and confidence all Soldiers or Family need to feel truly 
valued and reassured that their best interests are being addressed. 
Within the Triad of Care, this translates to regular and frequent 
assessment of each Soldier's plan, ongoing dialogue with the Soldiers 
themselves, and immediate intervention as necessary to coordinate care 
delivery, resolve issues, and keep everyone informed and focused.
    Admiral Robinson's Answer. Case Management affects the medical care 
of Wounded, Ill, and Injured service members in a positive way. Case 
managers provide the Wounded, Ill, and Injured member with 
individualized care that is specific to the needs of the service member 
and those of his or her caregivers.
    A comprehensive assessment in conjunction with the 
multidisciplinary health care team is performed to determine the 
service member's needs. Based on the assessment, an individualized plan 
of care is developed; the plan consists of quality, cost-effective 
interventions that will help the Wounded, Ill, and Injured service 
member in the journey towards recovery and reintegration. To ensure 
agreement and compliance, the patient and/or caregiver reviews and 
signs off on the plan of care. Case managers coordinate care and assist 
service members as they navigate through the healthcare system 
resulting in defragmentation of care, appropriate utilization of 
resources, and optimization of recovery. The Medical Care Case Managers 
collaborate with Navy Safe Harbor and USMC Wounded Warrior Regiment 
Recovery Care Coordinators and Non-medical Care Managers to support 
Sailors, Coast Guardsmen, Marines, and their families holistically.
    A smooth transition of care either to another facility, i.e. 
Veterans Administration Medical Centers or a different healthcare 
setting is coordinated by the case manager. Contact is made between the 
transferring case manager and the receiving case manager to exchange 
pertinent information and ensure the patient's seamless transition of 
care and recovery needs.
    LTG Roudebuch's Answer. The Services' case managers use a 
collaborative process to assess, plan, implement, coordinate, monitor 
and evaluate care and services to best meet the complex healthcare 
needs of wounded or ill service members. This is accomplished through a 
process of continuous communication with the patient, family members, 
and healthcare providers, and the identification of best available 
resources within the service member's community to promote highest 
quality, cost-effective outcomes.
    Military case management programs are designed to help wounded and 
ill service members achieve optimal level of wellness, enhance quality 
of life, improve patient and family satisfaction with medical services, 
minimize complications of catastrophic injury, and obtain optimal self-
management and independence. To accomplish these outcomes, case 
management programs are built to achieve specific goals:
          <bullet> Adopt strategies to provide integrated services
          <bullet> Coordinate care, ensuring continuity and compliance 
        with treatment regimens
          <bullet> Enhance collaboration with interdisciplinary 
        healthcare team members
          <bullet> Ensure timely and effective interventions
          <bullet> Improve patient and family satisfaction with the 
        healing process
          <bullet> Minimize fragmentation of care
          <bullet> Provide high quality, cost-effective care
    The complex health needs of wounded or ill service members, which 
may be physical, behavioral, emotional and/or educational in nature, 
require the intense coordination and collaboration of military case 
managers to ultimately return the service member to his or her highest 
possible level of wellness and personal independence in an expeditious 
manner.
    Question. Can the Surgeons General provide some examples of how 
combat casualty care has evolved since the beginning of OEF/OIF? How 
have services been expanded/adapted to meet the needs of our wounded 
warriors?
    LTG Schoomaker's Answer. Since the beginning of these operations, 
the Army has made great strides in increasing the survivability of our 
wounded and injured Soldiers on the battlefield. Basic first aid 
equipment prior to the start of the war was just a bandage issued to a 
Soldier. Currently, each soldier is issued an Individual First Aid Kit 
(IFAK) that contains a haemostatic dressing (Combat Gauze), tourniquet 
(Combat Application Tourniquet), adhesive tape, nasopharyngeal airway, 
and gloves. Providing the correct tools addresses the two leading 
causes of death on the battlefield: severe hemorrhage and an inadequate 
airway. Using these tools, we have expanded the concept of first aid 
and buddy care, as first responders often provide the critical life 
saving steps. Army Medicine played an important role in the 
improvements to the Mine Resistant Ambush Protected (MRAP) ambulance, 
Army Combat Helmet, Combat Arms Ear Plugs, Improved Outer Tactical 
Vest, and Fire Retardant Army Combat Uniform. 25,000 Warrior Aid and 
Litter Kits (WALK) have been procured to support current combat 
operations. The WALK is stowed onboard vehicles to be used by the first 
responder. The WALK complements the IFAK and the Combat Life Saver Bag. 
It contains a foldable litter and the tools to treat and overcome the 
three most common causes of preventable combat deaths on the 
battlefield (hemorrhaging, tension pneumothorax, and inadequate 
airway).
    The MRAP-Ambulance provides increased protection to our crews and 
patients. To make the MRAP-Ambulance the most capable ground ambulance 
in the Army today, we integrated ``spin-out'' technology from the 
Future Combat System Medical Vehicles. The combat medic is able to 
leave the Forward Operating Bases to conduct medical evacuation 
missions and can provide world class en-route care to wounded Soldiers. 
Army Medicine also developed Casualty Evacuation Kits (CASEVAC) for 
both the MRAP and High Mobility Multipurpose Wheeled Vehicle (HMMWV) 
ambulances to increase capability. These efforts provided the combat 
medic with field ambulances built for survivability in the challenging 
environment of asymmetric warfare.
    Our Soldier/Medics, including Physicians, Nurses, and Corpsmen, 
receive the highest level of pre-deployment trauma training ever 
provided. It is a critical link between standard medical care and the 
intense battlefield environment Soldiers face in the current conflicts. 
By recreating the high-stress situations medics will face in Iraq and 
Afghanistan, this training allows for the refinement of advanced trauma 
treatment skills and sensitization to hazardous conditions, thereby 
allowing medics to increase their confidence and proficiency in 
treatment.
    To improve upon the care and support provided to our Wounded, Ill, 
and Injured, the Army Developed the Warrior Care and Transition Program 
(WCTP). In just two years, the WCTP has made extraordinary inroads 
toward transforming the way the Army cares for wounded, ill, and 
injured Soldiers and their Families. The Army has robustly resourced 36 
Warrior Transition Units and 9 Community Based Warrior Transition 
Units, established a proven approach to care management through the 
triad of care concept, centralized support to Warriors in Transition 
and their Families by co-locating support services in Soldier Family 
Assistance Centers, and implemented the Comprehensive Transition Plan 
approach to help Soldiers plan and attain their recovery goals.
    Admiral Robinson's Answer. The most significant evolution of 
theater medical care for injured Sailors and Marines has been the 
widespread teaching and application of Tactical Combat Casualty Care 
(TCCC). It is becoming increasingly apparent in 2009 that the basic 
tenets of TCCC are sound and have been successful on the battlefield. 
For example, the 75th Ranger Regiment reported that of 482 casualties 
in Iraq and Afghanistan (including 31 fatalities), there were no 
preventable deaths identified in Ranger units. This unit has a long-
standing standard of teaching TCCC to every combatant in their units, 
so that the most critical life-saving interventions such as tourniquets 
can be accomplished by every one of their unit members.
    Perhaps the most successful single TCCC intervention has been the 
widespread re-introduction of tourniquet use on the battlefield. 
Despite not going to the GWOT with modern tourniquets, U.S. military 
troops now routinely carry well-made tourniquets into combat. 
Tourniquets have now been documented to be remarkably effective at 
saving lives in casualties with isolated extremity trauma. Other TCCC 
interventions such as nasopharyngeal airways, oral antibiotics, needle 
decompression of tension pneumothorax, and surgical airways when needed 
have not only proven effective, but have also helped to reduce both the 
training requirements and the medical equipment load out carried by 
combat medical personnel compared to previous battlefield trauma 
management techniques.
    In addition to in theater care that has previously been addressed, 
enhanced care coordination and access to psychological health care 
through primary and specialty care ensures highest quality of care to 
our Wounded, Ill and Injured. Emphasis on destigmatized portals of care 
to meet the needs of wounded warriors and their families, coupled with 
cooperation in care with the VA has improved availability and quality 
of care.
    LTG Roudebush's Answer. One example is the development of a Joint 
Theater Trauma System (JTTS), initiated in 2003 in Operation Iraqi 
Freedom (OIF) with the establishment of a joint data registry (Joint 
Theater Trauma Registry--JTTR), and progressing to an improved 
regionalization of trauma care. The JTTS includes coordinated placement 
of medical/surgical specialists and a process improvement program. It 
has improved global collaboration across all levels of care and 
rehabilitation via satellite multimedia communications and cultivated 
numerous clinical practice guidelines with broad concurrence across 
military and civilian specialty areas.
    As another example, the advancement of damage control concepts 
through ongoing research and data collection has contributed to the 
development of new massive transfusion protocols (patients requiring 
more than ten units of blood) incorporating increased ratios of blood 
products (red blood cells, plasma, platelets) and the use of fresh 
whole blood when components are not available. This has allowed 
survival rates greater than 70 percent. These damage control concepts 
have now been extended to the immediate recovery period and critical 
care units. Casualty care has also benefitted from modifications in 
wound management concepts due to our recent experience with extensive 
tissue damage and contamination, to include abdominal wound management 
with progressive closure of the abdominal wall via multiple operations 
ad irrigation with a large amount of saline fluids. The use of negative 
pressure wound devices (also known as vacuum assist devices) has led to 
lower infection rates, less pain and decreased workload on nurses/
technicians from dressing changes.
    We have reinstituted the use of the tourniquet as part of the 
hemorrhage control algorithm. Tourniquets were considered heresy after 
Vietnam in both civilian and military practice. However, tourniquet use 
in OIF/OEF has led to a significant reduction in mortality from 
extremity hemorrhage. In addition, there has been an adjustment of 
hemorrhagic control adjuncts, for example, adding combat gauze as a 
first line therapy and removing other adjuncts deemed to have adverse 
outcomes or less effectiveness based on research and data collection.
    Since the beginning of OEF/OIF, there has been the development of 
Burn Resuscitation Guidelines. The development of these guidelines was 
in response to over-resuscitation (large volumes of fluids) of burn 
patients, resulting in significant complications ad mortality. The new 
guidelines have significantly reduced complications such as abdominal 
compartment syndromes and infections, as well as mortality.
    The Air Force Medical Service has taken an active role in adapting 
to challenges of the battle injured and then adapting our care through 
the spectrum of care delivery to maximize wellness. The U.S.'s casualty 
fatality rate for OIF and OEF is the lowest that it has ever been, 
compared to previous U.S. wars and conflicts. The high survival rates 
are directly related to improved individual body armor as well as a 
combination of medical efforts including full implementation of damage 
control resuscitation and surgery concepts, improved critical care, 
advanced hemostatic devices and agents, coordinated pre-deployment 
battlefield injury care training, and increased joint medical 
interoperability. The AFMS contributes to this outstanding achievement 
through its support of two Level III Air Force Theater Hospitals, 
Expeditionary Medical Support, Army Forward Surgical Teams, and Joint 
Forces Special Operations missions. Advancement in the care of 
battlefield injury continues to emerge from the area of operations and 
expand to civilian trauma practice, including the concept of 
transfusing equal ratios of pack red blood cells to plasma in massive 
blood transfusion situations. This revolutionary concept has led to 80 
plus percent survival rates.
    One adaptation of our healthcare service to meet the needs of the 
Wounded Warrior is an enhanced focus on our Airmen and their 
psychological health. Exposure to battlefield trauma places airmen at 
risk for combat stress symptoms and possible mental health problems 
such as depression or post-traumatic stress disorder. To support our 
Airmen, the Air Force has taken a proactive approach of education, 
symptom recognition, and encouraging help-seeking. One example is the 
Landing Gear program, which is based on the metaphor that, no matter 
how powerful an aircraft is in the air, properly functioning landing 
gear is necessary to safely launch (i.e., deploy to war) and recover 
(i.e., redeploy to home station). In the same way, Airmen are taught 
that recognizing risk factors in themselves and others along with a 
willingness to seek help is the key to functioning effectively across 
the deployment cycle. During pre-deployment, Landing Gear training 
explains deployment stress, the deployed environment, typical 
reactions, ways to manage stress, and how to get help if needed. During 
reintegration and reunion the program lays the foundation for what to 
expect after deployment and facilitates a smooth reentry into work and 
family life. The Air Force is using programs such as this to build upon 
our Wingman Culture. For Airmen, being a Wingman means recognizing when 
other Airmen are distressed and having the courage to care and become 
involved.
    Question. Do you have any concerns about delivery of healthcare 
services to family members in the direct care system?
    Ms. Embrey's Answer. We continue to assess the healthcare needs of 
family members utilizing the direct care system as well as the ability 
of the system to meet those needs. The Military Health System (MHS) 
leadership recognizes the continuing challenge of providing timely, 
consistent access to care at our installations. This will remain an 
area of focus for the MHS in the year ahead.
    LTG Schoomaker's Answer. One of the first concerns I identified as 
Army Surgeon General was our inadequate facility infrastructure. 
Investment in our facility infrastructure over the last two years has 
been without precedent and I thank the Congress and this Committee for 
its generous support. Continued funding in facility renovation and 
modernization, information technology infrastructure, capital 
equipment, and Military Construction (MILCON) is still beneficial and 
necessary to deliver healthcare in the direct care system.
    While we have made significant progress improving the functionality 
of our aged facility inventory, I am concerned that the number of 
providers deploying to support ongoing Overseas Contingency Operations 
creates turbulence in the access and delivery of services to Soldiers 
and their Families. We have attempted to mitigate this turbulence 
through a variety of methods, including increased employment of 
civilian providers and contract providers. We have established a Human 
Capital Distribution Plan to assess, plan, implement, and evaluate the 
military, civilian, and contracted personnel resources to optimize 
support of healthcare in the direct care system.
    I have made access to care and beneficiary satisfaction key 
priorities. My command has implemented an aggressive Access to Care 
Campaign Plan containing eleven focus areas that cover a wide spectrum 
of access and customer service issues. Among the focus areas are the 
alignment of treatment facility capacity with the number of enrolled 
beneficiaries; improving provider availability; and leveraging 
technology for efficiencies to include managing clinic appointment 
schedules.
    One area where I have no concerns is quality care. The quality of 
health care rendered at our military treatment facilities is absolutely 
first-rate. All Army hospitals are accredited by The Joint Commission, 
which also accredits civilian hospitals. Outcome studies of the 
National Quality Management Program, a DoD-sponsored program that 
monitors military facilities, show military care usually meets or 
exceeds civilian benchmarks. Civilian professionals on residency review 
committees generally regard the Army graduate medical education as 
among the best in the nation. The board certification passing rate for 
graduates of Army residency and fellowship programs is 96 percent on 
the first try, well above the national average. Approximately 93 
percent of Army physicians eligible for specialty board certification 
are certified.
    Admiral Robinson's Answer. Patient and family-centered care is Navy 
Medicine's core concept of care, ensuring that the patient is provided 
the right health care service, at the right time, at the right place, 
with the right provider. It identifies each patient as the essential 
participant in his or her own health care and recognizes the vital 
importance of the family, military culture, and the chain of command in 
supporting our patients. Navy Medicine is constantly monitoring and 
evaluating the quality and timeliness of the health care provided to 
beneficiaries. In response to this monitoring and evaluation, Navy 
Medicine has revised its Access to Care (ATC) Strategy to provide 
Medical Treatment Facilities (MTF) and clinics a framework to implement 
and sustain a systemic, proactive, and responsive access plan that 
meets or exceeds beneficiary expectations and ATC standards. The ATC 
strategy and Access to Care Management Policy for Navy Medicine 
Military Treatment Facilities are designed to ensure the most optimal 
patient and family-centered care. With strong senior leadership and 
support, the policy articulates roles, responsibilities, and 
expectations for all of Navy Medicine. Navy Medicine has also 
established quality processes to meet the highest standards of 
healthcare possible for our Nation's honored warriors and their 
families.
    Additionally, Navy Medicine is implementing and evaluating a ``best 
practice'' model of health care delivery, the patient and family-
centered Medical Home Model, in two of our major medical centers. The 
Medical Home Model is a concept of care that includes a team of 
physicians, nurses, and support staff providing care to their enrolled 
patients. The Medical Home Model guarantees access to the care giving 
team for urgent health care needs within 24 hours, monitors the health 
needs of patients and proactively contacts them for convenient follow-
up care that includes hassle-free appointment scheduling.
    Some challenges do exist within the direct care system to include 
limited specialty care services at some MTF related to specialties 
deploying in theater however, Navy Medicine is actively addressing this 
challenge by augmenting services through other direct care sources and 
through the TRICARE managed care support contractors. In addition, Navy 
Medicine is actively engaged to identify and lower administrative 
barriers between other federal agencies and civilian institutions to 
provide seamless integration of care for our patients.
    LTG Roudebush's Answer. For decades the Air Force Medical System 
has ingrained a continuous process to positively improve access and 
quality in the direct care system. With the high operations tempo and 
deployments the challenge of meeting access within the direct care 
system has been met in partnership with Managed Care Support 
Contractors. Quality continues to be monitored and validated through 
National Accreditation Agencies--The Joint Commission and The 
Accreditation Association for Ambulatory Health Care. These two 
agencies validate our compliance with clinical quality assurance and 
allow comparison with civilian healthcare agencies.
    Our Managed Care Support Contract (MCSC) partners ably respond to 
the challenges of maintaining the best health care services for our 
beneficiaries. The MCSCs supplements the care available in the direct 
care system with both network and non-network civilian healthcare 
professionals, hospitals, pharmacies, and suppliers to provide better 
access and high-quality service, while maintaining the capability to 
support military operations. We have leveraged the MCSC to ensure our 
families are provided timely access to quality healthcare delivery.
    The TRICARE Operations and Patient Administration Flights at the 
local Medical Treatment Facilities participate in regularly schedule 
forums with the MCSCs to discuss any challenges with the delivery of 
healthcare within the region, addressing both quality and access. Any 
concerns that cannot be resolved at the lower level are then elevated 
to the TRICARE Regional Offices for resolution.
    The AFMS has a check and balance system to ensure both access and 
quality health care services are continuously monitored and improved.

                           Ongoing Operations

    Question. What percentage of care for activated soldiers and 
dependents is in the base budget? What percentage is requested in 
supplemental?
    Answer. Our estimated Fiscal Year (FY) 2009 Operation and 
Maintenance (O&M) funding, excluding supplemental funds, is $24.6 
billion. Our anticipated FY 2009 O&M supplemental funding is $1.6 
billion. Thus, roughly 94% of our O&M funding is in the regular O&M 
appropriation and 6% is via the supplemental appropriation. These 
percentages are representative of previous years.
    Question. If there is no supplemental, how would you fund the care 
for our Service members at facilities like Landstuhl, Walter Reed, 
Balboa, and Brooke Army Medical Centers?
    Answer. Providing high quality, accessible healthcare is our number 
one priority and most important obligation. This is especially true 
with respect to our most fragile beneficiaries, the wounded, ill and 
injured soldiers, sailors, airmen, and Marines. In the absence of a 
supplemental appropriation, we would redirect the required amount of 
funding from available resources to support the direct healthcare 
requirements. This strategy would have a resounding, negative impact on 
the Military Health System programs that had funding removed.
    Question. Would you continue to fund the expanded Military Amputee 
Care Program and the Army Burn Unit?
    Answer. Funding for amputee care centers and burn units was 
``baselined'' in the Defense Health Program budget beginning in Fiscal 
Year 2010 and are no longer dependent upon supplemental funding for 
their day-to-day operations.
    Question. How would you cover the healthcare expenses of the Active 
Duty and Reserve Components' dependents and families related to 
Operation Iraqi Freedom/Operation Enduring Freedom?
    Answer. Providing high quality, accessible healthcare is our number 
one priority and most important obligation. In the absence of a 
supplemental appropriation, we would redirect available resources, as 
required, to support direct healthcare requirements. This strategy 
would have a resounding, negative impact on the Military Health System 
programs that had funding removed.
    Question. How would the necessary medical supplies such as 
bandages, blood supply, and equipment be supplied to theater and 
funded?
    Answer. Additional costs for medical supplies are included in the 
Department's supplemental appropriation request for Overseas 
Contingency Operations (OCO). The majority of these requirements are 
generated by models and planning factors based upon the number of 
personnel, types of units deployed, and the types of contingency 
operations expected during the deployment. The funding included in the 
OCO supplemental for supplies is allocated to the Military Services or 
to the Defense Health Program depending where the costs are incurred.

                       Additional Troops in Iraq

    As a result of the President's Afghanistan strategy review, the 
Secretary of Defense has increased forces for Operation Enduring 
Freedom by 21,000 including 17,000 combat troops and 4,000 trainers.
    Question. How will additional troops deployed to Afghanistan affect 
the Military Health System (MHS) and its ability to treat the families 
and dependents?
    Answer. When our medical personnel deploy, we generally lose 
capability in the military treatment facility (MTF) supporting the 
deployment. However, in advance of the deployment, MTF commanders work 
with the TRICARE Managed Care Support Contractors to either provide 
physicians and ancillary staff to work in the MTF and refine the 
civilian TRICARE network to ensure that needed care is available, 
either in the MTF or in the network.
    The MHS is structured so that the purchased care subsystem augments 
MTFs by expanding, as necessary, to absorb overflow of workload from 
the direct care subsystem when the MTFs experience increases in demand 
for services or reduction in capability and/or capacity due to staff 
deployments. The efficacy of this structure has been proven throughout 
deployments, with data from a number of sources--formal surveys of 
providers and beneficiaries, monitoring of TRICARE customer service 
logs, regular meetings with the Military Coalition, data showing the 
capacity of TRICARE purchased care to absorb a tremendous increase in 
mental health workload since 9/11--all indicating that the MHS has been 
functioning as designed, with no systemic problems preventing our 
beneficiaries from accessing purchased health care services. We 
anticipate this to continue when additional deployments to Afghanistan 
occur.
    Question. What additional medical personnel will be needed to 
support the additional troop presence in theater?
    Answer. The number and skills of medical personnel in theater is 
dependent upon the size and missions of the Forces assigned, which 
require operational decisions, not medical decisions. Therefore, the 
Joint Staff and the Combatant Commander determine the need and assign 
the staffing requirement to the Service components. The Services would 
determine which medical resources were available and assign specific 
units.

                    Additional Troops in Afghanistan

    Question. What additional medical evacuation capabilities will be 
required?
    Answer. In January 2009, United States Central Command (USCENTCOM) 
submitted two requests for forces to increase the capability currently 
in Afghanistan. The Joint Staff, in conjunction with United States 
Forces Afghanistan (USFOR-A) and USCENTCOM, conducted further analysis, 
and based on those recommendations, sourced additional medical 
evacuation (MEDEVAC) and surgical assets to further augment the medical 
and evacuation capabilities in Afghanistan. To cover the period prior 
to the arrival of the main augmentation forces, including the Combat 
Aviation Brigade, a MEDEVAC ``bridging strategy'' was put in place with 
the intent to immediately increase MEDEVAC capability in theater prior 
to the arrival of these assets. By March 2009, the MEDEVAC Bridging 
Solution assets were in place and operating in Regional Commands (RC) 
East and South.
    The requested Forward Surgical Teams, Level III Augmentation 
Package, Medical Command and Control Headquarters (HQs) and additional 
MEDEVAC Company have arrived in theater and are conducting operations. 
USCENTCOM continues to evaluate the performance of these medical assets 
through their transition into theater and assumption of the medical 
support mission. To do this, USCENTCOM has instituted weekly reporting 
of MEDEVAC performance, which is briefed to the USCENTCOM commander. 
MEDEVAC missions that do not meet standards are analyzed to determine 
the cause(s) which led to the missed standard and, when appropriate, 
what actions are being taken to resolve identified problems. Overall 
MEDEVAC mission times have been decreasing since the addition of the 
Combat Aviation Brigade and its MEDEVAC Company, and we expect to see 
further improvements to RC East (RC-E) and RC South (RC-S) as the 
basing footprint and MEDEVAC procedures continue to be refined in 
theater.
    Approximately 90 days after the arrival of the final combat units, 
there will be enough data collected to determine whether there are 
sufficient assets in place in RC-E and RC-S to support the increased 
theater requirements in these areas and achieve the Secretary of 
Defense directed MEDEVAC standard of 60 minute mission completion time. 
However, as International Security Assistance Force and USFOR-A 
continue to expand operations farther into RCs West and North, the 
preliminary assessment is that additional resources will be required to 
meet the 60-minute standard in these two RCs. This Request for Forces 
is still being refined by USFOR-A and will be forwarded to the Joint 
Staff for sourcing once it has completed formal vetting within CENTCOM 
HQs.

               Deployment of Medical Units and Personnel

    Question. Recent military medical deployments, in particular for 
Operation Enduring Freedom, have shown we do not deploy the same way we 
train. For instance, there are different systems in place for medical 
reset and replenishment during exercises versus combat operations.
    How do you propose to resolve the differences between medical 
training and deployment?
    Answer. Medical training can be divided into two types. Doctrinal 
training, oriented toward support of the war fighter in any theater, 
provides a framework for medical support of combat operations in any 
theater. This training insures both the medical community and the line 
understand in medical lockstep during the initiation of a new operation 
because there is little room for misunderstandings during that time. 
Initial deploying medical units then generally deploy as they train.
    As the operation continues, doctrine may give way to local 
situational requirements. This adaptability is a strength of the United 
States military. New units rotating in will have the second type of 
medical training--pre-deployment training--which considers and includes 
local requirements; thus those units will also deploy as they train.
    The progress of medical technology is rapid and we push the latest 
capabilities to the most needed deployment locations. This may leave 
the exercise facilities with something different. However, focuses of 
exercise training are process and standards of operation, so medical 
providers can adapt and apply their training to whatever equipment is 
available at the deployed location.
    Question. What shortfalls currently exist within the Military 
Health System that relate to the Global War on Terrorism and ongoing 
operations in and around the area of responsibility?
    Answer. Additional costs related to the Global War on Terrorism are 
included in the Department's supplemental appropriation request for 
Overseas Contingency Operations (OCO). The majority of these 
requirements are generated by models and planning factors based upon 
the number of personnel, types of units, and the types of contingency 
operations expected during the deployment. The funding included in the 
OCO supplemental is allocated to the Military Departments or to the 
Defense Health Program based upon where the costs are incurred.
    Question. How are the costs of training medical personnel 
reimbursed to the Services?
    Answer. Additional costs for medical training are included in the 
Department's supplemental appropriation request for Overseas 
Contingency Operations (OCOs). The majority of these requirements are 
generated by models and planning factors based upon the number and 
types of personnel and units deployed and the types of contingency 
operations expected during the deployment. The funding included in the 
OCO supplemental for training medical personnel is allocated to the 
Military Departments or to the Defense Health Program based upon where 
the costs are incurred.
    Question. How are the Services reimbursed for resupplying combat 
medical units?
    Answer. Additional costs for medical supplies are included in the 
Department's supplemental appropriation request for Overseas 
Contingency Operations. The majority of these requirements are 
generated by models and planning factors based upon the number and 
types of personnel and units deployed, and the types of contingency 
operations expected during the deployment. Medical costs are included 
in these generated requirements and are allocated to the Military 
Departments or to the Defense Health Program based upon where the costs 
are incurred.
    Question. What is the monthly burn rate for healthcare before and 
during Operation Iraqi Freedom/Operation Enduring Freedom?
    Answer. Baseline funding for the Defense Health Program (DHP) 
represents the cost of providing healthcare in a normal peacetime 
environment; that is, exclusive of major contingencies or wartime 
operations. Because the Department has funded contingency operations by 
means of emergency wartime supplemental appropriations, it is possible 
to calculate the average monthly expenditures for both normal 
operations and for contingency/wartime operations.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                          ($Millions)                             2000      2001      2002      2003      2004      2005      2006      2007      2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
        Defense Health Program Operation & Maintenance            10,524    12,411    16,384    18,113    20,181    22,355    25,852    23,694    25,316
Monthly Average...............................................       877     1,034     1,365     1,509     1,682     1,863     2,154     1,975     2,110
Global War on Terror..........................................         0         0         0       705       888     1,063     1,090     1,073     1,461
Monthly Average...............................................  ........  ........  ........        59        74        89        91        89       122
                                                               -----------------------------------------------------------------------------------------
    Total.....................................................    10,524    12,411    16,384    18,818    21,069    23,418    26,942    24,767    26,777
    Monthly Average...........................................       877     1,034     1,365     1,568     1,756     1,952     2,245     2,064     2,231
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. What problems still exist, if any, with pre- and post-
deployment examinations and Service members' medical records?
    Answer. At this time, the two important electronic systems used to 
document the assessments and to provide medical care (electronic 
medical records) do not communicate with each other. The Pre- and Post-
Deployment Assessments, as well as the Post-Deployment Health 
Reassessments are captured electronically, but they are not in the 
individual's electronic medical record. The original copies of the 
assessments are filed in the permanent (hard copy) of the individuals' 
medical records. We are working to close this gap. In the future, 
medical providers will be able to view the health assessments whenever 
they treat the Service member.
    Question. What solutions has Health Affairs discussed to alleviate 
some of the costs that the Services themselves are having to bear?
    Answer. Costs the Services are bearing are funded via supplemental 
appropriations. Additional costs associated with the deployment of 
medical units and personnel are included in the Department's 
supplemental appropriation request for Overseas Contingency Operations. 
The majority of these requirements are generated by models and planning 
factors based on the number and types of personnel and units deployed 
and the types of contingency operations expected during the deployment. 
Medical costs are included in these generated requirements and are 
allocated to the Military Departments or to the Defense Health Program 
based upon where the costs are incurred.
    Question. Has the quality of care at military treatment facilities 
(MTFs) decreased with the number of men and women being called to 
support the ongoing operations?
    Answer. The quality of care within MTFs has not decreased although 
many men and women are supporting the ongoing operations. The Strategic 
Plan, developed in concert with the Surgeons General and the Joint 
Staff supports the MHS mission (to provide optimal health care 
services--anytime, anywhere) and is designed to support MTF operations 
during periods of sustained deployment of personnel. Through adherence 
to, and application of, the principles of the MHS strategic planning 
tool, the Balanced Scorecard, we have demonstrated positive results in 
both quality of care measures and through beneficiary satisfaction 
surveys.
    Question. What has been done to maintain the level of care at the 
Military Treatment Facilities (MTFs)?
    Answer. The Military Health System was designed to provide optimal 
health services in support of our Nation's military mission. National 
security necessitates the deployment of military medical professionals 
to operational settings. One way we attempt to mitigate the impact on 
Military Treatment Facilities (MTFs) of deploying military medical 
professionals is by providing additional funding to them, via Overseas 
Contingency Operations Supplemental Appropriations, to hire contractors 
and temporary civilians to ``backfill'' the deployed Service members. 
In FY 2008, we provided roughly $207 million in such funding, in FY 
2009 we anticipate providing up to $224 million. However, since we 
cannot fully replace the deployed staff, even with reservists and 
contracted healthcare providers, we must also rely on our network of 
civilian providers established by our Managed Care Support Contractors 
(MCSCs). The TRICARE networks provide eligible beneficiaries with 
access to a global network of private-sector healthcare providers, 
hospitals, and pharmacies. The network providers are fully 
credentialed, highly qualified providers, and the hospitals are 
accredited by a nationally recognized healthcare accreditation 
organization. The healthcare provided in each network is monitored by 
the MCSCs under their own quality management programs with oversight by 
TRICARE Management Activity (TMA) regional offices. Additionally, 
ongoing monitoring by an external contractor through the National 
Quality Monitoring Contract assesses and reports to TMA on the care 
provided by the MCSCs.

                  Combat Casualty Care and Body Armor

    Question. Body armor has done a good job of saving lives but has 
changed the types of injuries treated by the healthcare system. The 
killed-in-action rate in Afghanistan and Iraq is half what it was in 
World War II and a third less than Vietnam and Desert Storm. This is 
due to the battlefield medical teams doing a better job of stabilizing 
the wounded and getting them to doctors. Also, the Department has 
recorded the highest casualty survivability rate in modern history with 
more than 90% of those wounded surviving. Also, the added protection 
can cause additional strain on the body that was not previously 
experienced.
    Due to the types of injuries, have you had to change the types of 
medical personnel in theater? If so, how?
    Ms. Embrey's Answer. Body armor has improved protection of the 
trunk (including the neck), leaving the head, and extremities 
(shoulders to fingers, hip joint to toes) at relatively greater risk 
for injury. This means that extremity injuries have become more common, 
as have survivable head injuries. Traditionally, orthopedic surgeons 
have cared for extremity injuries, but general surgeons in theater have 
adapted, so we have maintained the skills needed.
    With the rise in survivable head injuries, we have added 
neurosurgeons and neuromedically trained support personnel (nurses and 
technicians). The rise in complexity of surviving casualties and the 
use of intensive care providers for post-operative intensive care 
(freeing surgeons to continue operating) have increased the requirement 
for intensive care staff, both medical and nursing.
    LTG Schoomaker's Answer. The Army Medical Department conducts 
regular and repeated assessments of our medical performance on the 
battlefield and in deployed environments. These assessments cover the 
full range of doctrine, organization, training, materiel, leadership, 
personnel, and facilities. We have made modifications and improvements 
to each of these aspects over the course of seven years of combat.
    While the basic types of medical units deployed has not changed 
(combat medics, aeromedical evacuation assets, front line medical 
companies, forward surgical teams, and combat support hospitals), we 
have added critical care physicians and trauma surgeons to our 
hospitals. We have also added a dedicated Deputy Chief of Staff 
position at our hospitals to relieve the Chief of Surgery from most 
administrative responsibilities, allowing the Chief of Surgery to focus 
on clinical matters. With respect to other medical personnel in 
theater, we have added a physical therapist to each maneuver Brigade 
Combat Team to help these warfighters address physical readiness issues 
and prevent them from wearing down due to the rigors of combat 
operations, to include the strain caused by protective equipment. We 
also augment our Combat Support Hospitals with extra physical 
therapists to care for the injured and wounded and help expedite their 
return to duty. Additionally, we have focused attention on delivery of 
behavioral healthcare in theater by reinstituting a psychiatrist on the 
Division Surgeon's staff, increasing the number of behavioral health 
providers, and improving the distribution of behavioral health 
providers across the battlefield.
    Admiral Robinson's Answer. The combination of improved body armor 
and the extensive use of Improvised Explosive Devices in the current 
conflict have led to some different patterns of injury and 
survivability, especially with increased rates of severe extremity 
injuries and traumatic brain injuries. However, the medical personnel 
taking care of injured Service Members in theater, including surgeons, 
primary care physicians, and corpsmen/medics are well trained in the 
entire spectrum of casualty care. As such, there has not been a need to 
change the types of medical personnel deployed into theater due to 
injury type sustained by Service Members.
    That having been said, there is also an increased recognition of 
combat stress as an issue that impacts operational readiness. This 
recognition has led to an increased number of mental health 
professionals being deployed into theater since the beginning of the 
current conflicts.
    LTG Roudebush's Answer. In the past three years, we have been 
fairly stable with our overall capabilities and injury types have not 
driven major changes in our deployed personnel, yet some additions have 
been made to work with the local population, which comprises approx 2/3 
of our care at our large facilities. Such examples include addition of 
pediatric and OB/GYN providers. Additionally in response to lessons 
learned, our critical care staffing has evolved.
    We have made numerous advances in education and training, 
equipment, and protocols. Other advances include the use of 
tourniquets, far-forward surgery, access to medical evacuation, 
heightened awareness of sequelae of injury (e.g., Traumatic Brain 
Injury), advances in orthopedics, limb salvage techniques to include 
early fasciotomy, control of hypothermia, fresh whole blood and full 
component therapy.
    The largest level III hospitals have been staffed to capabilities 
which closely mimic the best trauma hospitals in the States, to include 
vascular and thoracic surgery, burn and virtually every surgical 
subspecialty minus organ transplantation. With the increase in 
capability we've also vastly increased the support to these specialties 
to include quantitative and qualitative improvements in imaging (CT, 
angiography), use of blood and blood products, medications, laparoscopy 
and other minimally invasive techniques, etc.
    We have added new personnel roles such as the Trauma Czar, a highly 
skilled trauma-trained subspecialist, who coordinates and directs the 
symphony of trauma care with many other subspecialists. This role has 
been advanced by Air Force medicine at Balad and subsequently Bagram as 
another example of improvement in the delivery of trauma care that has 
evolved over time. The current status of this innovation is the 
development of a formal Trauma Czar course at the Joint Theater Trauma 
System (JTTS) with inputs from military and civilian experts.
    Data collection has also been a component in improvements in 
personal protective equipment, vehicle improvements, resuscitation, and 
many local and system-wide policy and procedure improvements.
    And last but not least, the development and implementation of an 
integrated JTTS with in-theater medical personnel supported by a 
Continental U.S. based organization utilizing a state of the art 
Defense Department Trauma Registry to conduct continuous performance 
improvement and rapidly make changes to the system to improve care of 
the wounded is an innovation probably never thought of prior to 2001.
    We continuously assess the needs/capabilities required and have 
already shifted one of our JTTS nurses from Balad to Bagram to meet the 
increased volume of patients in Afghanistan. As the focus shifts to OEF 
and the change in operations tempo, additions are already being made to 
mirror what was in place at Balad, such as trauma/critical care 
surgeons and other subspecialty/critical care providers.
    Advances in blood availability and use are another example of 
response to lessons learned. Blood and blood products have been pushed 
far forward in theater, with state of the art equipment and training to 
support their use. This brings out the point that not just physician 
staffing has changed based on the volume and types of injuries, but 
nursing and ancillary staffing has advanced as well.
    Question. How have you changed the training and equipment for the 
combat lifesaver compared to training and equipment carried prior to 
Operation Iraqi Freedom and Operation Enduring Freedom?
    LTG Schoomaker's Answer. The training for Combat LifeSavers (CLS) 
has never been more necessary. CLS serve as the bridge between self-
aid/buddy aid and the Combat Medic. The Army Medical Department 
continuously incorporates lessons learned from OIF/OEF to enhance the 
program's relevance and effectiveness. Prior to OIF/OEF, the combat 
lifesaver program was fundamentally a first aid course. The program 
focused on preventive medicine, dehydration, use of intravenous (IV) 
fluids as a primary method of trauma resuscitation, and tourniquet 
application as a final option. IV training consumed 70% of the 
available course training time. The program was trained at the unit 
level under local supervision of the organic combat medics and 
physician assistants. The generally accepted basis of allocation was 
one combat lifesaver per squad, crew, or equivalent size element.
    As a direct result of OIF/OEF the CLS program is now aligned with 
the principles of Tactical Combat Casualty Care (TC3). The emphasis has 
shifted from a basic first aid course to a generalized operational 
medicine course aimed at treating preventable causes of battlefield 
deaths. This fundamental change in the program has aligned the CLS with 
the combat medic, strengthening medical cohesion. The CLS program has 
undergone additional modifications as a direct result of OIF/OEF, 
including:
    <bullet> The basis of allocation of CLS has increased from one per 
squad to 100% of the Force.
    <bullet> Tourniquets are used as a primary means of controlling 
extremity bleeding (#1 cause of death in current operations).
    <bullet> Combat gauze (a hemostatic dressing) is used for 
controlling hemorrhage of non-compressible injuries.
    <bullet> Training now includes airway skills to include proper body 
positioning and placement of a nasopharyngeal airway.
    <bullet> Training includes use of a 14-gauge needle for needle 
decompression. Injuries to the chest, resulting in significantly 
troubled breathing are associated with a tension pneumothorax 
(collapsed lung). Introduction of a needle into the chest to relieve 
the pressure is a lifesaving procedure formerly taught only to medics.
    Question. How have you changed the training and equipment for the 
combat lifesaver compared to training and equipment carried prior to 
Operation Iraqi Freedom and Operation Enduring Freedom.
    Admiral Robinson's Answer. The most significant evolution of 
theater medical care for injured Sailors and Marines has been the 
widespread teaching and application of Tactical Combat Casualty Care 
(TCCC). It is becoming increasingly apparent in 2009 that the basic 
tenets of TCCC are sound and have been successful on the battlefield. 
For example, the 75th Ranger Regiment reported that of 482 casualties 
in Iraq and Afghanistan (including 31 fatalities), there were no 
preventable deaths identified in Ranger units. This unit has a long-
standing standard of teaching TCCC to every combatant in their units, 
so that the most critical life-saving interventions such as tourniquets 
can be accomplished by every one of their unit members.
    Perhaps the most successful single TCCC intervention has been the 
widespread re-introduction of tourniquet use on the battlefield. 
Despite not going to the GWOT with modern tourniquets, U.S. military 
troops now routinely carry well-made tourniquets into combat. 
Tourniquets have now been documented to be remarkably effective at 
saving lives in casualties with isolated extremity trauma. Other TCCC 
interventions such as nasopharyngeal airways, oral antibiotics, needle 
decompression of tension pneumothorax, and surgical airways when needed 
have not only proven effective, but have also helped to reduce both the 
training requirements and the medical equipment load out carried by 
combat medical personnel compared to previous battlefield trauma 
management techniques.
    Question. How have you changed the training and equipment for the 
combat lifesaver compared to training and equipment carried prior to 
Operation Iraqi Freedom and Operation Enduring Freedom.
    LTG Roudebush's Answer. The Air Force Medical Service in 2005 
fielded a completely updated Improved First Aid Kit (IFAK) providing 
our warfighters increased life-saving capabilities. The new Hemorrhage 
Control (Combat Application Tourniquet and Hemostatic Bandage) and 
Airway Management supplies are the newest additions found in the IFAK. 
The Combat Application Tourniquet is a one-piece unit which allows one-
handed application for hemorrhage control. Quickclot Combat Gauze, also 
included, can be fit to any size or shape wound, to include penetrating 
wounds, and immediately stops life-threatening bleeding. A 
nasopharyngeal airway tube was added to the IFAK and allows our airmen 
to establish an airway, when needed. Previous First Responder First Aid 
Kits had few of these new critical combat casualty components.
    Our Self Aid and Buddy Course added these improvements to its 
curriculum. In this course our airman are taught to use these additions 
to their first aid kit, increasing the individual's capability to 
provide buddy care and provide intervention for the two leading causes 
of death on the battlefield, severe hemorrhage and inadequate airway. 
In addition, the Self Aid and Buddy Course has been improved to 
increase the emphasis on ``Wingman Responsibilities'' for Post-
Traumatic Stress Disorder symptoms as well as suicidal airmen. 
Highlighting these responsibilities enables those individuals outside 
the wire to look after each other, particularly when no mental health 
capability is immediately available.
    Question. Can the Surgeons General provide some examples of how 
combat casualty care has evolved since the beginning of OEF/OIF?
    LTG Schoomaker's Answer. Since the beginning of these operations, 
the Army has made great strides in increasing the survivability of our 
wounded and injured Soldiers on the battlefield. Basic first aid prior 
to the start of the war was just a bandage issued to a Soldier. 
Currently, each soldier is issued an Individual First Aid Kit (IFAK) 
that contains a haemostatic dressing (Combat Gauze), tourniquet (Combat 
Application Tourniquet), adhesive tape, nasopharyngeal airway, and 
gloves. Providing the correct tools addresses the two leading causes of 
death on the battlefield: severe hemorrhage and an inadequate airway. 
Using these tools, we have expanded the concept of first aid and buddy 
care, as first responders often provide the critical life saving steps.
    Hemorrhage and temperature control are critical for the survival of 
a wounded soldier. The emerging emphasis is on patient warming and has 
become the preferred modality of care on the battlefield. Fluid 
replacement on the battlefield is no longer recognized as the immediate 
treatment of choice for blood loss in trauma related battlefield 
injuries. Thermo regulation through the use of a warming blanket with 
an internal heat source instead has become the recommended standard of 
care.
    Combat Lifesavers are non-medical Soldiers who are given 
specialized training to augment the combat medic. The Combat Lifesaver 
has been a force multiplier for many years but has recently been 
provided enhanced training to address severe hemorrhage, airway 
management, chest decompression, and patient warming. The Combat 
Lifesaver bag and components have seen a physical change as well. A new 
bag design has been introduced to provide users with quicker access to 
components. In addition, a large strap cutter was added for patient 
vehicle extraction and rapid clothing removal.
    Army Medicine played an important role in the improvements to the 
Mine Resistant Ambush Protected (MRAP) ambulance, Army Combat Helmet, 
Combat Arms Ear Plugs, Improved Outer Tactical Vest, and Fire Retardant 
Army Combat Uniform. 25,000 Warrior Aid and Litter Kit (WALK), have 
been procured to support current combat operations. The WALK is stowed 
onboard vehicles to be used by the first responder. The WALK 
complements the IFAK and the Combat Life Saver Bag. It contains a 
foldable litter and the tools to treat and overcome the three most 
common causes of preventable combat deaths on the battlefield 
(hemorrhaging, tension pneumothorax, and inadequate airway). The MRAP-
Ambulance provides increased protection to our crews and patients. To 
make the MRAP-Ambulance the most capable ground ambulance in the Army 
today, we integrated ``spin-out'' technology from the Future Combat 
System Medical Vehicles. The combat medic is now able to leave the 
Forward Operating Bases to conduct medical evacuation missions and can 
provide world class en-route care to wounded soldiers. Medicine also 
developed Casualty Evacuation Kits (CASEVAC) for both the MRAP and HMMV 
ambulances to increase capability. These efforts provided the combat 
medic with field ambulances built for survivability in the challenging 
environment of asymmetric warfare.
    Last and perhaps most important, our Soldier/Medics, including 
Physicians, Nurses, and Corpsmen, receive the highest level of pre-
deployment trauma training ever provided. It is a critical link between 
standard medical care and the intense battlefield environment Soldiers 
face in the current conflicts. By recreating the high-stress situations 
medics will face in Iraq and Afghanistan, this training allows for the 
refinement of advanced trauma treatment skills and sensitization to 
hazardous conditions, thereby allowing medics to increase their 
confidence and proficiency in treatment. Army Medicine remains on the 
forefront of medical technology and training ensuring that the finest 
soldiers in the world receive the finest medical care on the 
battlefield.
    Admiral Robinson's Answer. The most significant evolution of 
theater medical care for injured Sailors and Marines has been the 
widespread teaching and application of Tactical Combat Casualty Care 
(TCCC).
    In addition to in theater care that has previously been addressed, 
enhanced care coordination and access to psychological health care 
through primary and specialty care ensures highest quality of care to 
our Wounded, Ill and Injured. Emphasis on destigmatized portals of care 
to meet the needs of wounded warriors and their families, coupled with 
cooperation in care with the Department of Veteran Affairs has improved 
availability and quality of care.
    LTG Roudebush's Answer. One example is the development of a Joint 
Theater Trauma System (JTTS), initiated in 2003 in Operation Iraqi 
Freedom (OIF) with the establishment of a joint data registry (Joint 
Theater Trauma Registry--JTTR), and progressing to an improved 
regionalization of trauma care. The JTTS includes coordinated placement 
of medical/surgical specialists and a process improvement program. It 
has improved global collaboration across all levels of care and 
rehabilitation via satellite multimedia communications and cultivated 
numerous clinical practice guidelines with broad concurrence across 
military and civilian specialty areas.
    As another example, the advancement of Damage Control Concepts 
through ongoing research and data collection has contributed to the 
development of new massive transfusion protocols (patients requiring 
more than 10 units of blood) incorporating increased ratios of blood 
products (red blood cells, plasma, platelets) and the use of fresh 
whole blood when components are not available. This has allowed 
survival rates greater than 70 percent. These damage control concepts 
have now been extended to the immediate recovery period and critical 
care units. Casualty care has also benefitted from modifications in 
wound management concepts due to our recent experience with extensive 
tissue damage and contamination, to include abdominal wound management 
with progressive closure of the abdominal wall via multiple operations 
and irrigation with a large amount of saline fluids. The use of 
negative pressure wound devices (also known as vacuum assist devices) 
has led to lower infection rates, less pain and decreased workload on 
nurses/technicians from dressing changes.
    We have reinstituted the use of the tourniquet as part of the 
hemorrhage control algorithm. Tourniquets were considered heresy after 
Vietnam in both civilian and military practice. However, tourniquet use 
in OIF/OEF has led to a significant reduction in mortality from 
extremity hemorrhage. In addition, there has been an adjustment of 
hemorrhagic control adjuncts, for example, adding combat gauze as a 
first line therapy and removing other adjuncts deemed to have adverse 
outcomes or less effectiveness based on research and data collection.
    Since the beginning of OEF/OIF, there has been the development of 
Burn Resuscitation Guidelines. The development of these guidelines was 
in response to over-resuscitation (large volumes of fluids) of burn 
patients, resulting in significant complications and mortality. The new 
guidelines have significantly reduced complications such as abdominal 
compartment syndromes and infections, as well as mortality.
    Question. How have services been expanded/adapted to meet the needs 
of our wounded warriors?
    Ms. Embrey's Answer. We have expanded and adapted many services to 
meet the needs of our wounded Service members. One example is our 
tremendous focus to return amputees to pre-injury (or close as 
possible) levels of performance. Prosthetic technology, surgical 
approaches to amputee care, rehabilitation science and techniques have 
combined to produce new approaches to maintaining or even exceeding 
pre-injury capabilities. Another example is the capability to rapidly 
transport critical casualties from the theater of operations to 
definitive care military medical centers in the United States. This 
rapid transport promotes early intervention by well trained and 
experienced specialty care teams and continuity of care. Ultimately, 
this rapid transport to a stateside care location provides continuity 
of care for the Service member from surgery through to recovery.
    We have expanded support services to assist Service members and 
their families in financial and other matters while in recovery and 
transition, either back to the Force or into civilian life. The 
Services have all implemented programs to ensure appropriate care and 
assistance, and a new pilot program has improved the transition from 
the Department of Defense to the Department of Veterans Affairs' 
responsibility within the Disability Evaluation System for both 
Departments.
    LTG Schoomaker's Answer. The transformation of Warrior Care began 
in April 2007 with the development of the Army Medical Action Plan 
(AMAP), which outlined an organizational and cultural shift in how the 
Army cares for its wounded, ill, and injured Soldiers. Over the past 23 
months, the AMAP evolved into the Army Warrior Care and Transition 
Program (WCTP), fully integrating Warrior Care into institutional 
processes across the Army. In just two years, the WCTP has made 
extraordinary inroads toward transforming the way the Army cares for 
wounded, ill, and injured Soldiers and their Families. The Army has 
robustly resourced 36 Warrior Transition Units and 9 Community Based 
Warrior Transition Units, established a proven approach to care 
management through the triad of care concept, centralized support to 
Warriors in Transition and their Families by co-locating support 
services in Soldier Family Assistance Centers, and implemented the 
Comprehensive Transition Plan approach to help Soldiers plan and attain 
their recovery goals. True to the Army's credo of never leaving a 
fallen comrade, and with the support of Congress, we have begun the 
process of building Warrior Transition Complexes to create a safe and 
accessible environment to accomplish the enduring mission of caring for 
our brave men and women who have freely sacrificed their well-being in 
defense of freedom.
    In coordination with the Department of Veterans Affairs, the 
Defense Centers of Excellence for Psychological Health and Traumatic 
Brain Injury (TBI), and the Defense and Veterans Brain Injury Center--
the Army continues to expand resources dedicated to TBI research and 
treatment. For most TBI cases, our Soldiers and family members can 
expect a full recovery with no lasting mental or physical effects. 
Receiving prompt care is a key to returning to the highest functional 
level possible. Thanks to generous congressional funding, the Army is 
at the forefront of TBI treatment, care, and support. From improved 
training for our providers, to expanded screening and treatment at our 
forward combat medical facilities, to additional personnel, resources 
and training for our primary care physicians, nurse case managers, and 
our wide variety of specialists, Soldiers and Families affected by TBI 
have access to the full range of Army support.
    Service members who have lost limbs as a result of wounds received 
in Afghanistan or Iraq are receiving the best medical care available in 
state of the art facilities at Walter Reed and Brooke Army Medical 
Centers. As part of the Armed Forces Amputee Care Program, 
multidisciplinary teams from more than a dozen specialties work 
together to address the psychological, social, vocational, and 
spiritual needs of our Soldiers, marines, sailors, and airmen, in 
addition to their physical rehabilitation. Over the past decade, a 
cultural shift has occurred within the military, giving individuals 
with limb-loss the opportunity to stay on active-duty service. Advances 
in medical, surgical and rehabilitative care, as well as prosthetic 
design, help individuals achieve this goal. Whether or not the Soldier 
desires, or has the ability, to remain on active duty service, the Army 
is committed to helping all amputees reach their maximal function and 
return to the highest possible quality of life.
    Admiral Robinson's Answer. Navy Medicine has supported a number of 
programs to meet the increasing needs of our wounded warriors. In 
Fiscal Year 2008, $31.95 Million of Psychological Health-Traumatic 
Brain Injury (PH-TBI) supplemental funds supported the contracting of 
187.5 positions enterprise-wide. This effort has been expanded in 
Fiscal Year 2009 to $47.37 Million to support the contracting of 411 
positions (including the continuation of Fiscal Year 2008 positions) 
enterprise-wide. Increased staffing at the MTF level has facilitated 
the creation of new wards and clinics such as the TBI and Related 
Disorders (TBIRD) at Naval Hospital Camp Pendleton (NHCP), the 
Comprehensive Combat Casualty Care Center at Naval Medical Center San 
Diego (NMCSD), and the addition of a new PH-TBI ward at National Naval 
Medical Center (NNMC). Unprecedented success has also been achieved 
with the formation of an ``Admin Cell'' at NNMC that tracks entry and 
exit of patients into the system, maximizes capture of Relative Value 
Units (RVU), and reports on treatment efficacy. Other successes include 
increased inpatient and outpatient encounters (26,000 mental health 
visits at Naval Hospital Camp Lejeune (NHCL) this past year), improved 
capability to provide evidence-based group therapies, and increased 
outreach to Individual Augmentee/Global War on Terrorism Support 
Assignments (IA/GSA) personnel.
    Additional supplemental funds enhanced existing services or 
addressed existing gaps. Receiving a total of $10.5 Million in Fiscal 
Year 2008 and Fiscal Year 2009, the Naval Center for Combat and 
Operational Stress Control (NC COSC) offers Post Traumatic Stress 
Disorder (PTSD) specialized knowledge and intervention, research 
support, interactive website, and houses a library for OSC content and 
best practices. NC COSC implemented OSC Training at the IA Combat, 
Command Leadership, and Senior Enlisted levels and hosted the February 
2009 Defense Centers of Excellence (DCoE) for PH-TBI Quarterly Planning 
Summit. Navy Medicine used $2.99 Million in Fiscal Year 2008 to provide 
psychological health outreach coordinators and support staff at the 
five Navy Regional Reserve Component Commands (RCCs). The outreach 
teams act as a ``safety net'' for Navy Reservists and their families 
(who are at risk for not having their stress injuries identified and 
treated in an expeditious manner) and improve their overall mental 
health. The Reserve outreach teams received $6.53 Million in Fiscal 
Year 2009 to support the continuation of the Navy component and to 
expand services to include the Marine Corps Reserves. Navy Medicine has 
also taken new steps to support the Marine Corps Wounded Warrior 
Regiment with Fiscal Year 2008 and Fiscal Year 2009 total of $2.04 
Million. Funds support the provision of clinical services staff to: 
support a comprehensive psychological health and TBI program which 
ensures that every Marine and Sailor assigned to a Marine Corps unit 
receives the best prevention, identification, and treatment available; 
assist in developing policies and implementing procedures; and 
facilitate clinical assessment and management of individual cases.
    LTG Roudebush's Answer. The Air Force Medical Service (AFMS) has 
taken an active role in adapting to challenges of the battle injured 
and then adapting our care through the spectrum of care delivery to 
maximize wellness. The U.S. casualty fatality rate for Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) is the lowest that 
it has ever been, compared to previous U.S. wars and conflicts. The 
high survival rates are directly related to improved individual body 
armor as well as a combination of medical efforts including full 
implementation of damage control resuscitation and surgery concepts, 
improved critical care, advanced hemostatic devices and agents, 
coordinated pre-deployment battlefield injury care training, and 
increased joint medical interoperability. The AFMS contributes to this 
outstanding achievement through its support of two Level III Air Force 
Theater Hospitals, EMEDS, Army Forward Surgical Teams, and Joint Forces 
Special Operations missions. Advancement in the care of battlefield 
injury continues to emerge from the area of operation and expand to 
civilian trauma practice, including the concept of transfusing equal 
ratios of pack red blood cells to plasma in massive blood transfusion 
situations. This revolutionary concept has led to 80 plus percent 
survival rates.
    One adaptation of our healthcare service to meet the needs of the 
Wounded Warrior is an enhanced focus on our Airmen and their 
psychological health. Exposure to battlefield trauma places airmen at 
risk for combat stress symptoms and possible mental health problems 
such as depression or post-traumatic stress disorder. To support our 
Airmen, the Air Force has taken a proactive approach of education, 
symptom recognition, and encouraging help-seeking. One example is the 
Landing Gear program, which is based on the metaphor that, no matter 
how powerful an aircraft is in the air, properly functioning landing 
gear is necessary to safely launch (i.e., deploy to war) and recover 
(i.e., redeploy to home station). In the same way, Airmen are taught 
that recognizing risk factors in themselves and others along with a 
willingness to seek help is the key to functioning effectively across 
the deployment cycle. During pre-deployment, Landing Gear training 
explains deployment stress, the deployed environment, typical 
reactions, ways to manage stress, and how to get help if needed. During 
reintegration and reunion the program lays the foundation for what to 
expect after deployment and facilitates a smooth reentry into work and 
family life. The Air Force is using programs such as this to build upon 
our Wingman Culture. For Airmen, being a Wingman means recognizing when 
other Airmen are distressed and having the courage to care and become 
involved.
    Question. What are the new, emerging technologies that make the 
combat lifesaver more effective in saving the lives of Military 
personnel?
    Ms. Embrey's Answer. ``Combat Lifesaver'' (CLS) is a term used to 
designate a level of emergency response training. A CLS is a non-medic 
soldier with moderate emergency medical training who can provide care 
at the point of wounding. The CLS is instructed in various techniques 
to treat and stabilize injuries related to combat. The CLS doctrine was 
developed to increase survivability in combat environments where the 
combat medic may not be readily available. Skills of the CLS include 
basic casualty evaluation, airway management, chest injury and 
collapsed lung management, bleeding control, intravenous drip therapy, 
and medical evacuation requests.
    The greatest contributing factor in increasing the effectiveness of 
CLS is improved training. Now, all soldiers are trained to CLS level. 
That training has been enhanced with the development of simulators for 
life saving procedures. Research continues to develop more realistic 
simulators that mimic the physiologic responses of the body to both 
injury and treatment.
    Supplies needed to perform the life saving interventions are 
contained in the Individual First Aid Kit. Issued to each soldier, the 
kit consists of a tourniquet, combat gauze (impregnated with a material 
to stop bleeding), a nasal airway, and other supplies. It replaces the 
single gauze bandage previously issued to each soldier.
    The majority of preventable deaths may be saved by stopping 
bleeding. The research community is engaged to improve tourniquet 
devices and application guidelines, improve hemostatic bandages to 
treat external bleeding, and investigating new, emerging technologies 
to stop internal bleeding.
    Once the bleeding is stopped, the CLS can start intravenous lines 
for fluid replacement. Starch based fluids that are equally as 
effective at replacing lost blood volume as saline solutions are the 
product of efforts to identify the most appropriate agents to be added 
to standard resuscitation treatments. Work continues to identify better 
fluids with increased capabilities to:
    <bullet> Control the degree of inflammation following trauma
    <bullet> Maintain adequate transportation of oxygen to the tissues
    <bullet> Restore/maintain normal blood clotting capability
    Recent studies have established early control of pain can result in 
improved long-term outcomes for combat casualties. A nasal spray for 
relief of acute pain that could be administered by CLS is nearing Food 
and Drug Administration approval.
    Evacuation of casualties to the next level of care is facilitated 
by the Warrior Aid and Litter Kit (WALK). This kit, carried on tactical 
vehicles, includes a large supply of first aid supplies and a 
collapsible litter. Having the litter available on site reduces the 
time required to load a casualty onto the evacuation platform 
(helicopter, ground ambulance, or other vehicle).
    Control of body temperature is important in treating casualties. 
Even in a desert environment, casualties need support to maintain a 
satisfactory temperature. The Hypothermia Prevention and Management 
Kit, a space blanket type sleeping bag with a self contained chemical 
heat source, provides a simple method of keeping patients warm and is 
available in the WALK.
    LTG Schoomaker's Answer. ``Combat Lifesaver'' is a term used to 
designate a level of emergency response training. A Combat Lifesaver 
(CLS) is a non-medic Soldier with moderate emergency medical training 
to provide care at the point of wounding. The CLS is instructed in 
various techniques to treat and stabilize injuries related to combat, 
to include, but not limited to, blast injury, amputation, severe 
bleeding, penetrating chest injuries, simple airway management, and 
evacuation techniques. The CLS doctrine was developed as an effort to 
increase survivability in combat environments where the combat medic 
may not be readily available. Skills of the CLS include basic casualty 
evaluation, airway management, chest injury and collapsed lung 
management, controlling bleeding, intravenous drip therapy, and 
requesting medical evacuation.
    The greatest contributing factor in increasing effectiveness of CLS 
is improved training. Where previously there were a few CLS in troop 
units, now all Soldiers are trained to that level. That training has 
been enhanced with the development of simulators for life-saving 
procedures. Research continues into developing more realistic 
simulators that mimic the physiologic responses of the body to both 
injury and treatment.
    Supplies needed to perform the life-saving interventions are 
contained in the Individual First Aid Kit (IFAK). Issued to each 
Soldier, the kit consists of a tourniquet, Combat Gauze (impregnated 
with a material to stop bleeding), a nasal airway, and other supplies. 
The IFAK replaces the single gauze bandage previously issued.
    The majority of preventable deaths may be saved by stopping 
hemorrhage. The research community is engaged in a continuous process 
of improving tourniquet devices and application guidelines, 
continuously improving hemostatic bandages to treat external bleeding, 
and focusing on new, emerging technologies to stop internal bleeding.
    Once the bleeding is stopped, CLS start intravenous lines for fluid 
replacement. Starch based fluids that are equally as effective at 
replacing lost blood volume as saline solutions are the product of the 
continuous process of identifying the most appropriate agents to be 
added to standard resuscitation treatments. Work continues to identify 
better fluids with increased capabilities to:
    <bullet> Control the degree of inflammation following trauma
    <bullet> Maintain adequate transportation of oxygen to the tissues
    <bullet> Restore/maintain normal blood clotting capability
    Recent studies have established early control of pain can result in 
improved long-term outcomes for combat casualties. A nasal spray for 
relief of acute pain which could be administered by CLS is nearing FDA 
approval.
    Evacuation of casualties to the next level of care is facilitated 
by the Warrior Aid and Litter Kit (WALK). This kit, carried on tactical 
vehicles, includes a large supply of a wide array of first aid supplies 
and a collapsible litter. Having the litter available on site reduces 
the time required to load a casualty onto the evacuation platform 
(helicopter, ground ambulance, or other vehicle).
    Control of body temperature is important in treating casualties. 
Even in a desert environment, casualties need support to maintain a 
satisfactory temperature. The Hypothermia Prevention and Management 
Kit, a space blanket type sleeping bag with a self contained chemical 
heat source, provides a simple method of keeping patients warm and is 
available in the WALK.
    Admiral Robinson's Answer. The Marine Corps Combat Lifesaver is 
trained in techniques to minimize blood loss, control hemorrhaging, 
treat for shock, maintain an open airway, treat broken bones, and 
evacuate casualties. Training also covers identifying and treating 
bleeding wounds, bone fractures, burns, and several complications 
caused by wounds typically incurred on the battlefield. Naval Medical 
RDT&E has a focus area in combat casualty care that focuses on 
equipment and techniques that enhance these basic skills.
    Naval Medical R&D has responded to identified needs for far forward 
care in:
    Hemostatic Agents for Treatment of Life-Threatening Hemorrhage: 
Marine Corps Systems Command (MARCORSYSCOM) sponsored the Naval Medical 
Research Center (NMRC) Combat Casualty Care Directorate to assess 12 
different hemostatic formulations to include current standard of care 
preparations HEMCON and QuikClot. The QuikClot Combat Gauze\TM\ was 
judged superior to all other hemostatic preparations. The report to the 
Committee for Tactical Combat Casualty Care in February and April 2008, 
along with results from Army investigators, led to a recommendation to 
deploy Combat Gauze as the hemostatic preparation of choice. The 
results were transitioned to the MARCORSYSCOM Sponsor for USMC 
Individual First Aid Kit (IFAK) deployment.
    Maintaining an open airway: Cricothyrotomies, a technique for 
maintaining an open airway, are reported to be a problem during forward 
care of casualties. Interviews with conventional and SOF first 
responders have indicated that the existing capability is often 
compromised during field operations. The Navy, USMC, and Army, working 
with a commercial partner, have a device in late Test & Evaluation that 
shows great potential for enhancing this critical capability. The 
Cric\TM\ Cricothyrotomy Kit allows one-handed operation to illuminate 
(visible or IR), incise, spread, and hold open the incision for 
insertion of a breathing tube. The two current versions are amenable 
for use in the hospital or by EMTs. A military version is planned for 
FY10 introduction.
    LTG Roudebush's Answer. Likely, the biggest technological 
contributions to more effective first aid on the battlefield are the 
evolution and fielding of hemostatic dressings, the Combat Application 
Tourniquet and changes guidelines via the Committee on Tactical Combat 
Casualty Care that emphasize the early application of tourniquets, and 
improved IV fluids such as Hextand. From a research and development 
perspective, Air Combat Command is engaged in several initiatives to 
improve combat medic effectiveness.
    Blood Pharming will provide the capability to produce a ready 
supply of fresh, universal donor packed red blood cells in theater. 
Theoretically this system will produce an unlimited blood supply 
without risk of infectious disease transmission, and can be located at 
an air head or near the theater of operations, reducing shipping and 
distribution times and significantly improving blood freshness.
    The Field Intravenous Fluid Reconstitution device will result in a 
Food and Drug Administration-approved IV solution at deployed locations 
for immediate use or storage. The concept is to transport IV bags with 
salt, glucose and lactated ringers dry powder concentration, and 
reconstitute in theater with sterile, Food and Drug Administration-
approved water generated on site from the local military water supply.
    The Deployable Oxygen Generation System--Small (DOGS-S) device 
(also mentioned as a response to question MUR017) is being designed to 
concentrate ambient oxygen (21 percent) into 93 percent therapeutic 
oxygen and continuously supply this oxygen product directly to 
patients. DOGS-S will fit into a medium-size medical rucksack, be one 
man-portable, and used on the ground or in aircraft. DOGS-M is in the 
production phase with five units expected for delivery in July 2009.
    Natural Language Processing is companion software to the electronic 
health record that processes text files and extracts medical data 
elements and automatically populates a database. The information and/or 
trends identified from the database strengthen medical surveillance and 
enhance command situational awareness of overall health of the 
population at risk.

                         Aeromedical Evacuation

    Question. Aeromedical evacuation is distinctly an Air Force 
mission, and a critical component of the Air Force's global reach 
capability.
    What makes aeromedical evacuation distinctly different today vice 
the 1991 Gulf War?
    Answer. The Air Force's responsive aeromedical evacuation system is 
built on universally qualified aeromedical crews augmented by critical 
care air transport teams flying on non-dedicated aircraft under a 
unified mobility command and control structure. After the 1991 Gulf 
War, U.S. military doctrine evolved to adopt a new casualty replacement 
policy, smaller medical presence in theater and overseas, and movement 
of stabilized casualties versus the Gulf war paradigm of ``only stable 
patients fly air evac''. Today's aeromedical evacuation (AE) system 
allows for unprecedented flexibility because AE crews are not qualified 
on specific airframes but are universally qualified to provide care in 
the air on any mobility aircraft. Through the use of alert aircraft and 
In System Selects (diverting an aircraft) urgent patients are being 
transported on average within seven hours and priority patients within 
nine hours. Not only are patients in general being moved back to the 
Continental U.S. quicker than any time in history, the movement of the 
most severely injured/ill patients is done rapidly with the integration 
of critical care transport teams in deployed aeromedical evacuation 
units marrying specialized clinical capability with the AE crews and 
aircraft. As a result, medical support for OIF/OEF has required one 
tenth the beds and one fifth the medical personnel in theater returning 
patients to the U.S. in one seventh the time than during the 1991 Gulf 
War. Since September 11, 2001, the aeromedical evacuation system has 
moved over 64,000 patients including almost 12,000 battle-injured; the 
battle-injured movements alone exceed all patients moved during the 
Gulf War.
                 aeromedical evacuation today vice 1991
    Today, aeromedical evacuation and Critical Care Air Transport Team 
synergy allows Intensive Care Unit level ``Care In The Air'' 24/7 
anywhere, anytime.
    Today, if Mobility Air Forces airframes can land there, we can 
deliver aeromedical evacuation/Critical Care Air Transport Team 
capability there.
    Today, aeromedical evacuation unit type codes are far lighter, 
leaner, and rapidly deployable in a few hours; Aeromedical Evacuation 
Liaison Teams, Mobile Aeromedical Staging Facilities, Aeromedical 
Evacuation Operations Teams, bringing secure redundant communications, 
enabling patient regulation from far forward, austere locations.
    Today, our rapid aeromedical evacuation capability of moving 
patients in one to three days from the area of responsibility to 
Continental U.S. has made the benchmarks of the past obsolete. In the 
past a tactical evacuation of 7 days and strategic evacuation of 7 to 
14 days was ideal.
    Today, aeromedical evacuation missions with leveraged Air to Air 
Refueling can execute nonstop missions for cases such as burn patients 
from Balad Air Base to Brook Army Medical Center, San Antonio in less 
than 24 hours.
    Today, the C-17 Globemaster III supports the highest standards of 
aeromedical evacuation capability; integral oxygen, lighting, 
temperature control, a very high quality care environment, with 
critical range, speed and refueling capabilities.
    Question. The Committee understands that the Air Force is exploring 
advanced technologies to monitor the condition of pilots in flight and 
to improve health outcomes for patients during aerovac operations. Can 
you provide some examples of the type of projects being undertaken by 
the Air Force Health Services?
    Answer. The Air Force Research Laboratory Human Performance 
Directorate and Human Performance Integration Directorates under the 
711th Human Performance Wing do not currently have any projects related 
to the monitoring of the condition of pilots during flight. Routinely, 
our flight surgeons take all precautionary measures to ensure the 
readiness of pilots with annual physical examinations, ophthalmologic 
exams, stress tests, and centrifuge exercises, so that if a pilot's 
physiology changes, or a new disease diagnosed, flight surgeons can 
take appropriate action for the sake of flight safety.
    The Air Force Medical Service has a number of efforts underway to 
improve health outcomes for patients during aeromedical operations.
    The Vacuum Spine Board was procured recently and fielded for use by 
Critical Care Air Transport Teams. The Patient Proning Device, a 
related initiative, will provide the ability to rotate patients to 
provide comfort, alleviate pressure, or provide therapeutic treatments 
is underway.
    The Patient Isolation Unit will provide Air Mobility Command the 
capability to isolate and treat biologically contaminated patients in 
the aeromedical evacuation (AE) system. The Food and Drug 
Administration-approved Patient Isolation Unit will expand the 
capability to allow AE teams to safely move contaminated/contagious 
patients safely.
    The Aeromedical Evacuation Electronic Medical Record (AE EMR) will 
provide documentation of medical history and care, storage, retrieval, 
and forwarding of those records generated while the patient is 
transiting the AE system. The AE EMR will ensure AE providers have the 
needed patient information to make diagnostic and treatment decisions 
during transport, and information will also be available to medical 
staff at receiving fixed medical facilities in real time for enhanced 
continuity of care.
    Question. The Committee understands that monitoring the condition 
of patients during aerovac operations presents challenges. Are there 
research efforts underway to improve the technology used to monitor 
patients during aerovac.
    Answer. The Air Force Medical Service (AFMS) is moving critically 
injured patients on aeromedical evacuation (AE) missions with great 
success. Still, the AE environment poses unique challenges while caring 
for these intensive care unit type patients on the back of a cargo 
aircraft. High noise levels (average of 85 decibells) can interfere 
with voice recognition, obscure audible signals and alarms on 
equipment, and increase crew fatigue. Usually, AE missions fly at an 
altitude to maintain cabin pressures of about 8,000 feet. Decreased 
oxygenation inherent at altitude can worsen some medical conditions 
making monitoring that much more important. Monitoring patients during 
flight is both crucial and difficult, and the AFMS has several 
initiatives underway to improve technology used to monitor patients 
during AE.
    Air Mobility Command's number one priority is an Enroute Critical 
Care System (ECCS). This system will integrate equipment required to 
care for most critical care patients into one patient movement 
platform. It consists of capabilities to provide: (1) Physiologic 
Monitoring (heart rate, respiration/breathing rate); (2) Hemodynamic 
Monitoring and Intervention (blood pressure, shock); (3) Ventilation; 
(4) Oxygen; (5) Fluid Resuscitation; and (6) Flexible Power 
Utilization. The monitoring aspects of the ECCS will also include 
alarms to alert the medical team to changes in condition that require 
re-assessment of the patient to guide medical decision making. This is 
a validated initiative and is scheduled to begin operational test and 
evaluation in Jan 2010.
    Non-Invasive Monitoring for Traumatic Brain Injury (TBI) will 
provide new triage/screening, diagnostic, and monitoring capabilities 
for TBI patients in far forward locations, during evacuation and 
recovery. It should provide early definitive diagnosis of TBI. 
Additionally, TBI will be monitored during AE missions for any 
progression in severity to guide care and documentation of a patient's 
condition. Current invasive type monitors could subject the patient to 
infections where a non-invasive monitor would mitigate that risk. This 
initiative is currently in the requirements validation process.
    The Acoustic Stethoscope will greatly enhance the ability to hear 
diagnostic quality heart, lung, and bowel sounds, and take manual blood 
pressures during AE missions. Currently, at times, it is extremely 
difficult to adequately monitor these important diagnostic measures due 
to high ambient noise levels on the flight line and in the air, but 
developments in noise cancelling technologies will ensure a drastic 
improvement. This initiative is currently in the requirements 
validation process.
    A Non-Invasive Compartment Syndrome Monitor will measure and 
monitor tissue perfusion and compartment pressures. It is thought that 
altitude contributes to the development of compartment syndrome, a 
condition that can lead to loss of a limb due to decreased circulation. 
Research is underway for a device to prevent or detect compartment 
syndrome and to help guide a medical decision for surgical 
intervention.

                                 Morale

    Question. Generals, when asked the question, in prior hearings, 
``how is morale in your branch of service'', each of you replied that 
morale was very high. The ongoing operations continue to dominate the 
news and consequently the thoughts and concerns of American citizens. 
Operational tempo is high and extended deployments have made direct and 
lasting impacts on service members and their families.
    Based on these continuing and challenging conditions, how would you 
describe morale in your service today?
    LTG Schoomaker's Answer. I would still describe morale in the Army 
as high. Our Soldiers and Families are doing remarkably well while 
serving during very stressful times. They continue to impress and 
inspire me. The data support my assessment. The Sample Survey of 
Military Personnel (SSMP) is conducted on behalf of the Army G-1 each 
Spring and Fall. Key findings from the Fall 2008 survey are summarized 
for career intent, morale, reasons for leaving the Active Army before 
retirement, and quality of life/job satisfaction. Results on officers' 
and enlisted Soldiers' plans to stay in the Army are improving (more 
positive). Morale is steady. For both officers and enlisted Soldiers, 
``Amount of time separated from family'' continues to be the primary 
reason for leaving or planning to leave the Army before retirement. 
Satisfaction levels with quality of life (well-being) and job 
satisfaction are increasing for both officers (25 of 58 factors) and 
enlisted Soldiers (15 of 58). Most notable are increases in 
satisfaction with ``Quality/Availability of Army family programs'' and 
``Level of educational benefits.''
    Admiral Robinson's Answer. Between 2000 and 2008, morale has 
improved substantially among both enlisted and officer personnel. In 
2000, 14 percent of enlisted personnel and 27 percent of officers rated 
command morale as ``very high'' or ``high.'' In 2008, 31 percent of 
enlisted personnel and 56 percent of officers rated morale as ``very 
high'' or ``high.'' The three factors most affecting positive morale 
among both officer and enlisted personnel are; quality of shipmates, 
immediate supervisors, and educational programs. Other factors cited 
include compensation and health care benefits.
    LTG Roudebush's Answer. Morale remains high across the Air Force 
Medical Service. A significant number of Air Force medical technicians 
have enlisted since the start of Operations IRAQI/ENDURING FREEDOM. 
There have been 16,648 new medics from calendar year 2002-2009. 
Retention remains high, with all enlisted primary Air Force Specialty 
Code (AFSC) manned at (as of June 2009) greater than 91 percent (107 
percent overall). Eleven (of 17) enlisted medical AFSCs currently earn 
selective reenlistment bonuses, continuing our ability to retain 
quality, motivated medics. The transition to Air Expeditionary Force 
(AEF) banding from AEF cycles will continue to provide greater 
stability and predictability of deployments for the majority of our 
enlisted forces. Mental health technician) are our sole enlisted AFSC 
in a 1:2 dwell in AEF Band D and manning is at 95 percent.
    Question. What steps have you taken to ensure that families of our 
service members are adequately cared for during the Global War on 
Terrorism?
    LTG Schoomaker's Answer. In support of the Army Family Covenant, in 
November 2008, Army Medicine leaders signed the Army Warrior Healthcare 
Covenant, reaffirming our commitment to provide world-class care to 
wounded Soldiers and their Families. The covenant pledges sustained 
care that is commensurate with the sacrifices that Soldiers and 
Families have made. It provides for first-rate care in a healing 
environment for recovery, rehabilitation, and reintegration. It is Army 
Medicine's goal for all of our patients to feel valued, empowered, and 
comfortable talking with us about any healthcare concerns they and 
their families face.
    As further support of the Army Family Covenant, I have made access 
to care and beneficiary satisfaction two of Army Medicine's key 
priorities. We are implementing an aggressive Access to Care Campaign 
Plan containing eleven focus areas that cover a wide spectrum of access 
and customer service issues. Among the focus areas are the alignment of 
treatment facility capacity with the number of enrolled beneficiaries; 
improving provider availability; and, leveraging technology for 
efficiencies to include managing clinic appointment schedules.
    Admiral Robinson's Answer. DOD and Navy Medicine are committed to 
providing quality health care for the families of our service members 
supporting the Global War on Terrorism. Below are examples:
    <bullet> Patient and Family Centered Care is Navy Medicine's core 
concept of care. Our collective efforts focus on providing 
beneficiaries with a quality healthcare experience that integrates the 
resources of our MTFs and the purchased care system (Managed Care 
Support Contractors.)
    <bullet> Navy Medicine Strategic Goals have been refined and 
aligned with an emphasis placed on meeting or exceeding patient quality 
expectations while providing convenient access, lasting results, 
preventive health, and the mitigation of health risk. Additionally, 
patients are encouraged to be active participants in their healthcare. 
We recognize the vital importance of the family, military culture, and 
the chain of command in supporting the families of our service members.
    <bullet> Each military treatment facility (MTF) and clinic has a 
health benefits advisor (Beneficiary Counseling and Assistance 
Coordinator--BCAC) to assist beneficiaries in using their health care 
benefit by providing accurate and timely information and guidance on 
how best to use our health care system. There is enhanced coordination 
with our purchased care system (Managed Care Support Contractors) to 
ensure continuity of care when medical providers deploy in support of 
operational requirements.
    <bullet> Navy Medicine has actively supported and integrated both 
the Navy Safe Harbor Program and the Marine Wounded Warrior Program to 
enhance the overall care of our wounded ill and injured.
    <bullet> Navy Medicine provides support to dependent children 
through a full spectrum of child and adolescent psychological health 
services at major CONUS medical centers, as well as overseas hospitals 
which have exceptional family member programs, such as Okinawa and 
Yokosuka.
    <bullet> Navy Medicine leverages the Ombudsman Program to promote 
healthy and self-reliant families. The Ombudsman serves as a critical 
information link between command leadership and Navy families. They are 
trained to disseminate information both up and down the chain of 
command, including official Department of the Navy and command 
information, command climate issues, psychological health information, 
return/reunion/reintegration initiatives, and local quality of life 
(QOL) improvement opportunities.
    LTG Roudebush's Answer. The Air Force Medical Service (AFMS) has a 
broad range of activities that directly support the Airmen and their 
families in both the delivery of healthcare as well as quality of life 
support programs.
    To ensure medical care is meeting our beneficiaries' needs, the 
AFMS has an aggressive Veterans Administration/Department of Defense 
sharing agreement strategy. These programs capitalize on healthcare 
services of the Federal Healthcare delivery system ensuring direct 
support of our families. Sharing agreements are economically beneficial 
and provide access to services that may not be available in either the 
Department of Defense or the Veterans Administration as independent 
entities.
    Our Managed Care Support Contract (MCSC) partners ably respond to 
the challenges of maintaining medical combat readiness while providing 
the best health care services for our beneficiaries. The MCSC 
supplements the care available in the direct care system with both 
network and non-network civilian healthcare professionals, hospitals, 
pharmacies, and suppliers to provide better access and high-quality 
service, while maintaining the capability to support military 
operations. We have leveraged the MCSC to ensure our families are 
provided timely access to quality care delivery.
    The AFMS is undertaking a refinement of the delivery of Primary 
Care through the Family Health Initiative. Two goals have been 
established for this program: enhance our delivery of services to our 
population, and enhance the complexity of the patients seen. The Family 
Health Initiative utilizes a patient-centered medical home model to 
provide adequate staffing. This model makes coordination of all a 
patient's care the primary focus of the team and is lead by a family 
practice physician with an assigned support staff ready to meet the 
patient's needs.
    Medical Treatment Facilities and assigned staff are an integral 
part of the Integrated Delivery System and the Community Action 
Information Board, which actively works programs in support of our 
families. An ongoing action plan between the Airmen and Family 
Readiness Centers and the Medical Treatment Facilities allow the 
community to weave a fabric of programs that are both preventive and 
supportive to lessen the impacts of deployments and high ops tempo.
    Question. What are your medical concerns for the deployment of new 
soldiers?
    LTG Schoomaker's Answer. My major medical concerns for new Soldiers 
are behavioral health, musculoskeletal, and asthma conditions that 
exist prior to enlistment. The best data on new Soldiers (recruits) is 
available from the Accessions Medical Standards and Research Activity, 
Walter Reed Army Institute of Research. They track the attrition of 
Service Members for medical and other reasons.
    In Fiscal Year 2008 the Army discharged 1,959 Soldiers for 
conditions that existed prior to service. This was out of 80,517 
enlisted accessions including both non-prior and prior service. The 
number of EPTS discharges by diagnosis include 445 (22.7%) for 
behavioral health, 510 (26.0%) for musculoskeletal, and 130 (6.6%) for 
asthma. All other diagnoses totaled 874 (44.6%).
    Initial analysis has concluded that the medical accession screening 
and waiver process is efficient in identifying individuals with 
potentially disqualifying conditions and determining that waivers can 
be offered for at least the common conditions without degrading 
deployment of the affected individuals.
    Admiral Robinson's Answer. (Admiral Robinson's assuming re-directed 
for Sailors and Marines and that ``new'' refer to new deployments and 
not the age or rank of the service member):
    With respect to mental health:
    Social support is a demonstrated protective factor that insulates 
Sailors and Marines with respect to important deployment outcomes like 
acute stress response (ASR), Post-Traumatic Stress Disorder (PTSD), and 
Depression. Unmitigated Operational Stress compounded by multiple 
combat deployments may play a role in weakening social support at home 
and in the family. Failed relationships ultimately translate into 
divorce, isolation from friends and family, and, as a proximate cause, 
suicidality.
    Social support for Navy Individual Augmentees (IAs) is especially 
worrisome given that IA Sailors often deploy to units where the Sailor 
has few, if any, established social bonds. Whereas the Sailor might not 
be ``new'' to the force, previously inexperienced roles, novel job 
descriptions, and new unit affiliation contribute to operational 
stress. Further, IA sailors return to commands where the majority of 
people have not shared their experience. In particular, a specific type 
of IA assignment known as a Global Support Assignment (GSA), requires 
that both the Sailor, and if applicable their family, undergo a 
deployment in-between two duty stations. Consequently, the GSA Sailor 
and his or her family lose social bonds with their old duty station and 
face the challenges of relocation--replete with the re-establishment of 
new and often unfamiliar support systems. To counter these Individual 
Augment related concerns, a recently established Command Individual 
Augment Coordinator (CIAC) position now oversees deployment related 
readiness, support, and transition for this population of warrior.
    While multiple deployments carry with it specific mental health 
risks, too little combat experience is also a known risk factor for 
another unique set of mental and physical health risks. Sailors and 
Marines deploying to Iraq and Afghanistan for the first time, and in 
particular IA Sailors, require realistic training in order to prepare 
to enter the combat zone for the first time, a situation that 
reinforces the maxim of ``train like you fight, fight like you train.''
    With respect to General Medical Health Issues:
    Navy Medicine shares with the public the concern that burn-pits in 
the Areas of Operation may impart unknown health risks to exposed 
Sailors and Marines. Navy Medicine aggressively supports on-going and 
continuous health surveillance for exposure related concerns.
    LTG Roudebush's Answer. The Air Force is concerned about the 
medical needs of all of its deploying airmen regardless of level of 
experience or age. In that regard the Air Force Medical Service 
conducts pre- and post-deployment screening to assess the health and 
well being of the force both with new deployers and those who have 
greater experience. The pre-screening process for deployers is designed 
to provide all necessary preventive health measures, immunizations as 
an example, that are required for the area of operations in question. 
All Airmen, regardless of experience, are afforded multiple 
opportunities to seek medical and mental health care before, during and 
after deployment to ensure both their physical and mental well-being.

                             Mental Health

    Question. The Committee has great concern about mental health and 
post-traumatic stress disorder (PTSD) that affect our Military Service 
members and families. In all of your statements, you state that the 
Department of Defense has made great progress in this area.
    How much is currently being spent on mental health?
    Answer. Although, the Defense Health Program does not budget by the 
type of patient care, it is possible to estimate future expenses based 
upon historical execution and then add planned funding enhancements. 
The following table includes the Fiscal Year (FY) 2008 execution and 
projected expenditures on Mental Health services by the military 
treatment facilities in the Direct Care System and Private Sector Care 
(PSC) for all beneficiary categories. It includes estimated 
enhancements that are a result of the Department's and Congress' 
emphasis on Psychological Health (PH) initiatives. The Department has 
made sufficient funding available to meet all established requirements 
in support of PH.


                        [In thousands of dollars]
------------------------------------------------------------------------
                                     FY 2008      FY 2009        FY10
          Source of Care            Estimated    Estimated    Estimated
                                      Costs        Costs        Costs
------------------------------------------------------------------------
Direct Care......................     $658,746     $691,684     $726,268
PSC..............................      541,946      569,043      597,495
PH Enhancements..................      261,795      392,349      471,793
                                  --------------------------------------
  Total Estimated Mental Health      1,462,487    1,653,076    1,795,556
   Costs.........................
------------------------------------------------------------------------

    Notes: Inflation assumed at 5% for both Direct Care and Private 
Sector Care. Enhancement is from PH funding appropriated in FY 2008 and 
FY 2009 and added to the baseline in program review.

    Question. What types of programs and funding across the Services 
are there for substance abuse, mental healthcare programs for military 
and dependents, as well as access to care and outreach programs?
    Answer. Behavioral health and substance use disorder treatment are 
available for Military Service members and their families at military 
treatment facilities (MTFs) and through the TRICARE network. Care 
provided at MTFs may vary depending on the size of the facility. In 
addition, a number of programs have been developed to increase access 
to care and to provide education and support to Service and Family 
Members.
    Services available at MTFs
    Service Members can receive assessment and treatment for a full 
range of problems or conditions, including mental health and substance 
use disorders, at MTFs. Family member services at MTFs vary from clinic 
to clinic based on the number of MTF behavioral health providers. If 
services are not available at the MTF for family members, they can 
access services through the TRICARE network. The Department of Defense 
(DoD) has also partnered with the Department of Health and Human 
Services in order to increase access to care at MTFs through the 
assignment of mental health providers who are Commissioned Officers in 
the United States Public Health Service to MTFs.
    Services available through the TRICARE Network
    PSYCHOTHERAPY
    <bullet> TRICARE covers both outpatient and inpatient 
psychotherapy.
    <bullet> In addition to individual psychotherapy, TRICARE covers: 
Group Therapy, Family Therapy, Collateral Visits (a non-treatment visit 
to gather information and implement treatment goals), Play Therapy (a 
form of individual psychotherapy used to diagnose and treat children 
with psychiatric disorders), and Psychological Testing (when provided 
in conjunction with otherwise covered psychotherapy).
    ACUTE INPATIENT PSYCHIATRIC AND RESIDENTIAL TREATMENT CARE
    <bullet> Acute inpatient psychiatric care may be covered on an 
emergency or nonemergency basis.
    <bullet> Residential treatment center care provides extended care 
for children and adolescents with psychological disorders that require 
continued treatment in a therapeutic environment.
    INPATIENT SUBSTANCE USE DISORDER REHABILITATION
    <bullet> An inpatient rehabilitation center is a facility that 
provides medically monitored, 24 hours per day, seven days per week, 
interdisciplinary, addiction-focused treatment to adolescents and/or 
adults who have psychoactive substance use disorders.
    PARTIAL HOSPITALIZATION
    <bullet> Partial hospitalization provides interdisciplinary 
therapeutic services at least three hours per day in any combination of 
day, evening, night, and weekend treatment programs. These services are 
available for individuals with both mental health disorders and 
substance use disorders.
    Access to care in the TRICARE network:
    To ensure that family members can access mental health without 
barriers, TRICARE allows eight outpatient visits for family member 
beneficiaries with no preauthorization or referral required each fiscal 
year for mental health treatment. A family member beneficiary can self 
refer for these first eight outpatient mental health visits. 
Beneficiaries may receive psychological testing and medication 
management visits at the same time that are not counted against the 
eight unmanaged visits. Additional treatment beyond eight sessions may 
be authorized if needed.
    Prevention/Outreach
    In addition, a number of programs have been developed by the DoD 
and the Services that provide education, support, and out reach to 
Service members and their families. These include:
    <bullet> afterdeployment.org at http://www.afterdeployment.org/. 
This comprehensive web resource, developed under the direction of the 
DoD, deploys state-of-the-art Internet-based education, assessment, 
skill-building and treatment tools that can be used by Service members 
alone; used in conjunction with primary care manager support; or used 
in conjunction with mental health care providers. Users have access to 
online assessments, learning tools, and proven self-help strategies to 
help participants understand their adjustment concerns and engage in 
self-initiated help for their behavioral health problems, including 
symptoms related to post-traumatic stress. The site is designed to 
attract and serve Reserve, National Guard, and Active Duty Service 
members and their family members who have not yet sought medical care 
and are not receiving treatment, though it is expected that the 
resources offered at the site will be extremely useful to those persons 
who are already in treatment. Problem-focused programs (sleep, anger, 
depression, stress, etc.) are tailored to meet the needs of Service 
members and their families.
    The Mental Health Self-Assessment Program (MHSAP) at https://
www.militarymentalhealth.org/welcome.asp. MHSAP is a voluntary, 
anonymous mental health and alcohol screening and referral program 
offered to families and Service members affected by deployment or 
mobilization. It is offered online 24/7, as well as through in-person 
events. The MHSAP is funded by the DoD's Office of Health Affairs.
    Family Assessment for Maintaining Excellence Initiative. This pilot 
project provides voluntary, mental wellness and healthy relationship 
assessment for Active Duty Service members and their spouses. There are 
six components of the program: awareness, education, screening, 
evaluation, follow up, and public awareness.
    Fleet and Family Support Centers/Marine Corps Community Service 
Centers/Health and Wellness Centers on Bases (and other similar 
services). Provide stress and anger management classes, mental health 
assessment, individual and group counseling, family counseling and 
other related services. These all provide opportunities for Service 
members and their families to uncover stress-related symptoms, speak 
with mental health professionals about those symptoms, and seek/receive 
guidance on means to obtain.
    MilitaryOneSource at http://www.militaryonesource.com/. In addition 
to offering 24/7 information and resources, Military OneSource can 
provide a referral to in-person counseling. When there is a need, a 
consultant can refer a Service member or eligible family member to a 
licensed professional counselor in the local community for face-to-face 
counseling sessions at no cost to the Service member or their family 
members. The benefit addresses short-term concerns only and is limited 
to twelve sessions per identified issue. It is not designed to address 
long-term issues such as child and spouse abuse, suicidal ideation, and 
mental illness. Individuals in need of long-term treatment are referred 
to a military treatment facility and/or TRICARE for services. The fact 
that clients see the Military OneSource provider for 12 sessions does 
not impact the beneficiary's ability to access mental health treatment 
under TRICARE.
    Question. Admiral, the Navy has established 13 Deployment Health 
Clinics to facilitate health assessments for post-deployment physical 
and mental health concerns. Can you give the Committee a brief update 
as to what you are seeing at those clinics?
    Answer. Navy Medicine increased the number of Deployment Health 
Centers (DHCs) to 17 during Fiscal Year 2008 to expand the capacity for 
easily accessible non-stigmatizing deployment related healthcare. With 
a multidisciplinary staff of primary care and mental health providers, 
the DHCs complement services that are offered in the military treatment 
facility or in garrison at the unit level. Since inception, the DHCs 
have accomplished over 150,000 patient encounters. Approximately 50% of 
the visits were for deployment health assessments and individual 
medical readiness requirements. Psychological healthcare accounted for 
nearly 25% of the encounters, while another 25% were for various 
deployment related health concerns.
    Question. With the establishment of second mental health 
assessments for soldiers, specifically the Reserve Components returning 
from theater, who will be performing this type of work? How will the 
non-military doctors and nurses performing these assessments be 
financially compensated?
    Answer. The Department of Defense manages a Reserve Health 
Readiness Program contract to provide the Post-Deployment Health 
Reassessment (PDHRA) to the Reserve Component Service members who have 
returned from a deployment. A mental health assessment is a significant 
portion of the PDHRA. The non-military physicians and nurses performing 
the PDHRA under this contract are paid with appropriated funds through 
this contract.
    Question. How much funding is included in the Fiscal Year (FY) 2010 
budget submission for psychological health (PH) and traumatic brain 
injury (TBI)?
    Answer. In FY 2010, the Defense Health Program (DHP) baselined 
additional Operation and Maintenance funding for TBI/PH initiatives. 
Funding added for PH is $472 million and $178 million for TBI. This 
includes all funding for all components, including the Defense Centers 
of Excellence, to pay for all initiatives and programs.

      Development and Manufacturing of Biological Countermeasures

    Question. The need for the Nation to be prepared for chemical, 
biological, radiological, and nuclear attacks has been clear for 
decades. Based on the unmet needs for biologic production capability, 
the Defense Advanced Research Projects Agency has been studying the 
requirements necessary for a dedicated capability.
    What is the role of the Defense Health Program (DHP) in helping to 
assess threats with respect to chemical, biological, radiological, and 
nuclear attacks?
    Answer. Chemical, biological, radiological, and nuclear (CBRN) 
threat assessments are performed and validated by the Joint Staff, the 
Services, and the Intelligence community. The DHP does not have a 
direct role in performing CBRN threat assessments, but provides 
assistance in two ways. The DHP provides subject matter expertise (when 
requested) to help the Joint Staff, Services, and Intelligence 
community assess health impacts of CBRN threats. The DHP (through 
funding) and the Services are responsible for operating the United 
States' military medical treatment facilities (MTFs) throughout the 
world. These MTFs are required to be familiar with potential CBRN 
threats in their areas and prepare for them through training and 
exercises.
    Question. What is the relationship between the Defense Health 
Program (DHP) and the Defense Advanced Research Projects Agency (DARPA) 
to address unmet needs for biologic production capability?
    Answer. DARPA and DHP medical research and development programs are 
coordinated so that the DHP can leverage DARPA's basic research for 
subsequent transition to applied research and advanced development. 
DARPA is also a principal member of the Armed Services Biomedical 
Research Evaluation and Management Committee that is co-chaired by the 
Assistant Secretary of Defense for Health Affairs.
    Over the past 16 years, the Department of Defense (DoD) has 
evaluated perceived gaps in DoD biodefense and vaccine production 
facilities. In more recent years, the Department of Health and Human 
Services (HHS) and DoD have contracted with emerging biotechnology 
innovators and contract manufacturers for successful advanced 
development and manufacturing of a number of biodefense medical 
countermeasures. Existing contractors are capable of delivering 
required products and many are investing heavily in production 
facilities in the United States, which increases capacity and further 
addresses perceived capability gaps. A 2007 survey of the 
biopharmaceutical contractor manufacturing industry indicates that 
installed processing capacity increased by 14% since 2006 and the trend 
is expected to continue for the next few years (``Biopharmaceutical 
Contract Manufacturing: Recent Industry Growth,'' S. Wheelwright, 
American Pharmaceutical Outsourcing).
    The DARPA effort to evaluate the need for a dedicated manufacturing 
capability was completed in 2008. In July 2008, in response to the 
DARPA study, the Special Assistant to the President for Biodefense and 
Senior Director for Biodefense at the Homeland Security Council 
requested that HHS and DoD conduct an analysis of alternatives (AoA) 
``to identify the optimal facilities and operating model for addressing 
the gap in production and manufacturing of medical countermeasures 
against weapons of mass destruction threats in a manner that provides 
the best long-term value to the United States Government.'' The 
independent AoA focuses on the advanced development, Food and Drug 
Administration approval, and sustainment phases for biodefense 
countermeasures. The DARPA recommendation is only one possible long-
term alternative being assessed by DoD and HHS.
    Question. What is the current situation with the Department's 
mission to protect military personnel against biological weapons?
    Answer. The Department of Defense (DoD), through the Joint Project 
Manager Chemical Biological Medical Systems (CBMS) of the Joint Program 
Executive Office for Chemical and Biological Defense, is procuring 
anthrax vaccine, smallpox vaccine, and vaccinia immune globulin (treats 
rare but serious adverse events associated with smallpox vaccine). CBMS 
is also developing a plague vaccine and a botulinum toxin vaccine, both 
in Phase 2 clinical trials. In Fiscal Year 2010, CBMS will initiate 
advanced development efforts on a filovirus vaccine to protect against 
weaponized Ebola and Marburg viruses. Additionally, DoD has fielded the 
Joint Biological Agent Identification and Diagnostic System (JBAIDS) 
worldwide and to all Services. The JBAIDS is a deployable laboratory 
analytical system that provides rapid and highly accurate 
identification of ten different biological threat agents in clinical, 
food, and environmental samples.
    Question. What is the current assessment of the threat of 
biological weapons?
    Answer. The threats from chemical, biological, radiological, and 
nuclear attacks are validated and compiled in a classified report, 
which is subsequently released by the Chairman of the Joint Chiefs of 
Staff. Agents relevant to a specific geographic area of responsibility 
that are identified in the Joint Chiefs of Staff (JCS) classified 
threat list are available from the Defense Intelligence Agency. 
However, there are many other Department of Defense organizations 
involved in evaluating biological agent threats to United States Forces 
and military installations.
    Question. How many countermeasure vaccines have been produced?
    Answer. The Joint Project Manager Chemical Biological Medical 
Systems of the Joint Program Executive Office for Chemical and 
Biological Defense is obtaining Food and Drug Administration approval 
of the anthrax vaccine, smallpox vaccine, and vaccinia immune globulin 
(treats rare but serious adverse events associated with smallpox 
vaccine).
    Question. What is the current manufacturing capability for 
biodefense countermeasures?
    Answer. The 2007 survey of the biopharmaceutical contract 
manufacturing industry, (``Biopharmaceutical Contract Manufacturing: 
Recent Industry Growth'', S. Wheelwright, American Pharmaceutical 
Outsourcing, May 2008, p. 16) indicates that installed processing 
capacity increased by 14 percent since 2006, and the trend is expected 
to continue for the next few years. Another recent industry survey 
found that over the next five years, contract manufacturing 
organizational capacity for biopharmaceutical products is expected to 
expand by 91 percent for cell culture and 33 percent for microbial 
fermentation (``Very Large Scale Monoclonal Antibody Purification: The 
Case for Conventional Unit Operations,'' B. Kelley, Biotechnology 
Progress 23 (5): 995-1008, 2008). From these recent studies, 
pharmaceutical contract manufacturing organizations are projected to 
expand capacity more than the integrated biotechnology industry. 
Capacity has transitioned from a period of relative undersupply to one 
of moderate oversupply. Based on this assessment, there is ample 
capacity to manufacture biodefense medical countermeasures.
    The greater challenge remains the discovery and development of 
biodefense medical countermeasures, to include demonstrating their 
effectiveness in representative model systems so that manufacturers can 
obtain approval from the Food and Drug Administration (FDA). The FDA 
ruling titled, ``New Drug and Biological Products; Evidence Needed to 
Demonstrate Effectiveness of New Drugs When Human Efficacy Studies Are 
Not Ethical or Feasible,'' commonly referred to as the ``Animal 
Efficacy Rule,'' amended the FDA's drug and biologic regulations to 
``allow appropriate studies in animals in certain cases to provide 
substantial evidence of effectiveness of new drug and biological 
products used to reduce or prevent the toxicity of chemical, 
biological, radiological, and nuclear substances.'' Although given 
relatively little attention since it was promulgated, the Animal 
Efficacy Rule creates a new regulatory paradigm for measuring efficacy 
by permitting FDA to approve drugs and biologics for counterterrorism 
uses based on animal data when it is unethical or unfeasible to conduct 
human efficacy studies.
    Question. To what extent is this a problem with advanced 
development and manufacturing?
    Answer. The Department of Defense (DoD) has not encountered 
problems securing the capability or capacity to develop and manufacture 
vaccines from established contractors. In fact, recent industry studies 
and market research have identified excess industry capacity available 
for advanced development and manufacture of these types of products. 
The Joint Project Manager Chemical Biological Medical Systems of the 
Joint Program Executive Office for Chemical and Biological Defense has 
received significant interest from the pharmaceutical industry 
(including large companies) for future development efforts.
    The greater challenge remains the discovery and development of 
biodefense medical countermeasures, to include demonstrating their 
effectiveness in representative model systems so that manufacturers can 
obtain approval from the Food and Drug Administration (FDA). The FDA 
ruling titled, ``New Drug and Biological Products; Evidence Needed to 
Demonstrate Effectiveness of New Drugs When Human Efficacy Studies Are 
Not Ethical or Feasible,'' commonly referred to as the ``Animal 
Efficacy Rule,'' amended the FDA's drug and biologic regulations to 
``allow appropriate studies in animals in certain cases to provide 
substantial evidence of effectiveness of new drug and biological 
products used to reduce or prevent the toxicity of chemical, 
biological, radiological, and nuclear substances.'' Although given 
relatively little attention since it was promulgated, the Animal 
Efficacy Rule creates a new regulatory paradigm for measuring efficacy 
by permitting FDA to approve drugs and biologics for counterterrorism 
uses based on animal data when it is unethical or unfeasible to conduct 
human efficacy studies.
    Question. Has the Department involved academic institutions and 
industry to help expand its capabilities?
    Answer. Recent industry studies and market research have identified 
an excess of industry capacity available for advanced manufacturing 
process development and manufacture of medical countermeasures. The 
Department of Defense (DoD) has received significant interest from 
academia and the pharmaceutical industry to participate in future 
development efforts, including interest from large pharmaceutical 
companies. In recent years, the Department of Health and Human Services 
(HHS) and DoD have contracted with emerging commercial biotechnology 
innovators and contract manufacturers for successful advanced 
manufacturing process development for the manufacturing of biodefense 
medical countermeasures. Existing contractors are capable of delivering 
required products and many are investing heavily in production 
facilities in the United States, which has the potential to increase 
capacity and further address perceived capability gaps. In addition, 
DoD broad agency announcements have resulted in numerous contract and 
grant awards to academic institutions. DoD also participates in the HHS 
venues targeted at academia and industry, such as the upcoming 
Chemical, Biological, Radiological, and Nuclear Medical Countermeasures 
Workshop for 2009.
    Question. How much has been spent to date on biodefense 
countermeasures?
    Answer. Between program inception in Fiscal Year 1997 and May 2009, 
the Department of Defense has spent $968 million on Research, 
Development, Test and Evaluation (advanced development funding) and 
$546 million on procurement of biodefense vaccines and diagnostics. 
This does not include science and technology efforts and procurement of 
biodefense therapeutic medical countermeasures such as ciprofloxacin, 
doxycycline, and non-medical biodefense countermeasures not managed by 
the Joint Project Manager Chemical Biological Medical Systems of the 
Joint Program Executive Office for Chemical and Biological Defense.
    Question. What is the biodefense surge capability if we receive a 
threat? Attack?
    Answer. The Department of Defense currently maintains stockpiles of 
licensed vaccines to support full force protection. Advanced 
development vaccine programs of the Chemical Biological Medical Systems 
of the Joint Program Executive Office for Chemical and Biological 
Defense are designed to support full force requirements. Many existing 
manufacturers are not working at full capacity and in the event of an 
emergency; the Defense Production Act could be used to issue contracts 
with the ``highest national urgency'' designation for the expansion of 
production capabilities for critical security needs.
    Question. How has other legislation such as Bioshield affected the 
fielding of such biological countermeasures? Is legislation without a 
funding mechanism a hindrance more than a help?
    Answer. While Bioshield funding does not support the Department of 
Defense (DoD) procurement requirements, it does support the procurement 
of biodefense medical countermeasures for the Strategic National 
Stockpile (SNS). DoD and the Department of Health and Human Services 
are collaborating through the SNS to ensure civilian and military 
requirements are met and to reduce government costs.
    Legislation without a funding mechanism is a hindrance because it 
causes us to take funding from existing programs to cover new efforts.

                         Centers of Excellence

    Question. These centers are nationally recognized and have enabled 
military medicine to be in the forefront in the advancement of modern 
medical care. The Congress directed that funds for operation be 
included in the Fiscal Year (FY) 2010 submission.
    How much money is included for the operation of each of these 
Centers of Excellence in the FY 2010 President's Request?
    Answer. The table below identifies the amount of funding requested 
for the Centers of Excellence Congress directed to be included in the 
FY 2010 submission:

------------------------------------------------------------------------
                                                                FY 2010
                           Program                              Funding
                                                              (millions)
------------------------------------------------------------------------
Breast Cancer Center........................................      $5.310
Gynecological Cancer Center.................................       4.820
Integrative Cardiac Health..................................       3.380
Pain and Neuroscience.......................................       4.000
Integrated Translational Prostate...........................       3.490
                                                             -----------
  Total.....................................................      21.000
------------------------------------------------------------------------

    Question. Why is the amount in the 2010 budget less than last 
year's amount?
    Answer. The five Centers of Excellence are resourced at the Fiscal 
Year (FY) 2010 levels based upon the availability of funds within the 
Defense Health Program. A review of the Centers of Excellence will be 
conducted during FY 2010 to assess the mission of the Centers and the 
type and amount of funding to accomplish that mission. The assessment 
will also consider the capability of the Centers of Excellence mission 
to support translational biomedical/clinical research.
    Question. Which of the five Centers of Excellence (Breast Care, 
Gynecological, Prostate, Integrated Cardiac Health, Pain, and 
Neuroscience) named in the 2009 appropriations report are included in 
the design of the new Walter Reed National Medical Center?
    Answer. All five Centers of Excellence are currently included in 
the design of the new Walter Reed National Medical Center.
    Question. How much space is included in this design?
    Answer. The amount of space planned for each of the centers in the 
Defense Centers of Excellence (DCoE) is as follows:

------------------------------------------------------------------------
                                                              Space (sq.
                            CoE                                  ft.)
------------------------------------------------------------------------
Breast Care................................................        7,100
Gynecological..............................................        4,520
Prostate...................................................        7,000
Integrated Cardiac Health..................................        8,141
Neuroscience:
    Chronic Pain...........................................        5,777
    Acute Pain.............................................        1,803
    ARAPMI *...............................................          TBD
                                                            ------------
                                                                \34,341
                                                                sq. ft.
------------------------------------------------------------------------
* Army Regional Anesthesia and Pain Management Initiative.

    Question. How does the amount of space planned compare with that 
currently available at Walter Reed Army Medical Center (WRAMC)?
    Answer. The following table depicts the amount of planned space at 
Walter Reed National Naval Medical Center (WRNNMC) compared with 
currently available space at WRAMC:

------------------------------------------------------------------------
                                                     Planned
                                         \Current    Space
         Centers of Excellence             Space     WRNNMC   Difference
                                           WRAMC      (sq.     (sq. ft.)
                                         (sq. ft.)    ft.)
------------------------------------------------------------------------
Breast Care............................      3,209     7,100     +3,891
Gynecological..........................      5,578     4,520     -1,058
Prostate...............................      8,619     7,000     -1,619
Integrated Cardiac Health..............      9,569     8,141     -1,429
Neuroscience:
    Chronic............................      2,750     5,777     +3,027
    Acute..............................        620     1,803     +1,183
    ARAPMI *...........................      4,000       TBD       TBD
------------------------------------------------------------------------
* Army Regional Anesthesia and Pain Management Initiative.

    Question. Why is the amount of space less than is currently 
provided?
    Answer. The Breast Care and Pain Centers of Excellence actually 
gain space. The small reduction in space provided for Gynecological/
Oncology, Prostate, and Integrated Cardiac Health Centers of Excellence 
is due to three primary factors:
     1. There is more effective use of shared spaces in the new design. 
Support spaces including clean utility, soiled utility, waiting, staff 
lounges, and other support functions are shared across departments 
where practical thus reducing the total area required for each 
department.
    2. The corridors in the new outpatient building (Building A) are 
sized to business occupancy standards (5'0'') versus many of the 
existing healthcare occupancy corridors (8'0''), as appropriate. This 
significantly reduces the gross area required by each department.
    3. Third, the new design is custom sized for individual room 
requirements whereas, in the existing Centers of Excellence, individual 
components were laid into available rooms which met and/or often 
exceeded the actual requirement. For example, there are offices and 
exam rooms in former patient bedrooms which are much larger than 
required for the office and exam functions. The physical layout 
provides rooms that are designed specifically for their individual 
function and closely follow Department of Defense Space Planning 
Guidelines for each space.

                          Medical Scholarships

    Question. This situation continued in 2007 with roughly the same 
number of scholarships available and the same number and percentages 
awarded. In 2008, the Department of Defense instituted a Critical 
Skills Accession Bonus (CSAB). As a result, the Department was able to 
fill virtually all the available scholarships.
    Please provide a brief description of the CSAB program for each 
Service.
    Answer. This CSAB provides a one time $20,000 bonus for Health 
Professions Scholarship Professions students when accessed into the 
military (at the beginning of medical or dental school). The Air Force 
uses the program for medical students, while the Army and Navy use it 
for both medical and dental students. Section 663 of the National 
Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181), 
provides the authority for the accession bonus.
    Question. What are the reasons that the Services had to resort to 
providing a bonus in addition to a scholarship to attract medical 
personnel?
    Answer. The Army and the Navy were not filling their Health 
Profession Scholarship Program positions. The Air Force filled their 
positions but had fewer applicants. Some of the possible reasons are:
    <bullet> A decline in pool of male medical school students (higher 
mix of females with less propensity to serve).
    <bullet> Perceptions of Operation Iraqi Freedom/Operation Enduring 
Freedom negatively affecting interest in serving in the Military.
    <bullet> A 2004 study by the Association of American Medical 
Colleges reported that 60% of medical students' families are in the top 
20% of incomes,\1\ suggesting these medical students are less in need 
of a scholarship.
---------------------------------------------------------------------------
    \1\ Jolly, P. Medical School Tuition and Young Physician 
Indebtedness. AAMC 2004.
---------------------------------------------------------------------------
    Question. Why did the Navy decrease the number of available 
scholarships from 300 in previous years to 225 in fiscal year 2008?
    Answer. In early 2007, when the fiscal year 2008 Medical Corps 
Health Professions Scholarship Program (HPSP) accession goal was 
established, Navy was configuring our physician pipeline to meet end 
strength reductions associated with planned military to civilian 
conversions.
    Question. How many scholarships is the Navy awarding in 2009 and 
how many are proposed in this fiscal year 2010 budget?
    Answer. Navy is awarding 245 Health Professions Scholarship Program 
(HPSP) scholarships plus 25 Health Sciences Collegiate Program (HSCP) 
scholarships in 2009. HPSP and HSCP scholarship goals for FY2010 have 
not yet been approved by the Chief of Naval Personnel.
    Question. Why did the Army increase the number of medical 
scholarships in fiscal year 2008 from approximately 300 in previous 
years to 360?
    Answer. The Army increased the number of medical scholarships in 
fiscal year 2008 from approximately 300 in the previous year to 360 in 
fiscal year 2008 in order to make up for shortfalls resulting from 
missed missions for medical scholarships for the previous 3 years 
(2005-2007).
    Question. How many medical scholarships is the Army awarding in 
2009 and how many are proposed in the fiscal year 2010 budget?
    Answer. We are projecting to fill 100% (365) of scholarships for 
2009 and we have provided United States Army Recruiting Command with a 
mission to recruit for 300 scholarships in fiscal year 2010.
    Question. Are the Services having any problems meeting the 
Department's medical manning requirements?
    Answer. The most recent Health Manpower Personnel Data System 
Report shows:

                CLOSE-OUT DATA BY CORPS--FISCAL YEAR 2008
------------------------------------------------------------------------
            Corps                Auth      Fills     % Filled     Diff
------------------------------------------------------------------------
Medical......................    11,487    11,530       100.37        43
Dental.......................     3,109     2,851        91.70      -258
Nurse........................     9,732     9,438        96.98      -294
Med Svc......................     7,870     7,730        98.22      -140
Army Spec....................     1,177     1,299       110.37       122
Bio Science..................     2,345     2,182        93.05      -163
Vet..........................       427       445       104.22        18
                              ------------------------------------------
    Total....................    36,147    35,475        98.14      -672
------------------------------------------------------------------------


                                SHORTAGES
------------------------------------------------------------------------
       Corps and Specialty          Auth      Fills   % Filled    Diff
------------------------------------------------------------------------
Medical:
    CardioThoracic..............        45        37     82.22        -8
    Family Med..................     1,217     1,159     95.23       -58
    Gastro......................        70        60     85.71       -10
    Gen Surgeon.................       412       403     97.82        -9
    Neurosurgeon................        40        35     87.50        -5
    Psychiatry..................       319       308     96.55       -11
    Urology.....................        87        86     98.85        -1
Dental:
    Comprehensive...............       551       532     96.55       -19
    Endodontics.................       113       111     98.23        -2
    General Dentistry...........     1,343     1,106     82.35      -237
    Orthodontics................        72        69     95.83        -3
Nurse:
    Critical Care...............     1,182     1,052     89.00      -130
    Family Nurse Practitioner...       194       152     78.35       -42
    General Nursing.............     1,283       591     46.06      -692
    Mental Health...............        47        45     95.74        -2
    Neonatal ICU................        95        72     75.79       -23
    CRN Anesthesia..............       624       514     82.37      -110
    Nurse Mid-Wife..............        84        81     96.43        -3
    Operating Room..............        63        59     93.65        -4
    Pediatric Nurse Practitioner        63        59     93.65        -4
Other:
    Pharmacist..................       526       472     89.73       -54
    Physician's Assistant.......     1,276     1,248     97.81       -28
    Psychologist................       630       548     86.98       -82
    Podiatrist..................        65        58     89.23        -7
------------------------------------------------------------------------

                          Lung Cancer Research

    Question. The Committee directed the Army to provide a plan on the 
uses of these funds 120 days after enactment and to include Walter Reed 
in the formulation of this plan.
    Please provide a detailed description of the Department of 
Defense's (DoD's) plans to obligate this funding in compliance with 
congressional direction.
    Answer. The Congressionally Directed Medical Research Program 
(CDMRP) uses a flexible execution and management cycle from receipt of 
appropriations through oversight of research grants. The first major 
milestone of the Peer-Reviewed Lung Cancer Research Program (LCRP) was 
the stakeholders meeting on February 22-23, 2009. Renowned scientists 
and clinicians from academia, Walter Reed Army Medical Center, and the 
United States Military Cancer Institute, as well as six lung cancer 
survivors and advocates participated to discuss issues and gaps 
critical to the identification, treatment, and management of early lung 
cancer and the establishment of a tissue bank. Participants identified 
nine gaps and five advancement opportunities for establishing a tissue 
bank, 19 gaps and six advancement opportunities for early 
identification of early lung cancer, and 10 gaps and 15 advancement 
opportunities for treatment and management of early lung cancer, all of 
which aligned with the congressional direction.
    Utilizing the recommendations from the stakeholders, an Integration 
Panel of 11 experts in the lung cancer field from academia, DoD, and 
five disease survivors and advocates determined the program priorities 
and an investment strategy for the Fiscal Year (FY) 2009 LCRP. The 
following seven areas of emphasis were developed, and research 
submitted to the FY 2009 LCRP must address at least one of the areas:
    1. Identification or development of non-invasive or minimally 
invasive tools to improve the detection of the initial stages of lung 
cancer.
    2. Identification and development of tools for screening or early 
detection of lung cancer.
    3. Understanding the molecular mechanisms that lead to clinically 
significant lung cancer.
    4. Identification of the mechanisms that lead to the development of 
the various types of lung cancer.
    5. Identification of innovative strategies for prevention and 
treatment.
    6. Understanding predictive and prognostic markers to identify 
responders and non-responders for early lung cancer.
    7. Understanding acquired resistance to treatment.
    Five award mechanisms for funding competitive research and the 
establishment of a tissue bank were identified:
    1. Lung Cancer Bio-specimen Resource Network Award provides support 
for the development of a lung cancer bio-repository resource 
consortium.
    2. Collaborative Translational Research Award supports multi-
institutional, multidisciplinary collaborations among clinicians and 
laboratory scientists.
    3. Concept Award--supports the exploration of a highly innovative 
new concept or untested theory that addresses at least one of the FY 
2009 areas of emphasis.
    4. Lung Cancer Promising Clinician Research Award supports a 
research project performed by promising physician-researchers.
    5. LCRP Clinical Fellow Research Award supports a research project 
performed by clinical fellows under the guidance of a mentored 
designated mentor with an established lung cancer research program.
    Question. Why hasn't the committee received a copy of this plan 
since it has been almost eight months since enactment of the Fiscal 
Year 2009 bill?
    Answer. Unfortunately, in an effort to ensure coordination with all 
interested parties, the process took far longer than anticipated. The 
United States Army Medical Research and Materiel Command prepared the 
required plan and report near the beginning of the calendar year and we 
began the coordination process on January 22, 2009. At this time, the 
coordination and revisions requested by the coordinating office are 
nearly complete, and the report will be signed out within two weeks.
    Question. Will the report include an early detection and screening 
pilot program for our high risk military population?
    Answer. Currently, the Fiscal Year (FY) 2009 Lung Cancer Research 
Program does not have a specific award mechanism for a detection and 
screening pilot program for a high risk military population. However, 
each of the five award mechanisms for FY 2009 requires that the 
research address one or more of the areas of emphasis, which include:
    1. Identification or development of non-invasive or minimally 
invasive tools to improve the detection of the initial stages of lung 
cancer;
    2. Identification and development of tools for screening or early 
detection of lung cancer. Screening may include, but is not limited to, 
computed tomography scans, radiographs, other imaging, biomarkers, 
genetics/genomics/proteomics, and assessment of risk factors;
    3. Understanding the molecular mechanisms that lead to clinically 
significant lung cancer;
    4. Identification of the mechanisms that lead to the development of 
the various types of lung cancer;
    5. Identification of innovative strategies for prevention and 
treatment;
    6. Understanding predictive and prognostic markers to identify 
responders and non-responders for early lung cancer; and,
    7. Understanding acquired resistance to treatment.
    These areas of emphasis are aligned with the Congressional language 
from the September 28, 2009 report which states, ``The bill includes 
$20,000,000 for lung cancer research. Lung Cancer is the most lethal of 
all cancers taking more lives each year than all the other major 
cancers combined. Furthermore, the five-year survival rate for lung 
cancer remains at 15 percent, and a major challenge is that 70 percent 
of the diagnoses are late stage. Military personnel have heightened 
exposure to lung cancer carcinogens. These funds shall be for 
competitive research and the establishment of a tissue bank. Priority 
shall be given to the development of the integrated components to 
identify, treat, and manage early curable lung cancer. The Army is 
expected to provide a plan for these funds and to include Walter Reed 
Army Medical Center in the formulation of this plan. The plan shall be 
submitted to the congressional defense committees 120 days after 
enactment of this Act.''
    This language does not specify funding an early detection and 
screening pilot program for our high risk military population; however, 
the areas of emphasis in our award mechanisms encourage the submission 
of such an early detection and screening pilot program for our high 
risk military population.
    Question. If not, why not?
    Answer. The Congressional language from the September 28, 2009 
report does not specify funding an early detection and screening pilot 
program for our high risk military population; however, the areas of 
emphasis in our award mechanisms encourage the submission of an early 
detection and screening pilot program for our high risk military 
population.

                     Military HealthCare Facilities

    Question. As you assess the military medical programs and services 
and adapt to the changing needs of military members and their families:
    What are your impressions of the quality of DoD medical facilities 
and the TRICARE services provided in those facilities?
    Answer. The geographic range of JTF CAPMED's Joint Operation Area 
(JOA) stretches as far north as New Jersey, skirts West Virginia and 
extends south into Virginia. It includes 37 medical treatment faculties 
(MTFs), including the new Walter Reed Military Medical Center (WRNMMC) 
and Fort Belvoir Community Hospital (FBCH).
    Although a formal comprehensive assessment of the medical 
facilities in the JOA has not been undertaken, MTF physical condition 
appears to range from ``fair'' to ``excellent''. Each Service currently 
manages the repair, maintenance and operations of their facilities 
separately. Although the model for providing sustainment, restoration 
and modernization (SRM) funding is the same across the MHS, how it is 
applied varies somewhat between the Services, yielding varied condition 
levels. SRM funding models adopted by DoD in the last decade are based 
upon continued maintenance of facilities beginning in ``like new'' 
condition. Historic underfunding of facility repair and maintenance 
before the new models were adopted resulted in accelerated 
deterioration of many building systems. Although it will take time to 
accomplish, a goal of JTF CAPMED is to assure proper resourcing in 
facilities accounts to result in consistency in quality, safety, access 
and appearance in all of the facilities in the JOA.
    For the most part these MTFs lay outside the TRICARE access 
standards for referral care (60 miles or 60 minutes drive time). 
Generally patients from these MTFs are not referred to the larger MTFs 
in or near the DC beltway. The Army and Navy manage these MTFs and 
their scopes of practice and the services offered are determined by 
them. The scope of care and services offered are limited to primary & 
acute care in support of active duty and their family members and 
occupational health services as required for the civilian work force. 
The TRICARE Management Activity and the TRICARE Regional Office, North 
together with the TRICARE managed care support contractor, Health Net, 
provide a good network of civilian providers for the military 
beneficiaries in these areas more removed from Washington, DC, when 
they need specialty care services beyond the capabilities of these 
MTFs.
    Question. In your written statement you reference the important 
activities that are underway at all facilities affected by BRAC. Can 
you touch upon the activities currently going on in the National 
Capitol Area?
    Answer. There are a multitude of important activities currently 
underway at the medical treatment facilities (MTFs) affected by BRAC in 
the National Capital Region (NCR). Notwithstanding construction and 
renovation, the Department's primary effort has been focused on 
integrating military healthcare delivery in the NCR. To this end, JTF 
CAPMED has been coordinating with the NCR medical components of the 
Army, Navy, and Air Force to integrate processes and ensure the best 
utilization of resources available which will eliminate redundancies, 
enhance clinical care, promote health professions education and joint 
training, and enhance military medical research opportunities. Some 
examples include developing a joint manning document for the new Walter 
Reed National Military Medical Center (WRNMMC) and Fort Belvoir 
Community Hospital (FBCH), designing warrior transition services for 
wounded warriors while maintaining the command and control equities 
that the Services see as essential, and standardizing surgical care 
operations so that surgeons and patients can more easily receive care 
closer to home in any of the MTFs with operating rooms.
    Question. What investments has the Department made in the 
infrastructure of the military health system?
    Answer. The BRAC recommendation to realign Walter Reed Army Medical 
Center (WRAMC), coupled with warrior care enhancements directed by the 
Department, will fundamentally change the landscape of health care in 
the National Capital Region. The Department is expanding and renovating 
the National Naval Medical Center (NNMC) to create the Walter Reed 
National Military Medical Center (WRNMMC), and replacing the DeWitt 
Army Community Hospital (DACH) at Fort Belvoir, VA, with Fort Belvoir 
Community Hospital (FBCH). This $2.4B total investment represents the 
single largest integrated investment in resources into medical 
facilities in the history of the Military Health System. However, even 
while the construction projects funded by this program are underway, 
Operation & Maintenance funding continues to be leveraged at all three 
locations, to ensure continued safe operations, until all construction 
is completed and the legacy facilities have closed and gone through the 
disposition process.
    Question. What investments are currently needed?
    Answer. Successful culmination of the National Capital Region (NCR) 
Medical BRAC effort will not represent the end of capital investment in 
medical infrastructure at the new Walter Reed National Military Medical 
Center (WRNMMC) and Fort Bevloir Community Hospital (FBCH). BRAC 
funding added healthcare capability to accommodate the redistribution 
of the Walter Reed Army Medical Center (WRAMC) workload and 
capabilities through new construction, additions, and renovations, in 
order to meet the mandates of BRAC recommendations. However, portions 
of the medical infrastructure and the supporting installations at 
Bethesda and Fort Belvoir still require funding to upgrade and repair. 
Both Services maintain project requirements listings, and JTF CAPMED is 
working with both the Army and Navy to prioritize such projects for 
funding. Additionally, in order to properly guide future investments in 
these facilities to support the strategic mission of the WRNMMC, the 
FBCH and the entire JTF CAPMED inventory, JTF CAPMED has begun the 
development of long range strategic and capital investment master 
plans.

                Joint Task Force-National Capital Region

    Question. On 12 September 2007 the Deputy Secretary of Defense 
issued a memorandum establishing the Joint Task Force-National Capital 
Region (JTF CapMed). The purpose of the organization was to ensure the 
effective and efficient delivery of world-class military health care 
within the National Capital Region Tricare Sub-region by utilizing all 
military health care resources. The memorandum tasked you to report to 
the Under Secretary of Personnel and Readiness, David Chu.
    Given that Mr. Chu is no longer at the Defense Department, who do 
you report to now and is this memorandum still in effect?
    Answer. While the Under Secretary of Defense for Personnel and 
Readiness (USD(P&R)) and the Vice Chairman, Joint Staff were directed 
to oversee the initial establishment efforts of JTF CAPMED, JTF 
CAPMED's establishment charter explicitly defines a direct reporting 
relationship to the SECDEF through DEPSECDEF. JTF CAPMED is currently 
working with the Department to formulate an ultimate governance 
alignment that will recognize both the joint command and control 
equities and the policy formulation and fund flow equities of the 
Assistant Secretary of Defense for Health Affairs (ASD(HA)).
    Commander, JTF CAPMED also coordinates key decisions and issue 
status through an Overarching Integrated Process Team for the 
Transition of Medical Activities in the National Capital Region (NCR 
OIPT) as necessary. The NCR OIPT is co-chaired by ASD(HA) and Deputy 
Under Secretary of Defense for Installations and Environment 
(DUSD(I&E)). In addition, each Service's Vice Chiefs of Staff sit on 
the NCR OIPT as do the Assistant Secretaries for Installations and 
Manpower and Reserve Affairs.
    Question. Why didn't the reporting chain have you reporting to the 
Assistant Secretary of Defense, Health Affairs, isn't this unusual?
    Answer. It would be unusual for JTF CAPMED to report to the 
Assistant Secretary of Defense, Health Affairs (ASD(HA)), as JTF CAPMED 
has been chartered with command authority. If the Department had 
established a formal reporting relationship between JTF CAPMED and the 
ASD(HA) it would have been structured with the control, direction and 
authority typical of an agency or activity, not that of an entity with 
command and control authority. The ASD(HA) retains the same policy, 
oversight and funding authorities that are typically exercised in 
relation to the Service Medical Departments.
    Question. Exactly what is the relationship between the Service 
Surgeons General and your organization?
    Answer. JTF CAPMED maintains a collaborative relationship with the 
three Service Surgeons General (SGs), but primarily works though each 
Service's medical component commander (via tactical control 
relationships) for the National Capital Region (NCR) Joint Operating 
Area (JOA) to carry out its mission. JTF CAPMED also participates in 
the Assistant Secretary of Defense for Health Affairs Senior Military 
Medical Advisory Council, which includes the 3 SGs.
    JTF CAPMED has tactical control over Service medical treatment 
facilities and personnel in the NCR JOA, while Services retain 
operational control. However, not later than 15 September 2011, the 
Department has directed that JTF CAPMED take operational control of the 
new Walter Reed National Military Medical Center (WRNMMC) and Fort 
Belvoir Community Hospital (FBCH).
    Question. The Army has a Major General at Walter Reed Army Medical 
Center assigned as the Commander, North Atlantic Medical Region (NAMR). 
Isn't she responsible for all TRICARE activities in the National 
Capital Region (NCR) as well as the operations of Walter Reed Army 
Medical Center and the Fort Belvoir community hospital?
    Answer. TRICARE Regional Office--North (TRO-N), which covers the 
National Capital Region (NCR), is one of three regional offices that 
manages regional contract support to military healthcare providers in 
the U.S.-based TRICARE regions. Each TRO is responsible for, among 
other things, management of the TRICARE contracts for all eligible 
Military Health System (MHS) beneficiaries in the region, the provision 
of support to the military medical treatment facility (MTF) Commanders 
in their delivery of health care services for MTF-enrolled 
beneficiaries and funding of regional initiatives to optimize and 
improve the delivery of health care.
    The commander of Army North Atlantic Regional Medical Command 
(NARMC) is responsible for all Army medical units and their activities 
in the NCR, as well as some outside of the NCR. Commander NARMC acts as 
the component commander within JTF CAPMED only for Army medical forces 
within the NCR.
    Currently, the Commander of NARMC is responsible for the operations 
of Walter Reed Army Medical Center (WRAMC) and DeWitt Army Community 
Hospital (DACH) at Fort Belvoir and will maintain responsibility until 
those organizations are deactivated. The Commander of NARMC will not be 
responsible for the two new joint medical facilities, Walter Reed 
National Military Medical Center (WRNMMC) and Fort Belvoir Community 
Hospital (FBCH), when they are established before 15 September 2011.
    Question. Does Commander, NAMR work for you?
    Answer. The Commander of JTF CAPMED exercises tactical control 
(TACON) over the Commander of Army North Atlantic Regional Medical 
Command (NARMC) and Army forces assigned to the Commander of NARMC in 
the National Capital Region (NCR) Joint Operating Area (JOA). The 
Commander of NARMC exercises Army operational control authorities over 
all assigned forces.
    JTF CAPMED exercises this same TACON relationship with the Navy and 
Air Force medical component commanders in the NCR JOA.
    Question. If not, what is her role and what is the command 
relationship with your organization?
    Answer. The Commander of Army North Atlantic Regional Medical 
Command (NARMC) is the Army Component Commander for the Commander of 
JTF CAPMED in the National Capital Region (NCR) Joint Operating Area 
(JOA). Commander, JTF CAPMED exercises tactical control over Army NCR 
JOA medical forces through the Commander of NARMC.

                  Armed Forces Institute of Pathology

    Question. In Fiscal Year (FY) 2008, the Congress established a 
Joint Pathology Center (JPC) as a successor to the Armed Forces 
Institute of Pathology (AFIP).
    What actions have been taken by the Department to preserve AFIP's 
capabilities until the new Joint Pathology Center is fully operational?
    Answer. The AFIP capabilities have been maintained in accordance 
with the mission and requirements outlined in the National Defense 
Authorization Act (NDAA) for Fiscal Year (FY) 2008 to perform this 
mission for the Military Services and other Federal agencies. The JPC 
will provide the same pathology consultation services as AFIP does 
today to Federal agencies, as provided by the JPC authority in the NDAA 
for FY 2008. Consistent with the Base Realignment and Closure 
Commission's final recommendations, the previous program of providing 
diagnostic consultation services to the civilian community is being 
discontinued. The implementation of a JPC will be coordinated with the 
closure of AFIP to optimize utilization of AFIP personnel, equipment, 
and supplies, consistent with JPC mission requirements.
    Question. What actions have been taken by the Department to 
establish a Joint Pathology Center (JPC)?
    Answer. In April 2008, the Assistant Secretary of Defense for 
Health Affairs (ASD(HA)) chartered a JPC workgroup that included the 
senior leadership from the Armed Forces Institute of Pathology (AFIP), 
Uniformed Services University of the Health Sciences, the Services, 
Department of Defense (DoD), Department of Veterans Affairs, and 
Department of Health and Human Services to develop options for a JPC 
within DoD. Based on these recommendations, the ASD(HA) chose to 
establish the JPC as part of the new Walter Reed National Military 
Medical Center, under the Joint Task Force National Capital Region 
Medical (JTF CapMed). The JTF CapMed, with AFIP assistance, developed a 
concept of operations for a JPC that was presented to the Defense 
Health Board and the AFIP Board of Governors. Based on feedback from 
these boards, and the Department's Senior Military Medical Advisory 
Council, JTF CapMed is finalizing an implementation plan for a JPC 
under their governance. Once approved, JTF CapMed and the AFIP will 
begin coordinating the closure of AFIP with the implementation of the 
JPC. Initial operating capability is targeted for July 2010 and full 
operating capability is planned by mid-September 2011. The JPC will 
provide the functions required by the National Defense Authorization 
Act for Fiscal Year 2008: provide diagnostic consultations for the 
Military and other Federal agencies, establish a Program Management 
Office to manage consultations (required by Base Realignment and 
Closure), provide pathology education and research, and maintain and 
modernize the tissue repository.
    Question. Where will the Center be located and when will it be 
fully operational?
    Answer. The Center will be located on the Bethesda campus, with the 
new Walter Reed National Military Medical Center, the Joint Task Force 
National Capital Region (JTF CapMed), and, due to space and funding 
constraints, the Forest Glen Campus where the Tissue Repository will be 
located. The Center locations will be consolidated when funds and 
facilities become available. The implementation plan is being finalized 
by the JTF CapMed, with assistance from the Armed Forces Institute of 
Pathology, and will include a milestone for initial operational 
capability in July 2010 and full operational capability in mid-
September 2011 when Base Realignment and Closure requires the Walter 
Reed Army Medical Center campus to be vacated.

 Reporting Requirements on the New Walter Reed National Medical Center

    Question. This report was due 45 days after enactment and a similar 
report on the transition plan was required by the appropriations 
committees 120 days after enactment of the fiscal year 2009 
appropriations bill.
    What is the status of the reports required under these provisions?
    Answer. In response to Section 2721(d) of the Fiscal Year (FY) 2009 
National Defense Authorization Act (NDAA), the Department delivered an 
interim submission to Congress on 13 March 2009 and approved its final 
report on 14 May 2009. The Department's understanding from this 
committee was that the 14 May 2009 submission that was delivered to 
Congress satisfied both the requirements from section 2721(d) of the FY 
2009 NDAA and the FY 2009 Defense Appropriations Conference Report.
    In addition, the Department plans to submit the report required by 
Section 1674(a) of FY 2008 NDAA by late Summer 2009, which will include 
more detailed plans about the Walter Reed Army Medical Center 
transition and a Master Transition Plan.
    Question. It has been four years since the Department submitted its 
Base Closure recommendations, why is it taking so long to provide this 
information to the Congress?
    Answer. The 2005 Walter Reed Army Medical Center (WRAMC) BRAC 
recommendation only marked the first step in the military medical 
realignment currently under way in the National Capital Region (NCR). 
Since then, the Department has greatly expanded the scope of the 
medical transformation in the NCR in ways such as identifying 
additional wounded warrior transition requirements in the region, 
directing the integration of military healthcare delivery in the NCR 
Joint Operating Area (JOA), establishing the new Walter Reed National 
Military Medical Center (WRNMMC) and Fort Belvoir Community Hospital 
(FBCH) as the military's first jointly staffed and governed medical 
treatment facilities (MTFs) and converting a significant number of 
government civilians at the NCR Service facilities to become a DoD 
civilian workforce--thereby significantly enhancing their career 
development potential.
    The Department has provided information to Congress throughout this 
significant evolution through the President's Budget, congressional 
briefings and site visits and report/interim submissions. In addition, 
it chartered NCR Medical Joint Task Force (JTF CAPMED) with the mission 
of overseeing the primary components of this complex transition. JTF 
CAPMED reached full operating capability on 30 September 2008 and since 
then has moved quickly and efficiently to create a milestone schedule 
for the transition, which has been delivered to Congress. JTF CAPMED is 
also nearing completion of a Master Transition Plan (MTP), which will 
be an adaptive planning document that describes in greater detail the 
individual actions required to transition current hospitals to the 
regional end state. The initial version of the MTP is anticipated to be 
completed in late Summer 2009.
    Question. When can the Congress expect to receive a final copy of 
responses to these provisions?
    Answer. Section 2721 of the Fiscal Year 2009 National Defense 
Authorization Act required the Secretary of Defense to: (b) establish a 
design review panel to determine whether design/plans for Walter Reed 
National Military Medical Center (WRNNMC) are ``world-class''; (c) 
submit a cost estimate for closing Walter Reed Army Medical Center 
(WRAMC) and relocating operations to WRNMMC and Fort Belvoir Community 
Hospital (FBCH); (d) submit a milestone schedule for transition/
relocation of operations from WRAMC to WRNMMC and FBCH.
    The Department noted its cost estimate for the project as the 
President's Budget in the cover letter accompanying an interim report 
delivered to Congress on 13 March 2009. In addition, in response to 
section 2721(d) of the NDAA for FY 2009, a milestone schedule was 
approved by the Department on 14 May 2009. The Department's 
understanding from this committee was that the 14 May 2009 submission 
that was delivered to Congress satisfied both the requirements from 
section 2721(d) of the FY 2009 NDAA and the FY 2009 Defense 
Appropriations Conference Report.
    As for section 2721(b) of the NDAA for FY 2009, the Department 
directed the Defense Health Board (DHB), National Capital Region (NCR) 
BRAC Subcommittee to review the design plans for the WRNMMC and FBCH 
and advise the Secretary of Defense regarding whether the design, in 
the view of the panel, will achieve the goal of providing world-class 
medical facilities. The DHB has not yet delivered to the Secretary of 
Defense its recommendations regarding the design. Since the DHB is an 
independent body the Department does not exercise control over when the 
DHB will submit its report to the Secretary of Defense, but has 
communicated the deadline set by Congress. The report is near 
completion and once it is delivered to the Secretary of Defense the 
Department will provide the DHB's report and its assessment of the 
board's recommendation to Congress in a timely manner.

                          Collaborative Design

    Question. Did the Department appoint an independent body to review 
the design plans to ensure the new facility is truly world class?
    Answer. As per section 2721(b) of the National Defense 
Authorization Act (NDAA) for Fiscal Year (FY) 2009, the Department 
directed the Defense Health Board, National Capital Region BRAC 
Subcommittee to review the design plans for the Walter Reed National 
Military Medical Center (WRNMMC) and the new military hospital at Fort 
Belvoir (FBCH) and advise the Secretary of Defense regarding whether 
the design, in the view of the panel, will achieve the goal of 
providing world-class medical facilities.
    Question. Do we now have a world class design for the new WRNMMC?
    Answer. The design efforts to meet BRAC requirements at Walter Reed 
National Military Medical Center (WRNMMC) and Fort Belvoir Community 
Hospital (FBCH) have employed industry best practices by some of the 
country's leading architectural firms. The highly progressive FBCH 
design includes numerous Evidence Based Design and ``green'' practices. 
The design and construction efforts at WRNMMC are similarly progressive 
but did not include all elements of the medical campus or the full 
renewal of all renovated areas.
    The Defense Health Board National Capital Region BRAC Subcommittee 
is formulating its report on this issue, as required by section 2721(b) 
of the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 
2009.
    Question. When was this design completed?
    Answer. Design for the construction and partial renovation at the 
Walter Reed National Military Medical Center (WRNMMC) for the new 
inpatient and outpatient additions were completed in April 2009 and the 
designs for the warrior transition services and renovations are 
scheduled to be completed by December 2009.
    Question. Who was appointed to this panel and what were their 
credentials?
    Answer. The Defense Health Board, National Capital Region BRAC 
Subcommittee members include:
    --Dr. Kenneth W. Kizer (Chair)--Medsphere Systems
    --Col (Ret) Richard J. Andrassy, MD--University of Texas Houston 
Health Science Center
    --Lt Gen (Ret) Paul K. Carlton, Jr., MD--Texas A&M University 
System Health Science Center
    --Mr. Raymond F. DuBois--Center for Strategic and International 
Studies (CSIS)
    --BG (Ret) James J. James, MD--Center for Public Health 
Preparedness and Disaster
    --Dennis S. O'Leary, MD--President Emeritus, The Joint Commission
    --Mr. Phillip E. Tobey--Smith Group
    --Ms. Cheryl L. Herbert--Dublin Methodist Hospital
    The Defense Health Board, National Capital Region BRAC Subcommittee 
supporting subject matter experts include:
    --Ms. Tammy Duckworth--Department of Veterans Affairs
    --Mr. Andrew Mazurek--Navigant Consulting
    --Mr. Charles M. Olson--Mayo Clinic Rochester
    --Mr. John Pangrazio--NBBJ Architecture, Planning and Design
    --Dr. A. Ray Pentecost III--Clark Nexsen
    --Mr. Orlando Portale--Polomar Pomerado Health
    --Mr. Stephen C. Schimpff--University of Maryland
    The Department can provide individual biographies upon request.
    Question. How many times did this panel meet?
    Answer. The Defense Health Board, National Capital Region BRAC 
Subcommittee held meetings on September 29, 2008, November 17-18, 2008, 
and January 15-16, 2009 and held two telephone conferences on September 
22, 2008 and December 12, 2008.
    Question. What were the findings of the panel?
    Answer. The Defense Health Board has not yet delivered its 
recommendations regarding the design plans for the Walter Reed National 
Military Medical Center and the new military hospital at Fort Belvoir 
(FBCH) to the Secretary of Defense, as required by section 2721(b) of 
the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 
2009.
    Question. Have the results of their review been provided to the 
Congress?
    Answer. No, the Defense Health Board has not yet delivered to the 
Secretary of Defense its recommendations regarding the design plans for 
the National Military Medical Center and the new military hospital at 
Fort Belvoir, as required by section 2721(b) of the National Defense 
Authorization Act (NDAA) for Fiscal Year (FY) 2009.
    Question. If not when will they be provided?
    Answer. Since the Defense Health Board is an independent body the 
Department does not exercise control over when the DHB will submit its 
report to the Secretary of Defense, but has communicated the deadline 
set by Congress. The report is near completion and once it is delivered 
to the Secretary of Defense the Department will provide the DHB's 
report and its assessment of the board's recommendation to Congress in 
a timely manner.

                       Independent Cost Estimate

    Question. What is the total cost to implement the BRAC 2005 
proposals for medical care in the National Capital Region? Provide all 
costs not just construction costs.
    Answer. The current estimated total cost from FY 2006 to FY 2011 
for the expansion and renovation of the National Naval Medical Center 
(NNMC) and associated projects to create the Walter Reed National 
Military Medical Center (WRNMMC), and replacement of the DeWitt Army 
Community Hospital at Fort Belvoir, VA, with Fort Belvoir Community 
Hospital (FBCH) is $2.4 billion. This total includes: the design, 
construction, equipment, outfitting, and transition activities 
associated with the creation of new health care capabilities at the 
WRNMMC and FBCH. It also includes additional parking at both locations, 
the construction of new Wounded Warrior transition services, and other 
administrative and support functions at Bethesda required to 
accommodate related functions relocating from the Walter Reed Army 
Medical Center campus. However, it does not include final property 
disposal and environmental cleanup costs for the closure of Walter Reed 
Army Medical Center.
    Question. Have these costs been verified by an Independent Cost 
Estimate?
    Answer. Section 2721(c) of the National Defense authorization Act 
(NDAA) for Fiscal Year (FY) 2009 required a cost estimate which was 
provided in the cover letter accompanying the Department's Section 2721 
interim submission dated 13 March 2009. There was not a requirement to 
do an independent estimate, but the DoD budget process and the bid 
process provide opportunities to vet the construction agent estimates. 
In addition, the Government Accountability Office reviews the BRAC 
costs annually. The combination of these processes provides sufficient 
review of the costs.
    Question. What was the original cost estimate when BRAC 2005 was 
submitted?
    Answer. The 2005 original estimate for transitioning operations at 
Walter Reed Army Medical Center (WRAMC) to Bethesda, MD and Fort 
Belvoir, VA was $853M. These costs did not include the costs of the 
non-medical treatment aspects of the WRAMC recommendation, which also 
include moving various research and support functions from WRAMC to 
other locations.
    Question. Why have the costs increased by so much?
    Answer. Cost growth for the new Walter Reed National Military 
Medical Center (WRNMMC) at Bethesda and the Fort Belvoir Community 
Hospital (FBCH) between May 2005 and the present is due to several 
factors.
    The 2005 original estimate for transitioning operations at Walter 
Reed Army Medical Center (WRAMC) to Bethesda, MD and Fort Belvoir, VA 
was $853M. These costs did not include the costs of the non-medical 
treatment aspects of the WRAMC recommendation, which also include 
moving various research and support functions from WRAMC to other 
locations.
    Between May 2005 and September 2006, DoD performed detailed 
requirements and cost analysis for the healthcare requirements 
associated with the Walter Reed Army Medical Center (WRAMC) BRAC 
actions in the National Capital Region (NCR). These refinements 
resulted in almost doubling the required floor space and a $473M 
increase in MILCON costs above the original BRAC estimates.
    The remaining approximately $1.1B cost increase comes in two main 
parts: $679M in MILCON cost growth at both WRNMMC and FBCH resulting 
from decisions to primarily enhance and also accelerate construction in 
support of wounded warriors and $392.4M for additional construction 
projects and outfitting costs for both hospitals. The latter portion 
was added during the FY10-15 Program Objective Memorandum (POM) 
process. Details are as follows.
    $679M increase:
    <bullet> Inflation ($83M): The original construction budgets for 
BRAC were based on FY04 pricing guides, whereas the new budgets reflect 
the DoD's FY07 pricing guide.
    <bullet> Construction Schedule Acceleration ($123M): DoD responded 
to requests from the Congress to accelerate the construction schedule 
for the projects related to WRAMC BRAC including both WRNMMC and FBCH.
    <bullet> Warrior Care Enhancements ($473M): Several elements were 
added to the expanded medical center and supporting facilities at 
Bethesda to better respond to the expected influx of Warriors in 
Transition and their families. They include enhancing 30 outdated 
Intensive Care Unit beds, 66 new private medical surgical hospital bed 
rooms, increased non-clinical medical center support facilities, space 
for a primary care clinic dedicated to treatment of Warriors in 
Transition (WIT), a WIT unit headquarters, accessible housing for 
junior enlisted staff and WITs, dining facility expansion for WITs, a 
fitness center capable of servicing WITs and sized for the new Bethesda 
staff and parking sufficient for the additional patients, family and 
staff.
    $392.4M Increase:
    <bullet> MILCON ($146M):
     $59.9M for Ft. Belvoir in support of the construction for the new 
facility and expanded parking
     $46.0M for Bethesda traffic mitigation measures
     $28.0M in additional parking at Bethesda
     $5.6M in re-pricing of the dental clinic at Fort Belvoir
     $6.5M to address base infrastructure updates to support the 
National Intrepid Center of Excellence (NICoE)
    <bullet> O&M ($246.4M):
     $243.0M for Bethesda and Belvoir in additional Initial Outfitting 
& Transition (IO&T) funding to address requirements developed from 
detailed reviews of the requirements from the market
     $3.4M in re-pricing for the dental clinic IO&T requirement
    Question. Are additional cost increases expected?
    Answer. There are some components of the overall project that do 
not yet have final pricing. The combination of the final pricing and 
any other issues uncovered as renovation proceeds may lead to cost 
changes. Any cost increases will be addressed in the Fiscal Year (FY) 
2011 president's budget (PB) submission or if necessary in FY 2010 PB 
and FY 2009 Overseas Contingency Operations (OCO) funding execution 
(with concomitant reprogramming notifications).
    Question. What were the original annual savings and payback period 
when the BRAC 2005 was enacted?
    Answer. As stated in the BRAC commission report, the annual savings 
was estimated to be $145M with a six year payback.
    Question. What is the current annual estimated savings and payback 
period?
    Answer. The current estimate is that the recommendation will 
generate $170M in annual savings for the entire recommendation. Payback 
is around 16 years.
    Question. With what you know now, does this project make fiscal 
sense?
    Answer. Yes. Savings estimates and payback do not include the 
substantial costs that will be avoided to recapitalize the existing 
Walter Reed Army Medical Center nor did it account for the enhanced 
wounded warrior mission. BRAC afforded the Department the opportunity 
to consolidate infrastructure in the National Capital Region and 
provide care via an integrated regional delivery network. The focus on 
BRAC was not only savings, but transformation of the infrastructure.
    Question. If so, please explain why?
    Answer. Significant investments in health care infrastructure were 
required prior to BRAC, and the comprehensive strategy represented by 
BRAC is more effective than a series of independent, Service specific 
investments. Prior to the BRAC decision, military health care in the 
National Capital Region (NCR) was unintegrated and operated with 
outdated infrastructure. Delivery of specialty care was redundant 
across three geographically separate medical centers, and although 
significant strides had been made to integrate care, the fiscal 
inefficiencies of operating separate facilities, and two distinct 
medical installations within a 5 mile radius could not have been 
overcome.
    Community hospital and outpatient care was similarly not integrated 
across Service lines, and not focused on providing the appropriate 
level of care conveniently located to the patient population. The DoD 
hospital and medical center infrastructure in the NCR was aging, and 
more than 4 million square feet of existing facility infrastructure for 
the three Services required recapitalization in the next decade. Walter 
Reed Army Medical Center (WRAMC) and National Naval Medical Center 
(NNMC) were both designed in the early 1970s based upon dated 
healthcare delivery models and technology and as a result were in need 
of update.
    In 2002, it was estimated that an investment of almost $750M for 
WRAMC alone would be required to update the building infrastructure and 
convert it to a configuration optimal for current models of care. Such 
a sizeable investment in the current location, of course, would still 
not have resolved the operational challenges. Additionally, Service 
funding processes challenged proper facility investment and operational 
planning in the NCR. For example, in spite of a growing multi-service 
demand in the Virginia portion of the market, the original replacement 
project for the 1957 vintage Ft. Belvoir Community Hospital was only 
sized to meet the Army demand model. Without the BRAC decision to 
optimize health care delivery by making this investment in an 
integrated solution, sizeable, Service-based investments in 
infrastructure would not have resulted in an integrated delivery system 
and would have perpetuated operational inefficiencies and redundancies 
for decades to come.

    Medical Care in the National Capitol Region-Transition Planning

    Question. In addition, the fixed year 2009 DOD Appropriations bill 
expressed concerns over challenges with the transition of over 
1,500,000 patients from the three hospitals to two new facilities. We 
directed you to submit a thorough and detailed milestone schedule which 
outlines prove out of the facilities, transition of staff personnel as 
well as care of service members and their families.
    Has that detailed report been completed?
    Answer. Yes. In response to Section 2721(d) of the Fiscal Year (FY) 
2009 National Defense Authorization Act (NDAA), the Department 
delivered an interim submission to Congress on 13 March 2009 and 
approved its final report on 14 May 2009. The Department's 
understanding from this committee was that the 14 May 2009 submission 
that was delivered to Congress satisfied both the requirements from 
section 2721(d) of the FY 2009 NDAA and the FY 2009 Defense 
Appropriations Conference Report.
    In addition, the Department plans to submit the report required by 
Section 1674(a) of FY 2008 NDAA in late Summer 2009, which will include 
more detailed plans about the Walter Reed Army Medical Center 
transition and a Master Transition Plan.
    Question. Has the problem of ingress and egress been solved?
    Answer. The staff of the National Naval Medical Center (NNMC) has 
worked closely with local and state officials to resolve issues related 
to traffic congestion in the vicinity of NNMC and improve access to and 
egress from the NNMC Campus. Traffic mitigation measures will occur 
both on the Bethesda Campus and outside the Campus gates.
    On Campus. Improvements to access roads, gate houses, and anti-
terrorism/force protection measures as well as construction of a truck 
inspection station and small visitor's center will result in improved 
access to and egress from the Campus and also provide improved security 
measures. At present, funding for the on-Campus improvements is 
budgeted at $26 million apportioned across FY 2010 ($18.4 million) and 
FY 2011 ($7.6 million).
    Off Campus. The NNMC staff members have worked closely with 
Montgomery County and Maryland State Highway Administration to design 
improvements which will facilitate greater access to the Campus from 
public transportation and major thoroughfares. DoD has committed $1 
million of the budgeted $26 million to improve a turn lane at the 
Campus North Gate which will facilitate safer access to and egress from 
the Campus for cross traffic on Rockville Pike/Hwy 355. Consistent with 
the results of our Environmental Impact Statement (EIS), the Department 
has submitted a needs report to the Defense Access Road (DAR) Program 
requesting examination and certification of options that will help ease 
pedestrian traffic crossing Rockville Pike/Hwy 355 to the NNMC Campus. 
At present, $20M has been allocated in FY 2011 for this project. As is 
the case with all future budgets, the funding for these projects is 
subject to change as the FY 2011 budget is reviewed and finalized 
within DoD.
    Question. What is the plan to solve ingress and egress?
    Answer. Projects are designed and programmed for funding for 
improvements at all five gates, to include enhancing METRO access, as 
previously stated. Considerable efforts are also being made by the 
Bethesda Installation to enhance the use of alternative transportation. 
National Naval Medical Center (NNMC) is working closely with local 
transportation authorities to improve scheduling, actively encouraging 
carpooling and the use of public transit subsidies and improving bus 
stops proximate to the base and bicycle paths.
    Additionally, analysis is underway to determine if the volume of 
outpatient traffic coming to Walter Reed National Military Medical 
Center (WRNMMC) can be effectively mitigated by increasing distributed 
primary care services (including pharmacy) off of the WRNMMC campus and 
by leveraging programs such as mail order and mail refill pharmacy.
    Question. When do you plan on the completion of construction for 
each of the two facilities?
    Answer. Construction of the new Fort Belvoir Community Hospital is 
scheduled for full completion by April 2011, and the construction of 
facilities and renovations at Bethesda will continue through August 
2011. At both locations, various building components will come on line 
in sequence such that equipping, outfitting, commissioning, and 
training activities can be coordinated over an extended period prior to 
the final movement of patient care.
    Question. Approximately 1,900 of the personnel at WRAMC are 
supposed to move to the new Walter Reed and 2000 are supposed to move 
to the new Fort Belvoir community hospital. Have those individuals been 
notified of where they will be moving?
    Answer. Not at this time. Individual notifications will be made as 
soon as possible after the new joint manning documents for the Walter 
Reed National Military Medical Center (WRNMMC), Fort Belvoir Community 
Hospital (FBCH) and Andrew's Air Force Base (AAFB) which are currently 
being vetted by the Services and approved for release.
    Since the manning documents for the two new joint hospitals (WRNMMC 
and FBCH) include new organizational structures, they must be 
thoroughly reviewed to determine the most appropriate placements for 
current civilian employees at Walter Reed Army Medical Center (WRAMC) 
and National Naval Medical Center (NNMC). NCR Medical Joint Task 
Force's goal, which we believe will be achievable for the vast majority 
of individuals at WRAMC, is to place employees where they want to be 
located doing the work they want to do. For military members, the Army, 
Navy and Air Force will assign forces to joint billets at WRNMMC, AAFB 
and FBCH.
    Question. When can the medical staff at Walter Reed expect to be 
notified of their future employment?
    Answer. Based on the anticipated release of the joint manning 
documents in September 2009, NCR Medical Joint Task Force expects to 
begin to notify civilian employees of their future position and duty 
stations by Spring 2010. The Army will determine how they will fill the 
Army billet requirements at the two new joint hospitals, Walter Reed 
National Military Medical Center (WRNMMC) and Fort Belvoir Community 
Hospital (FBCH), and at Andrews Air Force Base (AAFB). Army personnel 
currently at Walter Reed Army Medical Center (WRAMC) will be notified 
by the Army based on its specific selection and notification processes.
    Question. Do you find it troubling that there is no final personnel 
plan?
    Answer. There is and has been a plan to transition healthcare and 
support staff currently employed in the National Capital Region (NCR) 
to the regional end state. It began with the development of the Program 
for Design (PFD), which gave the initial estimates of personnel in each 
facility. It then took the form of establishing the Directors of 
Integration (DCIs) at both Walter Reed Army Medical Center (WRAMC) and 
National Naval Medical Center (NNMC). The DCI's are cross-service 
personnel whose task is to prepare the WRAMC and NNMC staffs for the 
eventual integration. The DCIs have been an integral part of shaping 
the future workforce for the two new joint facilities--Walter Reed 
National Military Medical Center (WRNMMC) and Fort Belvoir Community 
Hospital (FBCH). Similar efforts are underway to prepare staff at 
Dewitt Army Community Hospital (DACH) and Andrews Air Force Base 
(AAFB).
    The overall personnel plan has further evolved with the development 
of joint manning documents which describe the Service mix within each 
facility. These documents are currently under review by the Services 
and Joint Staff and are expected to be released by September 2009. The 
Civilian personnel plan has been guided by a Civilian Human Resources 
Council (CHRC) that includes multi-Service stakeholders. The CHRC has 
been and will continue to oversee the transition and integration of the 
civilian employees at WRAMC, NNMC DACH and AAFB into a regional force 
of DoD Military Health System civilians.
    The elements of the personnel plan will be laid out in the Master 
Transition Plan (MTP). The MTP is an adaptive planning document that 
describes in greater detail the individual actions required to 
transition the current hospitals to the regional endstate. The initial 
version of the MTP is anticipated to be completed by late Summer 2009.
    Question. How much of the major equipment at Walter Reed will be 
utilized at the new WRNMMC or Fort Belvoir?
    Answer. The DoD Joint Technology Assessment and Requirements 
Analysis (JTARA) assessment reviewed the current condition and life 
expectancy of all major equipment items valued at over $100,000, such 
as radiology systems, to determine viability for reuse. Thirty five 
percent of these equipment items are programmed for reuse at the new 
facilities. Additionally, a review of almost 11,000 items of equipment 
with a value under $100,000 was undertaken by the staff and it was 
determined that approximately 20% of these items will be programmed for 
reuse.
    Approximately $19.9M worth of equipment will be reused at the new 
Walter Reed National Military Medical Center (WRNMMC) and $26.8M worth 
at Fort Belvoir Community Hospital (FBCH). The objective to reuse 
equipment must be carefully balanced with the requirement to continue 
safe and effective care without degradation. As a result, these 
quantities and values will continuously fluctuate. As movement plans 
continue to be fine tuned, these items will continue to be evaluated 
for feasibility and practicality of their reuse.
    Question. Please provide a detailed list of all equipment which 
will be reutilized and to which location it will be sent?
    Answer. Target lists for reuse of equipment valued over $100,000 
are included below. Targets lists for reuse of equipment valued less 
than $100,000 comprise nearly 40 pages at this time and that list can 
be provided to the committee upon request.
    Analysis is still ongoing to determine whether each of these items 
can actually be reused without degradation of service or incurrence of 
excessive expense for temporary provisions. The attached spreadsheets 
indicate the equipment origin and destination locations for items going 
to the new Walter Reed Army Medical Center (WRNMMC). The Architect/
Engineer for WRNMMC has been provided the cut-sheets for the reuse 
equipment and is evaluating the list against the building design to 
determine if the building design is suitable for reuse of the selected 
reuse items.
    The location information for the reuse items tentatively identified 
for Fort Belvoir Community Hospital (FBCH) is not yet finalized. FBCH 
only recently completed user reviews for their equipment requirements 
and are in the process of assessing the Joint Technology Assessment and 
Requirements Analysis (JTARA) and non-JTARA reuse items against these 
requirements. They will perform a similar review of the building design 
to determine whether it will support the reuse of the equipment 
identified. Other evaluation criteria that is considered is whether the 
reuse items meet the objectives for standardization and whether the 
items from Walter Reed Army Medical Center (WRAMC) will be available 
when the items are required onsite at FBCH for outfitting.
    These lists are updated daily and are likely to change as the 
region approaches transition to the new facilities depending on the 
clinical analysis and possibility of interruption of healthcare.
[GRAPHIC] [TIFF OMITTED] T6286A.094

[GRAPHIC] [TIFF OMITTED] T6286A.095

    Question. How much additional equipment will need to be procured 
for both WRNMMC and Fort Belvoir and how much has been budgeted in 
previous years and how much is in the fiscal year 2010 President's 
Budget?
    Answer. The Initial Outfitting and Transition budget of 
approximately $550M will provide the equipment and transition services 
for both Walter Reed National Military Medical Center (WRNMMC) and Fort 
Belvoir Community Hospital (FBCH) after placement of all reusable 
equipment from Walter Reed Army Medical Center (WRAMC).
    The table below provides the amount executed in fiscal year 2007, 
2008 and 2009 for National Naval Medical Center (NNMC) and DeWitt Army 
Community Hospital (DACH). For the purpose of this response equipment 
is defined as medical equipment with a value greater than $100,000.

------------------------------------------------------------------------
                                         Bethesda         Fort Belvoir
------------------------------------------------------------------------
FY07 Executed.....................     $15,059,632.40           $942,382
FY08 Executed.....................     $18,190,520.18         $1,034,661
FY09 Executed.....................      $8,073,051.71           $318,433
* FY10 Planned....................      $7,262,659.41
------------------------------------------------------------------------
* The table includes the NNMC requirements planned for fiscal year 2010.
  However, the Army Medical Department centrally budgets for medical
  equipment greater than $100,000 and Medical Treatment Facility
  requirements are prioritized and funded in the year of execution. This
  makes it unfeasible to provide an accurate amount for the fiscal year
  2010 President's Budget for Fort Belvoir.

    Question. What do you consider the pacing items for the transition 
from the old to the new facilities?
    Answer. National Capitol Region Medical Joint Task Force (JTF 
CAPMED) sponsored a Clinical Transition Wargaming Exercise in February 
2009 to address this question. A copy of that report has been made 
available to Congress. The exercise determined that patient safety and 
satisfaction is best maintained by retaining virtually all services at 
Walter Reed Army Medical Center (WRAMC) until a short transition period 
in the late Summer of 2011. Of critical concern is making certain that 
all the conditions are established for the continuity of care and 
services supporting the wounded warrior population.
    The key pacing, or ``trigger'' milestones for transition are below:
    <bullet> June 2009--Establish Central Program Management Office and 
approve initiate contract for Joint Transition/Integration Teams.
    <bullet> October 2009--Fully staff Joint Transition/Integration 
Teams and focused Transition Cells at Walter Reed, Bethesda, and 
Belvoir.
    <bullet> \January 2010--Commence comprehensive turnkey equipment 
procurement and transition services (move and activation) contract.
    <bullet> October 2010--Establish Joint Command structure to ensure 
unity of effort of physical transition.
    <bullet> March 2011--Complete NNMC occupancy of new outpatient and 
inpatient buildings at Bethesda.
    <bullet> June 2011--Complete transition of all Dewitt operations to 
the new Fort Belvoir Community Hospital.
    <bullet> Late Summer 2011--Transition all operations from Walter 
Reed to Bethesda and Belvoir.
    Other significant items that are scheduled to be completed in the 
third and fourth quarter of FY 2011 include delivery of wounded warrior 
facilities, administrative buildings, parking garages and entrance gate 
improvements on the Bethesda campus. All of these items are scheduled 
to be completed in the third and fourth quarter of FY 2011.
    For further detail please refer to the Department's milestone 
schedule submission, as required by section 2721(d) of the FY 2009 
National Defense Authorization Act (NDAA), which was approved on 14 May 
2009 and delivered to Congress.
    Question. Are you concerned with the transition and how long do you 
estimate you will have from the completion of construction to September 
15, 2011 when the move must be completed?
    Answer. Completing the construction and Initial Outfitting & 
Transition (I&OT) timelines for Bethesda and Fort Belvoir is the 
largest transition program that the Military Health System has carried 
out. While such transition challenges are not foreign to the private 
sector, this project presents the unique challenge at Bethesda of 
adding to a hospital while continuing to operate that hospital. 
Ensuring a safe and effective transition is the JTF CAPMED's first 
priority.
    Completion of several key facilities on the Bethesda campus will 
not be achieved until late Summer 2011. An analysis of industry 
healthcare relocations found that it is common and prudent practice to 
relocate major operations over a short period of time, or all at once. 
By concentrating the actual move process to a compressed timeframe, 
this strategy minimizes the disruption to patient care and confusion 
for patients, and is safer than trying to extend operations across two 
separate locations. This is accomplished following several months of 
preparatory activities to ensure that the new spaces are fully 
outfitted, equipped, and commissioned and staff and patients are 
trained and oriented in advance of the move. Patient scheduling and 
admitting will be managed to ensure continuity of care over this move 
period.
    For further detail please refer to the Department's milestone 
schedule submission, as required by section 2721(d) of the FY 2009 
National Defense Authorization Act (NDAA) that was dated 14 May 2009 
and delivered to Congress.
    Question. What actions are you taking to mitigate these concerns?
    Answer. The Department is implementing the milestone schedule, as 
required by section 2721(d) of the FY 2009 National Defense 
Authorization Act (NDAA) that was approved on 14 May 2009 and delivered 
to Congress.
    Question. What is the planned disposition for the existing Walter 
Reed Army Medical Center?
    Answer. The Army is responsible for the disposition of the existing 
Walter Reed Army Medical Center (WRAMC). Current plans call for a 
Federal to Federal transfer of the 113 acres of WRAMC main post. The 
General Services Administration (GSA) has requested 34 acres and the 
Department of State the remaining 79 acres. The Department of State has 
recently amended their request asking for only 18 acres. The Deputy 
Assistant Secretary of the Army for Installations and Housing is 
working with GSA to see if GSA is interested in amending their request 
for the now remaining 61 acres. If no interest is found, the 61 acres 
will be declared surplus.
    Question. How much is estimated to clean up and dispose of the 
facility?
    Answer. The Army is responsible for the cleanup and disposal of the 
Walter Reed Army Medical Center (WRAMC) facility. The extent of cleanup 
is partially dependent on the future use of the facility (e.g., Federal 
tenants vice non-Federal tenants). However, regardless of who the 
future owners will be, DoD must terminate its Nuclear Regulatory 
Commission (NRC) license. The current estimate is approximately $14M to 
decommission all locations where radiological substances have been used 
and terminate the NRC license in order to release all buildings for 
unrestricted use. Estimates were based on the NRC-required 
Decommissioning Funding Plan of 2005.

   Missions of Joint Task Force--National Capital Region (JTF CAPMED)

    Question. Does JTF CAPMED have missions that go beyond NCR BRAC 
coordination?
    Answer. In September of 2007, the Department established JTF CAPMED 
as a fully functional standing JTF located on the National Naval 
Medical Center (NNMC) campus and reporting directly to the Secretary of 
Defense through the Deputy Secretary of Defense.
    JTF CAPMED was chartered to lead the way for the effective and 
efficient consolidation and realignment of military healthcare delivery 
in the National Capital Region (NCR) Joint Operation Area (JOA). To 
accomplish this mission, JTF CAPMED is coordinating with the NCR 
medical components of the Army, Navy, and Air Force to integrate 
processes and ensure the best utilization of resources available which 
will eliminate redundancies, enhance clinical care, promote health 
professions education and joint training, and enhance military medical 
research opportunities. In addition, JTF CAPMED has been tasked to 
oversee implementation of the 2005 BRAC recommendation that directed 
the realignment of functions at Walter Reed Army Medical Center (WRAMC) 
in Washington, DC to Bethesda, MD, establishing the Walter Reed 
National Military Medical Center (WRNMMC), and a community hospital at 
Fort Belvoir, VA (FBCH).
    The NCR's JOA stretches as far north as New Jersey, skirts West 
Virginia and extends south to Bowling Green, VA. It includes 37 Medical 
Treatment Facilities (MTFs), including WRNMMC and FBCH, and 12K 
military and civilian employees. The region comprises over 545K 
eligible beneficiaries and 282K MTF enrollees.
    Not later than the BRAC deadline of 9/15/11, the new WRNMMC in 
Bethesda, MD and FBCH in Fort Belvoir, VA will be aligned as joint 
commands subordinate to JTF CAPMED. In addition, to allow for greater 
interoperability throughout the region, JTF CAPMED will have tactical 
control of the other JOA MTFs (outpatient) while the Service Medical 
Departments retain operational control. JTF CAPMED will be the 
allotment administrator for $1.3B supporting all assigned MTFs.
    JTF CAPMED has become the functional provider of Health Service 
Support (HSS) to the DoD, U.S. NORTHCOM, Joint Force Headquarters 
National Capital Region (JFHQ-NCR), and multiple interagency partners 
within the National Capital Region for training exercises; National 
Security Special Events (NSSEs) and Defense Support of Civil Authority 
(DSCA) support missions; and contingency planning. Since activation, 
JTF CAPMED has deployed 130 medical support teams within the NCR in 
order to provide advanced trauma/cardiac life support, emergency 
medical services, basic life support, ground evacuation support, 
vaccinations and liaison support on such events as the 56th U.S. 
Presidential Inaugural; State of the Union Addresses; the Papal Visit; 
Joint Sessions of Congress involving the Irish and U.K. Prime 
Ministers; the Joint Service Open House; State Funeral exercises; and 
multiple national observance ceremonies throughout the District of 
Columbia.
    Question. The specified missions for JTF CAPMED include healthcare 
delivery. Do you have any disaster or contingency roles?
    Answer. JTF CAPMED has an active contingency/disaster role within 
the National Capital Region (NCR) Joint Operating Area (JOA). When 
directed by the Secretary of Defense, JTF CAPMED conducts and provides 
integrated Health Service Support (HSS) within the framework of Defense 
Support to Civil Authorities (DSCA) in accordance with the National 
Response Framework (NRF) pursuant to the Requests for Assistance (RFA) 
from civil authorities. JTF CAPMED maintains its command relationship 
with Secretary of Defense while maintaining a general support (HSS) 
relationship with USNORTHCOM and a direct support (HHS) relationship 
with Joint Task Force National Capital Region (JTF-NCR). This Health 
Service Support is provided within the authorities of 11 different 
USNORTHCOM Conceptual Operations (CONOPs) Plans and six JTF-NCR CONOPS 
Plans.
    Recently, JTF CAPMED took the lead DoD medical role for novel 
swine-origin influenza A/H1N1 support within NCR JOA. Moreover, JTF 
CAPMED provides medical forces and consequence management within the 
NCR JOA in support of National Security Special Events and as needed to 
Office of the Attending Physician, U.S. Congress. The creation of JTF 
CAPMED has streamlined and created efficiencies for providing unified 
and integrated medical support in response to disasters/contingencies.
    Question. Will medical personnel in the new hospitals still deploy 
to Iraq and Afghanistan?
    Answer. Yes. Depending upon the mission, all military personnel 
assigned to JTF CAPMED may be required to fill Combatant Commander 
requests for forces, as determined by the Services.
    Question. Why does it make sense to regionalize healthcare delivery 
in the NCR?
    Answer. Effective and efficient healthcare delivery within the 
National Capital Region (NCR) Joint Operating Area (JOA) is achieved by 
alignment to one Joint commander integrating care to provide an 
integrated delivery system. This allows for the integration of 
processes and ensures the best utilization of resources available which 
will eliminate redundancies, enhance clinical care, promote health 
professions education and joint training, and enhance military medical 
research opportunities.
    Each Branch of Service otherwise has little incentive in 
overlapping catchment areas to plan for the care of the entire 
beneficiary population. This leads to cost and workload shifts causing 
inefficiencies and increasing costs to the Department. Moreover, lack 
of integration of care provides a structure for intra-Medical Treatment 
Facility referrals impacting beneficiaries and their family members. A 
Joint Commander gives other DoD, Federal, State, academic and local 
government agencies a single point of contact simplifying contingency 
planning and speeding response in a crisis as well.
    Question. Are all capabilities being planned for the new Walter 
Reed National Military Medical Center installation NCR BRAC related?
    Answer. Although all capabilities being planned for the Walter Reed 
National Military Medical Center (WRNMMC) installation support the 
future operations of the WRNMMC directed by BRAC, the establishment of 
the Defense Center of Excellence for TBI/PTSD research and additional 
Fisher Houses are being funded privately. Additionally, many other 
projects, such as the establishment of the Vision Center of Excellence 
and the Joint Pathology Center on the installation are also non-BRAC 
projects, but enhance the overall mission of WRNMMC.
    Question. Will the significant realignment of resources to Fort 
Belvoir support your healthcare delivery mission?
    Answer. Yes. The Multi-Service Market Office, the Joint Cross 
Service Working Group and the BRAC Commission confirmed findings that 
over the last several decades commands, patients and families have 
located in the southern part of the National Capital Region. Fort 
Belvoir Community Hospital (FBCH) will be closer to more patients than 
Walter Reed National Military Medical Center (WRNMMC). A robust 
community hospital and outpatient clinic system at Fort Belvoir will 
significantly improve access to care and reduce drive times for active 
duty service members and other beneficiaries.
    Question. Will the NCR BRAC process affect your ability to provide 
casualty care in the NCR?
    Answer. No. As America's primary casualty reception site for 
returning warriors from Iraq, Afghanistan and other areas where 
Americans remain in harm's way, JTF CAPMED's number one priority 
remains casualty care. Our ability to provide high-quality casualty 
care during the National Capital Region (NCR) BRAC process will in no 
way be affected; in fact, the ultimate transition to the new facilities 
will greatly enhance the NCR's capabilities for wounded warrior care.
    Question. Please talk about what you have accomplished since your 
inception.
    Answer. JTF CAPMED reached Initial Operational Capability on 1 
October 2007 and reached Full Operational Capability (FOC) on 30 
September 2008. Since reaching FOC, JTF CAPMED has realized numerous 
accomplishments. Among them are the following:
    <bullet> The Department approved a DoD Civilian Manning Model for 
National Capital Region (NCR) Joint Operating Area (JOA) 20 Oct 2008. 
Phased implementation will start with Walter Reed National Military 
Medical Center (WRMMC) & Fort Belvoir Community Hospital (FBCH).
    <bullet> The Department approved a Military Personnel Staffing 
Model 15 Jan 09. Continues JTF CAPMED as a joint military command, 
establishing WRNMMC and FBCH as subordinate joint commands.
    <bullet> JTF CAPMED is coordinating a joint manning document for 
civilians and military at the new WRNMMC, FBCH and Andrews Air Force 
Base.
    <bullet> JTF CAPMED helped establish Directors of Integration (DCI) 
at both Walter Reed Army Medical Center (WRAMC) and National Naval 
Medical Center (NNMC). The DCI's are cross-service personnel whose task 
is to prepare the WRAMC and NNMC staffs for the eventual integration.
    <bullet> JTF CAPMED prepared, and the Department approved, a 
milestone schedule for transition of operations from WRAMC to WRNMMC 
and FBCH, as required by Section 2721(d) of the Fiscal Year 2009 
National Defense Authorization Act.
    <bullet> JTF CAPMED is coordinating BRAC NCR Master Transition Plan 
(MTP) to direct execution of BRAC and maintenance of critical medical 
capabilities during the transition process.
    <bullet> JTF CAPMED has successfully started integration of 
healthcare delivery in the NCR JOA.
    <all> Completed 160+ Clinical and administrative/logistic Concept 
of Operations Plans and will provide the foundation document guiding 
the provision of healthcare across the Joint Operation Area (JOA).
    <all> Air Force Referral Management System Tracking Tool now used 
by all referral management staff in JOA, allowing for consistent 
application of business rules. Standard practices also implemented in 
patient appointing and monitoring key performance measures.
    <all> Implementation of the first-ever JOA-wide synchronized 
influenza immunization program, resulting in the synchronized ordering, 
delivery, and administration of vaccine, so all Medical Treatment 
Facilities (MTFs) in the JOA start their programs at the same time and 
prevent beneficiaries from ``chasing'' vaccine from one facility to 
another.
    <all> Production of a strategic plan for credentials and 
privileging that utilizes a regional concept of operation for bylaws 
reconciliation and adverse privileging actions.
    <all> Inclusion of all JOA facilities into a benchmark Surgical 
Optimization and Standardization initiative.
    <all> Roll out of an AHLTA Clinical Enhancement project throughout 
the region.
    <all> Decision to use national standards for our ambulances when 
Advanced Cardiac Life Support or Basic Life Support ambulance is 
requested for a National Special Security Event.
    <all> For the Presidential inauguration, standardized the equipment 
for the roving medics and the aid stations; established a MTF JOA bed 
status/sit-rep for situational awareness and planning in the event of a 
Mass Casualty Incident.
    <all> Established the Trauma Service at WRAMC.
    <bullet> JTF CAPMED has assumed the role as National Capital Region 
(NCR) Medical Force Provider to Joint Forces Headquarters NCR.
    <bullet> JTF CAPMED has successfully provided support to the 
following Health Service Support missions to the Department of Defense:
    <all> White House Communication Agency Medical Readiness Support
    <all> National Memorial Day Observance
    <all> Joint Service Open House
    <all> JFHQ-NCR Joint State Funeral Training Exercise
    <all> National Veterans Day Observance Support
    <all> Support to White House Communication Agency (WHCA) Service 
Member Readiness Processing
    <all> Support of the Groundbreaking Ceremony for the Walter Reed 
National Military Medical Center (WRNMMC)
    <all> Support of National Memorial Day Observance 2008
    <all> Support of National Peace Officers' Memorial Service
    <bullet> JTF CAPMED has successfully provided support to the 
following Defense Support to Civil Authorities missions:
    <all> Annual National Peace Officer's Memorial Service
    <all> Joint Session of Congress (Prime Minister Brown)
    <all> Presidential Address to the Joint Session of Congress
    <all> 56th Presidential Inaugural
    <all> G-20 Summit
    <all> Pentagon 9-11 Memorial Dedication
    <all> Prime Minister of Ireland address to Congress
    <all> Papal Visit to the National Capital Region (NCR)
    <all> State of the Union Address
    Question. With each Service Medical Component employing different 
concepts of care delivery and processes, how will you develop common 
practices within the NCR that will be suitable for a multi-Service pool 
of beneficiaries?
    Answer. Working closely with the Assistant Secretary of Defense for 
Health Affairs (ASD (HA)) and the Service Surgeons General, JTF CAPMED 
is prioritizing the operations of care necessary to meet the 
expectation of world-class integrated healthcare delivery. The focus is 
to blend the best of each Service and then shape those processes for 
what is best for the patient.
    ASD(HA) is supporting JTF CAPMED's mission by using the National 
Capital Region (NCR) as a test bed for Military Health System 
initiatives such as surgical optimization and AHLTA enhancement. As the 
annual planning cycle begins again, JTF CAPMED will take the next steps 
to implement common standards for the patient care supporting business 
processes that improve access to care and patient satisfaction.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]

                                           Wednesday, June 3, 2009.

                   FISCAL YEAR 2010 AIR FORCE POSTURE

                               WITNESSES

HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE
GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF, UNITED STATES AIR FORCE

                              Introduction

    Mr. Dicks. This morning the committee will hold an open 
hearing concerning the Air Force fiscal year 2010 budget 
request. We are pleased to welcome two distinguished witnesses, 
Mr. Michael B. Donley, Secretary of the Air Force, General 
Norton A. Schwartz, Chief of Staff of the Air Force. They are 
very well qualified to discuss these areas and to answer the 
questions of the committee.
    Secretary Donley, General Schwartz, thank you all for being 
here this morning. This committee is very interested in hearing 
what you have to say about the Air Force's fiscal year 2010 
budget. Specifically as you are well aware, some of us on the 
committee are anxious to hear the status of the KC-X 
competition and particularly how you will address the issues 
that led the General Accountability Office to overturn last 
year's competition.
    In addition, the Air Force budget includes the retirement 
of over 250 fighter aircraft yet to date. The Air Force has 
been unable to provide a schedule for retirement of the 
aircraft or a plan for reassignment of personnel. We look 
forward to your testimony and to a spirited and informative 
question and answer session.
    Before we hear you I would like to call on our Ranking 
Member this morning, Kate Granger of Texas, for any comments 
you would like to make.
    Ms. Granger. Thank you, Mr. Chairman. I have no comments.
    Mr. Dicks. Okay. Secretary Donley, we understand that you 
and General Schwartz will each make an opening statement. You 
may proceed with your summarized statement. Your entire 
statement will be placed in the record and you may proceed as 
you wish.

                 Summary Statement of Secretary Donley

    Mr. Donley. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to appear before you 
today to discuss the Air Force's fiscal year 2010 budget.
    It has been almost a year since General Schwartz and I took 
on these roles as Chief and Secretary. And I must tell you I 
could not have had a better partner in this work than General 
Schwartz. In recent months, Secretary Gates and Admiral Mullen 
led a constructive dialogue about necessary changes in our 
national defense priorities and areas of emphasis. Our 
discussions emphasized taking care of our most important asset, 
which is our people; rebalancing our capabilities to fight and 
win the current and most likely conflicts in front of us, while 
also hedging against other risks and contingencies; and 
reforming how and what we buy.
    We have contributed our analysis and judgment throughout 
this process. With OSD, our sister Services and interagency 
partners, we have undertaken several strategic reviews in the 
Air Force over the last year. Last fall we refined the Air 
Force's mission statement. We articulated our five strategic 
priorities and refined our core functions to more clearly 
articulate the Air Force's role in national security.
    We also made progress in areas that required some focused 
attention up front, such as strengthening the Air Force's 
nuclear enterprise, preparing to stand up our cyber-numbered 
Air Force, articulating our strategy for irregular warfare and 
counterinsurgency operations, consolidating our approach in the 
Air Force for global partnerships, and advancing stewardship of 
the Air Force's energy program.
    Our reviews were guided by the concept of strategic 
balance, which has several meanings for us. As Secretary Gates 
and Admiral Mullen have described, balance means prevailing in 
today's fight while also being able to respond across the 
spectrum of conflict to emerging hybrid threats. Balance also 
means allocating investment across our 12 diverse but 
complementary core functions. And balance also means 
organizing, training and equipping ourselves as an Air Force 
across our Active and Reserve components.
    Our budget proposal recognizes that people are the heart 
and soul of America's Air Force. Without them our organizations 
and equipment would grind to a halt. In fiscal year 2010, we 
are reversing the previously planned reductions in Air Force 
Active Duty end strength with commensurate adjustments in 
Reserve components. We will also grow our civilian cadre, 
especially the acquisition workforce. At the same time, we will 
continue to reshape our skill sets with particular emphasis on 
stressed career fields and missions that need our attention 
now, such as intelligence, surveillance and reconnaissance, 
acquisition, maintenance, cyber operations and nuclear matters.
    In fiscal year 2010 we are also driving more balance into 
our force structure. In theater, the demand for intelligence, 
surveillance, and reconnaissance (ISR) and special operations 
capabilities continues to increase. So we will increase 
unmanned combat air patrols (CAPS) from 34 today to 43 by the 
end of fiscal year 2010, as well as increase special operations 
forces (SOF) end strength by about 550 personnel.
    We also took a broader strategic look at the total combat 
Air Force capabilities. And there is a general view in the 
Department's leadership that the United States has enough 
tactical air capability. With that in mind, we judge this as a 
prudent opportunity to accelerate the retirement--the planned 
retirement--of older aircraft, as we have done in this budget.
    As a result, we will reshape the portfolio of the fighter 
force by retiring about 250 of our oldest tactical fighters, 
completing production of the F-22 program at 187 aircraft and 
committing to planned F-22 upgrades, and readying the fifth 
generation F-35 Joint Strike Fighter program to become the 
workhorse of our new fighter fleet going forward.
    We will also ensure balance for joint airlift needs by 
completing the C-17 production, continuing to modernize our C-
5s, reinitiating the C-130J production line and transitioning 
the C-27J program from the Army to the Air Force. In 
particular, the Department made a judgment that about 316 
strategic airlift tails in the program of record is adequate to 
meet our needs. We also conducted a business case analysis that 
identified alternatives to improve our current strategic 
airlift capability at less cost than simply buying more C-17s.
    We will enhance stability and remove risk in our military 
Satellite Communications (SATCOM) programs by extending our 
Advanced Extremely High Frequency (AEHF) and Wideband Global 
SATCOM (WGS) inventories and continuing partnerships with 
commercial providers. While AEHF does not give us all the 
capabilities of the projected Transformational Satellite (TSAT) 
program, adding additional AEHF and WGS satellites does provide 
additional MILSATCOM capability until we can gain confidence 
about the affordability and requirements for TSAT-like 
capabilities in the future.
    We also placed additional emphasis on Air Force 
acquisition. We recently published our acquisition improvement 
plan to focus our efforts on several key areas. First, to 
revitalize the Air Force's acquisition workforce. Second, 
improving the requirements generation process. Third, 
instilling budget and financial discipline into our programs. 
Fourth, improving the Air Force's major systems source 
selection process. And fifth, establishing clear lines of 
authority and accountability within acquisition organizations.
    I look forward to working with this committee in the future 
and with our OSD leadership as we address Defense acquisition 
improvements going forward. Over the coming months the Air 
Force will, with the other Services, participate in several 
major reviews, including the Quadrennial Defense Review, 
Nuclear Posture and Space Posture Reviews. And from these 
analyses we will better understand the needs, requirements and 
available technologies for long-range strike, as well as our 
requirements and potential joint solutions for personnel 
recovery.
    Stewardship of the United States Air Force, Mr. Chairman, 
is a responsibility that General Schwartz and I take very 
seriously. We are grateful for the support that we get from 
this Committee and we do look forward to working with you in 
the months ahead.
    Mr. Dicks. Thank you Mr. Secretary.
    General Schwartz.

                 Summary Statement of General Schwartz

    General Schwartz. Mr. Chairman, Congresswoman Granger and 
other members of the committee, I am proud to be here with 
Secretary Donley representing your Air Force.
    The United States Air Force is fully committed to effective 
stewardship of the resources that the American people place in 
our trust, a commitment founded on our core values of integrity 
first, service before self, and excellence in all we do. Guided 
by these core values, American airmen are all working 
courageously every day with precision and reliability.
    I recently had a chance to take a trip to visit with some 
of our airmen who are serving in various locations around the 
world and they are providing game-changing capabilities to the 
combatant commanders in the air and on the ground. Last year 
American airmen conducted 61,000 sorties in Operation Iraqi 
Freedom, some 37,000 sorties in Operation Enduring Freedom. 
That is 265 sorties each and every day.
    Airmen also serve on convoys and in coalition operation 
centers and delivered 2 million passengers and some 700,000 
tons of cargo in the United States Central Command area of 
responsibility last year. Dedicated airmen directly support 
CENTCOM operations from right here in the United States by 
providing command and control of unmanned aerial vehicles, 
while our nuclear operations professionals support the umbrella 
of deterrence for the Nation and its allies across the globe.
    As well, our space professionals are providing truly 
amazing capabilities ranging from early warning to precise 
global positioning, navigation and timing.
    Through Secretary Donley's guidance and leadership, we have 
set a course to provide even greater capabilities for the 
Nation and to balance our priorities to meet a spectrum of 
challenges.
    The top priority is to reinvigorate our Air Force nuclear 
enterprise as outlined in a nuclear roadmap. We are also 
fueling capabilities that allow us to innovate partnerships 
with joint and coalition teammates to win today's fight by 
expanding intelligence, surveillance and reconnaissance with 
the procurement of 24 MQ-9 Reaper unmanned aerial systems.
    At the same time we will continue support for our most 
precious asset: our people. We are focused on providing 
programs that develop and care for our airmen and their 
families with world-class quality of service and honor our 
commitments that we have made, the lasting commitments that we 
have made, to our wounded warriors.
    Part of ensuring support for airmen means providing them 
with the tools they need to do their jobs effectively. 
Therefore, we are modernizing our air and space inventories, 
organizations and training with the right, yet difficult, 
choices.
    In addition to programs that Secretary Donley just 
mentioned, we are committed to providing robust air refueling 
capability. We also intend to increase efficiency by retiring 
aging aircraft and we will complete the production of the F-22 
at 187 aircraft and the C-17 at 205 aircraft, subject to 
congressional approval.
    In recent testimony Admiral Mullen stated we are what we 
buy. Following his lead, we intend to maintain stewardship of 
America's resources for our war fighters in the field as well 
as taxpayers at home by recapturing acquisition excellence and 
fielding the right capabilities for the Nation, on time and 
within budget.
    Mr. Chairman, with our core values guiding us, the Air 
Force will continue to provide our best military advice and 
stewardship, delivering global reach, vigilance and power for 
America.
    Thank you for your continuing support of the United States 
Air Force and particularly for our Airmen and their families. 
Sir, I look forward to your questions.
    [The joint statement of Secretary Donley and General 
Schwartz follows.]

[GRAPHIC] [TIFF OMITTED] T6286A.096

[GRAPHIC] [TIFF OMITTED] T6286A.097

[GRAPHIC] [TIFF OMITTED] T6286A.098

[GRAPHIC] [TIFF OMITTED] T6286A.099

[GRAPHIC] [TIFF OMITTED] T6286A.100

[GRAPHIC] [TIFF OMITTED] T6286A.101

[GRAPHIC] [TIFF OMITTED] T6286A.102

[GRAPHIC] [TIFF OMITTED] T6286A.103

[GRAPHIC] [TIFF OMITTED] T6286A.104

[GRAPHIC] [TIFF OMITTED] T6286A.105

[GRAPHIC] [TIFF OMITTED] T6286A.106

[GRAPHIC] [TIFF OMITTED] T6286A.107

[GRAPHIC] [TIFF OMITTED] T6286A.108

[GRAPHIC] [TIFF OMITTED] T6286A.109

                    AIR FORCE ACQUISITION WORKFORCE

    Mr. Dicks. Thank you both for your statements. Secretary 
Donley, on May 4 you and General Schwartz signed a plan to 
improve Air Force acquisition. Included in the plan are five 
goals and 33 actions that ensure rigor, reliability and 
transparency across the Air Force acquisition enterprise.
    Your first goal is to revitalize the Air Force acquisition 
workforce. Will you hire new personnel or retask current 
employees, or both?
    Mr. Donley. Our intent is to strengthen the acquisition 
workforce through both internal retraining and enhanced 
training in critical skill sets, and also to bring in new 
personnel as well.
    As you are probably aware, the broader intent in the 
Department is to make changes in civilian personnel which will 
bring more work now performed by contractors back into the 
government. That pendulum of contracting out some of our 
important functions is swinging back toward a definite bias 
among the current leadership to get more of this capability 
back into our organic workforce. So our goal----
    Mr. Dicks. Were we using contractors to actually do the 
acquisition work?
    Mr. Donley. Contractors are definitely supporting our 
acquisition work. I am not sure that they were--they were not 
in charge of our acquisition decision process. But no question 
that contractors have been part of that.
    As we go forward, our target for contractor-to-civilian 
conversions is about 4,000 in fiscal year 2010, of which about 
half are focused on our acquisition workforce. So we anticipate 
beefing up our acquisition workforce by about 2,000.
    Mr. Dicks. What was the number again, 10,000?
    Mr. Donley. Two thousand. And this is across a number of 
skill sets: systems engineering, contracts, cost estimators, 
all the different functions and supporting expertise that 
supports the acquisition process.
    Mr. Dicks. Will they mainly be civilians or will they be 
civilians and military?
    Mr. Donley. Mostly civilians.
    Mr. Dicks. How will you improve the requirements generation 
process? I mean, one of the things we have talked about over 
the years is the fact that we have this requirements creep that 
drives up the cost. How are we going to try to get that under 
control?
    Mr. Donley. Our focus in the Air Force on this subject is 
getting better visibility on requirements in the acquisition 
process and getting better understanding of the acquisition 
process in the requirements process up front. So we are 
undertaking procedures internally which require the 
requirements being developed by the warfighter to be reviewed 
by the acquisition process so we know those requirements can be 
translated into deliverables, contract deliverables, that we 
know can be accomplished; and to get acquisition professionals 
to sign off on those requirements so that they are written in 
such a way that they can be translated into contracts. And 
then, as the requirements move into the acquisition process, 
that as we write the contracts and as we translate those 
requirements into acquisition activities, that the warfighter 
who set the requirements signs off on those. So it is really 
cross-checking between requirements and acquisition.

                        KC-X PROCUREMENT PROGRAM

    Mr. Dicks. Secretary Donley, what is the status of the KC-X 
procurement program and when will you release the latest RFP?
    Mr. Donley. As you know, Mr. Chairman, I have been in 
dialogue with the new Under Secretary for Acquisition, Dr. 
Carter, and the Deputy Secretary of Defense and our acquisition 
officials on a regular basis over the last couple of months. We 
hope to take the work that we have developed thus far to the 
Secretary very soon and to have him give us his direction on 
how to proceed. We are hopeful that that new request for 
proposal will be out on the street this summer.
    Mr. Dicks. How much funding is requested for the KC-X in 
the 2010 budget?
    Mr. Donley. I would have to check, sir. I believe it is in 
the neighborhood of $600 to $800 million. I would have to 
double-check.
    Mr. Dicks. I think we have the number. We think it is 439.
    Mr. Donley. 439, right.
    Mr. Dicks. But this year is going to be mainly the 
competition, and we hope it will be a fair and open transparent 
competition, which Secretary Gates has promised. And also I 
want to--and I want to say this on the record--encourage 
dialogue between the two competing sides. I think that is very 
important and was one of the issues, by the way, in the GAO 
report was that there was unfairness toward one side in the 
previous competition.
    So transparency, openness and, I would hope, trying to keep 
both sides on the political side to let you guys--let the 
professionals make this decision without political 
interference, which I am afraid did mar this somewhat in the 
previous competition.
    And then we understand also that the KC-X requirement was 
briefed at the Joint Requirements Oversight Council. And what 
was the outcome of that, do you know?
    Mr. Donley. The general work done earlier this year was to 
revalidate that the requirements for the KC-X are and remain as 
they had been approved previously. So they were revalidated 
this year.
    Mr. Dicks. We also understand that there has been a 
significant reduction in the 800 previous requests for 
proposals and the requirements in the previous request. Is that 
accurate as well?
    Mr. Donley. We have been working to reduce, to streamline, 
to consolidate requirements, to write them as clearly as we can 
going forward; so that that has been part of our process this 
winter.
    Mr. Dicks. One final question, and I am going to yield to 
Ms. Granger. The last competition was based on the best value, 
yet we understand that the Air Force may be considering low 
cost in the next competition. How do you differentiate these 
two concepts, best value and low cost?
    Mr. Donley. Well, performance and cost are always part of 
our trade space in contract--in source selections. And I 
believe they will be part of our trade space going forward. I 
can't describe for you here yet exactly how that will be 
balanced out as we finalize the Request for Proposal (RFP). But 
I think in some cases there is a tendency to polarize these 
concepts, whereas they are always part of our mix.
    Mr. Dicks. The source selection authority has not yet been 
decided, is that correct, between the Air Force and DOD?
    Mr. Donley. That is correct.
    Mr. Dicks. Thank you. Ms. Granger.

                          JOINT STRIKE FIGHTER

    Ms. Granger. Thank you. Thank you both for being here and 
thank you for your service.
    I had a question for the General having to do with the 
Joint Strike Fighter, not surprisingly. I would like to know 
what impact there would be on reducing the procurement of the 
Joint Strike Fighter on your modernization plans. We have heard 
year after year how important reform and modernization is. And 
so my first question would be, what effect would it have? And 
given that, are there any plans to increase your buy from 80 to 
110 per year, since that was the original plan?
    General Schwartz. Ma'am, clearly--and this not just for the 
Air Force; certainly the United States Navy, the United States 
Marine Corps and a number of international partners are highly 
dependent on delivery of the F-35, and that is certainly true 
for your Air Force.
    We need to have very substantial rates of production for 
the F-35 to accomplish a couple of things for us. The most 
pressing has to do with the fact that much of our inventory is 
aging. I mean all of it is. But many of the machines that were 
bought during the Reagan buildup in the eighties are 
approaching the end of their service life, some of which we are 
going to retire early in order to get us on the ramp that we 
need to be on for high rates of production for the F-35.
    And if we have those high rates of production, not less 
than 80 a year, and hopefully more as you indicated, we will be 
able to manage the retirements of remaining aircraft in our 
fleet, upgrade those that will last a bit longer time and, 
again, provide the overall tactical air capability that the 
Department requires of us. So in short as I see it, 80 is the 
minimum, it is the floor, it is not the ceiling, and that it is 
very important that this program deliver on time and on cost.
    Ms. Granger. Thank you. I want to follow up on that to both 
of you. Given the fact that your requirement for 1,763 Joint 
Strike Fighters was predicated on the F-22 force of 381 
aircraft, will there be an effort on your part in the 
Quadrennial Defense Review to make a case for the F-35 force 
structure to compensate for not having 381 F-22s?
    General Schwartz. Ma'am, it depends, frankly, on what the 
analysis that is currently underway with the Quadrennial 
Defense Review, what it comes up with. All of this is highly 
dependent on the scenarios we use to conduct the analysis with 
one warfight, two warfights, how close those warfights might be 
in terms of simultaneity. All of this affects both the size of 
the force and the mix of the force. And more broadly it is the 
joint team, but in the fighter area, as you indicated for us, 
the F-35, F-22 and some number of legacy platforms. I think it 
is not yet clear what the top line will be for the Department. 
For us it has been 2,250 fighter strike-type aircraft for some 
number of years. It could end up being less. And if that is the 
case, we will still have a predominantly F-35-populated force. 
We will have the 187 F-22s, we will have well over 1,500 F-35s, 
and then some number of legacy airplanes. That will be the mix. 
It remains to be seen what the top line is, however, based on 
the analysis.
    Ms. Granger. Mr. Secretary.
    Mr. Donley. Ma'am, I would add one other item in addition 
to what the General has mentioned, and that is that as the 
Department looks at its tactical fighter and its air-to-ground 
capabilities in particular, the Reaper and armed Predator 
capabilities that the Department has been building the past 
several years to support the warfighter are coming into view as 
substantial assets for the Department in terms of air-to-ground 
capability.
    So as we think about total tactical fighter strike 
inventories, we are starting to include these armed unmanned 
aerial system (UAS) capabilities in that mix as well. They are 
certainly not--they don't have air-to-air fighter capability, 
but they are certainly providing air-to-ground strike. And it 
is making that tactical Air Force more effective at the low end 
of the conflict spectrum.
    Ms. Granger. Thank you very much. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Boyd.

                       AIR FORCE COMBAT STRUCTURE

    Mr. Boyd. Thank you, Mr. Chairman.
    Secretary Donley, General Schwartz, welcome, and thank both 
of you for the time you have given me to work through some of 
the issues that we have a common interest in. And also I look 
forward to your visit to Tyndall Air Force Base on June 22nd, 
and I thank you for that commitment to come.
    Secretary Donley, General Schwartz, last year the Air Force 
briefed this committee and other committees of Congress on 
combat Air Force structure. And basically that briefing 
concluded that we were in a real deficit in terms of air 
structure, tactical Air Force structure.
    On May 9th of this year, you briefed this committee staff 
on the combat Air Force's restructure that is proposed in the 
fiscal year 2010 budget. And that includes retiring 
approximately 250 F-15s, F-16s, and A-10s in 2010. So it is a 
very radical fast-forwarding of what was in the BRAC documents 
that were put in place a couple of years ago.
    Can you explain to the committee what, in your mind, has 
changed in the last 12 months that has gotten us to this point?
    General Schwartz. Sir, I think it is a couple of things. 
Clearly there are budgetary pressures that we are dealing with. 
That is one aspect.
    A significant aspect has to do with the demands that are 
being placed on us by our joint commanders, which is to expand, 
amplify, certain aspects of the force; in other words, 
intelligence, surveillance and reconnaissance, reinvestment in 
the nuclear mission.
    There are a number of areas where we had to expand or do 
more. And the issue for us was how do we bridge ourselves from 
the current position that we are with the legacy fighter force 
to the one that we know we need to have, which will be a 
predominantly generation five kind of force. And it was our 
judgment, looking at this fresh this year, that it was not 
without risk, but that it was an opportunity to retire some of 
the legacy force structure sooner, several years sooner than 
they would otherwise have retired, take those resources, both 
dollars and manpower, in order to address some of those needs 
that we spoke to--invest in the remaining fourth-generation 
fighter fleet, radars, infrared search-and-track capability and 
so on, and then have the resources to leap to the high 
production rates of F-35 that we know we have to have. It is a 
difficult choice but one we think is needed, sir.

                   REASSIGNMENT OF MANPOWER POSITIONS

    Mr. Boyd. Obviously this is a long thought-out process 
action and one that, as you know, became public in the Tyndall 
Air Force Base area and around the Air Force community much 
before you--or weeks before you intended it to. But the May 9th 
briefing was about 4 weeks ago. And to this point, there has 
been no plan for reassigning personnel, there has been no plan 
for the retirement, particular retirement dates of the 
aircraft. We can't really seem to get any meat on the bones 
here. And obviously from an operational standpoint and from a 
parochial standpoint for the communities we represent, that is 
a very--you know, that is a very serious subject.
    So can you help me a little bit here about the reassignment 
of 4,000 manpower positions, civilian and military, where will 
they be reassigned, what about all your 2,500 Air National 
Guard folks? You have got two schoolhouses for F-15s in the 
country, I understand; you have got Klamath Falls and you got 
Tyndall Air Force Base, and you are going to transfer all of 
those to Klamath Falls under your plan.
    Why would you do that? What about the military construction 
requirements? I haven't been to Klamath Falls, but I have spent 
a lot of time around Tyndall Air Force Base. You need to talk 
to us a little bit about those things.
    General Schwartz. Sir, this an example of thinning out the 
fighter fleet. Whether we need to have two schoolhouses in 
order to sustain the long-term F-15 population----
    Mr. Boyd. Okay, granted you go to one schoolhouse.
    General Schwartz. Right.
    Mr. Boyd. Talk to me about the choice.
    General Schwartz. This is a mission which is well-suited to 
the Air National Guard, and one which has performed not just in 
the F-15 community but the F-16 community in Tucson as well. 
The bottom line is those remaining F-15 units will be 
operational combat-coded kinds of units. And the training will 
occur by our partners who are full-up round in the Air National 
Guard, and have no reservations about that, sir, at all.
    With regard to the reallocation of manpower, some of these 
folks no doubt will be reassigned in their current disciplines. 
Perhaps an F-15 crew chief from Tyndall Air Force Base might 
become an F-16 crew chief at Hill Air Force Base. But 
fundamentally folks will be reassigned, to a great degree, in 
their current disciplines.
    Some of these folks, however, will be retrained into these 
growth areas, one of which the Secretary mentions, which is 
unmanned aerial vehicles. We are putting roughly 4,000 spaces 
overall--not just out of the combat air patrol (CAP) 
adjustment, but also out of the growth of our head space--into 
intelligence surveillance and reconnaissance. While we call 
them unmanned vehicles, sir, they are hardly unmanned. The 
truth is that there are a lot of folks that operate them and 
also digest the data that comes from the platforms and turn it 
into actionable intelligence.
    Mr. Boyd. Mr. Chairman, I have got many other questions, so 
I would like to go maybe to the second round and hold those 
questions. But I would ask one final point, is that when can 
you give us a timetable or a schedule for retirement of 
particular aircraft and reassignment and when will we have a 
little meat on the bones here with this?
    General Schwartz. Sir, you will have insight into that 
before the end of the month.
    Mr. Boyd. Okay. And I would hold, Mr. Chairman, my other 
questions to the second round.
    Mr. Dicks. We appreciate your questions and we will have a 
second round. Mr. Bishop.

                            PERSONNEL TEMPO

    Mr. Bishop. Thank you very much. I would like to welcome 
you gentlemen, but I want to focus on personnel tempo, if you 
will. The increase in deployments over the past few years for 
domestic disasters, contingency operations, military operations 
other than war, has stressed military personnel and their 
families.
    What is the average time that airmen are away from home 
doing your training exercises and deployments, other than Iraq 
and Afghanistan? And Secretary Donley, would you talk to us 
about how the Air Force manages the personnel tempo so that it 
doesn't have an adverse impact on individual unit readiness and 
training, and what systems you have in place to track that 
personnel tempo information?
    Mr. Donley. Sir, I can give you a partial answer and let 
the Chief follow up a little bit. In the last year we have 
begun to band our Air Expeditionary Forces (AEFs), our AEF 
deployments, into various bands of activity. So personnel 
assigned to various functions and jobs understand what kind of 
a rotation they will be in, depending on which band they are 
in.
    The Air Force has a broad range of deployment lengths of 
tours for its personnel, and this is a way in which we have 
spread the load across our Air Force. So if you are--you can be 
a medical professional in Yokota Air Base, Japan, and know that 
you are going to deploy to Iraq or Afghanistan on sort of a 
regular basis. But the medical community has its own--for 
example, the medical community has its own deployment----
    Mr. Bishop. Search and rescue, for example.
    General Schwartz. Sir, just to give you broad numbers, 
about half of our deployments are 179-day, 6-month tours. About 
a third are less than that, up to 120 days. And maybe 10 
percent or so are 1-year duration deployments. In the case of, 
search and rescue, those are typically 120 to 179 days. A case 
in point is we have 12 combat search-and-rescue helicopters 
serving in Afghanistan now doing both the search-and-rescue 
mission, combat search-and-rescue mission and the aeromedical 
evacuation.
    Mr. Bishop. Are there certain units or mission skills that 
are being continually stressed with either the normal 
deployments for training exercises or contingency operations; 
and if so, which of those skill sets or units are being 
stretched thin?
    General Schwartz. Sir, there are several. Certainly the 
intelligence field is stressed, the security forces career 
field is stressed, contracting is another high-demand career 
field. They are essentially on a 1-to-1 deployment to at-home 
ratio.
    Mr. Bishop. And these are Air Force contract----
    General Schwartz. Air Force contracting personnel who are 
supporting the joint fight, who are in joint assignments.
    Mr. Bishop. Because I understand that you have reduced your 
contracting significantly.
    General Schwartz. That is another area, as the Secretary 
mentioned, that we will robust over time. In addition, as you 
are aware I am sure, we have also included incentives for these 
personnel who are in high-demand career fields in order to help 
compensate in some way for the demands on themselves and their 
families.
    Mr. Bishop. Has that been effective? How much of the budget 
for 2010 is being allocated for the retention in these high-
stress skill sets, and has that been successful? Because I 
think there are some areas where you have met your goals, but 
other areas where you have not.
    General Schwartz. Yes, sir. I am sure the Secretary will 
want to lean into this. But, in short, I think the number 
overall for incentives and bonuses and so on is in the 
neighborhood of $700 million. It is substantial money, which is 
largely targeted to the high-stress career fields. We have seen 
adequate results.
    We still--you know, we are on the bubble in a couple of the 
career fields like contracting, for example. And another one 
that is very interesting is the medical career field. We have 
had some difficulty in meeting our goals both on recruiting and 
retention in the medical disciplines. But interestingly, this 
is not just an issue for the Air Force; it is an issue for the 
other Services and in the civilian posture as well.

               RESERVE COMPONENT PERSONNEL ON ACTIVE DUTY

    Mr. Bishop. One final question Secretary Donley. According 
to the Office of Assistant Secretary of Defense for Reserve 
Affairs, reservists contributed about a million man days per 
year to their respective services between fiscal years 1986 and 
1989. In fiscal year 2007, reservists contributed 45.8 million 
days.
    What is the number of Air National Guard and Air Force 
Reserve personnel that are currently on active duty in support 
of ongoing operations, and what is the Air Force's current 
mobilization cap?
    Mr. Donley. Sir, I will have to get back to you on the 
record for that to get those numbers.
    Mr. Bishop. Okay.
    Mr. Dicks. General, do you have any idea?
    General Schwartz. Sir, we have roughly 38,000 people 
deployed, about 8,000 of which, if I recall correctly, are 
Guard and Reserve.
    [The information follows:]

    The Air National Guard and the Air Force Reserve have 6,745 and 
2,141 personnel, respectively, currently on active duty supporting 
ongoing contingency operations. The Air Force's current mobilization 
cap is 72,607.

    Mr. Dicks. Ms. Kilpatrick.

                           EDUCATION PROGRAMS

    Ms. Kilpatrick. Thank you, Mr. Chairman, General, 
Secretary--I should say it the other way around. Secretary and 
General, thank you for your service. Along that same lines kind 
of--first of all, congratulations on a successful graduation 
from the Academy. I understand the numbers--was it the highest 
ever, and what was that number?
    General Schwartz. It was 1,046, ma'am. It was a very large 
class, and we shook quite a number of hands that day.
    Ms. Kilpatrick. Okay. Thank you very much for that, and for 
the young men and women who serve in the Air Force and the 
service, who are children who commit their lives. I believe 
that we in this committee, and certainly our Chairman, is 
totally committed to the force and people who serve.
    Along that same line, education is where I want to go. I 
know that your Air Reserves, as well as your Active Duty Air 
Guard numbers are up. And in the retention of the Air Force, 
the numbers are down just a bit. I read somewhere you expect 
with the economy that those may increase as well.
    What kind of programs do you have, in K-12 particularly and 
others, that would help increase those numbers and lead people, 
young people, into the fields of military? Are there currently 
those education programs; do you partner with anyone; are we 
looking for certain types of students? I know you have 
recruiters all over the country. Can you talk a little bit 
about it?
    General Schwartz. There are a number of programs that help, 
I think, to grow good citizens. I think that is fundamentally 
what they are about. And they have the side benefit of perhaps 
increasing the propensity of the young to serve in the Armed 
Forces or elsewhere in public service.
    Civil Air Patrol is one, junior ROTC at the high schools is 
another, both of which are excellent programs, I think, that 
focus on citizenship but increase the propensity to serve. 
Naturally, it is a competitive arena out there. And while the 
economy is suffering, and that has improved our recruiting 
performance of late, we know that we have to keep at it. This 
is a constant effort. And one thing I would just say, ma'am, is 
that it is very important that the influencers, like you, like 
the other members of this committee, certainly parents and 
other influential folks, remind our youth that public service 
is a worthy undertaking. And that would certainly be helpful.
    Ms. Kilpatrick. I do participate in our own Civil Air 
Patrol, as well as ROTC. I think those are good feeders as we 
move to the military. It is important to me that young people 
have that kind of discipline and responsibility even as they 
move forward, whatever career that they choose.
    Mr. Donley. Can I just add one other aspect that is 
important to our Air Force? And that is continuing to encourage 
our partnerships with academia and various schools and 
organizations on science, technology, engineering and math, 
what we call STEM education. Very important to the future of 
our Nation, regardless of whether young people come into the 
United States Air Force. And we have partnered--I just 
partnered with the Aerospace Industries Association a few weeks 
ago, and the American Rocketry Club, which sponsors events for 
young people around the country to get them interested in this 
important work.
    Ms. Kilpatrick. Funny you should mention that. Former 
Congressman Lou Stokes brought together a program partnering 
with NASA, STEM-related, and we put together one at Wayne State 
University and they are phenomenal. Our team, and it is called 
SEMAA--Science, Engineering, Mathematics Aerospace Academy. Our 
team from Michigan competed around the world--excuse me, around 
the country--in rocketry and came here to D.C. to compete and 
placed kind of high. So we know that STEM is the future. I 
would like to work with you on that because that is very 
important.

               SHIFT OF EMPHASIS FROM IRAQ TO AFGHANISTAN

    And finally I will wait for the second round. Afghanistan, 
Iraq moving, I guess shifting up in the other. What are some of 
your concerns and are you ready for that challenge?
    Mr. Donley. Well, the Air Force has been working with the 
joint community for many months on the shift of emphasis from 
Iraq to Afghanistan. I will let the Chief go into some of the 
operational details, but I will just mention a couple.
    One is that certainly our mobility community, led by the 
United States Transportation Command and the Air Mobility 
Command, have been working very hard on logistical support to 
Afghanistan, developing alternative routes for supplies and 
transportation to support this shift and to support a higher 
tempo of operations in that part of the world. That has been a 
great focus. And also our construction and engineering units 
and organizations have been deeply involved.
    Congress has been very supportive in supporting our 
military construction (MILCON) requirements down range. As you 
appreciate, Afghanistan has much less infrastructure in that 
country and needs much more development of air bases and other 
infrastructure as we build up our capability, so we have been 
working very hard on that for many months.
    Ms. Kilpatrick. Thank you, Secretary.
    General Schwartz. I would only amplify by saying that we 
currently have 5,000 Air Force personnel in Afghanistan 
supporting the joint team, part of the joint team. It will 
increase, probably, to in the neighborhood of 6,500 or so by 
the time all the additional troops have been authorized by the 
President or arrive there to assume their new missions.
    Ms. Kilpatrick. Thank you, General. Thank you, Mr. 
Chairman.

                         NEXT GENERATION BOMBER

    Mr. Dicks. Mr. Secretary, General Schwartz, over the last 
couple of years many of us have been briefed on the Next 
Generation Bomber. And one of Mr. Secretary Gates' decisions 
was to terminate this program. You know, at some point we only 
have 20 stealthy B-2 bombers. And that is 1980s, 1970s, 
actually, technology--1970s and 1980s technology, which we have 
modernized.
    Can you give us kind of the status where we are on the Next 
Generation Bomber? And I understand that there in your unfunded 
list, there is a request for $140 million to keep some level of 
effort going, which I personally would support. But can you 
fill us in on this?
    Mr. Donley. Well, sir, I think the short story on Next 
Generation Bomber is that our plans in that area were probably 
running out ahead of the political consensus inside the 
Department of Defense on what was needed for that capability 
going forward. Well, we had significant resources put against 
this. We had not yet worked through the basic parameters of the 
program. I will let the Chief address those in a moment. But in 
addition to the programmatic detail, I take your point that we 
do need to be attentive to the kinds of technology integration 
support in this very sensitive area where we are combining many 
different technologies. And we do think it is important as we 
go forward to look at this more closely in the QDR and develop 
a new way ahead, that we do bridge this period of time where we 
do not have the Next Generation Bomber (NGB). That program is 
being canceled.
    Mr. Dicks. General, before you start, I want to read to you 
a statement that was made before a committee in the other body. 
Barry Watts of the Center for Strategic and Budgetary 
Assessment replied to a question on Next Generation Bomber 
requirements. We have studied the NGB issue to death. The need, 
the requirement and the technology are in hand and reasonably 
well understood. Would you address that as you address your 
answer?
    General Schwartz. Yes, sir. The bottom line was that I 
don't think that our Secretary of Defense was comfortable with 
how the Air Force had defined the parameters of this platform. 
I do not believe that he has misgivings about the fundamental 
mission of long-range strike. This was a question about whether 
we had this thing right. Did we have the right range, did we 
have the right payload, did we know whether this should be 
supersonic or subsonic, should it be low observable or very low 
observable, should it be nuclear or nonnuclear capable, should 
it be manned or unmanned?
    These were questions that we did not have the Secretary of 
Defense in his comfort zone. And this is what we will do over 
the next cycle, is to make sure that he in fact is comfortable.
    Mr. Dicks. Wasn't that exactly what the Next Generation 
Bomber program was doing, was analyzing all of those issues so 
that the decision--it sounds to me we know what the options 
are. It is just a failure of decision-making here. We couldn't 
make a decision, we couldn't decide let's go do it, and we are 
going to go one way or the other.
    General Schwartz. Mr. Chairman, I think the bottom line was 
that what he wanted to make sure was that he did not get son-
of-NGB as the answer to this near-term process that we have 
underway. He wanted this to be a thorough, no holds barred 
review of parameters and that he would get a truly fresh look. 
That is what I believe was behind the programmatics which came 
out that we have discussed.
    The key thing about this is that, in my view, Barry Watts 
certainly respects him, numerous studies have been done, but 
you have to get the decision-maker comfortable with your 
proposal and your program. That is something we have not done 
effectively, but we will do that.
    Mr. Donley. If I could add one more item to that, Mr. 
Chairman. This is a very significant program for the Air Force 
and potentially a very large and highly complex program. We 
need to make sure that as we go forward we can make this a 
successful acquisition program for the Air Force.
    And I will tell you that I am concerned about how we do 
that. We do not have a good track record in our last two 
bombers in terms of developing a program, a program of record, 
which we are able to sustain financially over time to get done 
what we say initially we think needs to be done. We planned on 
buying a few hundred B-1 bombers. We ended up with----
    Mr. Dicks. You mean B-2s.
    Mr. Donley. B-1s, a few hundred.
    Mr. Dicks. We got 100.
    Mr. Donley. And we got 100.
    Mr. Dicks. And B-2s were way up there, too.
    Mr. Donley. It is 175, I think.
    Mr. Dicks. And we got 20.
    Mr. Donley. We got 20. That makes those airplanes very 
expensive. And I do not want to repeat that process going 
forward.

                            C-5A RETIREMENTS

    Mr. Dicks. I understand that. I can understand the 
budgetary implication. But I still think--and I am glad to see 
you got some money in the unfunded--that we have got to have an 
office and keep this thing going. The Secretary isn't going to 
learn anything if we don't have any work being done on this 
issue anywhere in the government. So it seems to me that we 
have to correct this flaw.
    Now, the other thing, quickly. On the C-5A retirements, 
where do we stand on this? As far as I am concerned, I have 
supported you every step of the way. I think we are trying to 
do something in the supplemental, I am told, on this issue. I 
mean, can't we save a lot of money by retiring these older 
airplanes; and when we are so stressed, you know, so short of 
money to do all these important things, isn't it imperative 
that we deal with this issue?
    General Schwartz. Sir, here is the bottom line. Sometimes 
too much aluminum is as bad as not enough. And too many 
airplanes, excess capacity, if you will, as you suggest, 
competes with other needs. And our view is if it is the 
Congress' determination to continue to acquire C-17 platforms 
beyond the 205 that we have indicated we think is the proper 
force size, then we need to make adjustments elsewhere in the 
fleet mix, and that means C-5A retirements.
    Now, there is a debate about what the floor should be on 
that. And from a former mobility capability study, circa 2005, 
that floor was at 292. There has been more recent legislation 
over the years that established the floor at 299. We currently 
are at 316. That is slightly above what we believe is the 
minimum requirement that was certified during the Nunn-McCurdy 
action related to the C-5 re-engining. That was 33.95 million 
ton miles per day. So there is some space to reduce.
    And my recommendation, my best military advice to the 
Secretary, is if there are X number of C-17s either in the 
supplemental or the authorization going forward, that we should 
retire C-5As in like number on a one-for-one basis. That would 
be my best military advice.

                NEW MILITARY MOBILITY REQUIREMENT STUDY

    Mr. Dicks. Mr. Secretary, do you have anything to add on 
that, or do you just want to stand with that?
    Mr. Donley. Well, I do think, as you know, Mr. Chairman, we 
do have a new military mobility requirement study going on now 
that delivers toward the end of this year. My hope is that we 
will get that in sync with the QDR conclusion so that we can 
provide the Congress, again, sort of the next best, the best 
benchmark for what the strategic airlift requirements are.
    Mr. Dicks. And I am with you on that. It also says to me, 
do we really want to shut down the C-17 line until we get the 
study? I mean, wouldn't it be a good idea to get the study in 
to see if in fact the assumptions we are making now are 
validated by the study?
    Mr. Donley. We understand that perspective, but we think 
there is enough flex in the 316 that the General referred to, 
to add some marginal capability within the existing fleet by 
making other changes. We still have opportunities to do more 
re-engining and modernization of the C-5Bs. That program had 
been truncated during the Nunn-McCurdy decisions, but we can do 
that.

                      CIVIL RESERVE AIRLIFT FLEET

    We have other options that have not been pursued. We have 
two or three things we can do that are cheaper than buying new 
C-17s, as good an airplane as that is.
    Mr. Dicks. Ms. Granger.

                        UNMANNED AERIAL SYSTEMS

    Ms. Granger. I want to turn briefly to the unmanned aerial 
systems. Give us a little more detail about your vision for the 
future in unmanned aerial systems in counterinsurgency; and in 
particular, are we short of those in places like Iraq, 
Afghanistan, Korea, our hot spots?
    General Schwartz. Ma'am, the way--we will grow to 50 orbits 
of unmanned systems by 2011. We are currently at 34, 31 of 
which are the smaller Predator, three of which are the larger 
Reaper, and then the yet larger, more strategic platform of 
Global Hawk more in orbit. We have approximately 120 Predators 
in the inventory, about 30 Reapers and about 15 of the Global 
Hawks. This is a trend which will continue, ma'am.
    It is clear that we will become over time a more unmanned 
force. These are very useful assets, particularly in those 
cases where you need persistence, where 24/7 coverage is what 
is required to get the mission done. And there are very 
efficient ways to perform that kind of mission: particularly 
intelligence, surveillance and reconnaissance, some quick 
reaction strike and so on. This will be a significant portion 
of our portfolio going forward.
    And the 24 Reapers that are in this fiscal year's budget 
request are a manifestation of that. I don't think that we will 
ever end up being a completely unmanned force. There are some 
missions in my view that require a man in the cockpit, or a 
woman in the cockpit.
    For example, a nuclear bomber like the B-2. I am not sure 
that I would be comfortable making that an unmanned platform. 
Nonetheless, the plan will be to expand the population of 
unmanned vehicles certainly to the 50-orbit level. That is our 
current target. And we will see what the demand signal looks 
like out of QDR and so on.
    The last thing I would like to mention to you, ma'am, is 
that it is important to recognize that UASs are not any time/
any place machines. They have a wonderful application but they 
need to be utilized largely in benign airspace. In other words, 
if it is denied airspace, they cannot protect themselves, they 
do not have the natural capacities to avoid attack. And they 
are vulnerable.
    In fact, as you may recall in the news, we shot down an 
Iranian UAV in Iraq some months back. So we need, again, to 
think about this in terms of the whole concept of operations, 
where do they apply, where are they less applicable. Maybe they 
don't go in right away, but they follow the F-35s and the F-
22s, that sort of thing. This is a package, and that is really 
the genius of this, being able to package this in a good way.
    Mr. Dicks. What about the Special Forces? Are you talking 
about--when you talk about these various orbits and how many of 
these you have, are you also including the fact that you are 
doing this for SOCOM as well?
    General Schwartz. Mr. Chairman, yes, indeed. Of those 34 
orbits that are currently performing, I would say probably half 
of those are dedicated to Special Operations teams on the 
ground and half to more conventional forces.
    Mr. Dicks. All right. Do you have a third question?
    Ms. Granger. No, I don't. Thank you.
    Mr. Dicks. Mr. Boyd.
    Mr. Boyd. Thank you, Mr. Chairman.

                 PROPOSED PLAN FOR AIRCRAFT RETIREMENTS

    Secretary Donley, I want to go back to the proposed plan of 
the retirement of the 15s, 16s and A-10s.
    As you know, Mr. Secretary, the Air Force does not have a 
particularly good track record when it comes to proposed cost 
savings versus actual cost savings, and I think many of us on 
this committee would be somewhat suspicious of proposed cost 
savings until we saw some thorough analysis of what those would 
be and how you would achieve that $3.5 billion over the next 5 
years.
    Can you speak to that and when we might see that analysis 
and in what detail.
    Mr. Donley. I am open to briefing that to the Committee. 
There are some sensitivities with it with respect to outyear 
funding. We have not yet--the Department has not yet provided a 
5-year plan of detail to the Congress as is normally the case 
by this time of year because the outyear work just hasn't been 
done. But I think the main message, sir, is the one that the 
Chief indicated earlier.
    This was not just a budgetary and a savings drill. We 
reinvested the resources elsewhere in the Air Force program, 
and we have a good briefing and a good track record of where we 
put the money. Back in 4th Generation modifications we put it 
in air-to-ground munitions, air-to-air munitions and very 
specific movements of dollars from one account to another; and 
we have a very specific track on what we did with the people 
which, as the Secretary mentioned, is just as important.
    We needed additional personnel to be reinvested in higher 
priority mission areas and to get that done as soon as 
possible. So these were the factors behind the decision. I 
think we have a good trail on the dollars and the people.
    Mr. Boyd. I think we understand the intent, of course, to 
reduce cost in one account and transfer it to another account. 
But before you can transfer it, you have to reduce it in one 
account, and I think that is where the track record hasn't been 
very good. So we look forward to getting those briefings and 
seeing that detailed analysis.
    What would be the MILCON requirements for Klamath Falls in 
this particular scenario?
    General Schwartz. Sir, I don't know the answer to that. I 
would like to take that for the record and get back to you.
    Mr. Boyd. I assume there would be some.
    General Schwartz. I am not certain that is the case. They 
currently have a schoolhouse operation, and the resized force, 
that may not be true, but I need to confirm that for you.
    [The information follows:]

    The Air Force has no military construction requirements at Klamath 
Falls, Oregon through fiscal year 2013.

[GRAPHIC] [TIFF OMITTED] T6286A.110

    Mr. Boyd. Okay. Thank you.

             PERSONNEL AND FUNDING IMPACT TO TYNDALL A.F.B.

    Can you speak to the specific personnel and funding impact 
to Tyndall Air Force Base, General.
    General Schwartz. Sir, as you are aware, the intent is to 
draw down to an F-22-only--at the moment, F-22-only scenario. 
So you will end up losing the F-15s that are currently there 
and the folks that are associated with that mission; and again, 
I will be happy to give you the precise numbers, and we will 
certainly have that for you on the 22nd.
    Mr. Boyd. Thank you, sir.
    Now, in your report or when you briefed the committee 
earlier, you said that this plan would free up nationwide some 
266 full-time and 2,426 part-time Air National Guard personnel. 
Can you talk to us about where those personnel will be? Will 
they be reassigned?
    General Schwartz. This is really an issue for the Air 
National Guard and National Guard Bureau, and we will certainly 
get that information to you as well. As you know, active duty 
we can reassign to other missions in other locations. This is 
not as easy to do with regard to the National Guard and we are 
working those adjustments with the Air National Guard and 
General McKinley at the National Guard Bureau.
    Mr. Boyd. I think that was the point, and what I wanted to 
hear you say is, you have got 2,700 Air National Guard, many of 
them part-time.
    It seems to me that--how do you reassign a part-time Air 
National Guardsman from one community to another across the 
Nation? I think that is a very difficult--you probably can't do 
it. So all of these questions that we have talked about in the 
two rounds that I have had, I know you have told me a lot, that 
you will give us the reports, give us the briefings, and we 
will have that before the end of the month.
    General Schwartz. You bet.
    Mr. Boyd. Okay.
    Mr. Chairman.
    Mr. Dicks. Good questions.
    Mr. Boyd. Thank you.
    Mr. Dicks. Mr. Tiahrt.

                           TANKER REPLACEMENT

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Donley and General Schwartz, thanks for your service to 
the country, and I appreciate your time here.
    I just want to briefly go over the tanker replacement. We 
have an RFP that was clearly to replace a medium-sized tanker 
with a single platform; and there is no plan to change that 
concept of a single platform in the Air Force's revision of the 
RFP, is there?
    Mr. Donley. Sir, our view is, we ought to go ahead with a 
source selection for a single airplane.
    Mr. Tiahrt. I thought the RFP was very clear last time 
about that, but we had some significant political influence 
where the RFP became modified so much that it resulted in a GAO 
study. It seemed like the Joint Strike Fighter had Euro 
participation so we tried to reciprocate by modifying the RFP 
to accommodate a mega medium-sized tanker, and I hope that 
doesn't occur this time, that the political influence is 
excluded from the RFP.
    As you know, the results of the GAO study brought to light 
that some of these changes were just way beyond the pale, and 
it resulted in a cancellation of the decision. So as we move 
forward, I am hoping that we can keep the political influence 
out of it, that we look at the actual cost, the long-term cost, 
as well as the other significant requirements and come up with 
a good decision this time that is not influenced by politics.

                    PROJECT LIBERTY (MC-12 PROGRAM)

    There is another program called Project Liberty. It is an 
ISR platform and it seems to be held up right now. Can you tell 
me right now the status of the MC-12 program, Project Liberty?
    General Schwartz. Sir, the first aircraft deployed for Iraq 
on the 1st, and it will arrive Friday. So you know that we have 
had training operation going on in Mississippi, the temporary 
location, so that we can train the crews and man these, that we 
are going to push the aircraft forward. There will only be 
several training birds left in the States. Everything else will 
go forward.
    And this in a way also addresses Congresswoman Granger's 
earlier question about ISR capacity, that the MC-12s are an 
important part of that. They have much the same kind of 
capability, at least in the video area, that the Predators and 
the Reapers do, and they will provide support to the ground 
forces that are required both in Iraq and ultimately in 
Afghanistan.
    So the program is slightly behind schedule based on efforts 
by the prime contractor, L-3. We originally anticipated 
deployments in April. We just got deployments this week, and we 
will continue to press on that.
    Mr. Tiahrt. Is it an integration problem or a hardware 
problem-software problem?
    Mr. Donley. Sir, I think this is just sort of 
underestimating some of the engineering demands that have been 
placed on this program. It was a very aggressive schedule to 
begin with. As you may recall, the first--the plan was to buy 
the first eight aircraft from commercial sales and the used 
aircraft market. As we bought those airplanes, we ended up with 
seven or eight different configured airplanes. So the 
engineering integration had to be done differently seven times 
for those initial airplanes. For the Block 2 aircraft, we have, 
working with the Office of the Secretary of Defense, with 
USCENTCOM and others, have been adding capabilities to these 
aircraft to ensure that they have the ISR capabilities that the 
combatant commander wants and needs in the theater. And as we 
have done that, we have added engineering time again into that 
process. So those I think are the reasons really for the delay. 
The contractor is on it and they are working 24/7 to meet the 
contract schedule.
    General Schwartz. Congressman, I will only add that the 
first delivery was seven months after contract award. So this 
was not sort of business as usual on anybody's part.
    Mr. Tiahrt. That is a pretty short stroke. When we spoke 
last time, there was a problem with the AT-6C program and it 
was an engine problem with the prop sleeve, and I think that 
has been resolved.
    But how are we doing to ensure that the Iraqis are fielding 
them properly and are working them, as well as the trainers, 
the trainer version of it.
    General Schwartz. Sir, the trainers have not been delivered 
to the Iraqi forces yet. That is still ahead of us. The prop 
sleeve touchdown problem with the engine, we still have 64 
airplanes that are grounded pending certification of the fix. 
Certainly Pratt & Whitney believes they have the fix, and we 
are in the midst of phase one test to confirm that before we 
take the machines back airborne. Assuming that comes through as 
advertised, we will be okay with regard to the schedule for 
delivery to the Iraqi air force of the trainers.

                              IRAQI BUDGET

    Mr. Tiahrt. Are you aware of the state of the Iraqi budget 
as far as the funding? Are they in good shape?
    Mr. Donley. The Iraqis have had a couple of ups and downs 
in their budget planning, including national defense for them, 
based on the price of oil. So their budgeting process is very 
dependent on the price of oil. We understand the Minister of 
Defense is being briefed this week by their Air Chief and they 
are working through the various programs and priorities that 
they have set for the new Iraqi air force and we have advisors 
as part of that process continue to be directly involved with 
their leadership in watching the schedules and the performance 
of the programs that have been set in place to support the 
buildup of that, but they are definitely under resource 
constraints and remain heavily dependent on U.S. support.

                           B-52'S RE-ENGINING

    Mr. Tiahrt. Mr. Dicks was talking about the next generation 
bomber, which seems like it is some ways downstream and we have 
a limited inventory of other bombers available today.
    Is there a program office for re-engining the B-52s in 
existence today and would you consider that?
    General Schwartz. Congressman, we have looked at that a 
number of times over the years. The TF-33 engine is sustainable 
through the airframe life of the platform, so at the moment 
there is no consideration of re-engining the B-52, sir.
    Mr. Tiahrt. The current fuel costs, it always varies, but 
it looks like it is going no place but up. Have you 
recalculated based on current fuel costs and how they are 
projected in the future? Because it seems like there is a 
significant fuel savings with the re-engining program.
    General Schwartz. We have looked at the business case, and 
it has not risen to a level of priority which would suggest 
that we would preempt something else in order to re-engine the 
B-52.
    For example, candidly we wouldn't interfere with F-35 or 
KC-X procurement to re-engine the B-52. We think those two 
other items and others are a higher priority.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Bishop.

                  AIR FORCE MISSIONS AND REQUIREMENTS

    Mr. Bishop. Thank you very much. I would like to turn my 
attention to general Air Force missions and requirements.
    Now the Air Force is really embracing a collaborative and 
supportive role in the types of operations that have been 
conducted in Iraq and Afghanistan and, in general, attempting 
to change the service's culture to meet these new challenges. 
Of course, the Air Force has always provided mission support in 
the struggle against extremism, which you designated as in lieu 
of, and now ``in lieu of'' has been defined as a standard force 
and equipment that is supplied to execute missions and tasks 
outside of your core competencies of core responsibilities.
    Now, the Air Force views these responsibilities and refers 
to them as Joint Expeditionary Tasking, JETs, but to support 
that there are some realities that you have got to deal with--
increased deployment tempo and requirements--and they are done 
at the expense of your traditional missions.
    General Schwartz, I think you stated you want to change the 
Air Force's culture. What types of changes can we expect to see 
in the Air Force?
    And Secretary Donley, will there be any overall policy 
changes to reflect such a shift in the fiscal year 2010?
    General Schwartz. Congressman, I think the way to start 
this--and I know the Secretary will wrap--the Nation is at war, 
and there are demands on the joint team, writ large, to be 
successful in Iraq and Afghanistan. And if there is a need and 
if the Air Force can fill a need, it was our view, the 
leadership's view, that in a time of war we will do whatever is 
necessary wherever it is needed for however long it is needed.
    Now, our commitment to our youngsters is that they will be 
trained to do what we ask them to do, and I think we have been 
very rigorous in that regard. But, yes, we have some people who 
are doing nontraditional things, but I think we should 
celebrate that. It doesn't diminish us at all.
    The truth is that--and I just met with 60 folks or so that 
are doing convoy work at Camp Arifjan in Kuwait and sustaining 
our forces in Iraq, including Air Force youngsters, and these 
Airmen will be better Chief Master Sergeants when they grow up 
as a result of this experience.
    So, in short, sir, I do not apologize for our folks filling 
legitimate combat requirements for the joint team. We just 
simply need to recognize their contribution, honor their 
contribution, make sure that they are properly trained and that 
they are rewarded for their work.
    Mr. Bishop. Is that going to result in a shortfall of the 
traditional missions for training as well as execution if you 
do that? And how many of those functions were performed by the 
Army and Marine Corps?
    General Schwartz. Sir, it means that the folks that remain 
in those disciplines where we drew folks for nontraditional 
tasks will work harder. It means the entire team works harder. 
That is the reality.
    But, again, I would put this in context. This is not 
peacetime, and people are dying, and so we are not going to 
stand by and argue about it is not our job. That is not what we 
are about.
    Mr. Donley. I would echo exactly what the Chief has said, 
that we are all in. Whatever we are asked to do, we will do.
    I think another aspect of our joint work together over the 
last year has been to broaden the appreciation with both 
outside and inside communities in our Air Force of the extent 
to which we are all participating in this fight whether we are 
deployed downrange or not. We have logisticians; we have 
mobility forces that are back and forth from the theater on a 
regular basis that are not necessarily deployed there; we have 
all the UAS support work, the intelligence work that backs up 
all that data collection that is done in other parts of the 
world, not just in CONUS.
    Some of it is done in Europe; some of it is done elsewhere. 
Our Air Force is committed to these fights from--geographically 
from, basically from all around the world and in all of our 
different functions.
    Mr. Bishop. How many of them in the Central Command area of 
responsibility?
    Mr. Donley. About 26,000 at any given time of our 37,000 
deployed abroad are in the USCENTCOM AOR.
    Mr. Bishop. Are you experiencing any difficulty filling 
those deployment missions?
    General Schwartz. It is interesting, sir. We--and I will 
give you an example.
    We just lost two people on a provincial reconstruction team 
mission in Afghanistan last week, one officer and one young 
Airman, both of whom were volunteers. And this is the reality. 
The people understand the value of the work and they have 
volunteered. Thus far, we are fulfilling the requirements that 
have been levied on us.
    Mr. Bishop. As I understand it, the Air Force is currently 
playing a critical role in the mission that is expected to 
continue expanding to match 50 unmanned combat air patrols. 
Will this expanded role affect ISR manning requirements, and if 
so, how does the 2010 budget request address those needs?
    Mr. Donley. Sir, we have been very attentive to making sure 
that as we add ISR collection assets, as the unmanned aerial 
systems and other ISR assets increase, that we also back it up 
with the necessary intelligence personnel to do that, sir. We 
have done that in the 2010 budget.
    We can get you more detail as you would like.

                      NUCLEAR MANNING REQUIREMENTS

    Mr. Bishop. Finally, what are the nuclear manning 
requirements and how does your 2010 budget address those needs? 
And are you able to source all your requirements in the nuclear 
field, and if not, what shortfalls do you have and how can we 
help in that regard?
    General Schwartz. We are on a glide path, Congressman, with 
regard to reinvigorating the nuclear discipline in our Air 
Force, so in some areas we don't have the numbers or the depth 
of expertise we would like. That is part of our plan for 
recapturing excellence in this area.
    We are putting, for example, about 1,000 spaces back into 
the nuclear enterprise in order to serve that mission well. 
Some of that is in the new headquarters, the Global Strike 
Command. Some of that is in the 4th B-52 Squadron that will be 
moving to Minot Air Force Base in North Dakota, and it is in 
the 2010 program.
    Mr. Bishop. It is in the 2010 program.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Rogers.

                        NUCLEAR OVERSIGHT BOARD

    Mr. Rogers. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thanks for your service to our 
country to all of you in the room.
    Let me quickly ask about the two high-profile nuclear 
security incidents in the past few years, Minot and Taiwan. You 
have taken severe--I guess is the word--steps to try to correct 
those problems.
    Are you satisfied, both of you, with what you have done, 
that our nuclear capability is kept secure at all times?
    General Schwartz. I can speak from the operational side.
    I think we took the necessary actions, some of which 
included disciplining officers and NCOs, some of which entailed 
reorganizing the way we had responsibilities distributed around 
the Air Force in a number of commands and concentrating that 
operationally in one command and on a sustainment side in one 
command, one accountable officer.
    We likewise have given focus to the policy side of this, 
which is not trivial, as well, and that activity, of course, 
works for the Secretary.
    My view is, we are on exactly the right path, the needed 
path. In fact, this Saturday we will have what we call the 
Nuclear Oversight Board. We meet periodically to address 
progress along with our nuclear road map, those remedies that 
we have put in place, and I am persuaded that we are on the 
right path, sir.
    Mr. Donley. Likewise, I think we have put together a strong 
road map to get back the level of expertise and discipline that 
we need in this very important area.
    But I would tell you, this is a work in progress, that it 
will not come back quickly and it needs continued attention in 
the next several years as we build back the necessary 
expertise.
    We have had since October, I believe about 19 inspections 
across our nuclear enterprise of which 17 resulted in 
satisfactory or excellent ratings. Two were unsatisfactory and 
had to be retested at a later date, which they passed. But this 
continues to be a work in progress.
    The Chief mentioned the Nuclear Oversight Board that we 
have established. This will be our third meeting at the end of 
this week.
    Just this last weekend, we were back at Ogden Air Logistics 
Center reviewing the progress made there over the past year in 
the handling of nuclear-related materials. They have made 
progress there, but there is more to do. We do not have in 
place all the automated systems and such that we should have 
that would help us with end-to-end accountability and get us 
out of the paper environment. So we have a lot of work to do to 
build back, but we have a good program and we are putting the 
resources in place to do it.
    So I am very pleased with the progress we have made over 
the last year.
    Mr. Rogers. Well, I need not remind us all it just takes 
one simple mistake to do a lot of damage.
    Well, on February 4, the Washington Times and other 
agencies reported that Air Force nuclear units have failed two 
surety inspections in the past 3 months. Are those the ones 
that you mentioned a moment ago?
    Mr. Donley. I believe they are, sir.
    Mr. Rogers. Well, again, are you positive that we have 
solved the problem, given those lapses that we have just 
mentioned?
    General Schwartz. Sir, in the end, you know, this is 
discipline, it is compliance with procedures, and there will be 
some human error; so that is why we do two-man or two-woman 
kinds of processes to assure that we mitigate that risk.
    But with respect to the inspections, I don't think that 100 
percent pass on inspections is necessarily the thing we want to 
see. We consciously turn the dial up on the inspection process 
to make sure that it was rigorous, to make sure that it was 
more invasive, to make sure that it actually told commanders 
where they had problems.
    And that was one of the dilemmas we had. Frankly, I think 
the inspection process became too easy and so that has been 
part of the corrective action. And if we see failures, I think 
that is a reflection of rigor and not necessarily a situation 
over which we should be alarmed, too alarmed in any event.
    Mr. Rogers. All right. Thank you.
    Mr. Dicks. Ms. Kilpatrick.

                          NUCLEAR REQUIREMENTS

    Ms. Kilpatrick. Thank you, Mr. Chairman. Those were exactly 
where I was going with regard to the nuclear.
    But one thing as it relates to the 2010 budget--and I thank 
you for all you said, and Senator Gates coming in and changing 
the command, and the two of you assuming new positions and 
carrying out what we just discussed in the last questioning. 
Does the 2010 budget fully source all your requirements for the 
field? Do you have what you need? And I think I asked you that 
before. Are there any shortfalls we should look at at this 
time?
    General Schwartz. Trust me, ma'am. We made sure that all 
the nuclear requirements were addressed at 100 percent.
    Ms. Kilpatrick. So as this committee goes through its due 
diligence after you have gone back to the base and all that, 
you want to leave us with that point?
    General Schwartz. Yes, ma'am. The key thing is, you won't 
see any nuclear items on the unfunded list.

                              HEALTH CARE

    Ms. Kilpatrick. Thank you very much.
    Let's go to health care. We didn't talk about that very 
much this morning.
    General, you did mention that is one of your short staffing 
falls. I don't know if you have the people that would require--
the needs that we have as we go forth to Afghanistan and really 
the domestic and around the world needs. What kind of 
assistance do you need? I am talking more positions and 
dollars, enlisted or not.
    I just left a hearing where Congresswoman Nita Lowey was 
introducing a bill that the medical profession's nurses who 
performed in World War II are not--they don't get pensions. Her 
bill was trying to get them pensions and make them a part of 
the military, which I strongly support, and those who now 
commit their lives and follow the troops around and care for 
them and keep them safe and healthy.
    Talk a little bit about health care as it relates to the 
mission in theater and the overall Air Force.
    General Schwartz. Clearly, one of the great successes of 
this period of conflict that we have been in is how the medical 
community has performed. When I first came into the Armed 
Forces, we were in the midst of the Vietnam conflict, and I 
remember vividly how it took weeks to get wounded back from 
Vietnam to hospitals in the States, maybe longer. Now it takes 
hours, literally.
    And as you are aware, ma'am, the survival rate of our 
troops, our Airmen, Marines, Sailors, who are wounded on the 
battlefield is well in excess of 95 percent, higher than it has 
ever been because of the casualty evacuation capability, of the 
field medical capability, and the strategic efforts that we 
have to move folks from one theater to the next back to the 
U.S. for definitive care. I think it is a wonderful example of 
how the Armed Forces take care of their own.
    This is not to say that there are not difficulties with 
respect to certain specialties in the medical area. One of 
the--the truth is, though, that we have had greater success in 
recruiting surgeons of late than perhaps we did before. We 
typically were a very healthy force in peacetime, so you only 
did geriatric surgery, if you will. But this is the real deal 
now, and certainly trauma surgeons know that the Armed Forces 
are a place where their skills can be put to very good use.
    So the bottom line is, we compete in the civil market for 
talent. We need to have incentives that allow people to have a 
fair standard of living along with the rewards that come with 
military service.
    Ms. Kilpatrick. When you talked about the shortage in 
health care, were you talking about the surgeons specifically, 
or the other professionals in that field?
    General Schwartz. An area where we have had difficulty 
because they are in short supply is mental health. And we 
have--for example, we have hired 100 mental health 
professionals in the Air Force, and this is a relatively small 
number compared with what the Army has done; but there is keen 
competition for mental health professionals.
    Ms. Kilpatrick. In the domestic world----
    General Schwartz. Exactly. And that is my point.
    So this is a difficult area, and it is one where, after 
folks return home, there are still mental health needs, and 
that is an area where incentives and so on are certainly 
required.
    Mr. Donley. As the Chief mentioned earlier, we have put 
about $645 million against incentives and bonuses for 
recruiting and retention generally. Of that amount, about 88 
million or so is targeted at health care professionals. So I 
think we have--as the Chief suggested, I think we have 
addressed the requirements issues and we have established where 
we need additional personnel positions. I mean, we have done 
that internally. The shortage is in the bodies and getting them 
in and retaining them; that is a common problem across the 
Armed Forces right now.
    Ms. Kilpatrick. Finally, along that same line, the wounded 
warriors who come home and their families, adequate health care 
resources?
    General Schwartz. For the Air Force, we do. We have had far 
fewer numbers of casualties than have the other services. But 
we have been focused on this and we are okay with regard to 
assuring that our commitments to our wounded warriors are 
fulfilled.
    Ms. Kilpatrick. And their families?
    General Schwartz. Certainly, and their families. Yes, 
ma'am, forgive me for----
    Ms. Kilpatrick. Thank you.
    Mr. Dicks. Let me ask you, on the ILOs, are they all 
volunteers?
    General Schwartz. Probably not all, but a large proportion 
certainly are, and we prefer it that way. For example, in the 
contracting area where we have a lot of our folks involved, 
they are on a one-to-one ratio as I indicated, somewhat like 
the security forces or the engineers. And we have had to direct 
people to serve and, of course, that is what we sign up to do 
in the Air Force or in any of the Armed Forces. But we seek 
volunteers first and then deal with the remainder as we need 
to.

                          JOINT CARGO AIRCRAFT

    Mr. Dicks. On the joint cargo aircraft, can you explain 
what is going to happen here? First, this was an Army program, 
then it was a joint program, and now we understand it is an Air 
Force program. That is rather magical.
    Recently the Secretary of Defense has stated that the C-130 
aircraft could and should be used to carry out the mission. So 
tell us where we are on this.
    And the Army has got eight of those planes, as I understand 
it. How are you going to get those back? What is the story 
here? And we hope this is the final chapter.
    General Schwartz. Sir, nothing happens instantaneously in 
this, and it would be foolish to do so.
    The Army program office will remain in the lead until well 
into 2010. They will have--they currently have Air Force people 
in the office, but there will be more folks assigned and 
attached now that the transfer has been directed and that we 
will migrate the program from Army supervision and management 
to Air Force supervision and management over the next year.
    A key factor in this is that there is a deployment of four 
aircraft that are required to go to the U.S. Central Command 
area of responsibility late in 2010. So that is the mark on the 
wall. We will fulfill that commitment. And it may be with some 
Army crews and some Air Force crews; it will probably be a mix. 
We are getting the plan together now on how we will man this 
and likewise how we will operate this mission downrange. Still 
a lot of work to do.
    I think that at the strategic level, Mr. Chairman, the 
issue was, how many C-27s do we need? And I believe that the 
Secretary was concerned that perhaps we were not getting as 
much utilization out of our C-130 fleet as he thought 
appropriate.
    Just again as background, about two-thirds of our C-130 
fleet is in either the Air National Guard or the Air Force 
Reserve, and because of availability management issues related 
to that, they are not quite as available for deployment as our 
active duty, and this is the nature of things.
    We need to get the Secretary settled on what the right mix 
is, and clearly that will be an outcome of the Quadrennial 
Defense Review. It might mean more than 38 JCAs. That is an 
open question. I think 38 is the floor; it could be more. We 
will have to satisfy his inquiry related to the applicability 
of available C-130 capacity to do that mission.
    Mr. Dicks. What I have a hard time understanding is, if the 
Air Force is going to take this program over, why wouldn't it 
be Air Force crews? Why would you do mixed crews? Why not deal 
with this once and get it over with?
    General Schwartz. I agree, sir. And that will be the end 
game. But the problem is, we have a near-term deployment 
requirement, and to get people trained and certified and so on 
may require a mix before the total migration occurs.
    And so this is something we are working out. We probably 
won't have mixed crews, but it is conceivable that you would 
have Army--a coherent Army crew, coherent Air Force crew that 
would operate the aircraft using the same rules.
    Mr. Donley. Just to follow up, Mr. Chairman, there are many 
moving parts to this: the program management piece, the 
training piece, the Guard, the basing issues, the deployment 
commitments that have been made.
    The Army and the Air Force and the National Guard Bureau 
together are working this very hard. I think it is going to 
take several months before we get a real firm handle on how all 
the details of this will spin out. So there is a lot of work 
here.
    I think the strategic level decision that the Secretary 
took is that the direct support mission can move, should move 
from the Army to the Air Force. That was the strategic level 
decision, not just the JCA program.
    So there is a lot of work that needs to be done and--to the 
concepts of operations and how Army needs to be supported and 
making sure that the Air Force prepares itself to do that 
correctly. So, many moving parts. The clutch here will operate 
probably for a year or two as we make this transition; it is a 
significant one.

                            KCX COMPETITION

    Mr. Dicks. Going back to the KCX competition, one of the 
things that really bothered me in this is the fact that the Air 
Force leadership, as I understand it, by statute, is precluded 
from being involved in the decisionmaking.
    Is that accurate as it relates to the acquisition part of 
this program, that the acquisition people do this, or is that 
inaccurate?
    Mr. Donley. Source selection decisions are closely held and 
are limited to those individuals who have been assigned that 
responsibility, so we do not share source selection information 
outside of the select--source selection team.
    Mr. Dicks. So we have people in the source selection group 
who are going to take into account--who take into account the 
industrial base issues?
    Who takes into account key issues that affect the country 
here in terms of industrial base and where this thing is going 
to be built and the whole thing? I mean, those kinds of issues, 
who takes those kinds of issues into account?
    Mr. Donley. Well, the source selection authority is 
responsible for ensuring that----
    Mr. Dicks. That those things have been looked at.
    Mr. Donley [continuing]. That those things have been looked 
at, that the law has been fulfilled in every respect--
regulations, et cetera.
    Mr. Dicks. There is a provision in Title 10 that says you 
have to look at industrial base. We don't think that was done 
on this program the last go-round, and we raised this with 
Secretary Young before his departure.
    So we would like you to look and make sure that we have 
looked at--and that is supposed to be done to make sure we have 
evaluated the effect on the industrial base. We can get you the 
citation. It is in Title 10.
    The other thing is, there were some changes made in the 
model, the CMARP, that in order to allow the Airbus aircraft, 
the EADS Airbus aircraft, Northrup Grumman, to be able to 
compete. Now, when we start this process over again, are those 
same changes in the CMARP going to be allowed or are they going 
to be reevaluated, or do you know?
    Mr. Donley. I can't speak to the specific issue you are 
raising here. All I can assure you is that we are going through 
this process with a fine tooth comb to make sure that we have 
established all the requirements for the program in ways that 
can be understood and written into a good proposal--clear 
proposal, measurable requirements--and that we have good 
oversight of this program going forward.
    We have made internal changes to the Air Force to 
strengthen that source selection process. We have increased the 
seniority of the team. We have done sort of remedial training, 
if you will. We have moved contracting responsibilities and 
oversight to a higher level in the Air Force.
    So we have taken a number of steps since last summer to 
strengthen our preparedness to get back into this RFP this 
summer and to go through a fair and open competition and to 
make sure that we can withstand scrutiny that we know will 
come, and should come, from the Congress and those overseeing 
us.
    Mr. Dicks. We have had this discussion, but I want to say 
this on the record:
    I would hope that they would go back and reevaluate the 
changes that were made in the model, the CMARP, in order to 
make certain that that was in the best interest of the Air 
Force and the operation of the Air Force. I have doubts about 
that myself, that those changes should have been made. They 
were done so that one company would be able to compete because 
they said they were going to withdraw from the competition if 
changes weren't made.
    The other thing is, in the GAO report there were two 
requirements: Now they have to meet the requirements. Two of 
the requirements were not met. One was on the organic--having 
an organic maintenance site within 2 years and the other was 
the ability to refuel all Air Force aircraft. Those were not 
met, and I want to know whether in the next go-round if a 
competitor doesn't meet the requirements, stated requirements, 
that they will be disqualified, which they should have been 
under the law.
    And those are two things that I think are fundamental.
    And the third thing is to do a valid cost comparison on 
life-cycle costs. I mean, I think Congress is--we want to know 
the difference in life-cycle costs between the planes that are 
competing; and that was not, in my judgment and in the judgment 
of many others, properly evaluated in the first go-round.
    So those three things we would like an answer to, how you 
are going to approach those things.
    Mr. Tiahrt.
    Mr. Tiahrt. Mr. Chairman, you are referring to Title 10, 
U.S. Code. It is section 2440 just to be specific.
    And if I might add, there are also some Defense Federal 
Acquisition Regulations, DFARs, that waive regulations for some 
of our allies, particularly the International Traffic in Arms 
Regulations, the Foreign Corrupt Practices Act, along with 
other cost accounting procedures that are demanded upon our 
American contractors and not our European allies that I think 
need to be reevaluated for a fair and level playing field.
    I have an additional question if we have time.
    Mr. Dicks. I yield to you.

                      INDEPENDENT COST REQUIREMENT

    Mr. Tiahrt. Thank you, Mr. Chairman.
    In the process of every major program, there is a 
requirement for the Air Force to conduct an independent cost 
estimate, and in that independent cost estimate--which is a 
difficult task, by the way; whether you use parametrics or some 
similar programs, it is always hard to estimate what new 
technology is going to be and how you get there.
    But once that has been established and there is some degree 
of confidence, there has been a tendency within the Air Force 
in the past to underbudget those programs. They are trying to 
cram more program into the budget by number of aircraft by 
lowering the independent cost estimate or adjusting it 
downward. And the tendency is in doing that--the result, I 
should say, in doing that is that we end up later on with 
program overruns; and then we go through these machinations of 
trying to catch up on the funding on very essential programs.
    I assume you will have to keep continuing on the 
independent cost estimates. But I think it is important that we 
keep in mind that once you establish a dollar figure for a 
program, that it is fully included in the budget because the 
harder it goes, later on, by trying to cram 10 pounds of sand 
into a 5-pound bag, eventually it is going to spill out; and 
that spilling out is where we run into a lot of trouble with 
our budgeting process, our funding process, as well as your 
having to go through all of these hearings.
    So I would encourage you in the future, when you get an 
independent cost estimate, that is what your budgetary number 
ought to be. Can I get some agreement on that?
    Mr. Donley. The use of independent cost estimates is a very 
important tool to the leadership, no question; inside the Air 
Force and inside the DOD leadership, this carries weight with 
us. As we look toward improving the acquisition workforce, we 
are adding cost estimators. That is--part of our plan is to 
beef up that part of our workforce that supports this aspect of 
the acquisition process.
    I would say, as the chairman and I were discussing earlier, 
we have seen a lot of acquisition reform in our time here in 
Washington, DC over 30 years. I would summarize it a little bit 
as you did, perhaps a little bit more bluntly. Those who want 
to add capability to programs usually underestimate the cost 
and the impact on schedule. Those that want to take money from 
programs usually underestimate the impact on capability and 
schedule when they do that, and we have people in this town for 
various programs--all of us are participating in this process 
who want to add capability or who want to cut dollars from 
programs; it just depends on the program.
    So we put our program managers in a very difficult 
situation. There are only certain aspects of programs that they 
really have control over, because the leadership in the 
Pentagon, the Air Force, the Office of Secretary of Defense, 
many different competing pressures on programs, and also, 
obviously, in Congress with multiple committees marking and 
funding programs at different levels with different goals, 
different objectives, different capabilities. We are all 
working around the edges of these programs.
    So maintaining stability both in content and in funding is 
a very significant challenge for all of us and continues to be 
going forward and requires a lot of discipline on our part to 
know when to intervene and when to leave it alone.
    Mr. Tiahrt. I know that some people are always a little bit 
surprised that there are politics in Washington, D.C. And I 
know it doesn't end at the Potomac; I know it occurs the across 
the river as well. But I think in this process, if we can have 
some stability in abiding by these independent cost estimates, 
it will help us avoid some future overruns, which politically 
are difficult to live through for both you and ourselves.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Bishop.

           NEW MILITARY SATELLITE COMMUNICATION ARCHITECTURE

    Mr. Bishop. Thank you very much.
    As part of the fiscal year 2010 budget development, 
Secretary Gates cancelled the Next Generation Military 
Satellite Communications Program, TSAT. TSAT would have 
provided anti-jam, high-data rate MILSAT communications and 
Internet-like services to military users, such as the future 
combat systems and the intelligence, surveillance, and 
reconnaissance assets.
    With the cancellation of TSAT, the restructure of FCS and 
the addition of 50 Predator orbits, it is not clear whether or 
not the current satellite communications architecture is 
capable of supporting force projection assets. And, of course, 
last week DOD issued the stop order on the TSAT program.
    What are your plans, Secretary Donley, for the new military 
satellite communication architecture, and when will you make 
those plans available to Congress? And could you tell me 
whether or not you are going to migrate the TSAT capabilities 
onto the advanced, extremely high-frequency satellite system? 
Would you address that for me?
    Mr. Donley. As you indicated, the Secretary made a 
strategic level decision to reduce the risk in our MILSATCOM 
programs that was perceived to be associated with the TSAT 
program. It had forecast significant increases in capability 
across a broad range of functions and aspects for MILSATCOM. It 
protected communications on the move, et cetera. These were 
viewed as very desirable by the combatant commanders, but also 
very high risk and potentially high cost.
    The Secretary's decision was to take risk out of our 
program by continuing to add MILSATCOM capability by extending 
the Wide-Band Global System another two satellites, by 
extending the AEHF system that you referred to by another two 
satellites.
    At the same time, the decision recognized that at some 
point in the future we would want to continue the R&D work 
necessary to develop the advance MILSATCOM capabilities that we 
hope would be available in the future from a TSAT-like 
capability and decide whether those capabilities ought to be 
migrated into our MILSATCOM structure.
    So we owe a plan to the Office of the Secretary of Defense 
as part of the TSAT cancellation, that develops a plan--Air 
Force working with combatant commanders and other users in the 
system--to continue to evaluate the technology and to determine 
when that technology is ready to be inserted into the 
MILSATCOM--future MILSATCOM architecture.
    So the details of that have not been worked, but it is 
probably at AEH-6 or beyond.
    Mr. Bishop. How are you trading off the commercial lease 
satellite communications systems with the military satellite 
communications systems in your future architecture analysis?
    Mr. Donley. We are big users of commercial SATCOM today and 
depend on our commercial partners to support ongoing operations 
in the theater. They bear a significant part of our requirement 
today.
    I believe they will continue to be part of our MILSATCOM 
architecture in the future. We will have further internal 
debates on how much and what kind----
    Mr. Bishop. I was going to ask you what the balance was 
going to be.
    Mr. Donley. Right. And we will continue to work that going 
forward.
    There is no question in my mind that it is recognized 
within the space and MILSATCOM community that commercial 
partners are a part of our MILSATCOM--part of our SATCOM 
architecture going forward. They will be meeting part of our 
needs going forward, no question.
    Mr. Bishop. Thank you very much, gentlemen.
    And thank you, Mr. Chairman. I would like to at the close 
of the hearing have a moment with General Schwartz, if you 
don't mind----
    General Schwartz. Yes, sir.
    Mr. Bishop [continuing]. Regarding a constituent matter.
    Thank you, Mr. Chairman.

               ALTERNATE ENGINE FOR JOINT STRIKE FIGHTER

    Mr. Dicks. Can you give me kind of the newest update on the 
alternate engine on the Joint Strike Fighter, what the 
administration's position on this is?
    Mr. Donley. Sir, the administration's position remains that 
the second engine for the F-35 would not be in the best 
interest of the F-35 program going forward. So there is--at the 
moment, there is no change in the Administration's position on 
that subject.
    Mr. Dicks. We understand that the Congress has added $2.5 
billion. A lot of this comes from the--I think it is the F-100 
competition; and our analysis up here is that over the life 
cycle that--even in the worst case, this would only cost $300 
million. And that with competition there, it keeps both 
competitors' prices down.
    So, anyway, I just want to make that point because I am 
pretty confident Congress is going to stay with their position 
on this.
    General Schwartz. Mr. Chairman, if I could, if you would 
allow me just to say that I think we understand that argument. 
I would only ask that if that is the case, if we are going to 
proceed, that Congress directs that we proceed with the 
alternate engine, that we all do our best not to have that 
decision impact the production rate of our F-35 platforms.
    If the trade is fewer airplanes for more engines, from an 
operator's point of view, that is less than ideal.

              COMBAT SEARCH AND RESCUE HELICOPTER PROGRAM

    Mr. Dicks. That is a valid point and noted.
    On April 6, Secretary Gates announced the termination of 
the Air Force Combat Search and Rescue helicopter program due 
to a concern over the acquisition history and questions whether 
the mission can only be accomplished by yet another single-
service solution with a single-purpose aircraft.
    Secretary Gates further stated that he would take a fresh 
look at the requirement behind the program and develop a more 
sustainable approach.
    Later in the month, at Maxwell Air Force Base, he stated, 
frankly, the notion of an unarmed helicopter going 250 miles by 
itself to rescue somebody did not seem to be a realistic 
operational concept.
    What is in the budget to address this critical capability? 
Anything?
    General Schwartz. Sir, the decision to cancel the CSAR-X 
solicitation did not remove all the dollars that were 
associated with that effort. In fact, there is a fair amount of 
money left in the personnel recovery search and rescue line; 
and what we will end up doing, I think--the bottom line is I 
think the Secretary's view was that we had over spec'd the 
requirement and that there are less expensive capabilities that 
can help satisfy this mission, and what we will end up doing is 
procuring airplanes currently in production that are either 
supporting the Army or the Special Operations Forces.
    Mr. Bishop. These airplanes, are you talking about 
helicopters?
    General Schwartz. Yes, sir, helicopters.
    Mr. Bishop. Rotary wing?
    General Schwartz. Rotary wing, helicopters, yes. UH-60M 
variance.
    Mr. Dicks. What about the idea of purchasing two H2M 
helicopters to be modified to a CSAR configuration?
    General Schwartz. Sir, could you repeat that?
    Mr. Dicks. What about the--there is one option of 
purchasing two H-60M helicopters to be modified to a CSAR 
configuration.
    General Schwartz. Yes, that is the Department's position, 
sir.
    Mr. Dicks. That is what you are going to do.
    Mr. Donley. I don't think that has been completely decided.
    What I think you saw and have seen in the 2010 budget, 
first of all, there are dollars--as the Chief indicated, there 
are dollars left behind from the CSAR program cancelation that 
we intend to put into a different capability going forward. But 
at the same time that decision was made we also made what I 
will call some clean-up decisions.
    Since we knew we were not going to have CSAR procured in 
the near future to do some loss replacement for helicopters, we 
put in some dollars for MC-130 for additional tanking. We did 
some additional modification dollars on H-60s as well, adding 
clear capabilities and some other functions that would be 
helpful in the CSAR in the personnel recovery missionary.
    These were short-term, band-aid budget adjustments made to 
compensate in the immediate near term for the CSAR cancelation. 
We need to reconstitute a future program that needs to be 
defined here in the QDR going forward.
    Mr. Bishop. Will the gentleman yield?
    Mr. Dicks. Yeah, I yield.
    Mr. Bishop. The CSARs that you are talking about, will they 
be armed so that when they go in on the missions that they have 
some protection? And, if so, will that reduce the available 
space for MediVac and the number of casualty victims that can 
be extracted?
    General Schwartz. They will be armed, as ours are today, 
either with light machine guns or 50-caliber weapons is the 
typical configuration. And, yes, there is a tradeoff between 
payload in space with regard to what you put on to protect the 
airplane, how much gas you carry, how far you can go versus how 
many people you can pick up and return and so on.
    But the bottom line is that these aircraft do have self-
protection capability, and the aircraft that we are talking 
about procuring will likewise have that capability.
    Mr. Dicks. Mr. Tiahrt.

                                 TANKER

    Mr. Tiahrt. Thank you, Mr. Chairman.
    General Handy has been talking about a duel buy on the 
tankers, and what is the plan on the KC-10 replacement? Is it 
on the radar screen yet.
    Mr. Donley. No.
    Mr. Tiahrt. It is still long term out? He was talking about 
the lower cost paragraph, if you replace them up front. But it 
just seems they are not in the budget now.
    Mr. Dicks. Would you yield on that?
    As I understood what the Air Force's position was, we are 
going to buy 179 in the first tranche of medium-size aircraft, 
179 in the second tranche, and then a third tranche of 179, 
which could be a larger airplane. That was the original plan; 
and that would take a long, long time. I know Mr. Murtha feels 
that whatever we do we should accelerate this to try to get the 
unit cost down and get these tankers sooner, but is that not 
still the plan?
    Mr. Donley. You are exactly right, Mr. Chairman. The broad 
intent is to do this in three increments. We have over 400 
tankers involved, KC-135 replacements, if you will, to effect 
over the next 15 to 20 to 25 years.
    Mr. Dicks. This was over 45 years.
    Mr. Donley. This is going to take time. This is going to 
take time. And we had not looked at the exact content of all 
that.
    The main purpose behind these increments was to give us way 
points, if you will, decision making points to understand where 
the future technologies and what the future commercial air 
frames might be 10 years or 15 years out so that we don't 
commit to an air frame now that may be passed by technology 
advancements or new commercial aircraft available 20 or 30 
years from now.
    Mr. Dicks. General, do you want to make a comment?
    General Schwartz. I would just say that KC-10 was really 
KCZ.
    Mr. Dicks. That's right, XYZ.
    General Schwartz. It was the third increment. And so 
notionally, conceptually it is out there, but it is not 
programmatic yet.
    Mr. Dicks. But it is still the administration's position 
that you are against a split buy, isn't that correct?
    Mr. Donley. Yes.
    Mr. Dicks. And can you give us some of the reasoning why 
you are?
    Mr. Donley. Well, the split buy would require us really to 
fully develop two aircraft going forward. In addition to fully 
developing those aircraft, we would end up with two logistics 
and support trains that go with those aircraft. A third 
consideration from our point of view is that the minimum buy to 
support two production facilities, if you will, is probably a 
minimum of about 12 each.
    So our plan going forward assumed that the Air Force would 
be buying about 15 airplanes a year into the future, and that 
was roughly what we thought we could afford with our 
procurement accounts going forward. If we end up with a split 
buy, the minimum for each is 12. That means a buy of 24 
airplanes a year.
    There is goodness in that. From one point of view, it is 
sort of a more robust industrial base kind of situation. You 
get them faster. The KC-135s come out faster. However, we think 
it is probably more expensive in the long run to support that; 
and it requires that, instead of buying 15 per year, we would 
buy 24 per year. So the impact on our budget is significant. We 
end up spending a lot more on tankers, and that crowds out 
other programs.
    Mr. Dicks. And there is a very definite increase in the 
development cost, as we understand it. I think Secretary Gates 
has said, or somebody, at least $7 billion more in development 
costs in the near term. So that also has an effect, would have 
an adverse effect on the Air Force budget.
    Mr. Tiahrt.

                  REQUIREMENTS FOR AIRLIFT CAPABILITY

    Mr. Tiahrt. In your questioning, Mr. Chairman, you were 
talking about a study of requirements for the airlift 
capability.
    Mr. Dicks. Right.
    Mr. Tiahrt. And when we think of the current situation in 
Afghanistan we are pretty easy to be landlocked. We have the 
Russians trying to influence the northern side of it. We have 
Iran to the west, Pakistan's uncertainty to the east and south. 
And that really brings a high emphasis to the ability to get 
equipment and supplies and personnel in and out of Afghanistan.
    We have been using this link through Pakistan, and we have 
had a lot of trouble with that. They have broken into some of 
the containers. You can go down in the black market just 
outside the air base in--was it Bagram--and buy the seals that 
they put on the back of the cargo containers to show they 
haven't been broken into. You can buy replacements for those. 
And so they simply bust the seal, steal what they want, and put 
the seal back on. And then the manifest doesn't match the 
cargo. So there has been a lot of trouble with going through 
Pakistan.
    Will this be part of the plan? I mean, it seems like a 
near-term problem when you are doing a long-term study. But 
when it comes to handling cargo, we could have a huge demand 
almost immediately with instability in that area.
    General Schwartz. Congressman Tiahrt, we certainly have 
contingency plans to deal with either limitations on access 
through the southern routes, the Chaman or the Torkham gates, 
as they are called, in the east of Afghanistan or from the 
north through any number of the stans.
    This really is in the U.S. Transportation Command lane. But 
fundamentally what we have done is establish relationships with 
a number of the governments.
    For example, in Kyrgyzstan should have an agreement for 
continued access to Manas. And that is an important location 
because it allows us not only to do transload of personnel from 
commercial to military to go in country, but it also allows us 
to have tankers near or closer to Afghanistan to support day-
to-day missions.
    If we had to fall back to other locations, we could do 
that. We have a plan. We have a back-up. It is harder. It is 
more expensive. It is more asset intensive. But we are not 
without options with regard to maintaining support for the 
folks that are on the ground there.

                           IRREGULAR WARFARE

    Mr. Dicks. Let me ask you, Secretary Donley, has irregular 
warfare DOD directive 3000-.07 been reflected in your 2010 
budget request?
    Mr. Donley. I believe it has. The work that the Air Force 
has done over the last several months has really helped to 
focus building partnership capacity in that our international 
affairs work as a core function in the Air Force. So we have 
stepped out to recognize the importance of this work.
    As we have alluded to in a few different programs here 
today, if you package them together we have looked carefully at 
how to further develop Air Force force structure and capacity 
for irregular warfare sort of at the lower end of the conflict 
spectrum and to develop capabilities that not only are useful 
to the United States in its work but can be translated over to 
international partners who are not the same kinds of partners 
that we deal with in, for example, in NATO context.
    So building partnership capacity at the high end with NATO 
partners means F-35s and high-end Rivet Joint kinds of 
capacity, unmanned aerial vehicles. These are the kinds of 
issues that we work with the British, with the Germans, and 
with other partners.
    At the lower end, we need to have capabilities that are at 
the technological level, resource level, training level that 
fits partners facing different kinds of resource challenges, 
geographic challenges.
    So building capabilities like the JCA, like the C-27 
capability, building ISR capabilities in platforms like the MC-
12 and potentially developing training airplanes like the T-6 
or the Super Tucano or other kinds of aircraft in that class of 
airframe can help us, and it can help us teach and work with 
partners to build up their indigenous capability. So we have 
been working the IW and partnership issues very hard and 
continue to do so. We have more work to do there.
    Mr. Dicks. Is the Air Force doing anything, General, to 
revise doctrine, organization, training, material leadership, 
personnel, and facilities to reflect a sharpened focus on 
irregular warfare?
    General Schwartz. We are. In fact, this will be a major 
topic for discussion in our four-star conference here this 
weekend. And I think what you will see----
    For example, we have what we call contingency response 
groups in the overseas theaters. They originally were conceived 
to be elements with lots of different disciplines, from 
airfield management to engineers to services personnel support 
kind of capabilities to open airfields. It is an important 
function for us. If we are expeditionary, you need to have an 
airfield opening capability.
    But it turns out that these organizations also have, 
because they are multi-disciplinary, the interesting capacity 
to engage other air forces in interaction related to the 
various disciplines, whether it is building a runway or whether 
it is air traffic control, whether it is medical support.
    And what we will probably do--and it is an example of 
several initiatives--is to dual-role those organizations both 
to do airfield opening, but when they are not opening airfields 
to build partner capacity with our partners like the Afghan 
Army Air Corps.
    The truth is that we have capacity that may have been 
overly focused on a particular mission set, that we can expand 
their view, and I think with minimal expense and minimal growth 
in manpower requirements actually serve the irregular warfare 
mission very well. And that is where we will start, sir. There 
will be some new stuff, as the Secretary suggested. But I think 
our first effort will be to make better use of what we already 
possess in that lower end of the spectrum.

                             AIR OPERATIONS

    Mr. Dicks. Why is the air operations request for 2010 50 
percent less than 2009?
    General Schwartz. I am not sure, sir, what you mean with 
regard to air operations.
    Mr. Dicks. Basically, flying hours we are talking about. 
How has the Air Force training curriculum for flying hours been 
substantially updated since the Berlin Wall? When did it 
occur--yeah, when did it occur on training hours, training 
curriculum? Has the Air Force's training curriculum for flying 
hours been substantially updated since the Berlin Wall came 
down?
    General Schwartz. Certainly it has. I mean, the most 
graphic example of that, Mr. Chairman, is the capacity in 
simulation. I mean, we now--and to network simulation. Our 
simulators--and, of course, this is true in the commercial 
sector as well. And as you well know, in the commercial 
business, aviators are no longer qualified and actually flying 
the airplanes. All that is done in high fidelity simulators. 
The same thing is true for our aircrews.
    Now, there is some things you have got to do in the air, 
and we certainly do that. But we are making better use of high 
fidelity simulation, of networking those simulators in a way 
that allows F-15s, let's say, to gaggle with F-16s in a virtual 
sense. And it isn't a complete substitute, but it has reduced 
our need for flying in the air, sir.
    Mr. Dicks. Our staff is concerned that this may be an 
excuse to cut out some major programs, that we are moving to 
irregular warfare, therefore, we need fewer F-22s, fewer C-17s. 
We are shutting down a lot of programs, Next Generation Bomber. 
I mean, it is--you know, and what are you switching to? What 
does irregular warfare bring with it in terms of requests? Now, 
we know there is going to be Predators, Reapers, ISR, things 
that you have talked about. But you know----
    General Schwartz. Some of this is human capital, Mr. 
Chairman. The question is--I only speak one language, and that 
is not a good thing. You know, in 15 or 20 years, the next 
Chief of Staff you should expect to be conversing in more than 
one language.
    And that is one of those things that really is irregular 
warfare. We need to make sure that our folks in our Air Force, 
your Air Force, both can connect with other cultures, have the 
sensitivity and the awareness to do that well, can communicate 
and so on and so forth. So part of this is human capital.
    Yes, we are growing in some areas that we have talked about 
and shrinking in others. I think this is the reality that we 
face. Because the truth of the matter is that our budgets are 
limited, and we are going to have to make choices.
    But I think what you hopefully will see is that at the 
strategic level we have certain things that are single purpose. 
For example, the missiles in North Dakota and Wyoming and so on 
are single purpose. They serve the deterrent mission. They are 
not really very applicable in the irregular warfare context.
    Mr. Dicks. Right.
    General Schwartz. You have some things on the other end 
that are very mission specific that are not applicable as you 
move up the warfare spectrum. But that general purpose force in 
the middle we need to make more versatile. So we will have some 
dedicated to this and some dedicated to that. But I think our 
way ahead is to build versatility into our force so that we can 
swing to the needs without doing these major fluctuations of 
discontinuing some programs and starting new ones.

                           IRREGULAR WARFARE

    Mr. Dicks. Just to follow up on that, what would be kind of 
the--in your vision of this with irregular warfare, what are 
the kinds of things that the Air Force will need in order to 
implement irregular--I mean, and equip itself with irregular 
warfare? Have we missed anything here? I mean, are we talking 
about helicopters? Are we talking about UAVs? Are we talking 
about--what else?
    General Schwartz. You are talking about mobility, you are 
talking about reconnaissance, you are talking about light 
strike, and you are talking about the management capacity to 
orchestrate and sustain those resources. And one of the things 
that your Air Force brings to the table here is to be able to 
train others like the Afghan Army Air Corps how to maintain and 
how to sustain these assets that they will have, largely non-
U.S. made. Some Italian air lifters, some Russian helicopters, 
a mix.
    But our kids need to be able to train others to use those 
assets; and that is something which requires, again, 
versatility. We build that into the force. We have people that 
are qualified on various platforms and that can teach. That is 
the way ahead, in my view.
    Mr. Dicks. Mr. Secretary----
    Mr. Donley. Just to add an additional couple of points, Mr. 
Chairman.
    As the Chief indicated, the Secretary is not swinging in 
this budget, swinging a pendulum hard over to irregular 
warfare. He is asking the Department to look more carefully at 
how we can use those general purpose forces that we are 
building.
    We are still committed to JSF. For example, our program for 
JSF is 1,763 airplanes, and that is going take a while, and we 
are deeply invested in that, and we hope to execute that. But 
the issue is, as we build and maintain force structure going 
forward, making it as useful as possible across the spectrum of 
conflict.
    And the other thing that should be in our minds as we 
continue to work the irregular warfare issue is that the 
effectiveness of our Armed Forces jointly both in Iraq, 
Afghanistan, across the board in any operation today is our 
ability to network and work together. So it is the enabling 
capabilities, much of which the Air Force brings to the table 
in its space and ISR communications, these capabilities that 
are useful across the spectrum of conflict and for which we are 
able to scale up and scale down to support irregular warfare, 
and support high intensity combat when necessary.
    These enabling capabilities are critical to all the Armed 
Forces. We bring a lot of that to the table, and I see growth 
and demand in those areas. Cyber and space are the other key 
domains that we are focused on. Those are growth areas for I 
think the joint community going forward, and we have got to do 
the work necessary to continue to build capacity in cyber and 
in space.

                             CYBER ATTACKS

    Mr. Dicks. Mentioning cyber, has the Air Force been a 
victim of attacks by other countries?
    Mr. Donley. Yes.
    Mr. Dicks. And I know we can't go too far here, but has it 
gone beyond unclassified systems into classified systems?
    Mr. Donley. It has, and it is persistent. It is a regular 
part of doing business today. This is a warfare domain.
    Mr. Dicks. Any further questions?
    All right. The committee will stand in adjournment. Thank 
you very much, and we appreciate your testimony.
    Also, Secretary Donley, I want to thank you personally for 
meeting with a group of my constituents from Tacoma. They very 
much enjoyed the meeting.
    Mr. Donley. Happy to do that, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Boyd and the 
answers thereto follow:]

                         Tyndall Air Force Base

    Question. What is the personnel and funding impact to Tyndall Air 
Force Base with the removal of 48 aircraft due to the early retirement 
of the F-15?
    Answer. The combat air forces restructure reduces 48 primary 
aircraft from Tyndall Air Force Base, Florida and the corresponding 
personnel impact is a reduction of 594 total active duty authorizations 
(550 enlisted, 40 officers and 4 civilians). This represents a 
reduction of $19.7 million in personnel costs ($16.9 million for 
enlisted, $2.6 million for officers and $.2 million for civilians).

                             Kingsley Field

    Question. What are the infrastructure requirements for Kingsley 
Field through FY 2013 that relate to F-15s, their maintenance and/or 
training for F-15 pilots? What are the costs associated with that 
military construction?
    Answer. The Air National Guard operates an F-15 formal training 
unit at Kingsley Field, Klamath Falls, Oregon to train F-15 aircrew 
members. Presently, there are no military construction projects 
programmed to recapitalize F-15 maintenance or training facilities for 
F-15 pilots at this installation.
    Question. What is the aircraft utilization rate (scheduled vs. 
actual) at Kingsley Field?
    Answer. Aircraft utilization rate statistics for Kingsley Field for 
the current and prior fiscal year are indicated below.
    For fiscal year 2009 (thru May): scheduled 23.2; actual 20.3 and 
attrition 12.2 based on cancellations (maintenance, operations, 
weather, etc.).
    For fiscal year 2008: scheduled 20.8; actual 15.9 and attrition 
23.2 based on cancellations (maintenance, operations, weather, etc.).
    Question. What is the maintenance non-delivery rate at Kingsley 
Field?
    Answer. For fiscal year 2008 the maintenance non-delivery rate at 
Kingsley Field was 2.1 percent. For fiscal year 2009 the rate is 1.3 
percent (maintenance cancellations/sorties flown).
    Question. How many classrooms are available at Kingsley Field?
    Answer. There are 20 classrooms at Kingsley Field.
    Question. Is ACMI range access available at Kingsley Field for F-15 
training?
    Answer. Yes. However, the air combat maneuvering instrumentation 
(ACMI) pods used at Kingsley Field and other Air National Guard (ANG) 
locations are not associated with the specific ANG facility. The ANG 
centrally manages their ACMI capabilities at four combat readiness 
training centers to minimize operations and maintenance costs. The only 
ANG location that owns their pods is Montana, who acquired eighteen P5 
pods through congressional action. But even in that case, the pods are 
being maintained by the Savannah combat readiness training centers. 
Through this centralized management construct, Kingsley Field has ACMI 
capability on a full-time basis including full de-brief capability.

                                 F-35s

    Question. The number of F-35 aircraft requested in the fiscal year 
2010 budget was reduced from what was projected for fiscal year 2010 in 
last year's budget request. With the looming aircraft shortfall the Air 
Force is facing, how do you rationalize the reduced procurement of F-35 
aircraft?
    Answer. The Air Force supports Secretary Gates' decision to reduce 
the fiscal year 2010 Air Force procurement of F-35A aircraft from 12 to 
10 as it allows the Marine Corps to correspondingly increase their 
fiscal year 2010 procurement by two F-35B STOVL variants. This enables 
the Marines to reach their planned initial operational capability in 
fiscal year 2012. The reduction of two F-35s in fiscal year 2010 for 
the Air Force does not impact our planned initial operational 
capability date of fiscal year 2013.
    Question. The platform that will provide the most relief for the 
tactical fighter shortfall is the F-35 (Joint Strike Fighter). As with 
the majority of complex, new weapon systems, this program has seen its 
share of problems and is likely not out of the woods yet. In fact, the 
Marine Corps variant has been delayed from its original schedule due to 
engine problems.
    Do you anticipate the Joint Strike Fighter becoming operational in 
time to help with the shortfall or will continued delays make it worse? 
Does the department have a contingency plan to mitigate the aircraft 
shortfall should the Joint Strike Fighter continue to slip?
    Answer. The Air Force's variant of the Joint Strike Fighter is 
currently scheduled for initial operational capability in late 2013. 
Beginning 2015, the Air Force is programmed to purchase 80 Joint Strike 
Fighters each year alleviating the projected fighter shortfall. In 
addition, the Air Force will maintain approximately 220 F-15Es and 
approximately 350 A-10s until unspecified retirement dates after 2030 
enabling the Air Force to maintain sufficient strike assets as the F-
35A comes on line. The Air Force is also taking additional steps to 
further evaluate the sustainability and viability of its F-16 fleet, if 
additional service life is required due to a significant delay in the 
Joint Strike Fighter's initial operational capability.
    Question. What maintenance reliability lessons from the F-22 
program can be applied to the F-35?
    Answer. One of the key strategic efforts during and post 
Engineering and Manufacturing Development phase of the F-22 program has 
been to proactively identify reliability issues very early based upon 
detailed analysis of developmental/operational test data and to 
programmatically fund for a Reliability and Maintainability Maturation 
Program (RAMMP) to effect critical redesigns where needed. The RAMMP 
effort has led to a six-fold improvement of measured reliability from 
initial operational test to today. Due to this proactive approach the 
F-22 program is well on track to meeting or exceeding the Mean Time 
Between Maintenance Event Key Performance Parameter by the required 
100,000 flying hour definition of maturity in the Operational 
Requirements Document. In fact recent data shows at least one 
operational base meeting and exceeding the mature requirement today, 
over 1.5 years ahead of expected fleet maturity at 100,000 cumulative 
flying hours sometime in late calendar year 2010. A key lesson from the 
F-22 program, for the F-35 program, is that a RAMMP or RAMMP-like 
program should be considered for the F-35. Additionally, the F-35 Joint 
Program Office meets regularly with the F-22 System Program Office and 
F-22 users to gain lessons learned on all F-22 and F-35 aircraft system 
reliability issues. The F-35 Joint Program Office has an in-depth 
integrated systems approach to testing F-35 components, and is flying a 
highly modified Boeing 737 with a full suite of F-35 avionics to find, 
fix, and prevent potential avionics integration problems.

                                 F-22s

    Question. The F-22 program is proposed to be completed at 187 
aircraft in addition to the proposal to retire 250 Air Force fighters. 
These actions create a gap in capability. How do you rationalize these 
decisions?
    Answer. To comply with the Secretary of Defense's Guidance for the 
Development of the Force, the Air Force analyzed its fighter force 
structure and determined we have a window of opportunity to take a 
strategic pause and build a smaller, but more flexible, capable, and 
lethal force as we bridge to the 5th Generation-enabled force. This 
analysis determined that the Air Force is faced with aging fighter 
aircraft during a period in history where we are not directly 
threatened by a near-peer competitor, ultimately assessing the risk as 
acceptable. Any remaining risk is mitigated in the short-term through a 
combination of permanently based and rotational forces. It is part of a 
global resource allocation process that makes strategic sense.
    As we developed this combat air forces restructuring plan over the 
last year, we were successful in balancing planned force reductions 
across our active duty, Guard, and Reserve components, as well as in 
the States and overseas locations. We carefully analyzed the missions 
across our units in all the Air Force components to achieve the force 
mix that made the most strategic sense. The changes in this plan were 
closely coordinated with our Air National Guard and Air Force Reserve 
partners, as well as our major commands and affected regional combatant 
commanders.
    Secretary Gates agreed with the Air Force's assessment and approved 
the restructuring plan. The retirement of approximately 250 fighter 
aircraft in fiscal year 2010 will not affect the potential fighter 
shortfall identified last year. That shortfall referenced the year 
2024, by which time all of the 250 aircraft would have previously 
exceeded the end of their programmed service lives.
    Question. Has F-22 system reliability improved?
    Answer. The F-22 system reliability has dramatically improved over 
six-fold from the completion of the Engineering and Manufacturing 
Development phase to present. At the end of the Engineering and 
Manufacturing Development, the measured reliability Mean Time Between 
Maintenance event was approximately 0.5. One operational base is 
currently measuring above the mature requirement (3.0) at 3.03 prior to 
fleet maturity at 100,000 flying hours expected in late calendar year 
2010. Additional planned changes will ensure the design at maturity 
meets the Mean Time Between Maintenance key performance parameter of 
3.0.
    Question. What is the current performance in meeting the key 
reliability requirement of 3-hour mean time between maintenance 
actions?
    Answer. The F-22 Operational Requirements Document key performance 
parameter requires the 3.0 Mean Time Between Maintenance (MTBM) event 
to be achieved by 100,000 cumulative flying hours. The current 
operational fleet average between November 2008 and April 2009 is a 1.9 
MTBM. One operational base demonstrated a 3.03 MTBM in April 2009.
    Question. How well are the on-board maintenance diagnostics and 
health management systems working?
    Answer. The current F-22 operational fleet average performance 
between November 2008 and April 2009 is as follows: the Fault Detection 
percentage (FD %) metric is 68.3 percent and the Fault Isolation 
percentage (FI %) metric is 94.1 percent. Planned diagnostic software 
updates by the end of calendar year 2010 are expected to improve the 
metrics as the operational fleet reaches system maturity at 100,000 
cumulative flying hours.
    Question. What efforts remain to fully demonstrate those 
capabilities?
    Answer. The final demonstration of the F-22 mature reliability 
capabilities will occur during the follow-on Operational Test and 
Evaluation III period scheduled for late calendar year 2010.
    Question. Are they paying off in terms of reduced base-level 
maintenance and earlier recognition of problem areas needing 
inspection?
    Answer. Yes. The F-22 standard (Systems Specification) Direct 
Maintenance Man Hour/Flying Hour (DMMH/FH) requirement is to be less 
than or equal to 12 at system maturity at 100,000 cumulative fleet 
flying hours (expected by end of calendar year 2010). At the end of the 
Engineering and Manufacturing Development phase in March 2004, the 
DMMH/FH was initially measured at 13.4 DMMH/FH. The current operational 
fleet DMMH/FH metric is measured at 10.48 DMMH/FH as of April 2009. 
This is a result of the Reliability and Maintainability Maturation 
Program identified improvements.

                      Test and Evaluation Support

    Question. The President's Budget request cuts PE 0605807F almost 
$50 million when compared to the FY 09 budget and first FY10 budget 
request submitted in January. A portion of this cut is simply a cut. 
The second element of the cut is based upon the assertion that there 
will be savings realized when 750 contractor and civil service 
positions are converted to civil service solutions.
    What analysis has been done to identify what the workforce mix of 
contractor and civil service should be? Please provide a copy of the 
analysis?
    Answer. The Service components received an Office of the Secretary 
of Defense-directed contract to Department of Defense civilian 
conversion targets starting in fiscal year 2010. The Air Force is in 
the process of identifying specific in-sourcing candidates to comply 
with this mandate.
    Question. What is the hiring ramp-up schedule for achieving the 
contractor to civil service conversions? What analysis has been done to 
verify that OPM and AF offices can achieve the ramp-up schedule? Please 
provide a copy of the analysis.
    Answer. The Service components received an Office of the Secretary 
of Defense-directed contract to Department of Defense civilian 
conversion targets starting in fiscal year 2010. The Air Force is in 
the process of identifying specific in-sourcing candidates to comply 
with this mandate.
    Question. What analysis has been done showing the savings that will 
result from the conversion of contractor positions to civil service 
positions? Did the analysis include fully burdened costs of civil 
service positions similar to costs clearly visible for contractor 
support (i.e., overhead, G&A, material & handling, etc.)?
    Answer. The Service components received an Office of the Secretary 
of Defense-directed contract to Department of Defense civilian 
conversion targets starting in fiscal year 2010. The associated funding 
reductions were based on Department of Defense's assumption of 40 
percent savings. The Air Force is in the process of identifying 
specific in-sourcing candidates to satisfy this mandate.

    [Clerk's note.--End of questions submitted by Mr. Boyd. 
Question submitted by Mr. Kingston and the answer thereto 
follows:]

                     Operationally Responsive Space

    Question. The Operationally Responsive Space (ORS) program was 
initiated in 2007 by the Air Force to develop test and field satellites 
for meeting military requirements particularly in forward deployed 
areas. ORS continues to bring to maturity space-borne sensors and put 
in the field tactical satellites targeted to specific theater needs. We 
desire to fund cost-reducing programs and initiatives that modernize 
space operations including ground support for satellites and spacecraft 
development and construction.
    How helpful would programs that provide rapid spacecraft 
prototyping and mission performance and analysis be for the ORS 
activity? How much collaboration is there between Air Force and 
industry on developing relatively low cost prototyping for programs 
such as ORS?
    Answer. The vision for Operationally Responsive Space (ORS) is to 
provide operational mission capability for combatant commanders quickly 
and one aspect of that is the ability to rapidly analyze alternative 
solutions. ORS is investigating and evaluating tools from industry that 
can demonstrate these capabilities. These tools are a key enabler for 
the rapid response space capability that ORS is developing. It's 
uncertain at this time if there is a role for rapid prototyping in 
developing operational ORS spacecraft on the timelines required for 
responding to urgent military requirements.
    [Clerk's note.--End of question submitted by Mr. Kingston.]
                                           Wednesday, June 3, 2009.

                     NAVY AND MARINE CORPS POSTURE

                               WITNESSES

HON. RAY MABUS, SECRETARY OF THE NAVY
ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL OPERATIONS
GENERAL JAMES CONWAY, COMMANDANT OF THE MARINE CORPS

                           Opening Statement

    Mr. Murtha. The committee will come to order.
    I want to welcome these three distinguished gentlemen. I 
want to say Bill we were talking about Jamie Whiten. Of course, 
the Secretary is from Mississippi and he was Governor when 
Jamie was the chairman. So he remembers him well. And he 
reminded me, told me that Jamie and his uncle were in the 1932 
convention and Mississippi went by one vote for Roosevelt. 
Jamie used to tell me that story all the time.
    But we welcome you gentlemen to the committee, and we 
appreciate your distinguished careers and look forward to your 
statements. If you will summarize them and then we will ask 
some questions.
    Mr. Young.
    Mr. Young. Mr. Chairman, I just want to agree with what you 
said. We appreciate the very distinguished careers of the 
witnesses and their support teams. We are looking forward to 
being supportive of the needs of our Sailors and our Marines.
    Mr. Murtha. Bill, I want you to know that the Secretary, 
and I said we wouldn't hold it against him, he graduated from 
Harvard Law School. He said he couldn't get into the University 
of Mississippi. That's what he said.
    Mr. Secretary.

                  Summary Statement of Secretary Mabus

    Mr. Mabus. Mr. Chairman, thank you very much, Congressman 
Young, distinguished members of committee, it is an honor to be 
here with Admiral Roughead and General Conway on behalf of our 
Sailors, Marines, and their families.
    Two weeks ago, I assumed the responsibility as the 
Secretary of the Navy. In this very short period of time, it 
has been my privilege to gain firsthand insight into our 
Nation's exceptional Navy and Marine Corps. This naval force 
serves today around the world providing a wide range of 
missions in support of our Nation's interests. I am here today 
to discuss with you the fiscal year 2010 budget, the various 
missions of the Navy and Marine Corps, and some priorities of 
our Department.
    The Navy Department's fiscal year 2010 budget reflects a 
commitment to our people, shaping our force, providing adequate 
infrastructure, sustaining and developing the right 
capabilities for the future. The ongoing Quadrennial Defense 
Review will also aid in shaping the department's contribution 
to the national effort in the future.
    As I have taken on these new duties, my first priority is 
to ensure we take care of our people: Sailors, Marines, 
civilians, and their families. Thousands of brave Marines and 
Sailors are currently engaged in Iraq and Afghanistan, and 
thousands more are carrying out other hazardous duties around 
the world. These inspirational Americans volunteered to serve, 
and they are protecting us and our way of life with unwavering 
commitment. We have to show them the same level of commitment 
when providing for their health and welfare and that of their 
families.
    Last week I went to the National Naval Medical Center in 
Bethesda and visited with our wounded. It was both a humbling 
and inspirational experience, reinforcing the enduring 
commitment we owe them in terms of treatment, transition, and 
support. Programs like the Marine Corps Wounded Warrior 
Regiment, the Navy's Safe Harbor Program, advances in treatment 
and traumatic brain injuries, and programs that offer training 
and support and stress control must continue to be our 
priorities.
    Today our Sailors and Marines are serving and responding to 
a wide variety of missions from combat operations to 
humanitarian assistance and maritime interdiction. The Navy has 
13,000 Sailors ashore and 9,500 Sailors at sea in Central 
Command's Area Of Responsibility (AOR). More than 25,000 
Marines are deployed in Iraq and Afghanistan. Our civilian 
force is also heavily engaged in supporting these operational 
efforts. We have to ensure that the Department of the Navy will 
continue to meet these missions while investing in capabilities 
that provide the right naval force for future challenges.
    Real acquisition reform too has to be a priority. The 
Department of Navy has begun to implement the Weapons Systems 
Acquisition Reform Act and is ready to use this Act and other 
tools to try to ensure we get the right capabilities on time 
and at an affordable cost. The Department of the Navy and I, in 
particular, look forward to working together with you in our 
shared commitment to our Nation, our Marines, our Sailors, 
civilians, and their families. On behalf of all of them, and 
very importantly, thank you and this committee for your 
unwavering support, for your continued stance of providing 
these Sailors, Marines, civilians, and their families with the 
tools they need with the assistance they deserve. Thank you on 
behalf of all of them.
    I look forward to your questions.
    [The statement of Secretary Mabus follows:]
    [GRAPHIC] [TIFF OMITTED] T6286B.001
    
    [GRAPHIC] [TIFF OMITTED] T6286B.002
    
    [GRAPHIC] [TIFF OMITTED] T6286B.003
    
    [GRAPHIC] [TIFF OMITTED] T6286B.004
    
    [GRAPHIC] [TIFF OMITTED] T6286B.005
    
    [GRAPHIC] [TIFF OMITTED] T6286B.006
    
                 Summary Statement of Admiral Roughead

    Mr. Murtha. Admiral Roughead.
    Admiral Roughead. Chairman Murtha, Congressman Young, 
distinguished members of the committee, on behalf of the 
600,000 Sailors, Navy civilians, and families, I thank you for 
your continued support and for the opportunity to represent our 
Navy alongside the Secretary and General Conway.
    Today we have 40,000 Sailors on station making a difference 
around the world. We are more versatile and agile than we have 
ever been with more than 13,000 Sailors serving on the ground 
in the Central Command. The 2010 budget balances the needs of 
these Sailors around the world, our current operations and 
needs for future Fleet in accordance with our maritime 
strategy. However, we are progressing at an adjusted pace. Our 
risk is moderate today trending toward significant because of 
challenges posed by our Fleet capacity, our operational 
requirements, manpower, maintenance and infrastructure costs. 
Our Navy is operating at its highest levels in recent years, 
and while we remain ready and capable, we are stretched in our 
ability to meet additional operational demands while balancing 
our obligation to our people and to building the future Fleet.
    We require additional capacity to meet Combatant Commander 
demands and maintain our operational tempo. A Fleet of at least 
313 ships is needed along with capabilities that include more 
ballistic missile defense, irregular warfare, and open ocean 
anti-submarine warfare (ASW) capabilities. These needs drove 
the decision to truncate the DDG-1000 and restart the DDG-51 
with its blue water ASW capability and integrated air and 
missile defense capability, and also to procure in this budget 
three littoral combat ships.
    As I articulated last year, our Navy must have a stable 
shipbuilding program that provides the right capability and 
capacity while preserving our Nation's industrial base. The 
balance among capability, capacity, affordability, and 
executability in our procurement plans, however, is not 
optimal. I continue to focus on the control of requirements, 
integration of total ownership costs into our decision making, 
maturing new ship designs before production and pursuing proven 
designs.
    The use of common hull forms and components and longer 
production runs to control costs as we build the future Fleet 
are most important. To best maintain the ships we have, we have 
reinstituted an engineering-based approach to maintenance for 
our surface ships through the surface ship lifecycle management 
activity. Meanwhile, our board of inspection and survey teams 
will continue to use INSURV processes to conduct rigorous self-
assessments on the condition of our ships and submarines. All 
that we do is made possible by our dedicated Sailors and Navy 
civilians.
    I am committed to providing the necessary resources and 
shaping our personnel policies to ensure our people and their 
families are properly supported. We are stabilizing our force 
this year by seeking authorization and funding for an end 
strength of 328,800 Sailors, including overseas contingency 
operation funding for 4,400 individual augmentees who are in 
today's fight. We continue to provide a continuum of care that 
covers all aspects of individual medical, physical, 
psychological, and family readiness to our returning warriors 
and Sailors. In 2008, we added 170 care managers to our 
military treatment facilities and ambulatory care clinics for 
our 1,800 wounded warriors and their families.
    In addition, we continue to move mental health providers 
closer to the battlefield and are actively working against the 
stigma of post-traumatic stress disorder. Achieving the right 
balance within and across my three priorities of the future 
fleet, current operations, and people is critical today and for 
the future, and I ask for your support for this 2010 budget.
    Thank you for your continued support and commitment to our 
Navy, for all you do to make the United States Navy a force for 
good around the world today and tomorrow.
    I look forward to your questions.
    [The statement of Admiral Roughead follows:] 

    [GRAPHIC] [TIFF OMITTED] T6286B.007
    
    [GRAPHIC] [TIFF OMITTED] T6286B.008
    
    [GRAPHIC] [TIFF OMITTED] T6286B.009
    
    [GRAPHIC] [TIFF OMITTED] T6286B.010
    
    [GRAPHIC] [TIFF OMITTED] T6286B.011
    
    [GRAPHIC] [TIFF OMITTED] T6286B.012
    
    [GRAPHIC] [TIFF OMITTED] T6286B.013
    
    [GRAPHIC] [TIFF OMITTED] T6286B.014
    
    [GRAPHIC] [TIFF OMITTED] T6286B.015
    
    [GRAPHIC] [TIFF OMITTED] T6286B.016
    
    [GRAPHIC] [TIFF OMITTED] T6286B.017
    
    [GRAPHIC] [TIFF OMITTED] T6286B.018
    
    [GRAPHIC] [TIFF OMITTED] T6286B.019
    
    [GRAPHIC] [TIFF OMITTED] T6286B.020
    
    [GRAPHIC] [TIFF OMITTED] T6286B.021
    
    [GRAPHIC] [TIFF OMITTED] T6286B.022
    
    [GRAPHIC] [TIFF OMITTED] T6286B.023
    
    [GRAPHIC] [TIFF OMITTED] T6286B.024
    
    [GRAPHIC] [TIFF OMITTED] T6286B.025
    
    Mr. Murtha. Before I acknowledge the Commandant, I want you 
to know I had three brothers in the Marine Corps, and the 
committee has heard this story before, but when I enlisted it 
was 1952 in the Korean War. My mother cried all through my 
enlistment. My second brother joined the Marine Corps. My third 
brother joined the Marine Corps. I was going to go into the 
Army. The reason I am reminded of this is when I see these 
public relations guys in front of you guys, it makes me realize 
why my mother was so upset when she thought I couldn't join the 
Army because of all that information you send out to the 
families to make sure they know how good a job we are doing in 
the Marine Corps.
    Commandant.

                  Summary Statement of General Conway

    General Conway. Mr. Chairman, Congressman Young and 
distinguished members of the committee, thank you for the 
opportunity to report to you on the posture of your Marine 
Corps. My pledge, as always, is to provide you with a candid 
and honest assessment and it is in that spirit that I appear 
before you today.
    Our number one priority remains your Marines in combat. 
Since testimony before your committee last year, progress in 
the Al Anbar province in Iraq continues to be significant. 
Indeed, our Marines are in the early phases of the most long 
awaited phase of operations, redeployment of the force, and a 
reset of our equipment. Having recently returned from a trip to 
theater, I am pleased to report to you that the magnificent 
performance of our Marines and Sailors in Anbar continues 
across a whole spectrum of tasks and responsibilities.
    In Afghanistan, we have substantially another story as thus 
far in 2009 the Taliban have again increased their activity. 
The 2nd Marine Expeditionary Brigade and Air Ground Task Force 
numbering more than 10,000 Marines and Sailors has just assumed 
responsibility for its battle space under Regional Command 
South. They are operating primarily in the Helmand Province, 
where 93 percent of the country's opium is harvested and where 
the Taliban have been most active. We are maintaining an effort 
to get every Marine to the fight and today more than 70 percent 
of your Marine Corps has done so. Yet our force remains 
resilient in spite of an average deployment to dwell that is 
slightly better than one to one in most occupational 
specialties. We believe retention is a great indicator of the 
morale of the force and the support of our families. By the 
halfway point of this fiscal year, we had already met our 
retention goals for our first-term Marines and for our career 
force.
    Our growth in the active component by 27,000 additional 
Marines has proceeded 2\1/2\ years ahead of schedule with no 
change to our standards. We have reached the level of 202,100 
Marines and have found it necessary to throttle back our 
recruiting efforts. We attribute our accelerated growth to four 
factors: quality recruiting, exceptional retention levels, 
reduced attrition, and not least a great generation of young 
Americans who wish to serve their country in wartime. Our Corps 
is deeply committed to the care and welfare of the wounded and 
their families. The Wounded Warrior Regiment reflects this 
commitment. We seek through all phases of recovery to assist in 
the rehabilitation and transition of our wounded, injured and 
ill, and their families. I would also like to thank those of 
you on the committee who have set aside your personal time to 
visit with our wounded warriors.
    Secretary Gates seeks to create a balanced U.S. Military 
through the efforts of the Quadrennial Defense Review. We have 
always believed that the Marine Corps has to be able to play 
both ways, to be a two-fisted fighter. Our equipment and major 
programs reflect our equipment to be flexible in the face of 
uncertainty, that is to say 100 percent of USMC procurement can 
be employed either in a hybrid conflict or in major combat. If 
this Nation decides through the QDR that it still needs a 
forcible entry capability, and we tend to think that it does, 
then we believe based on the threat and risk to the ships of 
the United States Navy that the requirement for a platform with 
the capabilities of the expeditionary fighting vehicle is 
absolutely essential. And it has my personal attention, sir.
    The future posture of our Corps includes a realignment of 
Marine forces in the Pacific. As part of the agreement between 
Tokyo and Washington, we are planning the movement of 8,000 
Marines off Okinawa to Guam. We support this move. However, we 
believe the development of training areas and ranges on Guam 
and the adjoining islands in the Marianas are key prerequisites 
for the realignment of our forces. We are actively working 
within the Department of Defense to align USMC requirements 
with ongoing environmental assessments and political 
agreements.
    On behalf of your Marine Corps, I extend my gratitude for 
the support that we have received to date. Our great young 
patriots have performed magnificently and have written their 
own page in history. They know as they go into harm's way that 
their fellow Americans are behind them. On their behalf, I 
thank you for your enduring support. We pledge to spend wisely 
every dollar you generously provide in ways that contribute to 
the defense of this great land.
    Thank you once again for the opportunity to report to you 
today, sir, and I look forward to your questions.
    [The statement of General Conway follows:]

    [GRAPHIC] [TIFF OMITTED] T6286B.026
    
    [GRAPHIC] [TIFF OMITTED] T6286B.027
    
    [GRAPHIC] [TIFF OMITTED] T6286B.028
    
    [GRAPHIC] [TIFF OMITTED] T6286B.029
    
    [GRAPHIC] [TIFF OMITTED] T6286B.030
    
    [GRAPHIC] [TIFF OMITTED] T6286B.031
    
    [GRAPHIC] [TIFF OMITTED] T6286B.032
    
    [GRAPHIC] [TIFF OMITTED] T6286B.033
    
    [GRAPHIC] [TIFF OMITTED] T6286B.034
    
    [GRAPHIC] [TIFF OMITTED] T6286B.035
    
    [GRAPHIC] [TIFF OMITTED] T6286B.036
    
    [GRAPHIC] [TIFF OMITTED] T6286B.037
    
    [GRAPHIC] [TIFF OMITTED] T6286B.038
    
    [GRAPHIC] [TIFF OMITTED] T6286B.039
    
    [GRAPHIC] [TIFF OMITTED] T6286B.040
    
    [GRAPHIC] [TIFF OMITTED] T6286B.041
    
    [GRAPHIC] [TIFF OMITTED] T6286B.042
    
    [GRAPHIC] [TIFF OMITTED] T6286B.043
    
    [GRAPHIC] [TIFF OMITTED] T6286B.044
    
    [GRAPHIC] [TIFF OMITTED] T6286B.045
    
    [GRAPHIC] [TIFF OMITTED] T6286B.046
    
    [GRAPHIC] [TIFF OMITTED] T6286B.047
    
    [GRAPHIC] [TIFF OMITTED] T6286B.048
    
    [GRAPHIC] [TIFF OMITTED] T6286B.049
    
    [GRAPHIC] [TIFF OMITTED] T6286B.050
    
    [GRAPHIC] [TIFF OMITTED] T6286B.051
    
    [GRAPHIC] [TIFF OMITTED] T6286B.052
    
    [GRAPHIC] [TIFF OMITTED] T6286B.053
    
    [GRAPHIC] [TIFF OMITTED] T6286B.054
    
    [GRAPHIC] [TIFF OMITTED] T6286B.055
    
    [GRAPHIC] [TIFF OMITTED] T6286B.056
    
    [GRAPHIC] [TIFF OMITTED] T6286B.057
    
    [GRAPHIC] [TIFF OMITTED] T6286B.058
    
                         Remarks of Mr. Murtha

    Mr. Murtha. Well, one of the things, Mr. Secretary, that I 
have harped on over and over again is the fact that we 
constantly send out RFPs and those RFPs are unrealistically 
low, either having too great a number that the Navy or Air 
Force or one of the services asked for or they have an 
underestimated price. I know I saw in your biography that you 
ran a company out of bankruptcy in a short period of time. I 
think it would be a little more difficult just because of the 
size of the forces but we want to work with you in order to try 
to get more realistic appraisals because we have done so much 
research, the Secretary had to cancel a couple of programs 
before the research was made, which is lost. We may disagree 
with him about those and see if we can't salvage part of it, 
but you are going to have a tough time making sure that the 
services are realistic and then the companies don't underbid 
this. So you are going to have a very tough job.
    And for the Commandant, there is a list of questions in 
here about your vehicle. We know we got the first report, but 
if nobody asks the questions, I would hope you would look at 
those questions and send me a personal answer to the questions 
about the new vehicle.
    Mr. Young.

                          LITTORAL COMBAT SHIP

    Mr. Young. Mr. Chairman, first, I wanted to say to the 
Secretary congratulations on your assignment. I think you have 
a very unique opportunity to deal with some just outstanding 
men and women in the United States Navy and the United States 
Marine Corps. And I have known a lot of secretaries of the 
Navy, and I can tell you they are all very, very proud of the 
services that they represent. So I thank you for being willing 
to accept that responsibility and I look forward to working 
with you as we provide whatever it is that our Navy and Marine 
Corps need.
    On the issue of ships, and of course, that is a big issue 
for the Navy and for the Marines, of course, because Marines 
use ships to get there, the Sailors and the Marines have some 
banter back and forth on who does what as far as the mission 
that they are assigned to, and it is good natured and it is 
probably morale producing in a positive way. But on ships, LCS, 
littoral combat ships, have been a very big item for the Navy 
now for some time. The program has run into some difficulty. My 
understanding is that in order to keep on schedule, you need 55 
LCS ships. We only had one delivered. One was delivered late 
last year. When do you expect the other to be delivered, the 
number two?
    Mr. Mabus. Sir, the first one has just finished sea trials, 
and it has gotten back in, and those sea trials while 
preliminary results are back, indicate that they went very 
well. The second one is still in the shipyard but has lit off 
both engines, is doing the testing that it needs inside the 
shipyard. The follow-on ships, numbers 3 and 4, are being 
produced now and in the fiscal year 2010 budget, we are asking 
for funds for three more of these LCSs. LCS, as Admiral 
Roughead has said on many occasions, is very important to the 
future of our Navy. He pointed out before the hearing that it 
is a program that has brought from idea to implementation in 
about half the time that Navy ships normally require.
    As we move from the first ship of the line further into the 
follow-on ships, we are seeing costs go down. We are looking at 
common components. We are looking at ways to continue to drive 
the costs down, but I think you will see the next ship, which 
is the first of its class--as you know, there are two LCSs 
right now--I think you will see it delivered in relatively 
short order and the follow-on ships on schedule and with the 
costs continuing to decline.
    Mr. Young. Mr. Secretary, what difference do you expect to 
see in LCS number 4 compared to what you have in the LCS 1?
    Mr. Mabus. One of the ways that we are trying to lower the 
cost is to stop the requirements creep, to make the 
requirements standard, uniform, and not to continually change 
requirements during construction. The main change from number 1 
to number 4 is a reduction in cost and a speedup in schedule of 
getting those ships. Number 1, as you know and number 4 are two 
different hull types, and so I think you will see the unique 
capabilities of both of those LCS ships.
    Mr. Young. And what about the capability? Do you see 
increased capability with each ship, or will you pretty much 
have a common ship as when it comes to the capability of each 
individual vessel?
    Mr. Mabus. The two different LCSs, each offer unique 
capabilities, both of which right now the Navy thinks is 
important for the future of the fleet. One of the unique things 
about LCS that gives it much greater flexibility in the future 
in terms of capabilities is the modules that you can put on 
there, the weapons systems and different modules that can be 
placed on the ships so you have got the hull ready to go, you 
have got the propulsion system, you have got the platform, and 
you can put different weapons systems, and as you get new 
technologies, you can incorporate it without building a whole 
new platform.
    Mr. Young. Mr. Secretary, thank you.
    Mr. Chairman, because of good attendance here today, I am 
going to put off my next series of questions, but I want to 
talk about the F-18 and the Navy's approach to the F-18 as it 
differs from the Marine Corps approach to the F-18, but I will 
do that on a second round. So I will yield back at this time.
    Mr. Murtha. Mr. Dicks.

                           DEPOT MAINTENANCE

    Mr. Dicks. I want to welcome Admiral Roughead, Secretary 
Mabus, and the Commandant. I appreciate all your good work and 
service.
    The Navy has budgeted nearly $5.3 billion for ship depot 
maintenance in fiscal year 2010. Additionally, the Navy's 
unfunded requirement list contains only two items, ship and 
aircraft depot maintenance, requesting an additional $200 
million for ships and I think $195 million for aviation depot 
maintenance. This would be on the unfunded list. Is there a 
risk here if we don't fund those two items?
    Admiral Roughead. Yes, sir. That is the unfunded list that 
I submitted. And we normally----
    Mr. Dicks. Secretary Gates, I take it, approved your 
unfunded list?
    Admiral Roughead. We had a good discussion about our 
unfunded requirements. And I would say that what we have done 
over the years, Mr. Dicks, is we do not normally fund 
maintenance up to 100 percent. As we work to balance and make 
sure that we are covering all of our requirements it is not 
uncommon for us to lay in the maintenance money about where we 
did this year. When I was asked by the Congress to provide 
unfunded requirements, it was in the area of maintenance that I 
said if I had another dollar to spend, I would put it into 
maintenance. So those numbers would bring us up to----
    Mr. Murtha. What is the figure?
    Mr. Dicks. $5.3 billion.
    Mr. Murtha. Shortfall?
    Admiral Roughead. No.
    Mr. Dicks. $200 million.
    Admiral Roughead. It is $200 million in maintenance. It is 
funded to about 96 percent of what we considered the amount to 
be.
    Mr. Dicks. And aviation depot maintenance is at $195 
million shortfall.
    Admiral Roughead. Right. And that is at about 87 percent. 
And that is consistent with where we have been over the years. 
So when I had the opportunity to address the unfunded issues, I 
put that in there because that would remove the maintenance 
risk. But maintenance risk is important to us, Mr. Dicks, and 
one of the things I think is important, as I mentioned in my 
opening statement, is that several years ago, we walked away 
from engineering approach to maintenance requirements in our 
conventional surface ships and that was a mistake, and this 
year we put that back in. I think it will be good for the Fleet 
because they will be able to better assess what the maintenance 
requirements are. I believe that it will be better for our 
maintenance activities, both public and private yards, because 
they will then be able to see what the requirements are going 
to be out into the future, and it will all be based on an 
engineering approach.
    Mr. Dicks. Does the fiscal year 2010-based budget have 
sufficient funding to cover the maintenance requirement for 
repair of the USS NEW ORLEANS and the USS HARTFORD as well as 
provide for your planned maintenance requirements in the 
absence of additional funding? I mean, has this changed this at 
all, these----
    Admiral Roughead. The HARTFORD and the NEW ORLEANS and the 
PORT ROYAL were accidents that occurred this year, and those 
are adjustments that we are going to have to make as we work 
our way through our maintenance accounts. But those were 
unfortunate accidents that will cost us.
    Mr. Visclosky. If the gentleman would yield for one second.
    Mr. Dicks. Of course.
    Mr. Visclosky. Talking about working through that, if you 
have a shortfall of about $200 million for '10, my 
understanding is given a supplemental request, you would still 
be short $452 million in '09. So your shortfall on maintenance 
is about 652. Where will you find that money?
    Admiral Roughead. That is where we will go in and see how 
we can balance our maintenance accounts. We have not cancelled 
any maintenance availabilities this year. In some instances we 
can adjust the scope of the maintenance, but that is the way 
that we will work our way through the maintenance account, sir.

                            MISSION FUNDING

    Mr. Dicks. If I can go back, even with mission funding, 
because mission funding, we took a leap of faith, and I went 
along with the Navy on this, when you change the way you do 
your accounting and sometimes if you don't have a clear picture 
of what it is, you are going to be short if you have mission 
funding. That means that something isn't going to get done 
unless Congress comes up with a supplemental appropriations 
bill. So I just hope that if we have got a problem that before 
the committee marks up for the fiscal year 2010 budget that we 
would know about that so we could take some action. It is on 
your unfunded list. I realize that.
    Admiral Roughead. Yes, sir.

                               SUBMARINES

    Mr. Dicks. Let me ask one further question. The President 
has been very clear in his intention to reduce the number of 
nuclear weapons in the U.S. inventory in the next four years. 
The ongoing Nuclear Posture Review will help inform the risk 
calculus in moving this Presidential initiative forward and 
serve as a regulator on the pace of change in this area.
    Now, if we were going to reduce the number of Trident 
submarines, for example, would there be any consideration given 
to converting them to SSGN since I believe the SSGN program has 
been extraordinarily successful, or are these submarines now 
too old to be converted and have a 20- or 30-year lifetime to 
justify the conversion?
    Admiral Roughead. Where we are right now is the Ballistic 
Missile Submarine Force that we have is--even though we have 
yet to go through the Nuclear Posture Review (NPR), it remains 
the significant leg of our nuclear capabilities. So with regard 
to the OHIO class, I believe we are going to see the OHIO class 
submarines through their entire life. The four SSGNs that we 
have we are now beginning to get some usage and some lessons 
out of those ships. But also in this budget, which is very 
critical, is the replacement--beginning with the replacement 
costs for the follow on to the OHIO. Now is the time to start 
that. We are about in the window where we were when we began 
the design of the OHIO class. I believe the NPR will inform the 
number of ships that will be in that class. I think that is an 
important element of the NPR that will take place. But now is 
the time and the money in this 2010 budget is key to the 
replacement for the OHIO submarine, sir.
    Mr. Dicks. So you think we will keep the remaining 14 
Tridents, maybe we will do some other way of reducing the 
number of warheads or----
    Admiral Roughead. Sir, I think the number of launch 
platforms and warheads are related, but they do not become so 
interdependent until you drop to a certain number, and the 
flexibility that the Nation gets from the current fleet of OHIO 
submarines I believe will remain.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Frelinghuysen.

                               SHORTFALLS

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Thank you 
gentlemen for your service. I held my academy night on Monday 
night. This is not where we interview young men and women, but 
not surprisingly, perhaps due to the economy, but certainly 
there is an element of patriotism there. We had some of the 
highest numbers we have ever had of freshmen, sophomores, and 
juniors, and many obviously want to go to the Naval Academy and 
they want the Marine Corps option. They want to be Navy SEALs. 
So I thought I would put a good plug in there. There are a lot 
of young people that you represent and potentially represent 
that are ready to stand up and serve.
    I would sort of like to get to the question of some of the 
Navy's shortfalls. I know there are shortfalls and there are 
shortfalls, but there are some shortfalls on the domestic front 
here that affected your ability, Admiral, for cruises to keep 
our Sailors up to speed. Those who are trying to improve their 
flying ability, they need more flying hours. Can you talk a 
little bit about what is out there, why that has occurred, and 
what you are doing to remedy it?
    Admiral Roughead. Yes, sir. As we have moved into the 
latter part of this fiscal year, we are, as I said, operating 
the Navy at a pretty significant pace. The Navy is globally 
deployed. It is not just in the Middle East, but in the Western 
Pacific we are very busy. The pace of operations in the Central 
Command is high. And on top of that we have experienced 
extraordinary retention figures and lack of attrition in the 
force, and so I have been driven for example in the manpower 
account to where making payroll has become critical, and 
without the overseas contingency operation funding, the most 
prudent thing to do was to throttle back on some of the 
activity that we had going on. I did not short any of the 
operations that are taking place forward in the Middle East, 
but I have cut back on the nondeployed operations while I wait 
the overseas contingency operations.
    Mr. Frelinghuysen. But the throttling back means obviously 
the time that people will be flying, the time that people will 
be cruising, honing their skills. It sort of begs the question 
we often used to hear is that when those guys and gals are 
ready to go, will they be ready in every way to go?
    Admiral Roughead. Right. And what we----
    Mr. Frelinghuysen. I gather you have discontinued retention 
bonuses, I assume, because of this situation.
    Admiral Roughead. I cut back on retention bonuses in those 
areas where our retention did not demand that we needed to 
incentivize that retention behavior. So we have cut back on 
those. We have retained those in the areas where we believe we 
still need the bonuses. But this was all a function of really 
overexecuting on payroll because of the economic situation and 
the desire that our Sailors have to serve, and I am managing to 
my budget, as anyone who is a good steward of the public money 
is expected to do. So by throttling back on that, we have had 
to make some adjustments as we await the supplemental.
    Mr. Frelinghuysen. Often when I have asked that questions 
to others, people say, well, there are ways to simulate these 
types of experiences. But obviously flying is flying, sea duty 
is sea duty. And I would assume that these are all issues that 
you are taking into consideration.
    Admiral Roughead. Absolutely, sir. The readiness of the 
force, maintaining that force in a ready status is key. We do 
make good use of simulation, but there is nothing that compares 
to going out and doing it on the ocean, in the air, and under 
the ocean. And as we have monitored our readiness we have made 
these adjustments. I am comfortable with where we are, but the 
importance of getting the supplemental is key so that we can 
get back into what I would call a less constrained mode of 
operation.
    Mr. Frelinghuysen. Okay.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Visclosky.

                              SHIPBUILDING

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Secretary, let me ask you about shipbuilding and the 
outyears because it is my understanding we are still talking 
about a 313-ship Navy.
    Mr. Mabus. Yes, sir.
    Mr. Visclosky. And I would acknowledge that given the 
contracts signed that you will be constructing two submarines a 
year and would also acknowledge your request for 2010 includes 
eight ships. That is clearly an improvement. We are moving in 
the right direction. But if you also look at the projections as 
to when we are going to get to where we need to be, it is now 
2019, and those outyears keep slipping. When do you anticipate 
we are going to start meeting the need as far as that 313 mark 
for ship construction? This is my annual question for the last 
decade under several administrations for both parties, but I 
ask it in all earnestness. It is a very serious issue.
    Mr. Mabus. I think it is a good first step, the fiscal year 
2010--or a good step, not the first step, a good step in the 
fiscal year 2010 budget that we are requesting eight ships of 
various kinds, as you pointed out. I also think that the 
ongoing Quadrennial Defense Review that is happening right now 
is going to inform us in terms of types of ships, in terms of 
quantities that are needed for the future Navy. The CNO has 
often said that he sees the 313-ship Navy as a floor and not a 
ceiling, and I think that we have to work diligently toward 
that. And in my opening statement and my answer to an earlier 
question, I think one of the ways we get there is to work very 
earnestly and hard in terms of bringing down costs of these 
ships because as schedules keep pushing out, as costs keep 
going up, as a very necessary result of that, numbers tend to 
go down. And if we are going to reach that goal that we all 
have, we are going to have to make sure that costs stay within 
reason and that our schedules are not allowed to slip to the 
extent that they have in the past.

                     LEASING OF FOREIGN-BUILT SHIPS

    Mr. Visclosky. I appreciate hearing that because the 
committee has had hearings simply on the costs of ship 
building, change orders, and other problems that have been 
faced. And to the extent you can reduce a unit cost, if you 
would, obviously that would help us along and I think everyone 
on the committee would to be helpful in that regard too.
    If I could ask on the leasing of foreign-built ships, it is 
my belief that the Navy is not within the spirit, if you would, 
and the intent of the 1990 Budget Enforcement Act as far as 
leasing, and I am just wondering what is the plan that's Navy 
plans to reduce the number of foreign built ships that they 
lease.
    Mr. Mabus. I can ask on one specific thing and that is the 
Joint High Speed Vessel that we are leasing ships now in that 
class of ship. And we have one Joint High Speed Vessel in the 
fiscal year 2010 budget and it is our plan on that class of 
ship to ramp up production in the U.S. to build those ships and 
to move the leased ships out and to move U.S. Government ships 
in to replace those.
    Admiral Roughead has a better idea in terms of other leased 
ships than I do.
    Admiral Roughead. Sir, if I recall, I believe right now we 
have 14 foreign built ships under lease, and all of those ships 
are compliant with the appropriate regulations. And it is my 
understanding that in the solicitation, there were no U.S. 
built ships that were offered up. So, I mean we do open the 
competition and it is just a question of those that respond to 
that solicitation, but we are very mindful of that and----
    Mr. Visclosky. Why do you think that is?
    Admiral Roughead. I would offer my personal opinion, and 
that is that we simply do not have the U.S. built fleet that is 
able to respond to these solicitations.
    Mr. Visclosky. And that is my concern, and I am not 
personally or professionally blaming you for it, but it is that 
classic chicken and egg, that as the Navy has leased foreign 
vessels and we look overseas and then shipyards close, suddenly 
it is a self-fulfilling prophecy and now we have people not 
bidding because they don't have the ability to build. And I 
think we have some real responsibility to look at that 
industrial base and our citizens having those jobs for our 
national defense. I just think it is a very important 
principle.
    Admiral Roughead. I agree, sir. And I think that the notion 
that we are a maritime nation is something that goes beyond the 
Navy. I believe that we should not lose sight of the fact that 
we are tied to the oceans and that we, as a maritime nation, 
have to look at it holistically and do all we can to encourage 
that level of interest that you described.
    Mr. Visclosky. And I would encourage you. And, gentlemen, 
thank you very much.
    Thank you, Mr. Chairman.

                           THE ``JONES ACT''

    Mr. Murtha. Chief, we put in $60 million last year for the 
Jones Act, which helps commercial building. Does that help the 
Navy also? Does that help shipbuilding in the United States? It 
translates into big money, as I understand it.
    Admiral Roughead. Yes, sir. I would like to take that 
question for the record to make sure--if there is any financial 
effect. But clearly it would seem to me that should there be 
growth in application of that money in our shipyards, in our 
Nation's shipyards, then that would mean that's overhead would 
be coming down and----
    Mr. Murtha. For example, San Diego gets those commercial 
ships as well as Navy ships; right? So it's not a help in 
situations like that.
    Admiral Roughead. Right. But it also brings overhead down.
    [The information follows:]

    The Maritime Loan Guarantee Program was established pursuant to 
Title XI of the Merchant Marine Act of 1936 (the ``Jones Act'') and 
provides commercial shipbuilders a full faith and credit guarantee by 
the U.S. Government of debt obligations on commercial bank loans. 
Commercial shipbuilders may use this funding to help finance new ships 
built in U.S. yards, or to finance capital improvements that modernize 
and upgrade shipyard infrastructure.
    There is no mandate that Jones Act funding be awarded for the 
construction of ships with military utility. The U.S. Department of 
Transportation's Maritime Administration (MARAD), which administers 
Jones Act funding for the Department of Navy, allocates loan guarantees 
solely on financial viability. It is possible that Navy could benefit 
from Jones Act funding if commercial shipyards that also build Navy 
ships reduce overhead costs and improve their infrastructure as a 
result of receiving Jones Act funding.

    Mr. Murtha. Mr. Kingston.

                            RIVERINE MISSION

    Mr. Kingston. Thank you, Mr. Chairman.
    Admiral Roughead, I wanted to ask you about the riverine 
mission and what your vision is for expanded capacity, and 
maybe just talk to the committee a little bit about how 
important they are to irregular warfare that is----
    Admiral Roughead. Yes, sir. And thank you for that 
question. As you know, we established or reestablished a 
riverine force a couple of years ago. We had a significant one 
in Vietnam. We did away with it. And then we brought a riverine 
capability back, and our Sailors who are in that riverine force 
are doing extraordinary work in Iraq guarding some critical 
infrastructure and should that infrastructure be attacked, it 
would have devastating consequences. And I can't say enough 
about the great work they are doing.
    The other thing I have done with regard to riverine and 
what we call our Navy Expeditionary Combat Command, which has 
our SEABEES, our EOD, riverine, and other expeditionary types 
of capabilities, is this years budget for the first time brings 
that capability--a bigger part of it into the base budget. We 
had been running that capability on supplemental money, which 
was to me a huge mistake. So we brought that into the base.
    I have also, in order to expand the knowledge base of the 
riverine force, have reached out to some of my foreign 
counterparts and we are working with getting the riverine force 
into environments that are different than Iraq or different 
than in the United States. When I went out and for the first 
time we did a force structure analysis of that capability. We 
went to every Combatant Commander so we could get their input 
to give us a better idea of what we have to go grow in the 
future. So I think we have made some very positive, 
significant, substantive steps to better size, better resource, 
and better shape that force for the future. But in the input 
that we have received back from the Combatant Commanders, the 
size of the riverine force that is being demanded right now is 
what we have. That said, we are going to continue to look at 
it. We are going to continue to explore other areas of 
operations, and that will inform where we go in the future.
    Mr. Kingston. What is the size right now?
    Admiral Roughead. The size of the riverine force is we have 
three squadrons. They are on a very tight deployment schedule 
to Iraq but we are not getting the demands out of the other 
Combatant Commanders yet. So the force is doing quite well and 
I am very proud of the work that they do.
    Mr. Kingston. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Ms. Kaptur.

                         REMARKS OF MS. KAPTUR

    Ms. Kaptur. Thank you, Mr. Chairman and thank you gentlemen 
for your service to our country. Welcome, Secretary Mabus. Good 
to have you here. General Conway, Admiral Roughead.
    There is just so much to ask. I began my week this week 
with a phone call with several other members, Governors and 
Senators, from the head of General Motors informing us of the 
number of plant closures that would be occurring in our country 
and the tens of thousands of Americans that will become 
unemployed. One of the--and I note the increasing number of 
those you are able to recruit because of the fallout in the 
commercial economy of this country. One of the issues we got 
into in that phone call was the lack of certain technologies 
that have caused our country to fall behind, certainly in the 
area of energy production, and we got into the issue of 
batteries. And General Conway, I am looking at you because of 
the Expeditionary Fighting Vehicle and thinking about the 
various investments that people of the United States make in 
the Department of Defense in the national interest and 
wondering about the lack of our ability to successfully 
transfer to the commercial sector when it is obviously so 
vitally needed.
    Secretary Mabus, I was glad to see you mention briefly in 
your testimony something about energy efficiency. I like the 
term ``energy independence'' again for America. And I would 
like to ask each of you gentlemen, the President campaigned on 
this issue when Congress passed the recovery bill. Energy 
independence was one of the three top priorities in addition to 
broadband and health information systems that were laid out for 
the Nation. As you look at your responsibilities, how do you 
think about helping our Nation domestically become energy 
independent again and transferring some of the knowledge that 
is being developed under your watch to help our country when it 
is so vitally needed? And you can talk about projects that may 
be underway for power-train development for your various 
systems, new types of energy production whether they be 
cryogenic hydrogen, cellulosic ethanol, biofuels of different 
kinds, advanced solar. I would be very interested to hear how 
you think about this because I can tell you that this country 
would be a much weaker Nation defense-wise if we do not have a 
strong transportation infrastructure in this country.
    General Conway. I will start now, ma'am, and say that we 
have been doing experimentation for some time now with what we 
call our supporting establishments, our bases and stations. And 
in fact, we have an experiment underway at this point with two 
bases that are attempting to be zero energy in terms of their 
requirements outside the wire. Both in Southern California. One 
with wind turbine, the other pretty much with solar power. And 
thus far, the results have been fairly optimistic. We are 
encouraged by what we see. How much that will, I will say, 
transport to other bases and stations outside Southern 
California (SOCAL), of course, remains to be seen.
    But we ask ourselves as an expeditionary force, why can't 
we transfer some of that to our operational forces? And being 
green is a part of it, of course, but being lighter and more 
expeditionary is the true objective here. We are holding a 
conference here at Quantico in the next few weeks on this very 
issue. Can we have some sort of alternative power to lighten 
our load with batteries? Batteries are very heavy. Batteries 
wear out and you need more batteries. The same with fuels, the 
same with lighter weight ammunition components, those types of 
things to be able to lighten our load and at the same time 
conserve our resources.
    Ms. Kaptur. Is there anyone that--obviously, we have the 
Secretary of the Navy here. Is there someone within the 
Department charged with thinking about this and linking across 
this massive agency and the massive number of units and massive 
number of research projects as you look at your own department? 
Is there a reporting structure on energy independence within 
DOD?
    Mr. Mabus. I know that energy independence inside DOD is 
one of the top priorities. And in my confirmation hearing I did 
talk about energy independence for the Navy and the Marine 
Corps in particular. To give you a very concise answer to your 
particular question, I don't know.
    Ms. Kaptur. That's honest.
    Mr. Mabus. But I will find out and will be happy to let you 
know what I do find out. In terms of the Navy and the Marine 
Corps, some of the things that I have been thinking about in 
talking with the CNO and the Commandant about, the Commandant 
mentioned onshore continental U.S. bases. Right now the Navy 
and Marine Corps are producing about 17 percent of the energy 
that we need from alternative sources, which is good but can be 
a lot better. The second thing is in noncombat operations, we 
buy a lot of vehicles and we can certainly work to buy vehicles 
that are alternate fuel vehicles, that are American vehicles, 
that can hopefully help some of the jobs that you were talking 
about. And, third, as the Commandant also said, in our deployed 
forces, ships, airplanes, ground vehicles, we have got to look 
at alternative energy sources both from an operational 
standpoint, as the Commandant pointed out and as the CNO has 
spoken of, but also to cut our dependence on sources of energy 
that are doubtful or can be interrupted. And operationally, I 
know that our ships that we are building and are building for 
the future are taking more and more energy all the time to run. 
And so just operationally being tied so closely to an oiler, 
for example, gives you less flexibility. So that is one of the 
areas that I hope during my tenure here that I can work on very 
hard with the Congress very closely.
    Ms. Kaptur. Mr. Secretary, I, along with many members of 
this committee and Congress, support you in those efforts. And 
I have seen some of the Marine vehicles coming off one of the 
lines at General Dynamics that builds the Abrams tank near my 
district. And I have looked at some of the new vehicles coming 
off the line and I am thinking to myself you mean we can't take 
this and make it better and more fuel efficient and more energy 
independent and move the knowledge up into the commercial 
sector 50 miles up the road? What is wrong with us? If we can 
do the Abrams tank, which is an unbelievable vehicle, if we can 
do all this and yet we can't beat the Japanese or the Chinese 
in terms of fuel efficiency and fuel systems? And I would just 
urge you, Mr. Secretary, to devote time to this. If you need 
funds to place people at DOD or to transfer people who think 
about this on a regular basis, my sense is for a very long time 
it has been happenstance and it is not a real commitment, 
although we spend enormous amounts on research. And it just 
doesn't seem to--I think your statement is honest. The vehicles 
that come out use more fuel. We become more vulnerable rather 
than less vulnerable. Someone over there has got to be charged 
with thinking about this a lot and filtering it down through 
the Department, which is so huge. Thank you.
    Thank you, Mr. Chairman.
    [The information follows:]

    Question. Is there anyone that--obviously, we have the Secretary of 
the Navy here. Is there someone within the Department charged with 
thinking about this and linking across this massive agency and the 
massive number of units and massive number of research projects as you 
look at your own department? Is there a reporting structure on energy 
independence within DOD?
    Answer. Representative Kaptur, I intend to make seeking smart 
energy solutions, achieving greater energy dependence, and being good 
stewards of the environment top priorities during my time as the 
Secretary of the Navy. I have directed a review of all related 
activities inside the Department and am now in the process of 
formulating plans and objectives to guide our efforts to pursue both 
expanded and new renewable energy solutions and to decrease 
dramatically energy usage across the Department. As these plans have 
not yet been fully developed, let me now tell you the current state of 
the reporting structure inside the Department of the Navy (DON).
    The Department of the Navy currently provides energy oversight 
through the Navy Energy Policy Office under the Deputy Assistant 
Secretary of the Navy (Installations and Facilities). The Office of 
Naval Research (ONR) provides Science and Technology support for both 
Navy and Marine Corps research and development. In December 2008, the 
Chief of Naval Operations established Task Force Energy (TFE) and the 
Navy Energy Coordination Office (NECO) to provide operational energy 
plans and programs for Navy. As part of its responsibility, NECO works 
with ONR and the major Navy systems commands (e.g. Naval Sea Systems 
Command, Naval Air Systems Command, Naval Expeditionary Combatant 
Command, and Naval Facilities Engineering Command) to oversee all 
energy related research and development.
    In concert with the Office of the Secretary of Defense and in 
accordance with the National Defense Authorization Act (NDAA) of 2009, 
the Navy Energy Policy Office will transition into the Naval Energy 
Office (NEO) within the Office of the Secretary of the Navy to align 
and consolidate these functions within DON and its components to 
provide oversight of operational energy plans and programs (to include 
research and development) for DON.
    The Naval Energy Office will provide a consolidated and 
comprehensive voice for the Navy Secretariat and its operational 
components. The office will also speak to Navy and Marine Corps 
facilities on energy infrastructure plans and programs and roadmaps 
toward energy ``security''. Moreover, NEO will bring a broad, strategic 
approach to establishing policy and for overseeing programs within Navy 
and Marine Corps, as well as coordinating within Department of Defense 
(DOD) and with other federal agencies on their respective energy 
initiatives and investments. The Naval Energy strategic plan and 
roadmap includes sections for energy R&D addressing mobility fuels and 
electrical grid security.
    There is also a reporting structure on energy within DOD. The 
Principal Deputy, Director Defense Research and Engineering is 
currently lead for the DOD Energy Security Task Force. DOD reporting 
requirements for energy initiatives, such as those resourced through 
the American Reinvestment and Recovery Act of 2009, are coordinated 
through this office. In accordance with Section 902 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2009, the Office of 
the Secretary of Defense will establish a Director of Operational 
Energy Plans and Programs (DOEP&P) as the principal advisor to the 
Secretary of Defense regarding operational energy plans and programs 
and the principal policy official within the senior management of DOD 
regarding operational energy plans and programs.
    Representative Kaptur, based on my ongoing review, I may make 
further changes to the current energy oversight and reporting 
structure. Under any circumstances, however, I look forward to working 
with you and the Committee toward the goal of a ``green'' and energy 
efficient Department of the Navy.

    Mr. Murtha. Ms. Granger.

                              MV-22 OSPREY

    Ms. Granger. Thank you.
    Mr. Secretary, thank you for being with us and thank you 
for the job you are doing. And to Admiral Roughead and General 
Conway, thank you for your service and being here to answer 
some questions.
    To the Commandant I have a question. The MV-22 will be 
going into Afghanistan in October. Tell me and tell this 
committee what capabilities we brought with the Osprey and what 
difference it will make in Afghanistan.
    General Conway. Yes, ma'am. Well, we think it will make a 
huge difference over and above our current medium lift 
helicopter. We have had three now successful deployments to 
Iraq where in every instance, the aircraft I think it is fair 
to say exceeded our expectations. There is currently a squadron 
aboard ship, aboard the Marine Expeditionary Unit, that will be 
shortly headed into the theater, into CENTCOM, and the aircraft 
will be available for use there when that (ARG/MEU) Amphibious 
Readiness Group/Marine Expeditionary Unit arrives. The aircraft 
basically, ma'am, gives you at least twice the capability of 
our current medium-lift helicopter, the CH-46.
    In fact, you will find very few CH-46s in Afghanistan today 
because although the aircraft was created to carry as many as 
18 combat-loaded Marines, elevations and temperatures in the 
summer in particular put the lift at about five or six combat-
loaded Marines. So we have been forced to cycle CH-53s in to 
serve, in many cases, what our medium helicopter ought to be 
able to do. Three times the range, five times the payload, 
twice the speed, cruises at 13,000 feet, comes out of a zone 
like a rocket ship and can stop abruptly over a zone to come 
back into place. Our challenge at this point is to stop 
thinking about it as a helicopter and think about it as 
something else in terms of its operational capacity, and that 
is a pleasant problem to have.

                          JOINT STRIKE FIGHTER

    Ms. Granger. It is. It took a long time coming, but it has 
enormous capabilities and possibilities.
    My other question is to the Commandant and to the Admiral. 
Both of you have expressed strong concerns about the shortfall 
in the Joint Strike Fighter. So what I would like to know is 
how important that is that we keep on track with that to the 
operations of the Navy and Marines and even accelerate that? 
What difference is it going to make and what can we do to help 
that?
    Admiral Roughead. Well, in our budget, ma'am, we have the 
four essentially test articles for the Navy variant. We, as a 
service, are the last ones to get Joint Strike Fighter, and 
Joint Strike Fighter is extraordinarily important to t our 
future and naval aviation. The importance of getting on with 
the program is key, and I am pleased that we have those 
airplanes in this budget so that that we can move on toward 
that. We need that airplane because as our Hornets are aging, 
we have to make sure that we can provide the number of 
airplanes on our carrier decks that we need and keeping Joint 
Strike Fighter on track is absolutely key.
    General Conway. Ma'am, we are the first to field the Joint 
Strike Fighter of all the services in 2012. We bought our last 
fixed wing attack aircraft in 1998. That is 14 years of waiting 
for a fifth generation kind of capability that we think we will 
desperately need in the future. Now we have ridden hard our F-
18s A through D. We are in the process of trying to get 10,000 
hours now out of those aircraft to bridge that gap and mitigate 
the risks that we see. Our venerable Harriers are doing great 
work for us as well both in Iraq and in Afghanistan. But there 
is some risk and we are emphatic with the vendor that we cannot 
afford a delay past 2012. We want those aircraft on time and on 
delivery.
    Ms. Granger. Good. We will try to help you make that 
happen. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Moran.

                           IRREGULAR WARFARE

    Mr. Moran. Thank you, Mr. Chairman.
    It is nice to see you, Mr. Secretary. It is good to see 
your colleagues in uniform, but I haven't seen Mr. Mabus for a 
long time.
    I want to ask about irregular warfare because this past 
December the Deputy Secretary of Defense issued guidance that 
was DOD Directive 3000.07 and it elevated the importance of 
irregular warfare to be as strategically important as 
traditional warfare. The policy requires that the department 
integrate irregular warfare concepts and capabilities into 
doctrine, organization, training, material, leadership, 
personnel, and facilities. The Army and the Marine Corps have 
de facto changed doctrine and training due to their prolonged 
intense involvement in Iraq and Afghanistan, but the Navy's 
planning and curricula have not changed.
    So I want to ask how has their irregular warfare concept 
been--because there was a directive--how is it reflected in the 
2010 budget request? Is the Navy doing anything to revise 
doctrine, organization, training, material, leadership, 
personnel, and facilities to reflect a sharpened focus on 
irregular warfare as the Secretary instructed and as the Army 
and Marine Corps complied? So I was going to ask that of 
Secretary Mabus, but if that is not fair, I will ask that of 
the Admiral and the General.
    Mr. Mabus. With your permission, sir, I will give that to 
the----
    Mr. Moran. I had a suspicion.
    Admiral, do you want to go ahead with that? The Marine 
Corps is fine; so there is no sense in putting General Conway 
on the spot.
    Admiral Roughead. I would be very pleased to do that. In 
fact, I would say that this budget captures our contribution, 
our commitment to irregular warfare quite well with three 
littoral combat ships, and one Joint High Speed Vessel. Those 
are new types of ships that will allow us to get into the type 
of environments that I think are going to be very important. 
For the first time, this budget represents taking our 
expeditionary combat command, which is the Navy's core of 
irregular warfare capability apart from our SEALs, and for the 
first time we have pulled that into our base budget. I believe 
that is a significant statement with regard to our contribution 
to irregular warfare.
    I would also say that our curricula at the Naval War 
College has also been changed to reflect irregular warfare and 
the type of environments in which we are going to operate. The 
use that we have made of our amphibious ships as we go forward 
and do theater security cooperation, much like we have just 
finished in the Africa Partnership Station where for six months 
we took one of our amphibious ships in a very different 
application and worked with the nations on the west coast of 
Africa on littoral maritime security issues and humanitarian 
assistance.
    The use of our hospital ships that has been ongoing now for 
three years is also a dimension that gets into a different form 
of the application of naval power. The fact that we have taken 
our P-3 aircraft and used them over Iraq, as opposed to the 
maritime patrol mission to which they are normally suited, is 
key.
    The fact that in the rescue of Captain Phillips from the 
Maersk Alabama that there was an unmanned aerial vehicle 
deployed from a guided missile destroyer that provided the 
information, surveillance, and reconnaissance, I would say that 
also is a significant statement.
    The fact that for the first time in the history of the 
United States Navy an unmanned autonomous vehicle took off and 
landed at night from a ship is another statement. So I think we 
have plenty of examples in the budget----

                                 MRAPS

    Mr. Moran. Well, you certainly do, Admiral, and you seem to 
be well prepared for that. But I am informed that the training 
has not been altered in the way it has with the Marine Corps 
and the Army. You are fully prepared for that so we can pursue.
    I do have one other question I wanted to ask, and that is 
with regard to the MRAPs. The committee is proud that it 
provided the funding for that because there have been far fewer 
IED deaths. But it is too big for Iraqi city streets and many 
bridges and adverse terrain. And now that we are moving forces 
into Afghanistan, with the terrain even more problematic, a 
lighter and smaller and more agile form of MRAP is needed, the 
all-terrain vehicle.
    I would like to get some response, probably from General 
Conway, in terms of what you are doing with regard to that, 
because the big MRAPs in Iraq are even less practical in 
Afghanistan. So how are we applying the lessons of Iraq to 
Afghanistan, and are the Soldiers and Marines, do they feel 
equally secure in the ATV as they did in the bigger version of 
the MRAP?
    General Conway. Sir, we don't have the ATV variant yet. It 
is under development and looks to be available in about an 
18,000-pound variant by our best information at this point. 
Your analysis is right on the MRAPs for the most part that we 
bought in Iraq. They were not as off-road worthy, in some cases 
were too big, and we actually found our commanders going back 
to Humvees in order to make their convoys effective and 
accomplish their mission.
    What we are doing, sir, in the Marine Corps is taking a 
look at how we enhance the off-road capability of our smallest 
MRAP, the Cat 1's that weigh about 38,000 pounds, and we have 
successfully moved the independent suspension of our 7-ton 
trucks onto those MRAPs. It gives them a tremendous off-road 
capability. The terrain we are operating in in the south is not 
as nasty as it is in the north and the east where some Army 
components are. We are not operating off the spine of a 
mountain with those vehicles. It is high desert. And in fact it 
is pretty well-suited.
    In fact, my visit there, about six weeks ago now, showed me 
that the most popular vehicle currently in Afghanistan is the 
7-ton truck, is the MTVR. So we can rapidly transition those 
vehicles. It gives us a promise for the rest of the fleet in 
future use of MRAPs in the Marine Corps. We can do it sooner so 
we can protect our Marines more rapidly. And we can do it much 
cheaper than what we can with the MATV arriving. I think we 
will still buy some MATVs. We see a need to replace some of our 
Humvees, but not nearly at the scope and scale, I think, that 
we originally envisioned.
    Mr. Moran. My fuel conscious colleague has requested that I 
ask what miles per gallon do you get on those.
    General Conway. On the Cat 1 MRAPs?
    Mr. Moran. Yes.
    General Conway. It is not real good, sir. I can take it for 
the record.
    Mr. Moran. About a mile a gallon.
    Ms. Kaptur. If my dear friend could yield, if you would, 
just for a second. General, could you provide for the record 
for the vehicles under your command what their fuel efficiency 
is?
    General Conway. Yes ma'am. I can get you a listing of each.
    [The information follows:]

    Answer. The fuel efficiency for vehicles in the Marine Corps 
inventory is provided in the following attachment:

[GRAPHIC] [TIFF OMITTED] T6286B.059

[GRAPHIC] [TIFF OMITTED] T6286B.060

[GRAPHIC] [TIFF OMITTED] T6286B.061

[GRAPHIC] [TIFF OMITTED] T6286B.062

[GRAPHIC] [TIFF OMITTED] T6286B.063

                           IRREGULAR WARFARE

    Mr. Dicks. Will the Chairman yield to me just for a second. 
I would like to give Admiral Roughead a chance to answer the 
question about training on irregular warfare. I think it was 
unfair of my good friend and my Vice Chairman of Interior to 
cut you off and not give you a chance to answer the question.
    Mr. Moran. If the gentleman would yield momentarily. I 
don't think Admiral Roughead gets his feelings hurt very 
easily. But we would like to know, even if it is just for the 
record, how the flying curricula has been altered to reflect 
that irregular warfare directive.
    Admiral Roughead. What I would say, sir, is that our 
aviators have been involved in irregular campaigns for quite 
some time. And it is the aircraft carrier that is in the Indian 
Ocean that is providing about 46 percent; one aircraft carrier, 
46 percent of the close air support supporting our troops on 
the ground in Afghanistan. That same skill and competence was 
demonstrated in Iraq and in so many other places. So our naval 
air aviation capability coming off of our carriers, our 
helicopter pilots who are flying medevac missions, who are in 
support of our SEALs, are in the fight and they are doing 
extraordinary work.
    Mr. Dicks. But they are training to do this. They just 
didn't think it up, right?
    Admiral Roughead. That is part of what our curriculum is.
    Mr. Murtha. So how far are these aircraft carriers from the 
action.
    Admiral Roughead. It is a long flight into the area of 
operation.
    Mr. Murtha. Refueling is a major issue not only for the Air 
Force but for the Navy.
    Admiral Roughead. Yes, sir. Gas, when you are flying an 
airplane off an aircraft carrier, gas is the most important 
thing that you think about. But I would also say with our E and 
F we are able to tank the strike packages going in off of E and 
F, which gives us great capability as we go into that 
environment. But fixed-wing tanking is key to us.
    Mr. Murtha. Mr. Boyd.
    Mr. Boyd. Mr. Chairman, I will pass and come later.
    Mr. Murtha. Mr. Bishop.

                           RESET OF EQUIPMENT

    Mr. Bishop. Thank you very much. Gentlemen, welcome. And a 
special welcome to you, Governor Mabus. We have some family 
ties there that go back to my roots in Mississippi, so I 
especially want to give you a warm welcome to the committee.
    Let me just ask a question here. I understand that the war 
effort in both Iraq and Afghanistan have placed an 
unprecedented demand on the core ground and aviation equipment. 
And thus far the committee has provided over $12 billion toward 
resetting your equipment. Could you tell us what more is needed 
to address the Marine Corps capacity to receive and to perform 
the critical maintenance on returning equipment to Blount 
Island and the Marine Corps depots, albeit Barstow?
    General Conway. Sir, first of all let me thank this 
committee and your Senate counterparts for the reset moneys 
that have been provided to date. We have a running tally, of 
course, with Afghanistan and Iraq continuing, and that bill is 
about $20 billion. We received about $12 billion of that 
already and we continue to receive more. Blount Island is in 
fact on our unfunded priority list of things we see that we 
need, because Blount Island is the focal point for arrival back 
in the States on that equipment where triage essentially takes 
place. And either the piece of equipment is deemed not suitable 
for replacement or repair and it is junked, or we repair it at 
our depots at Albany and Barstow; or, in some cases, we buy the 
next-generation equipment, depending upon just the nature of 
the end item.
    Blount Island has more capacity at this point for 
throughput than we have space for. So our unfunded priority is 
associated with just enhancing the facility down there so that 
our throughput can stay abreast and even be better than what we 
see coming back from theater.
    Mr. Murtha. Gentlemen, what is the figure we are talking 
about at Blount Island?
    General Conway. Sir, as I recall, our total unfunded was 
$155 million to make it into what we know it needs to be.
    Mr. Murtha. And how would you use that money?
    General Conway. Sir, we would use it to just create space, 
create a hard stand, create vehicle racks, enhance the 
throughput if you will.
    Mr. Murtha. This is O&M money, this is not military 
construction?
    General Conway. No, sir. This is military construction 
money.
    Mr. Murtha. Mr. Bishop.
    Mr. Bishop. Continue, sir.
    General Conway. That is the essence of the message, 
Congressman Bishop. Thank you.
    Mr. Bishop. So all of that would be done at Blount Island. 
You don't need to do that at Albany or Barstow?
    General Conway. Sir, Albany would be where we actually do 
the repair. But Blount Island, again, is that point where the 
equipment arrives and we do the analysis there. I might add we 
are in the process right now of rehabilitating our Third MPS 
Fleet. We have been on cycle now since about 2007. We have 
rehabbed two of the three, and that third one is currently at 
Blount Island undergoing that kind of evaluation and reset.
    Mr. Bishop. Thank you, sir. I appreciate that very much. I, 
as you probably know, represent the Albany depot.
    General Conway. I was aware of that, sir.

              EXPEDITIONARY FIGHTING VEHICLE (EFV) PROGRAM

    Mr. Bishop. Let me talk about another perhaps sore topic, 
and that is the Expeditionary Fighting Vehicle (EFV) program 
and the requirements. With the initial operational capability 
now projected at 2015 and full operational capability projected 
at 2025, isn't that an excessive development cycle for a 
program of that magnitude, and are there scenarios that will 
justify the program? But the fact that we have not had a beach 
assault landing in 59 years, is it possible that the EFV is no 
longer necessary? And it has been suggested that the fleet 
might need to operate at least 100 miles away from shore which 
is, again, beyond the range of the EFV.
    Have we reached a point in the debate where we should 
really take a hard look at whether or not the program should 
continue to go forward with the large sums of money that have 
already been invested with not very much input?
    General Conway. Sir, two points I would make to answer your 
question. One, that precise set of questions is under review in 
the Quadrennial Defense Review. And the question that has to be 
asked of that review and I think of the Department of the Navy, 
and ultimately of the Congress, is does this country need a 
forceable entry capability. If the answer is no, then we don't 
need the vehicle. If the answer is yes, then we most assuredly 
need the vehicle.
    With the anti-access systems that exist today really across 
the globe--I mean, we saw Hezbollah, political party, knocking 
down ships at 12 miles. With the anti-access systems that exist 
our Navy should not go closer than about 25 miles to a 
coastline with Admiral Roughead, Sailors, my Marines and his 
ships.
    So we have to make that determination first of all as to 
whether or not there is a need for a forcible entry capability. 
If the answer is yes, then we assuredly need that vehicle.
    Now, in terms of the development cycle, I will tell you, 
sir, we are at risk right now because right now those ships are 
going closer than 25 miles. If you witness, say, the Korean 
scenario that we all watch the papers for daily, there would be 
a need there for Marines and ships and amphibious capability. 
And we are concerned about our ability to execute those type of 
things with the vehicles that we currently own. By the way, the 
Chinese are building 1,500 like-vehicles to give them that 
hydroplane kind of capability to close on other nations ashore.
    Mr. Bishop. The design on the EFV is flat-bottom aluminum. 
And of course once it hits the ground you have designed, I 
think in response to some of the concerns that were raised by 
the committee, an armor capacity. At what point is somebody 
going to have to get out of the vehicle and strap on--bolt on 
that armor while they are potentially under fire? Is that 
realistic or is that going to subject our folks to more risk?
    General Conway. That is a point that needs clarification. 
We would not go onto a beach that has that kind of defensive 
capability associated with it. We would bypass those things 
with our speed and mobility presented by the EFV and the Osprey 
that would be working in conjunction with such an effort. It 
would be dependent upon the threats that start to appear. My 
guess is it would be days or weeks, maybe hundreds of miles 
inland, before we would be stationery enough for an enemy to 
plot our movement and be able to use those kinds of weapon 
systems against us. When that time comes, it would be about a 
four to six hour evolution to strap this armor onto those 
vehicles. That puts the protection on these vehicles somewhere 
below an M2 Abrams tank and just above a Bradley. So we are 
comfortable that we have the necessary protection.
    Mr. Bishop. In the case of a Korea or any other beachhead 
landing, particularly if it would be anticipated by the enemy 
that there would be such, wouldn't they plant those IEDs there 
well ahead of time?
    General Conway. Sir, we have engineers that--we call it a 
mine threat--and we have engineers that deal with that. We have 
means available on a routine basis to breach minefields and 
move on, again incorporating the mobility that the vehicle 
gives us.
    Mr. Murtha. I don't know how extensive the questions on the 
record are, but we still need you to look at those because the 
committee really has some questions about this particular 
vehicle. Mr. Boyd.

                           TACTICAL AIRCRAFT

    Mr. Boyd. Thank you, Mr. Chairman. I have a couple of 
questions for you, Mr. Secretary. In the F-18, the 2010 budget 
reduced--I have problems with this technology, Mr. Chairman. I 
did earlier today.
    Mr. Murtha. High-tech.
    Mr. Boyd. The 2010 budget reduced the number of F-18 
aircraft requested by half of what was presumed in the 2009 
budget, from 18 to 9; is that correct?
    Mr. Mabus. Yes, sir.
    Mr. Boyd. With the looming tactical aircraft shortfall the 
Navy is facing, how do you rationalize this reduced 
procurement?
    Mr. Mabus. Well first, as Admiral Roughead said, the Joint 
Strike Fighter is crucial to the future tactical aircraft in 
the Navy and Marine Corps. In terms of the Fa-18E/F, it has 
been reduced. But the 31 aircraft that are requested in this 
budget, which nine are the E and F and the remainder are the 
Growler electronic version of the aircraft, are more than 
enough to keep that line, that F-18 line going at a stable 
rate. And so as the Quadrennial Defense Review looks at the 
need for tactical air across the services they can make 
decisions based on a capacity both for the Joint Strike 
Fighter, but also a line for the F-18 that is hot, so to speak, 
that has more than enough airplanes going through it to 
maintain that line.
    Mr. Murtha. If I can interrupt, I think what we have to 
look at, Mr. Boyd, is a multiyear for the F-18. I thought we 
could get there with speeding up the JSF. But they told me 
prior to our hearing that the research is still going on with 
the JSF and we are just not going to get there. So we are going 
to have a shortfall unless we put X number, I don't know what 
the figure is, but you have got to work with us, giving us a 
figure so we don't have the shortfall down the road, and look 
back and say, I wish we had put more in there.
    Mr. Boyd. Well, Mr. Chairman I think that was the point. 
You know, a year later, when the only additional information we 
have is that the JSF is not coming along like we expected it 
to, so we can't expect those replacements as quickly. So is it 
all cost-related, budget-related, deficit-related issues? Are 
those really--I mean you didn't mention that, but I assume that 
that is part of the equation here.
    Mr. Mabus. It is part of the equation, but it is more 
related to a total look at what tactical air requirements there 
are in the QDR that is going on right now. And the other part 
of this is the Navy/Marine Corps Air is looking at extending 
the life of our current F-18 fleet to carry some of those to 
10,000 hours. And it appears that about half of the F-18s that 
we have now can be extended and the cost of that extension is 
being looked at right now.
    Mr. Boyd. To the Chairman's point, do you consider it to be 
a viable option to extend the scheduled completion of the F-18 
beyond 2012?
    Mr. Mabus. Sir, I think that I need to defer my answer on 
that to whatever the Quadrennial Defense Review comes out with 
in terms of overall TACAIR.
    Mr. Boyd. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Hinchey.

                            VH-71 HELICOPTER

    Mr. Hinchey. Thank you, Mr. Chairman. Gentlemen, thank you 
very much. It is a pleasure to be with you and I very much 
appreciate the work that you do; and it was very interesting to 
listen to your statements and the answers that you give to 
these questions.
    I wanted to ask a question myself with regard to one of the 
most controversial and, interestingly enough, increasingly 
criticized aspects of this budget recommendation, and that is 
the VH-71 helicopter. This helicopter is getting a lot of 
attention for a number of reasons.
    First of all, the number of jobs that are lost, about 2,000 
across the country--maybe more than that--and the amount of 
money that is apparently being just swept aside or wasted if 
this vehicle is actually abolished. And that would be more than 
$4 billion which would have been wasted. And the need for a 
helicopter is very, very apparent because the one that is being 
used for all of the purposes that this one would be used for 
was designed back in the 1950s and not put together until the 
1970s. So the ones that are being used are, most of them, much 
more than 30 years old. So that situation is causing a great 
deal of concern.
    We need to have a vehicle like this. We need to have one 
that is going to work effectively. And if we don't move forward 
with this one, which is solid and secure, there doesn't seem to 
be any serious question about its ability to function and 
function very well, then we are going to need something else at 
some point in the near future, and that will mean the 
expenditure of huge amounts of additional money. So none of 
this seems to make any sense. And, as I mentioned, it is 
increasingly criticized.
    There were a number of issues that came out within the last 
several days in some of the prominent newspapers and some of 
the news articles that functioned specifically on the military. 
So I am wondering what we really need to do. I can't understand 
the motivation for moving this way with regard to this vehicle. 
It doesn't seem to make any rational sense. So I wonder what 
you think we might do and why this program is being dealt with 
in the way it apparently has, for very little real reasons. And 
just, you know, like that.
    Mr. Mabus. Well, I can tell you what we are asking for in 
the fiscal year 2010 budget on this. Based on Secretary Gates' 
decision, the Navy has, as you know, cancelled the contract on 
this a couple of days ago.
    Mr. Hinchey. A couple of days ago.
    Mr. Mabus. Yes, sir. And we are asking for money for two 
things in the budget for fiscal year 2010. One is to extend the 
life of the current fleet of helicopters that are now flying. 
And my information is that extension can be done within very 
good safety and operational requirements. And, secondly, is 
money to restart the competition for the next generation of 
helicopter. I am sure you know both of these things. And I am, 
as I said, I am not giving you any news here, but simply what 
we are requesting in the 2010 budget.
    Mr. Hinchey. I appreciate that, and I appreciate the sense 
of humor that you have with regard to this issue and the way it 
is being handled.
    Mr. Dicks. Will the gentleman yield?
    Mr. Hinchey. Yes.
    Mr. Dicks. Can you tell us what the numbers are, what 
amount of money? You said for extension--how much is in there 
for that and how much is in there to restart the competition?
    Admiral Roughead. The numbers that I have, Mr. Dicks, are 
that we have $85 million in the budget for termination, and 
then also for the beginning process of the way ahead. And with 
regard to the maintenance of the existing fleet, I don't have 
that number.
    Mr. Dicks. Could we get it for the record? Thank you. Thank 
you for yielding.
    [The information follows:]

    Navy's FY10 budget requests $42.5M in aircraft procurement 
modification funds to sustain the existing VH-3D and VH-60N Fleet of 
helicopters. The $85M requested in FY10 provides $55M to contribute to 
the balance of the estimated VH-71 termination costs and $30M to start 
work on a VH-71 replacement program.

    Mr. Hinchey. I just want to mention something about that.
    Mr. Murtha. Mr. Hinchey, let me make a couple points here. 
The staff tells me it would cost $4.4 billion to extend the 
present helicopter.
    Mr. Mabus. Sir, my information for the next year is that we 
are requesting substantially less than that.
    Mr. Murtha. The staff is usually pretty right on this 
stuff. They have been around a long time and they dig into 
this. And so they say $4.4 billion to extend the life of the 
present helicopters that fly the President around.
    Now, we have already spent $3.2 billion in research on this 
airplane. I had 14 people in here the other day, and I don't 
blame the service in this case, this is the White House. And I 
had the guy that is in charge of the White House, I had all 
these different people and I asked them--and this is before the 
new administration came in--what do you do with this airplane, 
why do we need an airplane with such extensive capabilities? 
Well, they told me they wanted to get the President out of town 
in a hurry and so forth and so on, they had to have all these 
communications because of this, that and the other.
    I said, what about the rest of us? Dead silence. I mean, 
the President is going to be out there by himself if this plan 
would come to fruition. So I said, well, let's relook at this. 
They said, well, we will put it off until the next 
administration, and that is what they have done.
    But we are still looking at this. I mean we are still 
trying to figure out if there is not a way that we can use some 
of this money that we have already spent on research and get 
some benefit out of this research. I mean, this is unacceptable 
that we would spend so much money and get nothing out of it. I 
know this decision was made by the Defense Department.
    Mr. Dicks. Mr. Chairman, on this point, weren't a number of 
these helicopters already built that are Phase I that are going 
to be upgraded? Wasn't there like nine of them, or some 
number--five, nine?
    General Conway. Five, sir.
    Mr. Dicks. Five that are already there.
    Mr. Murtha. You are flying those now? Are they flying? We 
have five flying now?
    General Conway. Yes, sir, five that have been produced. I 
assume they are flying.
    Mr. Murtha. Is the Marine Corps flying them?
    General Conway. They are flown by Marine Corps pilots.
    Mr. Murtha. And this idea you only get 5 years out of them, 
I can't believe. I mean, that is some of the figures that I 
have heard.
    General Conway. I can't speak to that, sir. What I can 
say--and I will put a mark on the wall and get back to you if 
it is different--but my staff briefed me that it was about $47 
million to enhance the aircraft that we are flying right now to 
give them a service life extension.
    [The information follows:]

    Of the five VH-71 aircraft procured, the current service life of 
each aircraft is 1500 hours.

    Mr. Murtha. Believe me, if the staff tells me it will be 
$4.4 billion over the lifetime of the system, it will be $4.4 
billion or more. They know that I will remember what they told 
me. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman. I just 
wanted to mention that the flight test areas are pretty high 
for this vehicle. I think it is something like 800 flight test 
hours, something like that, which just indicates how effective 
this vehicle really is. And all of the association it has with 
others indicate that it will be very, very capable--I am 
talking about the VH-71--very, very capable for at least 30 
years, in spite of the fact that there has been some discussion 
which is contrary to that.
    And with regard to the $55 million for termination fees, my 
information is that the Navy has estimated that the termination 
fees would be about $555 million, 555, while industry estimates 
that could be significantly higher or would be significantly 
higher.
    So I think that this is something I know you understand and 
I know you understand it thoroughly and I know that you have 
focused attention on it and you are deeply concerned about it. 
And I just hope we can work this out in some way that is going 
to provide the President with a helicopter that is going to be 
strong, effective, efficient and do the job that is needed to 
be done--which is a great improvement over what is being done 
now--and do it without wasting money, without wasting tens of 
billions of dollars over what has already been spent.
    Mr. Murtha. The time of the gentleman has expired. We have 
four votes so we are going to try to complete this hearing. Ms. 
Kilpatrick.

                              MRAP LIGHTS

    Ms. Kilpatrick. Thank you, Mr. Chairman, and thank you 
gentlemen, Admiral, Secretary, as well as the General for all 
that you do, and expert testimony this afternoon. My father is 
a World War II Navy veteran so he would be delighted to hear 
you today.
    I want to go back to General Conway in terms of the M-Light 
up-armored--Humvees is what we call them now. I want you to go 
back to what you said. I think you said you are finding that 
you won't need as many MRAP Lights and you are finding that the 
Humvees will be suitable for you in Afghanistan. Did I hear 
that correctly?
    General Conway. Not entirely ma'am. We are undergoing a 
series of tests this month now, about the middle of the month, 
to make sure our initial survey of what we call this ISS 
vehicle, the vehicle that is our Cat 1 MRAP, with the new 
suspension, is as functional as we think it is going to be. The 
transition time for these vehicles is pretty quick. So pending 
successful tests this month, we think we can have as many as 40 
into theater beginning late July.
    Ms. Kilpatrick. Of which one?
    General Conway. Of the MRAP with a 7-ton suspension on it.
    Ms. Kilpatrick. And that is the weapon of choice? Is that 
the vehicle of choice?
    General Conway. Yes ma'am, for a number of reasons. We 
don't normally like weight in the Marine Corps. But in dealing 
with a blast, weight has a quality all its own. This is a 
38,000-pound vehicle. And where we can run it off road we think 
there is value in doing so for the protection it is going to 
give our Marines and Sailors.
    Now, we still have up-armored Humvees and they are still 
running in both Iraq and Afghanistan. Our interest in the MRAP 
MATV, the new variant when it is produced some months from now, 
will be to replace those up-armored Humvees as required, based 
upon requests from the field.
    Ms. Kilpatrick. And that is what I wasn't clear on. You 
still have a use for the Light, MRAP Light, but you want to 
make sure that you have what you need now--and they are in 
production, you don't have them in theater yet--so the up-
armored Humvees will suffice for what you need.
    General Conway. Yes ma'am.
    Ms. Kilpatrick. Then I notice in 2008 the appropriation was 
$352 million for those Humvees, 981, and now back in 2010 to 
$205 million. So are you asking for more production of the up-
armored Humvees as well?
    General Conway. No ma'am. I think what you are referencing 
is the total buy for Army and Marine Corps.
    Ms. Kilpatrick. Right.
    General Conway. We have a sustained buy for up-armored 
Humvees, but it is much less than that. I will get back to you 
with our exact figure.
    [The information follows:]

    The Expanded Capacity Vehicle (ECV) Program is currently 
significantly short of its Approved Acquisition Objective of 29,942. 
The current shortfall is 13,078 vehicles. The recent Overseas 
Contingency Operations (FY09) funding will procure approximately 644 
ECVs toward the current shortfall. We cannot provide details of funding 
and quantity beyond the FY10 request for $10 million, but the funding 
and quantities are anticipated to increase above that level in 
subsequent budget submissions.

                      JOINT LIGHT TACTICAL VEHICLE

    Ms. Kilpatrick. I guess I am getting at do you want more 
up-armored Humvees for Afghanistan?
    General Conway. Ma'am it gets complicated. To the degree 
there is another vehicle out there called a Joint Light 
Tactical Vehicle----
    Ms. Kilpatrick. Right.
    General Conway [continuing]. It is a replacement, 
ostensibly the replacement for the up-armored Humvee. Right now 
the Joint Light Tactical Vehicle is weighing about 18,000 
pounds too, which is way too heavy for Marine Corps use. If we 
don't take some weight off that vehicle, we are going to be 
forced to look at our existing fleet of Humvees and say how do 
we modify these things for the future until we get a lighter 
vehicle that gives us the same level of protection.
    Ms. Kilpatrick. So it is almost like a project in process, 
as we are in theater in Afghanistan; and, unfortunately, upping 
our numbers there as we go forward, we are kind of testing and 
seeing which one fits best. Are my Marines safe? There is no 
water for the Navy that is right up there, and drop off the 
Marines.
    General Conway. Ma'am, you hit it on a key. It is a science 
project, and there are a lot of variables in this whole 
evolution. But number one with us is giving the Marines a 
vehicle that makes them safe and allows them to accomplish 
their mission. That is the value we see in this creation that 
we have now, bringing two vehicles together.
    Ms. Kilpatrick. And then the unmanned vehicle, will you use 
it and will you lighten the load of the field?
    General Conway. We are experimenting right now with an 
unmanned logistics vehicle that will lift, through man control 
on the ground, as much as several kilometers. We are guardedly 
optimistic that it may work. And if that happens it will 
relieve the pressure on our helicopters and some of our route 
convoys. So we are avidly following the development of that 
capacity.
    Ms. Kilpatrick. And you will let this committee know what 
you need actually.
    General Conway. Absolutely.
    Ms. Kilpatrick. Thank you very much. Thanks, Mr. Chairman.
    Mr. Murtha. Mr. Young.

                                 DDG-51

    Mr. Young. Mr. Chairman, I have just one quick question. 
The F-18 issue was already discussed by General Conway. But, 
Admiral Roughead, in your opening comments you mentioned about 
DDG-1000 and moving the emphasis to DDG-51. But DDG-1000 was 
supposedly a step toward DDX.
    Am I reading this correct when I think that DDX----
    Admiral Roughead. CGX.
    Mr. Young [continuing]. May be out of the system and that 
we are going to move eventually into CGX, bypassing DDX?
    Admiral Roughead. Yes, sir. The DDG-1000 has a long history 
that starts in 1992. But the DDG-1000 would eventually bridge 
us to a CGX cruiser of the future. And when I became CNO, I 
looked at our shipbuilding programs and specifically at the 
DDG-1000. And looking at the trends that were taking place in 
the world, the proliferation of ballistic missiles, the 
proliferation of sophisticated anti-ship missiles that were 
already mentioned by the Commandant--and that is the capability 
that Combatant Commanders are asking for, the ability to 
conduct integrated air and missile defense. We have in the DDG-
51 the best combatant in the world today. It has those 
attributes, the DDG-1000 does not. But in truncating the DDG-
1000, where we build a couple of those, we can take the 
technologies from that, we are advancing the integrated air and 
missile defense capability of the DDG-51. And those two things 
will give us a better sense of where we have to go with the new 
cruiser.
    Mr. Young. Do you have any kind of an estimated time line 
for moving into the CGX?
    Admiral Roughead. No, sir. We continue to look at that. And 
the reason why there needs to be some more work done is that 
the CGX will be an advanced air and missile defense capability. 
But I believe we have to define the rest of the components of 
the architecture that the Nation will use and that the military 
will use. Until that is defined, I am not sure we know what the 
design is for our piece of that.
    And so by doing what we have done with the DDG-51 and the 
DDG-1000 I believe we best position ourselves to let these 
things sort out and then we can move on.
    Mr. Young. Okay, sir, thank you very much for that. Mr. 
Chairman, thank you.
    Mr. Murtha. You mean what you recommend that we do.
    Admiral Roughead. I am sorry, sir?
    Mr. Murtha. You mean what you recommend that we do. We pay 
for it.
    Admiral Roughead. Yes, sir.
    Mr. Murtha. Thank you very much. The committee is now 
adjourned.
    [Clerk's note.--Questions submitted by Mr. Frelinghuysen 
and the answers thereto follow:]

                       W76 Life Extension Program

    Question. Admiral Roughead, you receive your nuclear warheads from 
the Department of Energy's National Nuclear Security Administration 
(NNSA). A story last weekend in the Los Angeles Times seemed to 
question the NNSA's ability to fulfill its mission to support your 
needs in the Navy. At issue is the W76 warhead, and the NNSA's claims 
that its life extension program was a success.
    Now I'm well aware of the unexpected problems that the department 
has faced in maintaining this weapon. But as far as I'm concerned, 
until the government decides we no longer need this weapon, it's the 
responsibility of NNSA to make sure your needs are met.
    The NNSA requested $209 million for fiscal year 2010. Could you 
tell us if this is enough to keep you on schedule? How much more will 
they need?
    Answer. The Fiscal Year 2010 NNSA request for $209 million will 
delay the Navy's planned production rate for Fiscal Year's 2010-2011; 
however, the delay can be accommodated provided the shortfall is 
recovered by Fiscal Year 2014.
    Question. My information is that the NNSA's budget request is $24 
million short to meet your needs. Did they consult with you before they 
submitted this inadequate request to Congress?
    Answer: Yes, and NNSA and Navy have maintained a dialogue to 
coordinate a sufficient Fiscal Year 2010 production rate needed to 
support Navy requirements.

                       OHIO Class Reactor Funding

    Question. Admiral Roughead, your Naval Reactor program is split 
between the Navy and the Department of Energy. The Energy Department is 
requesting $59M to begin design work on the new reactor for a new 
generation of ballistic missile submarines to replace the OHIO class.
    How much money is the Navy requesting for the potential new 
reactor?
    Answer. The Navy's FY10 President's Budget includes a request for 
$107.9M.

               Future of the Ballistic Submarine Program

    Question. We don't know what the Nuclear Posture Review or the 
Quadrennial Defense Review will say or what decisions your 
Administration will make. Please explain why we should embark on this 
new reactor program when we don't know for sure the future of the 
ballistic submarine program?
    Answer. The President has reaffirmed the need to maintain a strong 
strategic deterrent for the foreseeable future. We are able to start 
design of the replacement submarine before the Quadrennial Defense 
Review and Nuclear Posture Review (NPR) conclude because the focus of 
the NPR will be on the number of weapons and warheads required, rather 
than on the design of our nuclear submarines which we know must be 
recapitalized.
    To ensure there is no gap in strategic coverage when the OHIO Class 
SSBNs begin to retire in 2027, we should start concept and system 
definition for the OHIO Class Replacement in Fiscal Year 2010. Starting 
this work now is consistent with the 20-year timeline used to develop, 
build, and test the existing OHIO Class submarines.
    Key technical and schedule drivers require the Fiscal Year 2010 
start so design and technology can mature to support a Fiscal Year 2019 
ship construction schedule. For example, reactor plant components are 
typically procured at least two years in advance of the submarine 
construction, and the OHIO Class Replacement submarine's propulsion 
plant will require new materials and advanced technologies beyond our 
previous designs to support the energy requirements for a ballistic 
missile submarine.

                      Effect on Submarine Strategy

    Question. Would there be any effect on your submarine strategy and 
outfitting if we do not approve the funding request for the new reactor 
design this year?
    Answer. The Fiscal Year 2010 funding is critical to ensure the 
proper level of design maturity for timely fabrication and construction 
of the replacement SSBN.
    The Navy has seven years (Fiscal Years 2010-2017) to complete the 
reactor design for the OHIO Class Replacement submarine to a level of 
maturity sufficient to support advance procurement in 2017 and ship 
construction in 2019. This seven-year design timeframe is consistent 
with the amount of time it took to design other Navy submarines. For 
comparison, the VIRGINIA Class submarine, while representing only a 
nominal change from previous development work, required approximately 
six years to reach the level of design maturity to initiate advance 
procurement. The OHIO Class Replacement represents a major step change 
in technology and capability (e.g., power rating, reactor life, 
acoustics, etc.); therefore, we will need to accomplish more design 
work in a similar amount of time.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen.]
                                             Tuesday, June 9, 2009.

                              ARMY POSTURE

                               WITNESSES

HON. PETE GEREN, SECRETARY OF THE ARMY
GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF, UNITED STATES ARMY

                              Introduction

    Mr. Murtha. We want to try to finish this by 10:30 because 
we have a Full Committee meeting. We want to finish by 10:30 
because we have a Full Committee meeting. I want to welcome the 
Secretary, who is leaving, and wish him well. He has done an 
outstanding job. And I know that Secretary Gates speaks very 
highly of your work, as we do. We appreciate the difficulties 
the Army has gone through, and you have just done a marvelous 
job with that. And we appreciate that.
    Welcome, General Casey, who has started to work things out 
here. So this team has been a good team, and we are going to 
miss you, Mr. Secretary.
    Mr. Geren. Thank you.
    Mr. Murtha. Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, I just want to welcome the leaders 
of the world's best Army, and look forward to their testimony. 
I have a written statement that I would submit for the record.
    Mr. Murtha. If you would give us a summary of your 
statements, we will put your statements in the record and then 
get right to questions.

                  Summary Statement of Secretary Geren

    Mr. Geren. All right. Thank you, Mr. Chairman and 
Congressman Young and members of the committee, thank you for 
the opportunity to appear before you. Mr. Chairman, thank you 
very much for your kind words; Mr. Young as well. Thank you as 
always. It has really been a privilege to work with you.
    I do have a statement I would like to put in the record, 
but before I do that we have got a few soldiers I would like to 
introduce to you. Mr. Chairman, 2009 is the year of the 
noncommissioned officer, and we are recognizing the 
noncommissioned officers and the extraordinary work that they 
do, the glue that holds our Army together.
    We have also recognized the Members of Congress who served 
as noncommissioned officers that served in our military. And 
two of them are on your committee: Mr. Young and Mr. Rogers. I 
want to thank them for their service.

                        Introduction of Soldiers

    But I would like to also introduce some soldiers I have 
with us today, two noncommissioned officers and a specialist. 
We have Sergeant Shane Payne of Sunset, Louisiana. He is a 
heavy equipment operator who served in Afghanistan in 2006 and 
2007. He received a Purple Heart for wounds received in action. 
And I appreciate his being here and thank him for his service. 
Thank you, Sergeant.
    And Sergeant Joel Dulashanti. Sergeant Dulashanti is a 
Wounded Warrior from Cincinnati, Ohio. He was in the 82nd 
Airborne Division. He was assigned to their sniper platoon. He 
graduated the top of his class from AIT and from sniper school. 
He was deployed to Afghanistan with the 82nd on the Pakistani 
border, where he was seriously injured. He was caught in an 
ambush, shot in his knee and his stomach. He is a distinguished 
soldier, received a Purple Heart, Army Commendation Medal with 
a V Device and Combat Infantry Badge. He has gone to all of the 
posture hearings this year and has found it so interesting that 
he volunteered to be part of legislative liaison. So he is now 
working in legislative liaison with us.
    Mr. Murtha. He thinks Afghanistan was a challenge?
    Mr. Geren. Yes, sir. He figured he has been shot at in 
Afghanistan, he is ready to tackle the Hill.
    We are also joined today by a future NCO, Specialist James 
Fay of Spring Harbor, Michigan. Specialist Fay is a combat 
engineer deployed to Afghanistan with the 173rd Airborne 
Brigade. Conducted route clearance for the brigade. And I want 
to thank these three outstanding soldiers as representatives of 
the soldiers that stand with them, and appreciate you giving me 
the opportunity to introduce them.

                          ARMY BUDGET OVERVIEW

    Let me say very briefly about our budget request, it is 
$142 billion, and it is mostly about people and operations and 
maintenance to support them. Our personnel and O&M accounts 
make up fully two-thirds of our budget, demonstrating the axiom 
that we heard from General Abrams over and over: People are not 
in the Army, people are the Army. And this budget makes an 
investment in those people.
    I want to thank this Committee for your tremendous support 
over these 7-plus years of war. You all have stood with the 
soldiers and with the families, and in many ways have led the 
government and made investments that we had not been able to 
ask you for on behalf of the Army. In so many of the mental 
health areas, soldier support areas, child development centers, 
this Committee really has led the way for our government. And I 
just want to thank you very much for your extraordinary support 
to soldiers and families during this time. And I will submit 
the rest of my statement for the record.
    [Clerk's note.--The Fiscal Year 2010 Army Posture Statement 
is printed at the end of this hearing.]
    Mr. Murtha. General Casey.

                   Summary Statement of General Casey

    General Casey. Thank you, Chairman, members of the 
committee. I would like to just give you a quick progress 
report here on what we have done over the last year, because I 
think it is important that you have a sense of where we are on 
our efforts to put ourselves back in balance. And you will 
recall in 2007 I said that the Army was out of balance, that we 
were so weighed down by our current commitments that we could 
not do the things we knew we needed to do to preserve the 
volunteer force and to prepare ourselves to do other things.
    I would tell you my broad assessment is we have made 
progress toward getting ourselves back in balance, but we are 
not out of the woods yet. The next 12 to 18 months, until we 
start feeling the impacts of the Iraq drawdown, will be tough 
for us. We get past that, I think we will be in fairly good 
shape.

                 FOUR IMPERATIVES FOR ACHIEVING BALANCE

    To put ourselves back in balance, we said we needed to make 
progress on four imperatives: sustain the soldiers and 
families; continue to prepare ourselves for success in the 
current conflict; reset our forces effectively when they 
return; and then continue to transform for an uncertain future.

                         GROWTH IN END STRENGTH

    Now, let me just give you a couple of nuggets here on where 
we are on our objectives to get back in balance. Our first 
objective was to finish our growth. You will recall in 2007 the 
President said increase the size of the Army by 74,000, most of 
that is in the Active force, but some in the Guard and Reserve. 
As of last month, all components, Active, Guard and Reserve, 
have met their end strength targets. And that is a good thing 
for us. Originally, we were not supposed to be finished with 
that until 2012. With the Secretary of Defense's help, we had 
advanced that to 2010, and we basically got done a year ahead 
of that.

                    FINISH GROWTH AND END STOP LOSS

    Now, we still have to build the units, match those people 
up with the equipment and the training to build the units. That 
will take us a couple more years. It is important for a number 
of reasons. One, it allows us to begin coming off of stop loss. 
I know you have been very concerned about stop loss. And we 
will begin this August with the Army Reserve deploying units 
without stop loss, September for the Guard, and then the first 
of January 2010 for the Active force. And as those units that 
deployed before that finish up their deployments, by the end of 
2011 we should be off of stop loss. That has been our objective 
all along. As we modernize the Army, it has been our objective 
to deploy our forces without stop loss.

                          TIME AT HOME STATION

    The second reason it is important is the increased strength 
allows us to increase the time our soldiers spend at home. And 
I have come to believe that the single most important element 
of putting ourselves back in balance is increasing the time the 
soldiers spend at home. Now, several reasons: one, it allows 
them to recover effectively; two, it allows them to have a more 
stable preparation period for the next mission; and third, it 
allows them to begin preparing to do other things.

           CHANGING COLD WAR FORMATIONS TO MODULAR STRUCTURE

    The third element of getting ourselves back in balance is 
getting away from our Cold War formations. And we have been 
working on this and building modular organizations that are far 
more relevant to the current conflict than we were in the past. 
We are 85 percent done converting all the brigades in the Army 
to these new organizations. We are also about two-thirds of the 
way through rebalancing the Army, moving soldiers away from 
Cold War skills into skills more relevant in the 21st century. 
We are two-thirds of the way through that.
    I will tell you, just by way of example, what that means is 
we have taken about 200 tank companies, artillery batteries, 
and air defense batteries, and converted those soldiers into 
military police, civil affairs, engineers, Special Forces. That 
is the scope of what is going on there. Together, those two 
things--modular conversions and rebalancing--is the largest 
organizational transformation of the Army since World War II. 
And we have done it while we are deploying 150,000 over and 
back every year.

                   ESTABLISHING ARMY ROTATIONAL MODEL

    The fourth element, we are putting the whole Army on a 
rotational model much like the Navy and the Marine Corps has 
been on for years. And that is the only way that we can sustain 
commitments and preserve the volunteer force. We have to be 
able to give our soldiers and families a sustainable deployment 
tempo.

                                REBASING

    Fifth, we are halfway through our rebasing effort. And you 
know the scope of the BRAC effort. And when you add to that the 
increased growth and the return of forces from Europe, we are 
affecting 380,000 soldiers and families, moving around the Army 
here in the next several years. We are on track to complete 
BRAC.
    And lastly, Mr. Chairman, as we complete all these, balance 
entails having the strategic flexibility to do other things 
quickly. And as we increase the dwell and the soldiers get to 
18 months or more time at home, which I expect to see start 
happening early part of next year, they will have more time to 
train, to do some of the things they have not had time to train 
for.
    Now, so that is where we are. I would tell you to sum it 
up: progress. Next 12 to 18 months tough, not quite out of the 
woods yet.

                         STRYKER SERGEANT STORY

    Let me just close, if I could, Mr. Chairman, with a story 
about a great noncommissioned officer to give you some sense of 
the quality of the men and women that we have in our Army and 
that you see sitting behind me here. But in April 2007, Staff 
Sergeant Christopher Waiters was on a patrol in Baghdad. He was 
in a Stryker. He was following a Bradley. The Bradley hit an 
IED in an ambush. It burst into flames. He rushed across 100 
yards, got into the Bradley, drug two soldiers out of the 
burning vehicle, dragged them back to his vehicle, was giving 
them first aid when they told him there was still another 
soldier in the Bradley. He went back across the hundred yards 
of open ground, got into the vehicle, realized that the soldier 
in there was already dead, and the ammunition there was 
starting to cook off. He went back to the Bradley, got a body 
bag, returned, pulled the soldier out. For that he was awarded 
the Distinguished Service Cross, our second highest award for 
valor. And that is the type of men and women you have not only 
in the Army, but in all our Armed Forces. So I look forward to 
answering your questions here.

                              CONTRACTING

    Mr. Murtha. One thing you did not mention is contracting. 
Where are we with contracting?
    Mr. Geren. The issue of contracting has been one that we 
have really wrestled with, worked with over the course of this 
war. As you know, over the nineties when we shrunk the Army, we 
also shrunk and outsourced many of the responsibilities that 
had previously been done by soldiers: the personnel support, 
feed, housing, fuel, transportation, recreation. And when the 
war started, we had this model that would rely heavily on 
outsourcing. And it has grown to a level we have not seen 
previously.
    When soldiers deploy now, it is roughly one to one, one 
soldier deployed for one contractor. We are working on building 
up both the civilian and military side to reverse that trend. 
We have added thousands of people, both civilian and military, 
in the contracting billets. With the Congress' support, we have 
created five new contracting general officer positions. We are 
now instructing our promotion boards to promote contractors. 
And we are working hard to provide the oversight and also 
shrink the number of contractors.
    The Gansler Commission a couple years ago, gave us a 
blueprint to move forward. We acted on it immediately, and we 
are making headway in that regard. And this administration also 
has instructed us to continue this effort. And we plan over the 
course of this year to add additional--in-source jobs. We are 
moving in the direction away from contracting. But where we 
have contracting, we are also beefing up the oversight over 
what we have had in the past.

                     COST OF CONTRACTOR V. SOLDIER

    Mr. Murtha. Well, I know I asked Mr. Holt, who was in Iraq 
over the weekend, to talk to General Abizaid. He said you are 
down 16 percent, down to 132,000, and maybe somewhere in 
between that. But the point is everybody understands the 
importance because it costs $44,000, on average, more. And it 
looks like you are going the right direction. We applaud that. 
Last year we put in a billion dollars for direct hire and $5 
billion out of the contracting. But you know, in conference we 
changed that. We recognize that is the direction to go. So we 
applaud that effort.
    Mr. Geren. We are moving in that direction.
    Mr. Murtha. Mr. Young.
    Mr. Young. Mr. Chairman, on the issue of contracting, Mr. 
Secretary, if you have for every soldier one contractor and you 
do away with the contractors, who does the job that the 
contractor did for the soldier?

                        RELIANCE ON CONTRACTORS

    Mr. Geren. We are adding more billets, both military and 
civilian, to take some of those responsibilities. We are moving 
more people from other areas within the Army into these 
contracting billets. But we definitely are not ever going to 
find ourselves in a position where we do not have a significant 
reliance on contractors.
    There are limits, when you consider the stresses on the 
rest of the force, how much of that we are going to be in-
sourcing. But we are in-sourcing more. We are providing greater 
oversight. So where we continue to have a high percentage of 
contractors, we are going to be providing better oversight.
    But when it comes to food service, so much of just the 
maintenance and support of deployed soldiers, that will 
continue to be heavily reliant on contractors. The food 
services, many of those are nationals from both Afghanistan and 
Iraq. That will not go away. We are going to provide better 
oversight, but we are shrinking them at the same time. We are 
moving more civilians, Army civilians and uniformed military 
into those positions.
    Mr. Young. So the tasks that are performed by the 
contractors now would not just go away, somebody would still do 
them?
    Mr. Geren. Yes. Yes, sir.
    General Casey. But I think as the troop levels in Iraq and 
Afghanistan--or Iraq particularly--come down, you will need 
less contractors.

                           OFFICER SHORTAGES

    Mr. Young. That is a legitimate response. But now talk 
about the military personnel. And our Army should be commended 
and you all should be commended for having achieved your end 
strength goals even ahead of schedule. But I understand that 
you are still short in the officer corps. You are short about 
2,000 captains, short about 3,000 majors. And I know the NCOs 
do a tremendous and dynamic job, but they still need some 
officers in the chain of command.
    What are you doing to make up for--well, number one, are 
those figures accurate? And number two, what are you doing to 
close the gap?
    General Casey. The numbers are generally accurate. And the 
officer shortages come from the fact that as we built these 
modular organizations, the ones I talked about that are much 
more relevant to this environment, they needed more captains 
and majors to do the tasks that they need to do. And so we 
significantly increased the numbers of captains and majors that 
we required. And for several years we have been increasing the 
numbers of officers that we bring into the Army to meet that 
goal.
    Unfortunately, a lot of those--not unfortunately, but just 
the fact is a lot of those folks come in through ROTC, 4 years 
of college, you do not get them quite as quickly as you need. 
So it is going to take us some time to do that. We are at our 
highest levels in a while in ROTC graduates. That is a good 
thing. So we will overcome that. I think in about the next 2 or 
3 years we will get back to a position where we are meeting our 
own demands.

                    INCENTIVES FOR OFFICER RETENTION

    Mr. Geren. We also have some incentive programs in place to 
encourage retention in those areas. We have our officers, our 
second lieutenants coming out of West Point. We are giving them 
an opportunity there to agree to extend their commitment in 
return for a commitment to be able to go to graduate school, 
branch of choice, station of choice, giving them an opportunity 
to make a commitment now in return for a commitment to them--
instead of 5 years go to 8 years.
    We also did last year and the year before this captains' 
retention bonus, and also provided them similar types of 
opportunities in return for continuing in their service. And 
that was well received. So in the short term we are working to 
encourage, incentivize the captains to stay on and continue 
their career. And that has had a positive contribution.
    General Casey. If I could just piggyback on this for a 
second, because there is a misperception that the reason we 
have officer shortages is because officers are leaving at 
higher-than-normal rates. And the fact of the matter is we are 
actually retaining officers, and captains in particular, at a 
slightly better rate than has been the historic average over 
the last decade. So as I said, it is a shortage that has come 
from changing and adapting our organizations to be better in 
the environment that we will be operating in.

                       COMMENDING SECRETARY GEREN

    Mr. Young. Mr. Chairman, Secretary Geren was a very 
respected Member of Congress. Went to the Pentagon and became 
Secretary of the Army at a rather awkward time and a rather 
awkward situation. And he has performed admirably. I believe 
that this will be his last hearing before the Congress as 
Secretary of the Army. And I just want to take just a minute to 
say, Secretary, thank you very much for the service that you 
have given to the country. You have a right to be proud of what 
you have contributed to our national security.
    Mr. Geren. Thank you very much. I appreciate your kind 
words.
    Mr. Murtha. Mr. Dicks.

                         FUTURE COMBAT SYSTEMS

    Mr. Dicks. Mr. Secretary, General Casey, in restructuring 
the Future Combat System program, please describe the strategy 
behind the decisions on which FCS systems were retained and 
which systems were deleted. I understand the Secretary of 
Defense played a major role in this. But this was somewhat 
surprising. I thought, you know, especially you, General Casey, 
had worked so hard on educating the members on this whole 
program. What happened?
    General Casey. We had a very significant discussion about 
the future and about the future in the 2010 budget. I worked, 
the Secretary and I both worked very closely with the Secretary 
of Defense on the Future Combat System program. We went back to 
him three times on its importance and its necessity. And it all 
came down to the fact that I could not convince the Secretary 
that we had incorporated enough of the lessons learned from the 
current conflict into the design of the manned ground vehicle. 
And it is the manned ground vehicle program that will be 
halted. And the rest of the program, the network and the other 
devices that are part of it, will be continued.
    And I think you have heard the Secretary of Defense himself 
say that he very much supports the network and very much 
supports the spin-outs as they are called.
    And so what we have done--and we are working with the 
Department to publish an acquisition decision memorandum. The 
Department publishes that. I would expect that to be on the 
street in the next week or so. I have seen what is purported to 
be the final version of that. And it looks like it is ready to 
go. We will then move to restructure the program into different 
elements--the network, the spin-outs, the other systems, and 
then a ground combat vehicle. And we are----

              IMPROVEMENTS NEEDED IN FUTURE COMBAT SYSTEMS

    Mr. Dicks. What is it that the Secretary wants in the 
ground vehicle that was not part of the FCS?
    General Casey. I think, Senator, the program suffered from 
a perception that it was a Cold War program. I mean I wrestled 
with that, talking within the building and with Members of 
Congress. And the fact of the matter is when we started this 
program it was designed to fight conventional war as we thought 
conventional war would look like in the 21st century. We have 
to be up front with that.
    So there was a perception this was a Cold War system that 
was not relevant in the environments we are operating in today. 
And I believe what the Secretary wants and what I want is a 
vehicle that is capable across the spectrum of conflict, 
because that is what we think we need. And I believe we can 
build that. We know where vehicular technology is. We know 
where protection technology is, because we pushed it there with 
this program. And people should not think that we have got 
nothing out of our investment here. We know the state of 
technology to build ground vehicles. And we hope to bring that 
and combine that with the lessons that we have learned here and 
produce a vehicle in 5 to 7 years. And I think we can do that, 
and we have the full support of the Secretary of Defense to do 
that.

                        GROUND SOLDIER ENSEMBLE

    Mr. Dicks. I had one other question, Mr. Chairman. The Land 
Warrior program was terminated, but it was resurrected as the 
Ground Soldier Ensemble. Budget justification materials 
describe Ground Soldier Ensemble as a system which connects the 
ground soldier to the network and provides protection, 
mobility, sustainability, and embedded training. Now, as I 
understand it, Land Warrior was used by several brigades, some 
of which came out of Fort Lewis, and was very successful. And 
the soldiers and the leadership of these brigades thought this 
was a very important system. Can you tell us more about it and 
kind of what you think the future has for this?
    General Casey. Again, Congressman, in fact listening to you 
say those words, ``Ground Soldier Ensemble,'' I said to myself 
we have got to find another name.
    Mr. Dicks. Sounds like some violinists.
    General Casey. Does not sound very military. Anyway, I am 
quite familiar with the Land Warrior.
    Mr. Dicks. I like that a lot better, frankly. It could be 
Land Warrior II.
    General Casey. I visited the unit in Iraq. This system 
basically brings the network down to the sergeant, the team 
leader. And it has an eye piece and it has really a BlackBerry, 
almost, that is portable. And he can look in his eye piece and 
he can see where soldiers are. We are connecting it to unmanned 
aerial vehicles, where he can see what is on top of the roof in 
front of him. It is a wonderful system.
    The soldiers told me, and I am sure they were exaggerating, 
but they said they would rather go off base without their 
weapons than they would without this system. And as we studied 
the output of this, it significantly increased their 
performance. There were like double the number of targets they 
were able to engage compared to other like units.
    Mr. Dicks. So why did we terminate it, then?
    General Casey. It was terminated, frankly, before I got 
here. The Ground Soldier Ensemble was always part of the Future 
Combat Systems program. And so we are just basically moving 
that into the Ground Soldier Ensemble. But we have to connect 
the soldier to the network. The soldier needs to benefit from 
the knowledge and the awareness that he gets from the network. 
And so that is a part of the whole Future Combat System 
program. It is one of the elements that will be continued as we 
go forward.
    Mr. Geren. If I could?
    Mr. Dicks. Mr. Secretary.
    Mr. Geren. Congressman, I would just like to add on your 
question about the Future Combat Systems, the Secretary did 
terminate the manned ground vehicle, but he strongly endorsed 
the spin-outs, the unmanned ground vehicles, unmanned aerial 
vehicles, the unattended sensors, and the non-line-of-sight 
missiles. And we have expanded--instead of just 15 brigades 
getting all those spin-outs, all 73 brigades would be getting 
those spin-outs. And this budget continues to push that 
forward.

                   FUNDING FOR FUTURE COMBAT SYSTEMS

    There are some that have raised some questions about the 
money we have in the 2010 budget. In fact, there is an effort 
by some, in some of the other committees in the House, to try 
to take a good bit of money out of the research in that area. 
And we asked that the Committee fully support that funding, 
because it is critically important to keep those spin-outs on 
track and deliver those technologies to the soldiers.
    We are greatly enhancing the situational awareness of 
soldiers with these, expanding them, giving them capabilities 
to leverage their capabilities on the ground. And we ask the 
committee's strong support for the budget as written. We have 
taken a hit on Future Combat Systems, but this has considerable 
investments to allow us to keep on track. And we ask your 
support for that budget, the number that is in the 2010 budget.
    Mr. Dicks. Thank you for that clarification. Thank you, Mr. 
Chairman.
    Mr. Murtha. When we got into FCS, you were only putting $2 
billion into the budget, and you had $160 billion total. So it 
did not add up at all. So I am glad to see this thing has been 
rewired to be more realistic. And I assume you asked for more 
money for this year. What was the request for this year for 
FCS?
    General Casey. About $2.9 billion.
    Mr. Murtha. It is down from last year. Last year it was 4.
    Mr. Geren. Manned ground vehicle is out of this. We are 
working on an alternative to the manned ground vehicle. And we 
will have money in the 2011 budget request. We are going to be 
delivering a proposal to the Secretary right after Labor Day 
that will be a restart for the manned ground vehicle. But this 
is for the research, this is for more spin-outs. This is to 
advance the spin-outs and the technology support for the 
individual soldiers.
    Mr. Murtha. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Let me 
piggyback on that. I think it is pretty devastating that we are 
going to sort of start over on the ground vehicles. I mean, 
that worries me a lot. We just have to sort of start from 
scratch here. Maybe the MRAP model is the one you are going to 
be going with. But a hell of a lot of research, a lot of money 
has gone into this Future Combat Systems, and a lot of the 
vehicles we are talking about here--Abrams and Bradleys, I 
mean, hell, they have been around for a hell of a long time. We 
have got to get something to replace them.

                          PROCUREMENT FUNDING

    On procurement, those of us who were here a few years ago 
were treated to General Schoomaker's famous holes in the yard 
presentation. You may remember that, General Casey. His 
contention was that the Army arrived in the post-11 era with a 
$56 billion procurement shortfall, which had obviously an 
effect as to what we were doing in Afghanistan and Iraq. As I 
look at your budget request, your request for fiscal year 2010 
totals just $30 billion. Back in 2008, not including the Joint 
IED Task Force, the procurement budget was $61 billion. The 
procurement budget for fiscal year 2009 was $37 billion. We are 
headed in the wrong direction here.
    Can you comment about what that effect is going to have on 
the ability of the Army to do whatever we need to do? I mean, 
hell, we are moving big time into Afghanistan. We are not out 
of Iraq.
    General Casey. No, I understand. And I think what you are 
seeing----
    Mr. Frelinghuysen. We are headed in the wrong direction.
    General Casey. We are; but what we are benefiting from in 
the years that you mentioned was a significant spike to make up 
for the $56 billion worth of holes in the yard. And so now I 
think we are coming down to a more sustainable level. The other 
element is that--and I think you are including the OCO 
procurement numbers in your $30 billion number. That is a 
sustainable level of investment for us at this time. And we 
will continue to work our modernization efforts. And if it 
looks like we need to ask for more, well, then we will ask for 
more.

                          SUPPLEMENTAL FUNDING

    Mr. Frelinghuysen. How are you going to ask for more if we 
are, quote, doing away with traditional supplementals, which 
has actually been your way of sort of funding a lot of what you 
are doing here? We call them overseas contingent funds, but 
that is not an option you are going to be able to have 
available. And as the Chairman has repeatedly said in sort of 
forewarning, the day has come here. You cannot rely on the 
supplemental process.
    How are you going to meet the demands of today's Army? The 
Army has always been on the short end of the stick anyway when 
it comes to sort of service allocations. Now you have a 
procurement situation which is substantially less than you did 
a year ago.

                          PROCUREMENT FUNDING

    General Casey. Again, it is; but we have benefited 
significantly from a spike in procurement to fill those holes 
in the yard. And I think we are stabilizing at a level that 
will be sustainable for us. But again, we are looking, as a 
result of this Future Combat Systems restructuring, we are 
going back and relooking at our whole modernization effort. And 
if we need more procurement as a result of that effort----
    Mr. Frelinghuysen. That is all fine and good. A lot of what 
you have in the way of equipment is so beat up to begin with.
    General Casey. We have----
    Mr. Frelinghuysen. You have replaced a lot.
    General Casey. We have benefited an awful lot. And the 
money that you put in for reset is going an awful long way in 
keeping that equipment moving and operational. So it is a 
combination both of procurement and of the reset money. And 
there is $11 billion in this budget for reset. And we still 
need that.
    Mr. Frelinghuysen. I am disturbed about your trends.
    General Casey. Thank you.
    Mr. Frelinghuysen. The procurement account is pretty 
important.
    General Casey. Right.
    Mr. Frelinghuysen. If we increase the size of the Army, you 
know, the procurement account ought to reflect, obviously, what 
is going to be I think apparently greater obligations, 
continued obligations in Iraq that are not inexpensive. And now 
we are going to have greater obligations in Afghanistan. North 
Korea is rattling their saber. And Iran is out there. God only 
knows if we had to do another contingency operation, which we 
would not certainly encourage, but----
    General Casey. I appreciate your concerns, Congressman. 
Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Visclosky.

                      JOINT TACTICAL RADIO SYSTEM

    Mr. Visclosky. Thank you, Mr. Chairman.
    Secretary, General, I am very interested in the radio 
program and the Joint Tactical Radio System you are developing 
as well as SINCGARS. And the first question I would have is, it 
would appear that you have about $650 million appropriated for 
SINCGARS that have not yet been obligated. What is the plan to 
obligate those funds?

            SINGLE CHANNEL GROUND AND AIRBORNE RADIO SYSTEM

    Mr. Geren. We are finishing out the SINCGARS buy. We have 
56,000 additional radios to buy, and it is a little over $600 
million, the $600 million you referred to. We have recently had 
a competition, and we have decided on the winner of that 
competition. It is a partnership between ITT and--I have always 
mispronounced the other partner's name--T-h-a-l-e-s, Thales or 
Thales. I am not sure of the proper pronunciation. The award 
was made several days ago, and it is still in the post-contract 
review period. It will be final over sometime in the next 
couple of weeks.
    Mr. Visclosky. Would that be for the Joint Tactical Radio 
System?
    Mr. Geren. That is for the SINCGARS. The contract I was 
just talking about was the SINCGARS purchase of 56,000 SINCGARS 
radios, which is the ITT-Thales contract. The JTRS radio, the 
Joint Tactical Radio----
    Mr. Visclosky. Can I get back to the $650 million? Is that 
what you are----
    Mr. Geren. Yes, that is for the SINCGARS.
    Mr. Visclosky. So that is now going to be expended?
    Mr. Geren. It is, yes.
    Mr. Murtha. Let me clarify for the gentleman. Since we took 
out a hundred million for SINCGARS, they decided they would 
spend some of that $650 million. And a day or so later they put 
in--they spent $400 million. So there is now only $200 million 
in that. So in the supplemental we have agreed that $50 million 
rather than a hundred million cut, because of the gentleman's 
interest in this program.
    Mr. Visclosky. I appreciate the Chairman's clarification. 
If I could then ask, funding of $128 million was requested for 
overseas contingency operation; $71 million went to purchase 
replacement radios; $57 million was paid for management, other 
hardware, and total package fielding.
    Why in that portion of the package--and I assume that is 
separate from the $650 million--are the administrative and 
fielding costs so high?
    Mr. Geren. I will have to get back to you for the record on 
that. The $600 million-plus is for that 56,000 radios finishing 
up the SINCGARS buy. The JTRS plan that will transition in will 
phase out the old first-generation SINCGARS radios. And that 
will begin in 2015, assuming the JTRS is in position at that 
point. But as far as the application of those individual 
tranches of funds that you asked about, I will need to get back 
to you for the record.
    [The information follows:]

    The administrative costs are not included in the $128M Overseas 
Contingency Operations (OCO) request. The OCO request includes $71M to 
procure the Radio/Transmitters (SINCGARS radios) and the other $57 
million covers Other Hardware Costs and Total Package Fielding Costs to 
procure hardware items and to support fielding the radios. These costs 
break down as follows: Other Hardware Costs of $9.539 million to 
procure hardware updates to the test set to support the new SINCGARS 
RT-1523G model and address obsolescence sustainment issues, Embedded 
Global Positioning System (GPS) Receiver (EGR) enhancements, and 
installation kits for the 6,409 radios to support increased vehicle 
density per Department of the Army direction. The other $48.05 million 
in OCO is required for Total Package Fielding (TPF) costs that are used 
primarily to cover the costs of 220 Field Installers through FY12.
    The Administrative costs of $4.9M are covered in the Base Budget 
and not the OCO budget request. The $4.9M is for engineering and 
programmatic support, coordination of Engineering Change Proposals 
(ECPs), technical manual updates, safety assessments, software and 
hardware enhancements and program support.

                      JOINT TACTICAL RADIO SYSTEM

    Mr. Visclosky. And the Joint Tactical Radio System would be 
fielded in 2015, did you say?
    Mr. Geren. 2015. That is the current plan.
    Mr. Visclosky. And there is still a competition ongoing for 
that as you work through?
    Mr. Geren. That is still in the development phases.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Murtha. Mr. Kingston.

                         FORT STEWART, GEORGIA

    Mr. Kingston. Thank you, Mr. Chairman. General, Mr. 
Secretary.
    Mr. Secretary, I wanted to talk to you about something a 
little more provincial, but you and I have had several 
conversations about Fort Stewart. And I wanted to go through 
that, because I do think that we have done a terrible injustice 
to the community in Hinesville, Georgia, where Fort Stewart is 
located. And I want to walk you through some of these things. 
But basically, as you know, the announcement was made from BRAC 
that there would be two new brigades coming to Fort Stewart, 
Fort Carson, and Fort Bliss, and that the community needed to 
get ready for it.
    And just to underscore that that was not a whim--and I know 
you know that--but for the record, December 19th, 2007, the 
Vice Chief of Staff of the Army, General Dick Cody, said two 
infantry brigade combat teams will go to Fort Stewart. On 
December 19th, 2007, my office, along with Senators Isakson and 
Chambliss and Congressman Barrow made the announcement as well. 
January 2nd, 2008, the AUSA News said that Fort Stewart would 
be getting two new brigades. April 3rd, 2008, in Army.com, 
23,000 soldiers would be coming there in 2011; 27,000 by the 
end of that year. November 14th, 2008, General Cucolo said a 
brigade will be on its way to Fort Stewart. January 25th, 2009, 
General Cucolo to the Hinesville, Liberty County Chamber of 
Commerce: Get ready, be prepared, because they are coming. 
January 26th, 2009, General Cucolo said the brigade will bring 
service jobs and--well, excuse me, bring service, and jobs are 
on the way. Where we need help, ``we'' being the Army, we need 
help in family housing. We need family housing for all ranks. 
February 15th, 2009, Colonel Todd Buchs: We are getting ready. 
We have $400 million in projects coming.
    These announcements were not casual announcements. They 
were not infrequent. They were very frequent. And they were 
done by people in authority, not by somebody, you know, not by 
politicians just trying to sound good to the people back home.

                 COMMUNITY INVESTMENT FOR FORT STEWART

    As a result, this committee put in $154 million in MILCON 
for Fort Stewart in 2008 and $372 million in 2009. And in fact, 
without the new brigade we will have an excess capacity of 800 
rooms down there, 800 rooms and barracks. The local city, the 
municipality, has put in about--and I am counting about $38 to 
$39 million in public works for schools and roads, and 
similarly, the private contractors have put in about $74 
million in excess houses.
    Now, actually, the real numbers are a lot bigger than this. 
But what I asked them to do is tell me where you are really out 
there. If you were expecting 10 people for dinner and only 8 
showed up, I only want to figure out where are the two extra 
plates. So do not tell me about the whole thing, because some 
of this is going to be absorbed because of normal growth. And 
Fort Stewart has grown.
    I have really tried to focus on what did you do that you 
would not have done. But to give you an example, I think this 
statistic really says a lot: 2008, when housing was flat in 
Georgia as around the country, this city, this small community 
of 60,000 people, issued 634 housing permits. Nobody was doing 
that. Banks made loans and developers invested in property, and 
they all did it because we instructed them to do it.

             ADDITIONAL UNITS AND MISSIONS FOR FORT STEWART

    So I have a number of questions here. You know, I guess the 
first thing is, is there anything that we can do to compensate 
these folks? Another question is, are there other missions that 
we can bring there? And how seriously is the Army considering 
putting in some other missions? And keep in mind, the Army will 
have excess capacity here. It is not just, oh, we feel bad for 
the community, but we have overbuilt. And should the community 
be expecting it?
    And perhaps the central question is to our constituents 
back there: Are they dangling on a limb right now, hoping that 
something is going to happen, or are they actually in a free 
fall and we need to go ahead and tell them they are in this 
free fall and they need to go ahead and decide that they need 
to declare bankruptcy if they are a developer, or that these 
loans are going to go bad if they are a banker? Are we giving 
them additional disservice and false hopes thinking that 
something can happen that we are scrambling around?
    So you and I have had many conversations. You have been 
very sensitive to this. You have visited it yourself. The 
Chairman has been down there. He knows how patriotic the 
community is. But it is not just Hinesville, because I know 
Fort Drum actually had this situation several years ago, and I 
was told they did not get prepared because they did not believe 
the Army, and then they did get additional troops. I am not 
that familiar with Fort Drum, but that is one of the things I 
have heard. But all communities are going to be watching this, 
not just Carson and Bliss and Stewart. You know, if a town 
overbuilds and the Army does not deliver, why would you take 
the Army for its word next time?
    Mr. Geren. Well, you and I have had many conversations 
about this, and I appreciate the opportunity to discuss it 
again. Nobody could have been a more forceful advocate for the 
community of Hinesville than you have been. And I respect that, 
and I appreciate that. The community has gone out on a limb. 
The people of Hinesville, they love the military. We did 
encourage them to step up, because we wanted every installation 
that was going to grow to be ready to accommodate the families 
and have schools for the children. And what you read is an 
accurate depiction of what happened. We strongly encouraged, 
and Hinesville stepped up. And it is not a big community; as 
you noted, 60,000 people. That is a huge investment for a 
community the size of 60,000 people. And we want to look at 
ways to mitigate that impact.
    I cannot tell you right now how we will do that. You know, 
over the time ahead there are decisions that are made that move 
resources around, move people around. The end strength of the 
Army is not going to shrink. The end strength of the Active 
Duty is going to stay at the same levels that we had before the 
decision regarding those brigades.

                  REDUCTION IN NUMBER OF ARMY BRIGADES

    We were all surprised by that decision to cut the number of 
brigades from 48 to 45 in the Active component. And we want to 
work with you and figure out ways to mitigate it. I cannot lay 
out a game plan for you right now. But I look forward to 
continuing to work with you. And again, you have forcefully 
advocated for your community in this regard. The community did 
lean very far forward to accommodate soldiers and families, and 
we appreciate that. And we want to do what we can to mitigate 
the negative impact. In fact, I had a conversation with the 
Chairman about this matter as well.
    Mr. Murtha. Mr. Bishop has a question.
    Mr. Bishop. Would the gentleman yield?
    Mr. Kingston. Yes. And I wanted to also say, Mr. Secretary, 
Mr. Bishop and I have worked closely on this, as has 
Congressman Marshall and Barrow and our Senators. So this has 
been a Georgia delegation issue. But I know in the other States 
they are doing the same thing. And so this has got a high level 
of emotion right now and involvement.
    Mr. Bishop. A very high level, particularly since BRAC and 
the Army's plans are going to impact Fort Benning, which also 
is connected with the 3rd I.D. But I wanted to ask whether or 
not this decision, if you know, was budget-driven.

             DECISION TO REDUCE THE NUMBER OF ARMY BRIGADES

    Mr. Geren. No, it was not. Secretary Gates made the 
decision to go from 48 to 45. In fact, the immediate budget 
impact is not significant. The Secretary made his decision in 
order to increase the number of personnel that would be 
available to fill the 45 brigades that are remaining. It was 
his decision. The term he used was ``thicken.'' He wanted to 
thicken the supply of personnel that would be available for 
those.
    Mr. Bishop. This is the dwell time and training in existing 
brigades as opposed to establishing some new ones.
    Mr. Geren. That is right.
    Mr. Bishop. It was not budget-driven?
    Mr. Geren. It was a policy decision on the part of the 
Secretary. He talked with us, with the chief and me, at length 
about the issue.
    Mr. Bishop. What is the fiscal impact going to be? How much 
money will be saved?

                 ASSISTANCE FOR FORT STEWART COMMUNITY

    Mr. Murtha. The time of the gentleman has expired. Let me 
say this to both you gentlemen, and Mr. Barrow and Mr. 
Marshall. We are going to work this out. What you laid out 
happens occasionally throughout the country. Working with the 
Army, we are going to find out exactly what was spent, we are 
going to find out exactly if they can put more troops in there 
and mitigate it that way. If they do not, then we are going to 
find a way to reimburse the community for what they did at the 
urging of the military. I mean, this is unacceptable to us. And 
we do it all the time.
    So I would like to have done it in the supplemental, but we 
just do not have enough information this soon. The trouble is 
our bill is not going to be passed probably until October 1st, 
and your folks will have to hang on. Now, the Army will make a 
decision here shortly about some of these other things. But we 
are going to work with you and with them. And we are going to 
work this out, no question about it. You can assure the folks 
down there that legitimate expenses are going to be taken care 
of, because it was not their fault; it is because the Army 
urged them to make these expenditures, and we are going to take 
care of it.
    Mr. Kingston. Thank you, Mr. Chairman. Mr. Secretary.
    Mr. Murtha. Mr. Moran.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Moran. Thanks, Mr. Chairman. And I think both witnesses 
know the high regard we have for them. And it is great to see 
you, General Casey, and Pete. We are sorry to see you leave, 
really.
    I do have a problem, though, with an issue that I just 
cannot justify in my mind, or fiscally, or anything else. And 
that has to do with the BRAC decision. And what I would like is 
a candid response. You know, nothing diplomatic, just 
straightforward. And I know you are both capable of doing that. 
But the problem is that the costs to implement BRAC have 
increased to $32 billion. It is a 50 percent increase over what 
we were told would be the cost. The savings are less than half 
of the savings we were told would be achieved. And in fact, 
there are 230 locations around the country that are scheduled 
to be completed only within the last 2 weeks of the statutory 
deadline. So 230 relocations and they are going right up to 
2011. I think we know it is impossible for them to truly meet 
those deadlines.
    Now, we have a particular problem in the back yard of the 
Pentagon. We had 20,000 workers, some of them within walking 
distance of the Pentagon, but all of them at Metro stations, 
public transit stations. Many of them lived in those high-rises 
near the Pentagon. They worked in offices that they could go 
across the street to. They were right at a public transit 
station; 20,000 of them are being moved to a place where there 
is no public transit, primarily to Fort Belvoir. And your Army 
Corps of Engineers has said that this move is going to cause a 
3- to 4-hour back-up each morning and each evening.
    Now, that does not make sense to me, and I would like to 
get a candid response from you as to why we continue to go down 
this path. And it is right in the back yard of the Pentagon.
    Mr. Geren. The reason we continue to go down this path is 
the BRAC law. And we are committed to getting these projects 
completed by the fall of 2011. And it is going to be a 
challenge. We feel like we are on track, but it is going to be 
just barely making it under the wire. And the funding that we 
have this year, it absolutely has to be received on time. We do 
not have any margin for error now.
    Mr. Murtha. Mr. Secretary, where did they get the cost 
estimates? For instance, when they said they were going to move 
Walter Reed, they said $200 million, $300 million. It is now 
well over $2 billion. Where did the cost estimates come for 
BRAC? Didn't they come from you folks?
    Mr. Geren. The cost estimates were generated by all the 
services. They were generated back in, I guess, 2003, 2004, as 
they prepared for the BRAC. They were internally generated.
    Mr. Moran. Pete, do you think it makes sense to take 20,000 
people away from public transit and stick them down someplace 
where it is going to cause a 3- to 4-hour congestion, where on 
the very roads that every Federal--most Federal employees have 
to travel every single morning? It is going to delay everybody 
3- to 4 hours every single day of every workday.

                TRANSPORTATION PROBLEMS AT FORT STEWART

    Mr. Geren. I was not around when the decision was made. I 
never understood the decision to move so many people from this 
urban center down to Fort Belvoir. And as you have been 
personally very involved in trying to address the 
transportation concerns, we have worked to try to mitigate it 
somewhat by moving some of them in other locations by expanding 
the definition of Belvoir. But there is no doubt the 
transportation network is not sufficient to support the size of 
this relocation down there. It is going to be a very 
significant traffic problem for a long period of time.
    Mr. Moran. But yet we continue down this path. And what the 
Army did do to relocate on Interstate Highway 395 without any 
exit ramp is going to further complicate the problem. And the 
Army will not build the roads because it says, rightfully, that 
it is not just the Army being served by these roads, it is 
other agencies, intelligence agencies, and so on. So the Army 
will not take responsibility for fixing the transportation 
problem.
    Mr. Geren. No. We have been in extended discussions with 
the county and with the State, as you know. And you have been 
involved in that. And at the present time the infrastructure 
will not support this additional growth without significant 
impact on the travel times for people in that entire region. It 
is going to be a very significant transportation challenge for 
a long time.
    Mr. Moran. The Corps of Engineers is going to tell us, we 
told you so. We told you it could be 8 hours every day of back-
up. And we are going to say you told us that; then why didn't 
we listen? I mean I know I am getting tedious on this, but you 
can see it coming, and there is no way to avoid it, and yet we 
continue down this path. I probably used up my time.
    Mr. Murtha. The time of the gentleman has expired. We want 
to be done before we have an 11 o'clock Full Committee. Without 
objection, Mr. Hinchey has one question before he has to leave.

                              OUTSOURCING

    Mr. Hinchey. Thank you very much, Mr. Chairman. Mr. Casey, 
Mr. Geren, thank you very much. I appreciate it.
    I wanted to ask you a question about the outsourcing 
situation. This is a very, very questionable situation that was 
initiated for reasons that were in themselves very 
questionable. But on March 23rd, this Committee sent a letter 
saying that the outsourcing was not working, that it was 
costing more than it was saving, and that it should be stopped. 
I also sent you a letter asking for the same kind of review.

                       OUTSOURCING AT WEST POINT

    We have a situation now, a number of places, but including 
in West Point, resulted in a decision to let 400 public 
employees lose their jobs, while bringing in a private 
corporation from someplace else out of State.
    Mr. Geren. Georgia, I believe.
    Mr. Hinchey. So you have two Government Accountability 
reports issued last year. It is not a matter of where the State 
is. The question is: Is it right to do it? That is the point. 
Not what State the private company is coming from. The question 
is: Is this wrong? And all the indications, all the evidence 
shows clearly that it is wrong. It does not make any sense. And 
this committee has asked that you stop it because it does not 
make any sense.
    So I am asking you now, are you going to continue to engage 
in this and eliminate 400 jobs out of West Point? I am not 
saying that because that is in my district. It is not. But I am 
just concerned about the situation and the way it has been 
carried out. You have been asked to stop it, OMB has shown that 
it does not make any sense, it costs more money than it saves, 
it has been dragged out year after year, and you have been 
asked over and over again to stop it. Are you going to stop it 
with regard to West Point?
    Mr. Geren. Yeah, I am not in regard to West Point.
    Mr. Hinchey. Pardon me?
    Mr. Geren. No, I am not in regard to West Point.
    Mr. Hinchey. You are not going to stop it with regard to 
West Point?
    Mr. Geren. No, sir, I am not.
    Mr. Hinchey. You are going to eliminate 400 jobs at West 
Point?
    Mr. Geren. We began the A-76--let me put it in context. We 
are not starting any new A-76 programs anywhere. We have four 
underway right now, West Point being one of the four. I have 
looked very carefully at the West Point A-76 effort. Based on 
our examination of it, it was conducted in accordance with the 
FAR and with the OMB guidelines. Right now, both of the 
contract awards are under protest. There were two contracts 
that were under consideration: the public works, which the 
award was to a private contractor. The custodial services, the 
government won the award. Both of them are under protest right 
now, so neither of those decisions have been made. But I have 
looked at it very carefully. And I have found no justification 
for terminating it. It has been conducted in accordance with 
the FAR. I can assure you----
    Mr. Hinchey. Allow me to interrupt you. You found no 
justification for stopping something which has been shown over 
and over again to make no sense? It makes no sense for the 
people employed, it makes no sense for the operation where they 
are employed, because the effectiveness and the inefficiency 
drops. And it makes no sense in terms of anything that is 
supposed to be achieved here. The whole thing is seen as a 
failure. And the budget that was passed by this Committee 
eliminates the A-76 program.
    But you are telling me in spite of that, you are going to 
continue to do this because it was set up in a way that--for 
reasons that I do not want to go into detail about, those 
reasons why it was set up, but it makes absolutely no sense. 
But you are telling me that you are going to continue it 
anyway, in spite of the fact that it makes no sense in all of 
those ways?
    Mr. Murtha. Let us stop on that at this point and let the 
Committee take a look at this. This is the first I have heard 
of this, and let's see exactly what we are talking about. One 
of our staffers has been involved in this. I don't personally 
know about it, but we will take a look at it.
    Mr. Geren. One thing, the Committee did instruct us to not 
start any new A-76 programs, and we have abided by the 
directive of the Committee. So we are fully in conformity with 
the requirements of the Committee.
    This A-76 started well before that direction came from the 
Committee. And across all of the services----
    Mr. Murtha. Mr. Secretary, I appreciate what you are 
saying. Sometimes our Members living in a community have much 
better advice. And you, as a Member of Congress at one time, 
know what I am talking about. Let us look into it and see if we 
can work something out here.
    Ms. Granger.
    Ms. Granger. Thank you, General Casey, Mr. Secretary, for 
your service and for being here.
    And, Mr. Secretary, I want to add my words to what Bill 
Young said for the wonderful service you have given.
    I am going to tell you that our folks back home, yours and 
mine, send their best regards. They send their respect and 
appreciation, and that happens every time I am home.
    Mr. Geren. Thank you very much.

                       SUICIDE AND MENTAL HEALTH

    Ms. Granger. We all appreciate what you did as a Member of 
Congress, some of which I take credit for now, and what you 
have done as Secretary of the Army.
    One of the issues you came in to deal with was the health 
care of our service members. And you and I have talked about 
that. I know that you have undertaken a large and broad study 
of suicide and mental health about what is happening. I want to 
ask you, particularly now, do we have the resources? Do we have 
the authority to deal with the problem of suicide and to help 
with prevention? And then, also, what did you find out about 
causes, deployment versus dwell time? What are some of the 
results of the study?
    Mr. Geren. Well, just to begin with your last question 
first, we found that, when you look at those soldiers who have 
committed suicide, roughly a third take place while they are 
deployed; a third of the soldiers have deployed; and a third of 
the soldiers who have committed suicide have never deployed.
    When we examine the individual cases, the typical suicide 
victim is young, 19 to 25. They are male. Often there is some 
sort of drug or alcohol involved, and the majority of them use 
their weapon to commit suicide.
    The factors that are the precipitating events are the same 
inside the service as outside the service. It is relationship 
issues, financial problems, some sort of workplace humiliation. 
But we have to assume that the stress that they are all under, 
the ones who have deployed and haven't deployed, the separation 
from family, the extraordinary stress of an institution like 
the Army after 7-plus years of war, those exacerbate every one 
of those issues.
    If you have a relationship problem, it makes it harder. If 
you have some mental health issues, it makes it harder to get 
help, and it makes a tough situation worse.
    We are working hard to encourage our soldiers to seek help. 
Stigma is a big issue. Stigma is an issue on the outside, and 
it is certainly an issue in the Army. There is a high premium 
on self-reliance. We are working hard to try to break down that 
stigma and get people past that barrier and seek care.
    We are directing much of our suicide-prevention efforts all 
of the way down to the grassroots level, trying to enlist all 
1.1 million soldiers in suicide prevention. We have the 
advantage of being able to force people to take training. We 
are making literally every single soldier in the Army 
participate in suicide-prevention training, not only so he or 
she can see the issues in himself, but to see it in their 
buddies with an imperative to intervene on behalf of your 
fellow soldiers.
    We know there is much that we don't know. There are many 
mysteries still locked inside this issue. With the support of 
this committee, we have a partnership with the National 
Institute of Mental Health. It is a 5-year program. We hope 
this is a groundbreaking research effort. It is a huge one. It 
is the biggest suicide investigation research project 
undertaken by anybody anywhere. It is a $50 million program 
over 5 years. They are going to spin out the information as 
they go and help us better understand it.
    General Chiarelli, vice chief of staff of the Army, is in 
charge of the program across the entire Army, and we are 
working to not just focus on that narrow aspect of mental 
health issues, but build overall resiliency of our soldiers. 
Resiliency training. It is a multifaceted effort. I can assure 
you every senior leader in this department considers it a very 
high priority and thinks about it and works on it every single 
day.

                SHORTAGE OF MENTAL HEALTH PROFESSIONALS

    Right now, it is not a question of resources so much as 
just sustaining this effort. It is hard to hire mental health 
professionals; they are short, particularly in rural areas 
where many of our installations exist. We are using special 
pays and different types of incentives to bring mental health 
professionals into the Army and looking at innovative ways to 
do that.

                             MENTAL FITNESS

    General Casey. If I can just add, the other thing that we 
are looking at is trying to build resilience into soldiers. We 
have been working for about the last year on a program we call 
the comprehensive soldier fitness program. It is designed to 
bring mental fitness up to the same level that we give to 
physical fitness because you can build mental resilience; 
people can build mental resilience much like you can build 
muscle mass.
    About 3 weeks ago I was up at the University of 
Pennsylvania where they are running a program to train our 
sergeants to be resilience trainers, master resilience 
trainers. And it was a remarkable program. There were about 50 
people there, and I said, send me an e-mail; will this work in 
the Army, or is it too touchy feely?
    Almost to a person they came back and said, you have to 
tweak it a bit because this is pretty much designed for 
civilians, but this is exactly what my soldiers need.
    People think that anyone who goes to combat gets post-
traumatic stress. But the fact of the matter is that the 
majority of people who go to combat have a growth experience 
because they are exposed to something very, very difficult, and 
they succeed. Our objective is to give more and more soldiers 
the skills to have a growth experience.
    We will be starting this in July, and I think it will be 
something that will benefit us over the long haul.
    Ms. Granger. Thank you both for that response.
    Mr. Murtha. Ms. Kaptur.
    Ms. Kaptur. I wanted to follow-on on what Ms. Granger was 
questioning about, and thank you, Secretary Geren and General 
Casey, for your work, particularly in this area of neurological 
and psychiatric care, and to urge you on.
    I would like very much, Secretary Geren, for any member of 
this Committee who is interested to have a briefing from the 
Department of Defense on how you have organized this 
department-wide. In other words, I know Ohio fits somewhere in 
this because we have major consortium studies going on with 
Case Western Reserve and with our Ohio Army Guard and Air 
Guard, and the University of Michigan is involved. That is just 
one little part of the country.
    I am interested in how this is organized on a departmental 
level. Can you help provide a briefing? There are so many 
interested Members. Senator Boxer in the Senate had a proposal 
for California. One of their doctors came in here a couple of 
years ago and gave some testimony. But I can't honestly say 
that I understand how you as a department or DOD is looking at 
this whole neuro-psychiatric area. Could you provide that kind 
of briefing?
    Mr. Geren. We would be glad to do that.
    Ms. Kaptur. So we have a comfort level how you have 
designed this within the department.
    Mr. Geren. All of the services are working it, as well as 
OSD. This is a priority across the entire Department of 
Defense.

              ARMY COMMITMENTS FOR SECURITY AND ASSISTANCE

    Ms. Kaptur. I thank you very much. I don't know if Ms. 
Granger would want to join me for that, but thank you.
    This is excellent. Whoever did this, congratulations to 
you. It is sobering.
    I worry about many things. One of them is this: 
``Indigenous governments and forces frequently lack the 
capability to resolve or prevent conflicts. Therefore, our Army 
must be able to work with these governments,'' these 
governments that are incapable, and many times undemocratic, 
``to create favorable conditions for security and assist them 
in building their own military and civil capacity.''
    I have some serious doubts about where we are headed, but 
let me ask you this. In the Afghan and Pakistani situations, 
now you have got the number of Army commitments globally, and 
you have over 100,000 listed for Iraq, today, can you provide 
now or for the record, in both Afghanistan, Iraq and whatever 
we are going to be doing in Pakistan, what other countries are 
involved with us directly, and how many personnel they are 
providing, and how much money they are providing? Is that 
possible?
    General Casey. Sure. Not right now. You are talking about 
the allied countries that are operating with us, what are they 
providing in terms of troop and financial support?

          INTERNATIONAL PARTICIPATION IN IRAQ AND AFGHANISTAN

    Ms. Kaptur. Absolutely. Troops, any kind of logistically 
support, whatever it is, and money; what are we getting from 
them?
    I have a sense, am I wrong, that we are pretty much out 
there alone for the tough duty, for the training of security 
forces, for most of the money?
    General Casey. In Afghanistan, not so much.
    In Iraq, more so.
    Ms. Kaptur. But as we ratchet up in Afghanistan, are others 
joining us?
    General Casey. Certainly not at the level that--I mean, the 
people that are there will stay. They are not ratcheting up at 
the level that we are ratcheting up.
    Ms. Kaptur. I am very interested in those statistics.
    I want to ask you two different questions.
    General Casey, Secretary Gates talks about, we are changing 
from a counterterrorism to counterinsurgency mode. What does 
that mean for Army as you view it?
    And, number two, Secretary Geren, who within Army is 
responsible for energy independence within the department? Who 
thinks about new energy systems, the types of fuels and 
propulsion systems used by the vehicle fleets under your 
control? Who reports? Who is the person within Army? What is 
the structure within Army on the research side? So my questions 
are dealing with counterinsurgency versus counterterrorism, and 
on energy independence, who thinks about that on a daily basis?

                 COUNTERTERRORISM AND COUNTERINSURGENCY

    General Casey. I will give you a short answer, but it is 
not a question that lends itself to a short answer.
    We adopted, in February 2008, a doctrine called Full 
Spectrum Operations, that wherever the Army forces operate 
across the spectrum, we will apply offense, defense, and 
stability operations to seize and retain the initiative and 
achieve our results. And so that is how we are dealing with 
that effort to be relevant to the conflicts that we will be 
dealing with in the 21st century.
    Ms. Kaptur. Say that again for me.
    General Casey. We will apply offense, defense, and 
stability operations. So we have raised stability operations, 
which include training indigenous forces, reconstruction, those 
kinds of things, to the level of offense and defense because 
that is the type of hybrid warfare that we are going to be 
confronting here in the 21st century.

                         SENIOR ENERGY COUNCIL

    Mr. Geren. Quickly on the energy front, I have set up a 
senior energy council in the Army and appointed a senior energy 
executive. Our goal is to lead the department when it comes to 
advances on the proper use of energy.
    We have made some starts over the last couple of years. We 
are buying 4,000 electric vehicles to use on our installations. 
We have four up the hill at Fort Myer. Those 4,000 vehicles 
will save around 12 million gallons of gas over the 6 years of 
their life.
    We are working on developing energy alternatives on our 
installations. We now have about 19,000 kilowatts of energy 
that are generated on our installations out of nonfossil-fuel 
sources; solar, geothermal, heat pumps.
    We have got a plan underway to build, at least compared to 
what is in existence today, the biggest solar panel farm any 
place in the country at Fort Irwin. So we are exploring options 
across the country.
    Up at Hawthorne, we are doing a geothermal partnership with 
the Navy.
    We are building all of our new buildings according to the 
LEEDs standards, silver LEEDs standards.
    Mr. Murtha. Why don't you send the rest of your answer for 
the record? We are very short on time.
    Mr. Geren. We have got a lot of work in that area. And I 
would like to brief you on it.

    The Army is improving its energy security posture and assuring 
access to critical power to a full spectrum of Army missions. Army 
Directive 2008-04 established the term Army Energy Enterprise and the 
Senior Energy Council (SEC) charter was signed by the Secretary of the 
Army and the Chief of Staff of the Army giving responsibility for a 
strategic plan for the Army Energy Enterprise. This plan is the Army 
Energy Security Implementation Strategy (AESIS), which was approved on 
January 13, 2009.
    The Army Senior Energy Executive is responsible for monitoring the 
Army's progress in meeting the goals and objectives of the AESIS and 
reporting such progress to the Army Senior Energy Council (SEC). The 
AESIS encompasses all aspects of Army energy consumption and 
utilization, to include weapon systems. The ASA (ALT) is a member of 
the SEC, along with the G-8 and G-3. The SEC, through the 2-star 
general officer-level advisory board and colonel-level working group, 
links up directly with the offices of primary responsibility throughout 
the Army for the implementation of the AESIS, which includes research 
and development.
    The SEC oversees the Army's energy enterprise that encompasses all 
aspects of energy consumption and utilization to include installations 
and facilities, weapon systems, and contingency operations base camps.
    The Army is making significant investments in energy security and 
through the American Recovery and Reinvestment Act is applying $469M 
toward energy security initiatives.
    Many of our installations have significant renewable energy 
opportunities to include renewable and alternative energy programs, 
smart grid technology, Energy Savings Performance Contract, Waste-to-
Energy, and Waste-to-Fuel demonstrations.
    Addressing energy concerns is also a key to increasing our tactical 
advantage in contingency operations, in particular by reducing our fuel 
requirements. Our investment in the insulation of temporary structures 
and the deployment of smart micro-grid technology will help reduce fuel 
requirements even further, potentially saving Soldier lives.

    Ms. Kaptur. Thank you for your service, Secretary Geren. We 
will miss you.

                        UNMANNED AERIAL SYSTEMS

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    Let me ask you, General Casey, about your vision of where 
we are and where we are going with unmanned aerial systems, 
both in counterinsurgency and in force-to-force situations.
    General Casey. As I mentioned earlier, we are talking about 
being able to operate across the spectrum of conflict, from 
peacetime engagement to major conventional operations, and any 
place in between.
    One of the elements in any place on the spectrum is being 
able to see your enemy with sufficient clarity to target them. 
And unmanned systems, particularly aerial systems, give us that 
capability to a far greater degree than most other systems. So 
they will be a part of our inventory and I think will probably 
increase in sophistication for the foreseeable future.

            COMMAND AND CONTROL OF UNMANNED AERIAL VEHICLES

    Mr. Rogers. Have you resolved the command and control 
aspects with the Air Force?
    General Casey. We are close to doing that. I met with the 
chief of staff of the Air Force probably now a year ago, and we 
agreed that the strategic level belonged to the Air Force and 
that the tactical level belonged to the Army. And it was really 
at the theater level where we had friction. And we asked two of 
our majors at subordinate commands to get together and work out 
an operational concept. They have completed that, and they are 
bringing that to the chief of staff of the Air Force and I. I 
am hopeful here. I know that we have made good progress. I am 
hopeful that we have resolved it.
    Mr. Rogers. It is an on-the-ground situation today, is it 
not, both in Iraq and Afghanistan?
    General Casey. It is. And the deconfliction issues in 
theater now are well-established. My whole time there, I cannot 
recall an issue where we had a problem that caused us to miss a 
target, for example. So the actual practical application in 
theater is taking place effectively. The doctrinal level is 
what needs to be resolved.

                               FIRE SCOUT

    Mr. Rogers. I see. What about the vertical UAVs like the 
Fire Scout, what is your vision for those?
    General Casey. The UAVs that can stand and hover give you a 
slightly different capability than ones that constantly orbit.
    And so there is relevance and need to have a mix of both. 
You'll recall we have a small one that is designed for the 
platoon and company level that looks like a beer keg, but it is 
a vertical hover. I think we will wind up with a mix of hover-
capable systems and orbit systems.
    Mr. Rogers. So you are happy with the Fire Scout?
    General Casey. So far.
    Mr. Geren. And we are developing prototypes for the Fire 
Scout right now. It is in the critical design review this year, 
and the first flight is planned for 2011. But it is certainly 
an area of active work.
    Mr. Rogers. Do you have adequate numbers of UAVs in 
theater?
    General Casey. I believe we do, and the number is 
increasing over time.
    Mr. Rogers. All right. Thank you.
    Mr. Murtha. Mr. Boyd.
    Mr. Boyd. Mr. Chairman, I will be very brief. I don't have 
a question, but I just wanted to say to both of these 
gentlemen, as an old--as a former Army infantry officer, I am 
delighted, and I just wanted to commend both of you for your 
service to this country, General Casey.
    And to my long time acquaintance and friend, Pete Geren, 
thank you for your service to this country.
    Mr. Murtha. Mr. Bishop.

                                SUICIDE

    Mr. Bishop. Let me join Mr. Boyd in thanking you for your 
service, both of you.
    I am particularly concerned with the suicides and what is 
happening with our force. As I understand it, 46 percent of the 
Army's enlisted ranks are between the ages of 17 and 25, which 
places them in the adolescent category medically. Ms. Granger 
asked whether or not you have what you need in terms of medical 
providers to treat mental health with regard to this age group. 
Could you provide the Committee with specific information of 
how many of your providers are trained in adolescent 
psychology, which is this particular age group? Provide that 
for the record, please.

                     POST TRAUMATIC STRESS DISORDER

    The other thing has to do with, General Schoomaker 
testified several weeks ago before this subcommittee, and it 
was emphasized I think to some extent in what you said, 
Secretary Geren, that fractured relationships and not PTSD 
account for the majority of the numerous suicides in the Army.
    I find that very hard to believe. To me, that is almost 
like saying, when an individual is killed by a gun shot or a 
stab wound, that the cause of death is heart failure, which is 
obvious. It seems to me that there ought to have been, and I 
think that there must be some ongoing studies that relate PTSD, 
the impact that PTSD has on relationships, to families. I think 
we asked General Schoomaker to provide us with that 
information, and I don't think the Committee has received it 
yet, of the relationship between PTSD and the fractured 
relationships in families.
    The other thing that I am concerned about is the Army, 
according to General Schoomaker, does not teach or give 
soldiers an opportunity to measure post-traumatic growth or 
lack of growth, so how is it that you have a basis for saying 
that the relationship between PTSD is not directly or 
indirectly related to suicides, and that is essentially what 
General Schoomaker said?
    That is very disturbing to me, and I would like to get some 
more specific information on that because our troops, 46 
percent of them being in the adolescent category, have got to 
be impacted. The medical professionals who have testified 
before our committees from all of the branches, General Casey, 
have indicated, and the researchers, that any soldier who is in 
combat or in that theater for 2 to 3 weeks has been impacted 
and is very likely to have some form of PTSD. That is what the 
medical professionals have said in this Committee.
    General Casey. There is no question that everybody that 
goes to combat gets stressed.
    Mr. Bishop. I am asking about PTSD, not just stressed.
    I get stressed when I drive down the interstate that Mr. 
Moran is talking about.
    I am talking about PTSD specifically.
    General Casey. What I would tell you is that, as part of 
this comprehensive soldier fitness program, one of the key 
elements is an assessment tool that every individual will take 
online, and it will give them direct feedback to themselves 
about how they are doing in different areas.
    And then it will connect them to self-help modules that 
will allow them to work on building resilience in the other 
areas. So we do not currently have a tool to assess, but we 
have built one, and it is being tested right now. And by the 
end of this summer, it will be in use across the Army. I think 
that is a very positive step.

                  SELF-ADMINISTERED MENTAL HEALTH TOOL

    Mr. Bishop. Let me interrupt you because I have some 
serious problems about that because this subcommittee has put 
in several appropriations bills requirements for the pre- and 
post-deployment tests that we require by statute, and that was 
fulfilled by the department by a self-administered assessment 
also, and that was for medical problems. Now do you really 
realistically expect that a self-administered tool online for 
mental illness would be as effective or even more effective 
than one for physical, which we found that to be inadequate?

                POST DEPLOYMENT MENTAL HEALTH ASSESSMENT

    Mr. Geren. When a soldier comes home from a deployment, 
they have a face-to-face interview with a primary care provider 
as well as a post-deployment mental health assessment.
    Mr. Bishop. We know that statutorily they are supposed to, 
but we have been getting information that that does not take 
place unless they fill out this form and then some clinician 
reviews their files and determines that they answered 
affirmatively to certain specific questions; only then will 
they get that face to face contact. That is what we have been 
told.
    Mr. Geren. They don't necessarily have a face-to-face with 
a mental health professional. They have a face-to-face with a 
primary care provider, and they would only have the mental 
health professional if circumstances warranted. And then we 
have another reassessment at 90 to 180 days, and we provide 
them continuing care.
    We are not where we need to be in that regard. I don't want 
to tell you that the solution has been found and the problem is 
solved. We have soldiers that come back with unmet 
psychological needs, and we continue to work to develop 
appropriate responses.
    And your point at the beginning of your comments that PTSD 
unquestionably contributes to strained personal relationships; 
there is no doubt about that.
    [The information follows:]

    Psychiatrists, child psychiatrists, psychologists, social workers, 
and psychiatric nurses provide behavioral health care to our Soldiers. 
All of these providers receive training in child and adolescent 
psychology during their formal education. The Army also provides 
specialized training in the form of child and adolescent fellowships 
for psychiatrists, psychologists, and social workers. Although these 
providers are very highly specialized, most are treating the active 
duty population, rather than military dependents. The Army has 
approximately 47 uniformed child psychiatrists with specialized 
fellowship training in child and adolescent psychiatry, with another 10 
child psychiatrists in training, at any given time. The vast majority 
of the child and adolescent trained psychiatrists are trained in one of 
our two child and adolescent psychiatry training fellowships, either at 
Walter Reed Army Medical Center or Tripler Army Medical Center. The 
Army graduates, on average, five newly trained child and adolescent 
psychiatrists each year. It is important to understand that all adult 
psychiatrists are specifically and formally trained to treat the unique 
18-25 year old age group. The Army has 61 uniformed adult psychiatrists 
and 70 civil service or contractor providers in this specialty area.
    Furthermore, the Army currently has eight uniformed psychologists 
who have completed a two year post-doctoral fellowship in child 
psychology. These fellowships in child psychology are located at 
Tripler and Madigan Army Medical Centers. In addition, the Army manages 
a child psychology fellowship at Brooke Army Medical Center that trains 
civil service psychologists.
    Walter Reed Army Medical Center has a child and family social work 
fellowship, which graduates one or two providers per year. The Army 
currently has 13 military and two civil service child-trained social 
workers.
    Even with a focus on active duty Soldiers, there are insufficient 
uniformed and civilian adult psychiatrists to support the 18-25 year 
old age population. The Army is attempting to attract and retain 
civilian psychiatrists and psychologists to help meet the increasing 
demand for psychological health services. Unfortunately, OPM's hiring 
policies limit the ability for Army hospitals to compete for these 
specialists. The salary caps and salary restrictions for hiring 
graduating medical professionals limit the Army's ability to 
effectively recruit and retain qualified professionals. These rules 
should be reviewed and updated to allow the DoD to compete in the 
medical professional labor market.

    Mr. Murtha. The gentleman's time has expired.
    Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you for your service and 
your understanding.
    Please don't underestimate the stress, and I know you 
don't, and I know you come to this Committee and say, you will 
take care of the soldiers, and thank you for doing that. It is 
going to be a problem.
    My father is a World War II veteran who survived it with 
his mind.
    And I had an uncle who lost his mind. Didn't know until--he 
came home looking well, and 60 days later, he spent the next 30 
years in military hospitals because of stress.
    So we are here to help you on that. I don't want to sweep 
it; I want to be there for them in the theater and when they 
leave with this committee and chairman and ranking member. We 
support that effort. Just know that.

                                STRYKER

    I want to talk about the Stryker just a bit. This committee 
and the Congress has given you well, and it has performed well. 
There were additional Strykers in the supplemental as well as 
in the 2010 budget some upgrades for safety and security.
    What is the way forward for the Stryker program? How will 
it fit as we go to Afghanistan? The MRAP light is going to be 
part of some of that. The terrain is different. I know we are 
rushed for time. I would like to see how it fits and how we are 
going to prepare ourselves for Afghanistan?
    General Casey. With respect to Afghanistan, the first 
Strykers have actually arrived in Afghanistan, and so they are 
moving there right now.
    As we look to the future, one of the things that strikes 
us, and I think we all intuitively know it, the thing about the 
future is we never get it quite right. No matter how hard we 
try, we never get it exactly right. So we need to build a 
versatile mix of forces. And we think we need a mix of heavy 
forces, Strykers and infantry forces, infantry forces probably 
mounted on things like MRAP ATVs. So between those three kinds 
of systems, we think that we can give the Nation a very 
versatile Army that can respond any place on the continuum.
    Now, as we are looking through the Quadrennial Defense 
Review, we are looking hard at whether we need to increase the 
number of Stryker brigade combat teams that we have in the 
Army. My inclination is that we do. It is a very capable 
system. And again, it fills a middle weight place on the 
spectrum of forces that we have. So we are looking at it hard, 
and we haven't made any decisions, but that is the direction we 
are leaning.
    Ms. Kilpatrick. Is the Stryker a candidate for the man-down 
vehicle?
    General Casey. Probably not because it is not a fighting 
vehicle. It is a troop carrier. It is a networked troop 
carrier, and that is a good thing, but it is not a vehicle that 
you can fight your way down the main part of Baghdad.

                   MEDICAL EVACUATION IN AFGHANISTAN

    Ms. Kilpatrick. When the Secretary came, he talked about 
evacuation. From Iraq, it is an hour with the capability of 
lifting out and getting to a hospital before bringing them to 
some of the more secure facilities. Afghanistan, it is a couple 
of hours. Why the difference, and can we improve it and save 
more lives?
    Mr. Geren. We are working to improve it. The Army has been 
working with the Secretary over the last few months. Dr. Gates 
has given a very clear directive to the theaters that there 
should be parity between the two theaters. We are moving 
helicopter assets into Afghanistan to get the numbers 
comparable. It is trained personnel. It is helicopters, and it 
is also battlefield geometry. You have certain challenges that 
come with the terrain and the altitude in Afghanistan. But our 
commitment is to have the same standard both places, and that 
is 60 minutes. That is our commitment, and we are working to 
achieve that. We feel very strongly about it, and we are doing 
everything possible to get there.
    Ms. Kilpatrick. Do you have the resources to get that done?
    Mr. Geren. We do. The resources are moving into theater 
right now. We have some bridge resources. We have worked with 
all of the services; Navy as well as the Air Force, have 
provided some bridge resources to support it. 82nd CAB is there 
now. We have everything underway to achieve that.
    Our commitment is that it doesn't matter which theater you 
are in, you are going to receive the same type of support when 
it comes to medical evacuation.
    Mr. Murtha. Mr. Dicks.

                    ONLINE MENTAL HEALTH ASSISTANCE

    Mr. Dicks. I just wanted to say that I very much strongly 
support what General Chiarelli is doing with this online 
operation. I think this is something worth examining. I think 
especially for people in rural areas, the Guard and Reserve, 
when they come back, I can even see a situation where people 
could use it in the country and go online if they are having 
problems. Maybe this will help overcome the stigma issue. I 
think this is worth examining. We have been strongly supporting 
it.
    Mr. Geren. Thank you.
    Mr. Murtha. The Committee is now adjourned.
    [Clerk's note.--Questions submitted by Mr. Rothman and the 
answers thereto follow:]

            Warfighter Information Network-Tactical (WIN-T)

    Question. Secretary Geren and General Casey, in the FY 2010 Defense 
Budget, the Office of the Secretary of Defense directed a $193 million 
funding reduction, and a two and a half year delay, to the Warfighter 
Information Network-Tactical (WIN-T) Research and Development program, 
yet on April 16, 2009, in a speech at the Army War College, Secretary 
Gates stated, ``the connectivity of the WIN-T will dramatically 
increase the agility and situational awareness of the Army's combat 
formations. And we will accelerate its development and field it, along 
with proven FCS spin-off capabilities, across the Army.'' Can you 
explain the apparent discrepancy in Secretary Gates' statement and the 
budget request?
    Answer. The Army cannot provide any insight into the apparent 
discrepancy. WIN-T capability is important to the Army, and we 
routinely engage OSD and Congress to provide information regarding the 
progress of the program and funding requirements.

       Single Channel Ground and Airborne Radio System (SINCGARS)

    Question. Secretary Geren, I suspect we'll hear more about the 
Joint Tactical Radio System (JTRS) in the coming months as programs 
begin to deliver capabilities for test and evaluation. In the meantime, 
what's the status of the last major Single Channel Ground and Airborne 
Radio System (SINCGARS) acquisition?
    Answer. The government awarded the SINCGARS contract to ITT 
Communications Systems (teaming with Thales Corporation Inc.) on June 
4, 2009. The procurement includes the purchase of 56,525 receiver-
transmitters required to satisfy the Army Acquisition Objective of 
581,000. The procurement includes 44,496 ``F'' model SINCGARS (fixed 
COMSEC devices) and 12,029 ``G'' model SINCGARS (offering programmable 
COMSEC and Software Communications Architecture (SCA) compliance). 
Deliveries of the ``F'' model will begin in December 2009 and deliver 
at a rate of 3,625 receiver-transmitters per month through January 
2011. The ``G'' model deliveries will begin in January 2011 and 
continue through April 2011. This schedule allows necessary lead-time 
to fully qualify the ``G'' model radio to Army specified requirements, 
satisfy the Army Campaign Plan, and prevent production breaks.

    [Clerk's note.--End of questions submitted by Mr. Rothman. 
Questions submitted by Mr. Tiahrt and the answers thereto 
follow:]

                       Aerial Common Sensor (ACS)

    Question. The Army is now briefing a new acquisition strategy for 
the Aerial Common Sensor (ACS) program, which focused on bringing near-
term, affordable solutions quickly to the battlefield. Can you describe 
for the committee your plans to acquire and field the ACS system? Why 
is a turbo-prop the right solution for the Army? When do you expect to 
have a Request for Proposal and contract award?
    Answer. The decision to restructure the ACS program to a turboprop 
solution is based on Secretary of Defense guidance, lessons learned 
from current overseas operations, and Army budgetary guidance. The 
primary ACS mission is now supporting Irregular Warfare (IW) and direct 
support to Brigade Combat Teams.
    The Program Manager, ACS will award two Technology Development (TD) 
contracts to competing industry partners. Engineering activities 
throughout this phase will culminate in the execution of a Preliminary 
Design Review and the development of flying system prototypes. The Army 
will own the system prototypes by fiscal year (FY) 2012 and may conduct 
a field operational assessment. The program released a draft Request 
for Proposal (RFP) for the TD phase activities on July 1, 2009 and is 
preparing for a Materiel Development Decision and final RFP release in 
early FY10. Contract awards are planned for the Second Quarter FY10. 
After completion of the TD phase, a single contract will be awarded for 
the execution of the Engineering and Manufacturing Development (EMD) 
phase. Three EMD systems will be developed and operationally tested by 
FY15, followed by a Milestone C, Low Rate initial Production decision 
in FY16. Fully production compliant and tested ACS systems will begin 
fielding in FY17.
    The aircraft performance required to support IW missions differs 
from the performance needed in the original ACS effort. As a result, 
the aircraft's range, altitude and endurance are reduced. This new 
flight profile allows for a turboprop solution; a less expensive 
platform. Additionally, the turboprop flight characteristics will 
better enable on board sensors to support IW. The primary sensors 
optimized to support IW missions include: communications intelligence 
collection and location of modern signals; ground moving target 
indicator sensor detection and location of vehicles and dismounted 
targets; and electro-optical/infrared imagery.

            Warfighter Information Network--Tactical (WIN-T)

    Question. There appears to be a lack of funding in the Army budget 
for the Warfighter Information Network--Tactical (WIN-T). As you know, 
WIN-T is the Army's broadband wide area mobile network serving tactical 
command posts from Theater down through Company level. I am told that 
the lack of this funding will result in a three-year delay in the 
program. In a speech at the Army War College in April, however, 
Secretary Gates called for the acceleration of WIN-T. Can you reconcile 
the budget request and Secretary Gates' statements?
    Answer. The Army cannot provide any insight into the apparent 
discrepancy. WIN-T capability is important to the Army, and we 
routinely engage OSD and Congress to provide information regarding the 
progress of the program and funding requirements.

    [Clerk's note.--End of questions submitted by Mr Tiahrt. 
Questions submitted by Mr. Kingston and the answers thereto 
follows:]

                        BCT Stationing Decision

    Question. The Hinesville community did not ask for an additional 
brigade; however, community leaders responded to the Army's insistence 
to aggressively build in time to accommodate the additional troops. 
This decision will undoubtedly lead to overinvestment in Liberty 
County. This rural community of 60,000 has overextended itself and 
overbuilt. To that end, we would like to ask the following questions:
    As part of the Army's transformation and growth, additional combat 
support units are being stood up. Did the Army consider stationing 
additional support units at Fort Stewart when it decided not to 
establish the 46th brigade at Fort Stewart? What types of units were 
considered?
    Answer. The Army did not consider stationing additional support 
units at Forts Stewart, Carson, or Bliss when the decision was made to 
stop at 45 brigades. The Army was already at its authorized end 
strength, currently 547,400, and had stationed those units as part of 
the Grow the Army Stationing Plan in December 2007.
    Question. On June 2nd the Army announced White Sands Missile Range, 
New Mexico was also identified to no longer receive a Brigade Combat 
Team (BCT). The brigade planned for White Sands was coming from Germany 
in 2013. What is the current stationing plan for that brigade?
    Answer. The restationing of two Heavy BCTs scheduled to return from 
Europe in FY12 and FY13 is being examined as part of the ongoing 
Quadrennial Defense Review, which will reassess the global force 
structure end state for all the Services.
    Question. If the brigade growth is stopped at 45, will those 
brigades be better manned? What permanent increase in soldier strength 
should the brigades currently stationed at Fort Stewart expect to see?
    Answer. The decision to stop the growth of the Army at 45 brigade 
combat teams (BCTs) was to ensure that the Army has fully-manned, ready 
to deploy units. The Army has more documented and undocumented 
requirements (jobs) for Soldiers than the Active Component 547,400-
Soldier Army can currently fill. By removing three Brigade Combat Teams 
from the program in fiscal year (FY) 2011, the Army is estimating the 
removal of approximately 10,300 requirements, allowing those associated 
Soldiers to be used to offset requirements existing elsewhere in the 
Force. In FY11, this will allow the Army to improve manning levels of 
next-to-deploy units regardless of their location, much sooner than we 
are currently able.
    The population growth at Fort Stewart published in the June 2, 2009 
Army press release reflected the combined growth of both Fort Stewart 
and Hunter Army Air Field (HAAF). The published fiscal year (FY) 2013 
population of 24,970 was based on the Fort Stewart/HAAF growth reported 
in the December 17, 2007 Grow the Army report (28,470) minus a typical 
Infantry Brigade Combat Team (BCT) of 3,500 military. This growth only 
included Army military, Army students, and Army civilians--not all 
population increases (i.e., other military, transient military, other 
civilians, contractors). The April 30, 2009, Army Stationing and 
Installation Plan shows the FY13 growth at Fort Stewart at 22,592 and 
HAAF at 5,923, for a total of 28,515 for Army military, Army students, 
and Army civilians. Adjusting this number to reflect the de-activation 
of the BCT in question (3,443) reduces the population to 19,149 at Fort 
Stewart, and no change at HAAF, for a total growth of 25,072. 
Installation population projections will continue to fluctuate based on 
operational needs and force management decisions.
    Question. The lack of dwell time at home between deployments for 
Soldiers has been a continuing serious concern. Since the Army employs 
the force by rotating organizations, primarily combat brigades, what 
impact will having only 45 brigades have on the Army's efforts to 
increase soldiers' dwell time at home?
    Answer: Secretary Gates announced in April 2009 that the active 
Army will grow to 45 BCTs instead of the 48 BCTs as reported in the 
December 2007 Grow the Army plan to Congress. The decision to stop the 
Army's growth at 45 BCTs versus 48 was made to raise the readiness and 
percentage fill of deploying units. This ensures that we retain our 
ability to support future requirements to include rotations to Iraq, 
Afghanistan, and other contingencies. This decision also contributes to 
helping to put an end to the routine use of stop-loss to increase 
deploying units' manning. The Secretary of Defense, in July 2009, 
temporarily increased the Army end strength from its current 547,400 to 
562,400 in 2010 and the authority to increase to 569,000 in 2012. With 
this additional increase we will be better postured to rebalance our 
enabling forces which perform key functions on the battlefield in 
support of our BCTs.
    The decision to stop at 45 BCTs will not have an immediate impact 
on improving BOG-to-Dwell ratios. The end strength growth these three 
BCTs represent will increase individual dwell for those Soldiers who 
would have had to fill the ranks of those units identified for 
deployment.
    Question. It is well understood that one of the great stressors on 
soldiers and families is the short time the soldiers are home between 
deployments or short dwell time. How will the Army increase dwell time 
in the near term? It seems the only two ways to do that is to reduce 
the number of deployments or increase the size of the Army in terms of 
soldiers and brigades that can deploy. This seems to be a problem that 
has not been resolved since 2003. As we expand our commitment to 
Afghanistan shouldn't we reasonably increase the size of the Army and 
be ready for the demand with well-rested and well-trained soldiers?
    Answer. The Army's size and force structure given current and 
project demands, which includes the transitions in OIF and OEF and 
other global commitments, are being examined as part of the Department 
of Defense's Quadrennial Defense Review. In July 2009, the SECDEF 
temporarily increased the Army end strength from its current 547,400 to 
562,400 in 2010 and the authority to increase to 569,000 in 2012. These 
additional forces will be used to ensure deploying units can increase 
dwell time and are properly manned and trained. They will not be used 
to create new combat formations.
    Question. Additionally, we question the Army's press release which 
stated that Fort Stewart would grow from 20,512 soldiers to 24,970 by 
2013. Does this number include personnel assigned to Hunter Army 
Airfield as well? We understand that a significant percentage or that 
growth is projected for Hunter Army Airfield (HAAF) located in 
Savannah, Georgia and not Hinesville. Can you please explain?
    Answer. The population growth at Fort Stewart published in the June 
2, 2009 Army press release reflected the combined growth of both Fort 
Stewart and Hunter Army Air Field (HAAF). The published fiscal year 
(FY) 2013 population of 24,970 was based on the Fort Stewart/HAAF 
growth reported in the December 17, 2007 Grow the Army report (28,470) 
minus a typical Infantry Brigade Combat Team (BCT) of 3,500 military. 
This growth only included Army military, Army students, and Army 
civilians--not all population increases (i.e., other military, 
transient military, other civilians, contractors). The April 30, 2009, 
Army Stationing and Installation Plan shows the FY13 growth at Fort 
Stewart at 22,592 and HAAF at 5,923, for a total of 28,515 for Army 
military, Army students, and Army civilians. Adjusting this number to 
reflect the de-activation of the BCT in question (3,443) reduces the 
population to 19,149 at Fort Stewart, and no change at HAAF, for a 
total growth of 25,072. Installation population projections will 
continue to fluctuate based on operational needs and force management 
decisions.
    Question. Secretary Gates reasoned that by continuing to increase 
the Army's strength to 547,000 soldiers while stopping the growth of 
combat brigades at 45 that this would allow the existing brigades to be 
better manned. This would also minimize or eliminate the use of 
initiatives like stop-loss. With an end-strength of 547,000 would a 48 
brigade Army be undermanned and cause the continued use of stop loss?
    Answer. Regardless of the number of brigade combat teams, the Army 
is committed to phasing out stop loss beginning in January 2010, and 
completely eliminating stop loss by March 2011.
    Question. Fort Stewart has the largest training area east of the 
Mississippi River and no other Army post has the transportation 
infrastructure like Fort Stewart which has nearby a major port and a 
major airfield with railways connecting all critical points. Would you 
characterize Fort Stewart as the Army's most capable and well-equipped 
power projection platform in the continental US? How would you rate 
Fort Stewart in terms of being ready for more missions and ready for 
more forces to be assigned?
    Answer. Fort Stewart has 251,000 acres of maneuver training land 
and over 18,000 acres of impact area with 51 live-fire ranges. Relative 
to the missions that are being placed on Army commanders and the 
distances that our new systems are able to cover, Fort Stewart is 
somewhat limited in the training that can be realistically provided 
because of the size and characteristics of its training land. Although 
the training land is limited, the level of live-fire training 
capability at Fort Stewart still establishes it as one of the Army's 
most important training complexes. The Army remains committed to the 
development and sustainment of Fort Stewart as a major training asset 
and the recent changes in the Army growth posture does not 
significantly reduce the overall training support capability that is 
planned at Fort Stewart. In 2007, we analyzed installations that would 
be capable of activating one of the six Grow the Army Infantry Brigade 
Combat Teams (IBCTs) and Fort Stewart ranked high due to its growth 
capacity, power projection, training, and Well-being for Soldier and 
Families capabilities. It was the combination of all these criteria 
that enabled it to be considered and selected as an installation to 
receive an IBCT. The Army has several power projection platforms within 
the United States that are fully capable and all have different 
qualities.
    Question. Over the past two years, when the Army was pressed to 
mobilize, train and deploy National Guard Brigade Combat Teams from 
Indiana, Texas and Oregon, few posts inside the United States were 
better equipped to prepare these citizen soldiers for the rigors of 
combat. Although the Army may desire to avoid mobilizing National Guard 
units from Army installations, Fort Stewart's great training and 
billeting facilities make it an ideal site (perhaps even preferred 
site) for power projection. The community and the post consistently 
step up to support these efforts. Recently the staff from the Oregon 
delegation visited Fort Stewart and gave rave reviews for the post. 
What could the community do to accommodate these visiting units and 
continue to provide strong support for the Army?
    Answer. Communities may continue to support the Army's mobilization 
mission. Strong partnerships between local communities and neighboring 
Army installations provide a solid foundation to support Soldier and 
Family quality of life and mission preparedness. Additionally, 
community investments increase military value to better posture the 
installation for consideration for future Army stationing actions.
    Question. The 3rd Infantry Division has a modular brigade located 
across the state of Georgia at Fort Benning in Columbus. Where is the 
ideal location for the Heavy Infantry Brigade Combat Team to train? 
Will the joining of the Armor Center with the Infantry Center have any 
effect on this BCT? Would the BCT have to compete for access to land 
and ranges? Could the effects of any current environmental impact 
issues be relieved by relocating the BCT to Fort Stewart until these 
get resolved? Wouldn't it make more sense to re-locate that Heavy BCT 
to Fort Stewart where it can train on the largest training area in the 
eastern U.S. and be next door to an exceptionally capable airfield and 
seaport? Once the environmental impact issues are fully addressed, 
could a BCT from Germany be relocated to Fort Benning?
    Answer. The ideal location for a Brigade Combat Team (BCT) to train 
is at an installation that has growth capacity, power projection 
capabilities, training opportunities, and provides for the well being 
of Soldiers and their Families; the Army has several installations with 
these qualities. Merging the Armor Center and Infantry Center into the 
Maneuver Center of Excellence is mandated by the Base Realignment and 
Closure Commission 2005, and the recommendation was based on their in-
depth analysis of installations within the United States. The training 
land and range capability at Fort Benning will be able to support the 
3rd Infantry Division brigade as well as the Armor Center and the 
Infantry Center once all of the BRAC-related range construction is 
complete. The Army is working with the United States Fish and Wildlife 
Service to mitigate environmental issues at Fort Benning, and analysis 
has concluded that relocating a Heavy BCT out of Fort Benning would 
have minimal impact for mitigating the current environmental issues. 
Whether it would make more sense to relocate the Heavy BCT to Fort 
Stewart would require further analysis. The Quadrennial Defense Review 
has agreed to review the status of the two heavy brigades in Germany. 
One heavy brigade is returning to Fort Bliss in 2012, while the other 
heavy brigade will return in 2013--that is, if the QDR agrees with that 
recommendation. Until a decision from the QDR is made and until the 
environmental impact issues are fully addressed, we do not have a 
projection on whether a BCT could be relocated to Fort Benning.
    Question. What does this say for the next community? What precedent 
are we setting by making these policy decisions?
    Answer. We supported Secretary of Defense Gates' decision to stop 
the growth of Army BCTs at 45. We analyzed criteria that would maximize 
FY09 and FY10 investments, minimize disruption to the current plan, 
minimize community impact if at all possible, and maintain flexibility 
for future force mix decisions. Our final stationing decisions reflect 
the results of analysis and best military judgment. We understand that 
communities have made significant investments which impact the 
community. As partners with the community, we are committed to 
providing critical information as quickly as possible--especially when 
the community may perceive it as bad news. This allows maximum time for 
communities and investors to reassess their investments and make 
necessary adjustments in order to minimize negative impacts.

    [Clerk's note.--End of questions submitted by Mr. Kingston. 
Questions submitted by Ms. Granger and the answers thereto 
follow:]

            Residential Communities Initiative (RCI) Program

    Question. Given the complexities inherent in the Residential 
Communities Initiative (RCI) program and uncertainties in the financial 
markets, shouldn't the Army be focused on getting the best value in its 
service contracts so these technically demanding financial and real 
estate transactions can be completed in a timely and efficient manner?
    Answer. The Army is always interested in obtaining the best value 
for its service contracts; however, best value is a difficult metric in 
the service environment. The Military Housing Privatization Initiative 
(MHPI) program was enacted in 1996, and the associated business 
protocols have matured significantly over the life of the program 
making a deliverables-based, Low-Price, Technically Acceptable (LPTA) 
contract a cost effective vehicle to acquire technical financial 
consulting services. This is based upon several factors to include the 
fact that several consultants have gained significant experience in 
advising the Office of the Secretary of Defense and the Military 
Departments in executing successful privatization programs resulting in 
a pool of well-qualified firms that can perform this mission. To ensure 
that only qualified firms are eligible for award, the Army will require 
all offerors to meet minimum experience qualifications before 
submitting a price proposal. Competition between such top-notch 
experienced companies will be healthy and produce an advisor who is 
qualified to perform the required tasks at the lowest price, thus 
allowing the Army to use any potential savings for other high-priority 
missions. The Army will work to develop a scope of work that will 
provide both a low price and best value in its service contracts.
    Additionally, due to the maturity of the MHPI program and the 
knowledge base of the government workforce, the Army is now able to 
prudently re-balance the tasks performed by its employees and private 
consultants. This ``re-balancing'' of the workforce between the 
contractor community and government personnel has been an emphasis of 
the Congress for some time now.
    ** Since the 9 June HAC-D hearing, and based on further 
coordination with Army Corps of Engineers Contracting Officer, Army 
leadership now recognizes that a ``best value solicitation process'' to 
obtain service contracts in support of RCI is the Army's preferred 
approach. The solicitation process is ongoing, with plans to issue a 
``best value'' solicitation no later than January, 2010.
    Question. Experience within the Department of Defense has shown an 
increased risk inherent with selecting financial advisors based on 
lowest bid. Given this, why is the Army considering deviating from a 
``best value'' model?
    Answer. The Army will not be selecting its financial advisor solely 
on lowest bid. The Army intends to use a Low Price, Technically 
Acceptable procurement strategy as part of the implementation of new 
business processes regarding the use of consultant support. The 
Military Housing Privatization Initiative program has matured 
significantly since its implementation over 10 years ago, and the 
government workforce has become more experienced and better qualified 
to execute these private sector projects. Government program managers 
are more technically capable and accountable for the level of 
contractual support required to execute their duties.
    The Army is now able to prudently re-balance the tasks performed by 
its employees and private consultants and will focus consultant use on 
provision of the real estate financial expertise which is not inherent 
in the Army workforce. By requiring both the public and private sector 
alike to be more diligent about eliminating redundancy, evaluating 
value added, and improving the efficiency of the transactions that we 
manage, the Army will continue to make significant strides in our 
ongoing requirement to be good stewards of the taxpayers' money.

    [Clerk's note.--End of questions submitted by Ms. Granger. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

                             Army Suicides

    Question. Yearly increases in suicides have been recorded since 
2004 and on January 29, 2009, the Army released its 2008 data showing 
suicides among Army troops have increased from 2007 to an all time 
high. At least 128 soldiers killed themselves in 2008; the final count 
likely could be higher because more than a dozen suspicious deaths are 
still being investigated and could turn out to be self-inflicted. The 
new figure of more than 128 compares to 115 in 2007 and 102 in 2006--
and is the highest since recordkeeping began in 1980. The Army's report 
calculates at a rate of 20.2 per 100,000 soldiers--which is higher than 
the adjusted civilian rate for the first time since the Vietnam War. In 
response to the rise in suicides the Army mandated that between 
February 15 and March 15, 2009 all Army personnel received training for 
peer-level recognition of behaviors that may lead to suicidal behavior, 
and intervention at the buddy level.
    However, so far this year the Army has experienced 64 suicides and 
Army officials are also investigating other deaths as possible 
suicides. Specifically, at Fort Campbell, Kentucky there have been at 
least 11 confirmed suicides this year. In response to this the Base was 
closed for three days beginning May 27th to allow commanders to 
identify at-risk soldiers and help them with their mental health 
issues.
    General Casey, Fort Campbell currently leads Army installations in 
the number of suicides this year, with 11 confirmed incidents since 
January, please discuss the situation at Fort Campbell. How many times 
have units at Fort Campbell been deployed to Iraq or Afghanistan and do 
you think that repeated lengthy combat tours combined with limited 
dwell time at home station are major factors contributing to the 
increase in the rate of suicides?
    Answer. Over the past year, the Army has engaged in a sustained 
effort to reduce the rate of suicide within its ranks. This effort has 
included an Army-wide suicide prevention stand-down and chain teach for 
every Soldier; the implementation of the Army Campaign Plan for Health 
Promotion, Risk Reduction and Suicide Prevention; the establishment of 
both a Suicide Prevention Task Force and Suicide Prevention Council; a 
long-term partnership with the National Institute of Mental Health 
(NIMH) to carry out the largest ever study of suicide and behavioral 
health among military personnel; and more than 160 specific 
improvements to Army suicide prevention policies, doctrine, training 
and resources.
    The 101st Airborne Division, Headquarters has deployed three times; 
1st Brigade, three times; 2nd Brigade, three times; 3rd Brigade, four 
times; and 4th Brigade, two times. The 101st and 159th Combat Aviation 
Brigades have each deployed three times. The 101st Sustainment Brigade 
has deployed three times. The 5th Special Forces Group has deployed (in 
six-month rotations) seven times.
    Although I believe that repeated combat tours combined with limited 
dwell time are stressful, and that they may be factors contributing to 
the increase in suicides, that is not entirely clear. Nonetheless, I am 
working to improve unit dwell time to 1 year deployed and 2 years at 
home station for active duty units and 1:4 dwell time for Reserve 
Component units. In October 2008, the Army and the NIMH entered into a 
memorandum of agreement for NIMH to conduct a longitudinal study to 
ascertain, if possible, the causes and risk factors for suicides within 
the Army's ranks.
    Question. General Casey, what resources are included in the FY 2010 
budget request to deal with this dilemma and how will they be used? 
Does the Army need any additional funding to help prevent suicides?
    Answer. The Army Suicide Prevention Program expands access to care 
(behavioral, primary, and substance abuse) through various means: the 
3R's (recruit, relocate, retain) incentives to retain substance abuse 
personnel, increased staff in the Office of The Surgeon General 
(primary care doctors, behavioral health doctors and support staff), 
and expanded operating hours for hospitals and clinics with additional 
clinical substance abuse doctors. The Army is funding new initiatives 
such as Comprehensive Soldier Fitness (CSF) Action Plan to support 
Soldiers, Families, and Army Civilians in an era of high operational 
tempo and persistent conflict. The Army is increasing dwell time to 1:2 
Active and 1:4 Reserve to allow Soldiers more time at home and to 
train. In addition, the Army is funding the Strong Bonds Program, 
investing in research and training (National Institute of Mental Health 
(NIMH), Tele-behavioral Health, Point of Injury Registry, training 
products), suicide prevention program managers to integrate health 
promotion and provide installation suicide prevention, and an 
Integrated Net-Centric comprehensive database.
    The Army base requirements for FY10 Suicide Prevention Programs 
total $29.8 million and the Defense Health Program requirements are 
$45.8 million. The Army continues to review requirements for suicide 
prevention programs but is not requesting additional funding at this 
time.
    Question. Secretary Geren, is this an active duty Army problem or 
are you seeing this in the Army National Guard and Army Reserve as 
well?
    Answer. Suicides occur in all three components of the Army, but the 
Active duty is overrepresented by suicides. That is, to date for 
calendar year 2009, the Active component has comprised 49 percent of 
the Total Army, but represents 60 percent of the Army's suicides. The 
Army Reserve is under-represented for the same period; it has comprised 
18 percent of the Total Army but represents only 11 percent of the 
Army's suicides. The National Guard is within expected parameters; it 
has comprised 33 percent of the Total Army, and represents 29 percent 
of the Army's suicides for calendar year 2009.
    Question. Gentlemen, of the 64 suicides this year, how many of 
these occurred while in theater and how many occurred at home 
installations?
    Answer. We are now at 90 suicides Army-wide for calendar year 2009, 
including the Army National Guard, U.S. Army Reserve, and one cadet. Of 
those, 67 occurred in the United States; 12 occurred in Iraq or 
Afghanistan; and 11 occurred in other areas (including five in Germany 
and three in South Korea).
    Question. The Army's BATTLEMIND training helps prepare Soldiers and 
their Families for the stresses of war, and also assists with the 
detection of possible mental health issues before and after deployment. 
Please explain what services are available to Soldiers in Theater?
    Answer. Combat and Operational Stress Control (COSC) is the Army 
program that provides behavioral healthcare to service members in a 
deployed/operational environment. There has been a robust COSC presence 
in theater since the beginning of combat operations, with over 200 
deployed behavioral health providers in Iraq, and an additional 30 
providers in Afghanistan. Behavioral healthcare assets are deployed in 
support of overseas contingency operations with the following 
organizations: COSC Medical Detachments, Combat Support Hospitals, 
Medical Companies Area Support, and Behavioral Health Sections of 
Brigade Combat Teams.
    COSC units provides full spectrum behavioral healthcare in theater. 
This includes prevention and consultation services, traumatic event 
management, behavioral healthcare and treatment, and stabilization and 
restoration of both Soldiers and units. The restoration units operate 
much like an intensive outpatient program. Mental Health Advisory Team 
reports have demonstrated the necessity of these front line behavioral 
health efforts.
    In addition, Battlemind provides a range of resiliency training 
modules throughout the deployment cycle. Specific tactical tools 
include the Battlemind event driven and time driven psychological 
debriefings. Finally, all deploying behavioral health providers are 
required to attend a one week COSC Course. This course helps to ensure 
that all deploying behavioral health providers receive specialized 
training in battlefield behavioral healthcare.
    Question. The Army and National Institute of Mental Health signed 
an agreement in October 2008 to conduct long-term research to identify 
factors impacting the mental and behavioral health of Soldiers and to 
share intervention and mitigation strategies that will help decrease 
suicides. During this study, which is expected to last five years, what 
aspects of soldier life will be examined?
    Answer. The Army-National Institute of Mental Health Suicide Study 
is a multi-year study that will assess a broad range of aspects of 
Soldier life. Personal factors such as history of suicidal behavior and 
mental disorders, adverse childhood experiences, psychological traits, 
cognitive function, stressful life events, social supports and mental 
health treatment will be assessed via Soldier self-reports. This 
information will be augmented with information gathered from Army 
administrative data sources, and from Soldiers' buddies, supervisors, 
and family members about the Soldier and his/her perceived work 
environment, including unit-level information such as cohesion, morale, 
and leadership, as well as operational tempo measures related to 
deployment and combat. The study will also collect biological specimens 
to examine the relationship between certain biomarkers and the risk 
for, or development of, adverse outcomes such as suicidal behavior or 
mental illness. All data collection will be subject to appropriate 
consent and confidentiality protections.
    A key objective of the study is to identify modifiable risk and 
protective factors associated with suicide, mental disorders, and 
psychological resilience, so that evidence-based recommendations for 
intervention targets can be provided to the Army.

                         Grow-the-Army Brigades

    Question. For the past several years, the Army has been adding end-
strength and equipment in order to form six new infantry brigades, 
bringing the total number of combat brigades to 48. However Secretary 
Gates recently announced a decision to stop increasing the number of 
Army combat brigades at 45.
    What is the impact on the Army, including Army force generation, of 
Secretary Gates' decision to hold active Army brigades at 45, rather 
than growing to 48?
    Answer: Due to wartime operational demands, the Army has more 
requirements for Soldiers than it can fill in the Active Component (AC) 
end strength of 547.4K. By removing three Brigade Combat Teams (BCTs) 
from the program in fiscal year (FY) 2011, the Army is estimating the 
removal of approximately 10,300 requirements allowing those associated 
Soldiers to be used to offset requirements existing elsewhere in the 
force. This reduction should improve individual operational tempo and 
stabilization. The reduction of three BCTs will generally reduce the 
Army's capacity to source BCTs by one BCT per Army force generation 
cycle. In FY11, this will allow the Army to improve manning levels of 
next-to-deploy units much sooner than it is currently able.
    Question. To what extent has DoD and the Army encouraged local 
investment to support a greater military population at the bases that 
were to have received the 46th, 47th, and 48th brigades but now will 
not see additional brigades? To what extent does DoD and the Army 
intend to compensate these communities for these investments?
    Answer. The Army has and will continue to provide the communities 
with the most current information available regarding stationing 
decisions. There is no plan to compensate communities, per se; however, 
their investments increase military value to better posture local 
installations for consideration for future Army stationing actions. The 
Army will still grow to 547,400 as planned and is currently analyzing 
where these Soldiers will be stationed to fill existing unit 
shortfalls.
    Question. What is the status of manning, equipping, and training 
the Grow-the-Army brigades? When will the Grow-the-Army brigades be 
available for combat deployment?
    Answer. Grow the Army brigade (GTA) #1, the 4/4 Infantry Division 
(ID) Infantry Brigade Combat Team (IBCT) became available in FY08; 
GTA#2, the 4/3 ID IBCT began its one year conversion process in March 
2009; and GTA#3, the 3/1 Armor Division (AD) IBCT will begin its one 
year activation process in September 2009.
    The 4/4 ID IBCT (GTA#1) is currently manned at approximately 92%; 
4/3 ID IBCT (GTA#2) is manned at approximately 91%; and 3/1 AD IBCT 
(GTA#3), having not yet activated, is not yet manned.
    The 4/4ID IBCT (GTA#1) has 92% of its equipment on hand; the 4/3 ID 
IBCT (GTA#2) has 95% of its equipment on hand; and the 3/1 AD IBCT 
(GTA#3) is not yet equipped.
    The 4/4 ID (GTA#1) just deployed having completed all necessary 
individual/crew/squad, company, battalion, and brigade level training 
prior to their culminating training event. The 4/3 ID (GTA#2) recently 
redeployed and continues to focus on individual/crew/squad level 
training under the IBCT design, individual professional development, 
and new equipment training. The unit will begin conducting collective 
training in September 2009 with their culminating training event at the 
Joint Readiness Training Center in the summer of 2010; they will deploy 
in 1st Quarter FY10.
    The 4/4 ID IBCT (GTA#1) is currently employed in OEF; the 4/3 ID 
IBCT (GTA#2) is in a reset status, currently focused on individual 
training, and the unit will begin collective training to reenter the 
available pool in the 1st Quarter, FY10; and 3/1 AD IBCT (GTA#3), once 
manned, equipped, and trained, should enter the available pool in 4th 
Quarter, FY10.
    Question. For the past several years, the Army has been adding end-
strength and equipment in order to form six new infantry brigades, 
bringing the total number of combat brigades to 48. However Secretary 
Gates recently announced a decision to stop increasing the number of 
Army combat brigades at 45. Is the necessary equipment for the Grow-
the-Army brigades fully funded?
    Answer. The reduction of Grow the Army by three Infantry Brigade 
Combat Teams was accompanied by funding adjustments to account for the 
reduced equipment requirements. Given continued support of Base and 
Supplemental funding (i.e., continued support of reset for two years 
beyond Operation Iraqi Freedom and Operation Enduring Freedom 
deployments) the Army is on track to provide equipment to the remaining 
Grow the Army force structure.

                               Stop Loss

    Question. There are currently over 12,000 soldiers in the Army, 
Army Reserve and Army National Guard who remain on active duty beyond 
their scheduled separation date as a result of stop loss. To help ease 
the burden of those affected by stop loss, the FY2009 Defense 
Appropriations Act established and funded a new special pay of $500 per 
month for all servicemembers extended by stop loss during FY2009. 
Secretary Geren, Secretary Gates has been quoted several times stating 
that he would like to end stop loss completely. What policy steps are 
being taken to meet this goal?
    Answer. Each Army component has a comprehensive plan to achieve the 
goal of ending the use of Stop Loss, taking into consideration the 
circumstances unique to each component. The intent is to cut the number 
of Stop Lossed Soldiers in half by June 2010, and to discontinue the 
use of Stop Loss by March 2011. The Active Component will begin 
deploying units without Stop Loss in January 2010. Deployment policies 
will be adjusted to permit certain Soldiers to deploy for portions of 
the unit deployment. The U.S. Army Human Resources Command (HRC) will 
provide replacements prior to deployment for Soldiers who will not 
deploy due to insufficient time remaining in service and in-theater 
replacements for losses, dependent on unit strengths, available 
inventory, and projected redeployment dates. Additionally, each 
component has developed and implemented an incentive program to 
encourage Soldiers to extend to complete the deployment. The Active 
Component is using the Deployment Extension Incentive Program, the Army 
National Guard is using the Deployment Extension Stabilization Program, 
and the Army Reserve is using the Designated Unit Stabilization 
Program. The Army Reserve will begin mobilizing deploying units without 
Stop Loss in August 2009. The Army Reserve will implement special pay 
for mobilizing units to assist in stabilizing units for deployment. 
Soldiers in units identified for mobilization who have insufficient 
time to complete the deployment will be encouraged to extend. Soldiers 
who do not commit to complete the mobilization will be transferred to 
another unit until separation, and the Army Reserve will seek 
volunteers in other units to replace these Soldiers. The Army National 
Guard will begin mobilizing deploying units without Stop Loss in 
September 2009. The Army National Guard will adjust mobilization and 
deployment policies, utilize voluntary cross-leveling, and implement an 
incentive program to encourage Soldiers to extend to complete the 
deployment. For those Soldiers who are not extending and their 
projected demobilization date is after their Expiration of Term of 
Service (ETS), they will not be mobilized. Soldiers with an ETS after 
demobilization but prior to the post-mobilization stabilization period 
(90 days post-mobilization) will be mobilized and deployed, but will be 
returned to home station 90 days prior to separation for transition.
    Question. While keeping these Soldiers maintains unit integrity, 
aren't you concerned that this undermines morale?
    Answer. Clearly Stop Loss is an issue with Soldiers and Families 
who are affected. But it appears that the great majority of Soldiers 
understand the need to maintain cohesion and ensure that a fighting 
force that has trained together remains together in combat. Our 
deployed forces reenlist at a higher rate than our non-deployed forces, 
and we have not seen indications that Stop Loss has been a significant 
detriment to morale. However, we recognize that Stop Loss causes a 
hardship for those Soldiers affected, and in March 2009 the Army 
announced the implementation of Stop Loss Special Pay. Stop Loss 
Special Pay provides $500.00 for each month or portion of a month a 
Soldier is held in the Army under Stop Loss authority. The Army's 
intent has always been to end the program as soon as operationally 
feasible to maintain unit cohesion and stabilization without the use of 
Stop Loss. The Army Reserve began deploying units without Stop-Lossed 
Soldiers in August 2009, the Army National Guard in September 2009, and 
the Active Army will begin in January 2010.

                       Quality of Today's Soldier

    Question. The Army admitted recruits in 2005 through 2007 that were 
below standard. Interviews with Non-Commissioned Officers (NCOs) 
revealed that they believe sub-standard Soldiers end up in units and 
cannot be utilized, making it harder on that unit to accomplish its 
mission. In addition, the NCOs indicated that some new recruits are 
unable to pass a physical readiness test. The NCOs feel that the basic 
training course needs to be updated to provide the recruits with the 
skills they will need upon deployment to theater. Essentially, the NCOs 
believe the Army needs to get ``harder'' as new recruits lack 
discipline. In addition, the NCOs feel that their influence to train 
and shape recruits has eroded. Data supports the NCOs assessment of 
overall quality. In June 2003 initial entry training (IET) attrition 
rates were 14.78%. In December 2007 the attrition rate for IET was 
8.49%. General Casey, given the state of the economy and people more 
willing to enlist, will the Army be able to raise its standards back to 
the original levels? Gentlemen, please explain the effect of the poor 
economy on recruit quality.
    Answer. The Army has not lowered its recruiting standards and 
remains committed to ensuring we recruit the best from the available 
pool of qualified volunteers who desire to serve our Nation as 
Soldiers. Every Soldier enlisting and volunteering in the Army is fully 
qualified for the military occupational specialty selected. The affects 
of a poor economy may have a positive impact on quality mark 
improvement.
    Question. General Casey, even though the Marine Corps is growing 
its forces like the Army, the Marine Corps seems to always meet DoD 
quality benchmarks. Why does the Army continue to struggle with this 
issue?
    Answer. The Army's annual recruiting mission is almost three times 
the size of the Marine Corps' mission. The Army's substantial manpower 
demands and recruiting environment--which in previous years yielded 
recruiting cohorts that significantly exceeded the Army's and the DoD's 
recruiting quality standards--have impacted our ability to meet DoD 
quality mark goals for the past five years. However despite these 
shortfalls, we are now experiencing a return to favorable conditions 
and the result is a marked increase in fiscal year 2008 and 2009 
recruit quality. The Army's percentage of new enlisted Soldiers 
considered ``high quality'' with a Tier 1 education (high school 
diploma) increased by 2.1% in 2008. Additionally, recruits who scored 
highly (50-99%) on the Armed Forces Qualification Test (AFQT) increased 
1.6%; and recruits who scored poorly (30% and below) on the AFQT 
decreased 1.2%. The Army is expected to exceed every DoD quality mark 
goal in all components for FY09.
    Question. What is the current percentage of Army recruits with high 
school diplomas?
    a. How many waivers were granted to recruits and what is the most 
common waiver granted?
    b. What is the attrition rate for recruits without high school 
diplomas?
    c. Has the Army performed any analysis on the conduct of these 
recruits? Are discipline issues more frequent in this group?
    Answer. In FY08 the percentage of Regular Army Non-Prior Service 
recruits with Tier I (High School Diploma Graduate) credentials was 
82.8%. As of end of month May 09 Non-Prior Service recruits with Tier I 
(High School Diploma Graduate) credentials was 94.5%.
    In FY08, the Army granted 19,202 regular Army non-prior service 
waivers; the most common granted was for conduct (9,229). Most waivers 
stem from when applicants were young and immature. In considering 
waivers, we look at the applicant's recent history and behavior, such 
as employment, schooling, and references from teachers, coaches, 
clergy, or others who know the person well. We also look for signs of 
remorse and changed behavior. The Army has always had waivers to enable 
otherwise qualified applicants to serve their country. Young people who 
made mistakes earlier in life can change. A one-time incident may not 
accurately reflect an enlistee's character or potential.
    A recent Tier II Attrition Screen (TTAS) report completed by the 
United States Army Accessions Command indicated the Tier II (Non-High 
School Diploma Graduate/Alternate Credential Holder) 36-month attrition 
rate was 33.5% and the Tier I 36-month attrition rate was 20.1% for the 
FY05 cohort.
    The Army is conducting a longitudinal study on recruits who were 
granted waivers for conduct. In general, recruits granted waivers are 
high quality and perform well. Their education and aptitude are higher 
on average. Soldiers who enlisted with a conduct waiver in recent years 
train and perform better than those without waivers initially. 
Indiscipline rates and first term attrition are slightly higher for 
recruits with conduct waivers.

                        Recruiting and Retention

    Question. A key principle of the U.S. Armed Forces is to attract 
and retain competent personal to assure readiness and operational 
effectiveness. The Army has generally met its aggregate recruiting and 
retention goals. In some cases, the Army has lowered recruiting 
standards and increased the amount of enlistment and reenlistment 
bonuses. However, with the deteriorating economy many troops are 
electing to stay in the Army and more civilians are considering 
enlisting in the Army. Recruiting always remains a challenge, but a 
tighter job market provides more opportunities for the Army to appeal 
to young men and women. Many factors other than bonuses are appealing 
to Soldiers and recruits such as: a 32 percent increase in military pay 
since 2001, compared to 24 percent for the general population; the new 
GI bill; and job security. This appears to be a good time to reduce 
enlistment and reenlistment bonuses as well as return standards back to 
higher levels. Gentleman, how have the current economic conditions 
affected recruiting and retention?
    Answer. Recruiting. The economic downturn has had a positive impact 
on Army recruiting in FY09; as a result of the current demand for 
military enlistment, we are now experiencing a return to favorable 
conditions and a marked increase in fiscal years 2008 and 2009 recruit 
quality marks. Additionally, the current environment has allowed us to 
reduce our incentive amounts and the number of occupations that receive 
bonuses. However, we need to retain the flexibility to offer bonuses as 
necessary to attract and retain talent in shortage military 
occupational specialties (MOSs) or to channel applicants into less 
desirable MOSs. We will continue to monitor the trends and make 
adjustments as required.
    Retention. The affects of a tightening U.S. job market have had a 
positive impact on Soldier's retention decisions; the Army easily 
achieved the FY09 mission and has reduced bonuses this year. Challenges 
will remain as the Army continues to attain its end-strength goals.
    Question. General Casey, the Committee remains concerned regarding 
the recruitment and retention for mission-critical occupational 
specialties. Has the Grow-the Army recruitment helped fill the critical 
specialties? If not, what steps are being taken to fill the specialty 
occupations?
    Answer. The Grow-the-Army initiative has had a minimal impact on 
filling critical specialties. The Army is using targeted incentives to 
fill critical specialties. Incentives help the Army channel quality 
recruits to required critical MOSs by offering seasonal and targeted 
bonuses to fill training seats at the right time. The Army also 
recently launched a Military Accessions Vital to the National Interest 
(MAVNI) recruitment pilot which could prove crucial in filling critical 
health care professional shortages.
    Question. General Casey, has the Army analyzed why these 
occupational specialties have consistently been under-filled? What is 
the operational impact of these shortages? Does the FY 2010 budget 
provide the resources that are needed to fill these positions?
    Answer. Yes, the protracted conflict has been a major factor 
impacting our ability to fill critical occupational specialties. These 
shortages have impacted our ability to offer increased dwell time to 
our troops. We believe the FY10 budget provides the necessary resources 
to properly incentivize Recruiting and Retention to increase the fill 
of critical occupational specialties for the Army.

                    Enlistment and Retention Bonuses

    Question. The military services offer a variety of enlistment and 
re-enlistment bonuses to attract new recruits into military specialties 
that are considered ``hard to fill,'' as well as to encourage 
experienced military members in ``shortage jobs'' to stay in past their 
first enlistment period. The Army has more enlistment incentives than 
any of the other military services. Programs include Enlistment, 
Overseas Extension, and Reenlistment bonuses. Bonus levels are in 
constant flux. Secretary Geren, what was the total funding for Army 
recruiting and retention bonuses for FY 2009 and what is the total for 
FY 2010?
    Answer. The total cash bonus funding for the Army recruiting and 
retention bonuses for FY09 are below. Also listed below you will find 
the FY10 bonus funding request.

FY09 Recruiting funding--$544.2M
FY10 Recruiting funding requested--$450.3M

FY09 Retention funding--$486.1M
FY10 Retention funding requested--$444.4M

    *FY09 retention bonus total includes a $140M conference mark 
reduction for recruiting and retention. The total retention bonus 
request was $626.1M prior to the mark.
    Question. Secretary Geren, what is the range of individual bonuses 
for recruiting? For retention? Please indicate why there are 
differences.
    Answer. Recruiting. Recruiting bonuses range from as low as $2,000 
up to the statutory limit of $40,000. Bonuses for skills vary greatly 
depending on shortages in the particular skill and mission 
requirements. As of March 1, 2009, 45 of 149 skills receive a cash 
incentive.
    Retention. The Army uses monetary incentives to retain quality 
Soldiers in critical and hard-to-fill skills as a means to manage and 
shape the force. Bonus amounts are adjusted based on the criticality of 
a specialty. The Army currently uses the following bonuses as part of 
the Army's Retention Program:
    Selective Reenlistment Bonus (SRB). Currently the SRB is used for 
skills identified as critical Army-wide. The program offers from $1K to 
$12K for Soldiers in select skills, while Soldiers in special critical 
skills can receive up to $27K.
    SRB-Deployed. The SRB-Deployed program offers Soldiers deployed to 
Afghanistan, Iraq, and Kuwait up to a maximum of $9.5K.
    Critical Skills Retention Bonus (CSRB). The CSRB currently targets 
seasoned, combat veterans to stay in the ranks beyond retirement 
eligibility offering a lump sum bonus based on the Soldier's length of 
commitment to serve. The program is currently paying Soldiers in 
Special Operations Forces skills a maximum payment of $150K for a six-
year commitment. Six additional skills can receive a maximum payment of 
$50K to $100K for a six-year commitment (the total number of CSRBs 
averages less than 700 per year).
    Question. Gentlemen, have you found any imbalances or inequities in 
your recruiting and retention bonus structure that have been improved 
for FY 2010?
    Answer. The Army has not identified any inequities or imbalances in 
our recruiting and retention bonus structure. The recruiting and 
retention incentives structure is reviewed quarterly to determine if 
imbalances or inequities exist and to correct any problems found. The 
Army makes a concerted effort to target high quality recruits and to 
insure marketing efforts are targeted to diverse populations of 
potential applicants in urban, suburban and rural areas.
    The Army continually measures the effectiveness of retention 
incentives offered and makes adjustments as necessary.
    Question. Gentlemen, since the Army has reached the Grow-the-Army 
end strength goal and more people seem to be willing to join the Army 
because of the state of the economy, does the FY 2010 Army budget 
reflect the current environment?
    Answer. Yes. Recruiting. Through refinement of the Active Army 
enlistment bonus payment schedule, bonuses for specialties that had 
received bonuses during fiscal years 2005-2007 were reduced 
approximately 20% for fiscal year 2009 and 2010. The savings resulting 
from bonus management will be approximately $65M per year through 
fiscal year 2011. Reliance on seasonal bonuses which were required to 
fill short term training seats has been curtailed in favor of building 
a long term Delayed Entry pool. Seasonal bonuses, which previously 
ranged up to $20,000 per new recruit have been cut nearly in half and 
will be used less frequently. These changes will result in nearly $35M 
per year in expected bonus savings in fiscal year 2010 and beyond.
    Retention: The Army continues to measure the effectiveness of 
retention incentives offered. While the economy plays a part in a 
Soldiers decision to reenlist it is not the only reason. The 
reenlistment bonus not only incentivizes Soldiers in shortage critical 
skills MOSs to reenlist; it also encourages them to reenlist earlier 
and for longer periods of service. Accordingly, the Army has steadily 
decreased the SRB amounts paid per Soldier for the past year as 
reenlistments increased. The Army has reduced maximum SRB payments from 
a high of $40,000 to $27,000. The average SRB payment has been reduced 
from $12,900 to $10,387. The Army's newest SRB message reduces bonus 
amounts by 23% across all bonus zones and removes an additional 15 
skills form the bonus list.
    Question. Secretary Geren, at a time when the Army is having 
unprecedented success at retaining its soldiers, especially in view of 
the new, flexible GI Bill and the job security that military service 
holds, has the Army reviewed its recruiting and retention bonus 
program?
    Answer. Yes. Recruiting. The Army, with the assistance of 
researchers from the Research and Development Corporation and the Army 
Research Institute, is working to refine and integrate bonus prediction 
models that will enhance current bonus payment procedures. The goal is 
precision recruiting in key critical skills and demographic areas 
needed to effectively man the force. Existing internal models are also 
undergoing revision to provide more precise and cost savings 
methodology in filling critical training seats and to attract prospects 
in higher mental and educational categories. The Army expects to 
implement the new and refined methodology in late fiscal year 2009 for 
fielding during fiscal year 2010 and beyond. Additionally, the Army 
reviews and adjusts enlistment incentives on a quarterly basis to 
ensure that the appropriate critical military occupational specialties 
are targeted with an appropriate incentive.
    Retention. Reenlistment options and bonuses are used as incentives 
to shape the force. Current incentives are achieving mission success in 
every category. Additionally, the Army reviews and adjusts reenlistment 
incentives on a quarterly basis to ensure that the appropriate critical 
MOSs are targeted with an appropriate incentive. The Army will continue 
to make monetary adjustments to various specialties based on evolving 
requirements.
    Question. Secretary Geren, is the Army going to promote non-
monetary bonuses such as tuition assistance and the new GI Bill?
    Answer. Yes, the Army will promote the new GI Bill, tuition 
assistance, and other non-monetary incentives to the maximum extent 
feasible.

                         Future Combat Systems

    Question. The Army's Future Combat Systems began in 2003 and the 
first FCS equipped brigade was scheduled to be fielded between 2015 and 
2017. The FCS program originally included 18 subsystems. Over time, 
four subsystems were deferred. During the appropriations process for 
fiscal year 2009 the Army decided to shift the focus of technology spin 
outs from heavy brigades to light brigades. Total program cost 
according to the Army estimate is $160 billion. The GAO estimates the 
program cost could be $203 to $234 billion. In the fiscal year 2010 
budget request the FCS program has been restructured, deleting the 
eight variants of manned ground vehicles, and accelerating the fielding 
to all 73 brigade combat teams, of the remaining FCS systems, such as 
UAVs, unattended sensors, unmanned ground vehicles, and the network. 
The Committee understands that despite stripping the manned ground 
vehicles from the FCS program that the Army still intends to field a 
fleet of new combat vehicles within seven years. Please describe the 
process the Army is going through to review the requirement and restart 
the manned ground vehicle effort. What improvements over the current 
FCS manned ground vehicles are needed?
    Answer. The Army seized upon opportunities in re-examining the 
operational requirements, technology readiness, and acquisition 
approach for a new manned vehicle. We formed a special task that 
conducted in-depth analysis of capability gaps and the operational 
environment. The ground combat vehicle (GCV) requirements development 
process considered the full spectrum of operations. We also conducted a 
comprehensive review of lessons learned from seven plus years of war 
including insights from the Marine Corps and key allies. These 
assessments underpinned our revision of the Army capstone operational 
concept as well as requirements definition for a modern GCV. The shift 
from the FCS manned vehicle program included retaining elements that 
were operationally and technologically sound while addressing needed 
improvements. GCV operational design principles include improvements in 
versatility, force protection, and mobility to address the limitations 
of current platforms as well as shortfalls from the FCS manned ground 
vehicle program. The GVC modular design, particularly for armor and 
armaments, provides commanders with configuration and employment 
options, and complements the Army's versatile mix of forces. The GCV 
provides improved force protection to our Soldiers. The first GCV 
increment provides all occupants explosive blast protection equivalent 
to MRAP as well as the ability to observe 360 degrees from inside the 
vehicle. House
    The GCV provides full tactical mobility, able to negotiate the 
confined spaces presented in complex urban terrain, with cross country 
mobility to preclude being restricted to existing road networks. 
Additionally, we included growth potential as an operational 
requirement to facilitate upgrades and adapt the vehicles as new 
technologies become available. This growth potential was lacking for 
some parts of the FCS manned ground vehicle. The Army's GCV plan 
includes the assessment of all combat vehicles (e.g. MRAP, M1 Abrams, 
etc). We will upgrade, reset, divest, and build new combat vehicles as 
part of a holistic vehicle modernization effort that leverages 
investments to date.
    Question. Does the Army's recent experience in Iraq and Afghanistan 
suggest that wheeled vehicles, such as Stryker and MRAP All Terrain 
Vehicles, could be the best solution for an expeditionary force Army?
    Answer. We see Stryker and MRAP vehicles as part of the Army's 
wheeled vehicle fleet for a long time to come. These wheeled vehicles 
provide protected mobility for Soldiers and we have added selected 
technologies where feasible to improve them. However, the size, weight, 
and power limitations for these vehicles makes them only a part of the 
solution, but not the ``best solution.'' Given the volatility, 
uncertainty, complexity and ambiguity of current and future strategic 
demands, versatility is the defining quality that must inform every 
dimension of our Army. This versatility applies at the platform level 
where protection, survivability, mobility, lethality, and sustainment 
all come into play. We are currently working on the operational 
requirements for the new ground combat vehicles to determine the ``best 
solution'' for Army forces. The limitations of current wheeled and 
tracked vehicles are all part of our ongoing assessment. While trades 
will be made as the designs for future vehicle finalize, our goal is to 
modernize the force with vehicles capable of full spectrum operations 
across the entire continuum of conflict.
    Question. The Secretary of Defense has criticized the fee structure 
for the FCS contract for front loading the payment of fee to the 
contractor and for failing to adequately tie contractors' pay to 
performance. How does this budget with the associated restructure of 
the FCS program address those concerns?
    Answer. The Army views the impact of the FCS FY10 budget and the 
direction to restructure the FCS program as an opportunity to enter 
into negotiations to align a fee structure that is in the best interest 
of the taxpayer and eliminates the Secretary of Defense's concerns. We 
will use this new incentive arrangement to drive behavior, to drive 
performance, and reduce risk. We have had high level discussions with 
Boeing, who understands that as the program is restructured, the fee 
arrangement will undergo significant changes.
    Question. With the significantly revised and downsized Future 
Combat Systems program, will the Army continue to use a contractor as 
the Lead Systems Integrator (LSI), or will Army Acquisition 
Professionals assume that role?
    Answer. There is no longer a role for a LSI. The Program Manager 
(PM) has taken contractual actions transitioning Boeing from the role 
of LSI to that of a Prime Contractor. The PM has modified the existing 
contract to implement Acquisition Decision Memorandum direction and 
align with the Army modernization strategy in which the Boeing Company 
will have a diminished role. Boeing will retain network development 
reduced to support only Increment 1 (formally known as Spin Out Early-
Infantry Brigade Combat Team) and the follow-on increment. The 
government will increase technical and program management staff to 
assume a greater responsibly for work under the revised prime contract 
arrangement.

                     War Demand for Aviation Assets

    Question. Discussions of combat units needed for the wars in 
Afghanistan and Iraq usually focus on the brigades that conduct combat 
patrols mounted in HMMWVs, MRAPs, or on foot. However, the Committee is 
aware that the demand for combat aviation brigades has remained high 
and has tested the ability of the Army to meet the demands of the 
combatant commanders. How many aviation brigades does the Army have, 
and how many are required in Afghanistan and Iraq?
    Answer. The Army has 11 Combat Aviation Brigades (CABs) in the 
Active Component (AC) and 8 in the Reserve Component (RC). Two CABs are 
required in Afghanistan and four CABs are required in Iraq.
    Question. What is the combat tour duration for Army aviation 
brigades, end how much home station dwell time is provided between 
combat tours?
    Answer. The combat tour duration, Boots on Ground, for Army 
aviation brigades is 12 months for Active Component Aviation Brigades 
and approximately 9 months for Reserve Component Aviation Brigades. 
Active Component Aviation Brigades average approximately 16 months of 
dwell while Reserve Component Aviation Brigades average 36 months of 
dwell.
    Question. What types and numbers of aviation assets are provided by 
our allies?
    Answer. In Iraq there are no coalition rotary wing aircraft besides 
the Iraqi organic assets. In Afghanistan, our allies provide 79 rotary 
wing aviation assets. These assets are divided into the following 
numbers by types:

    20 <greek-e> CH-47s,
    6 <greek-e> A-129s,
    3 <greek-e> AB-212s,
    13 <greek-e> AH-64s,
    5 <greek-e> SH-3s,
    5 <greek-e> AS-532s,
    2 <greek-e> AS-332s,
    2 <greek-e> EC-725s,
    8 <greek-e> CH-146s,
    7 <greek-e> CH-53s,
    3 <greek-e> Bell 412s, and
    5 <greek-e> Lynxes.
    Question. How does the fiscal year 2010 budget request address the 
need for more Army aviation assets?
    Answer. In its 2010 Aircraft Procurement budget submission, the 
Army is requesting almost $7 billion to address its critical aviation 
requirements. Approximately $5.3 billion is contained with the base 
request with an additional $1.6 billion contained in the Overseas 
Contingency Operations portion of the budget. This combined budget 
request would provide the Army with 83 UH-60M Black Hawk, 39 CH-47F 
Chinook, 54 UH-72A Lakota, and eight AH-64D Apache helicopters. The 
budget submission also includes 36 MQ-1 Sky Warrior and 1,392 Raven 
Unmanned Aerial Aircraft, and six C-12 fixed wing aircraft. Finally, 
the budget requests funds to modify a number of aviation systems to 
include CH-47 Chinook, OH-58D Kiowa Warrior, and AH-64 Apache 
helicopters, the RQ-7 Shadow UAS, the Guardrail Common Sensor fixed 
wing platform, and procurement of aircraft survivability equipment.

                  Requesting and Equipping U.S. Forces

    Question. A U.S. Combatant Commander is responsible for a 
particular geographic region, but the combatant commander does not 
raise, equip, and train forces, rather he receives trained and ready 
units from the Army, Navy, Marine Corps, and Air Force after requesting 
them, by type, through the Joint Staff. General Casey please describe 
for the Committee how the potential war fighting requirements of the 
combatant commanders help shape the budget request that you submit to 
support your efforts in recruiting, equipping, and training Army units.
    Answer. The Combatant Commanders (COCOMs) conduct extensive annual 
reviews with the supporting component commanders (Capability review/
integrated priority list. For example--U.S. Air Forces in Europe, U.S. 
Army Europe, Naval Forces Europe, etc., for European Command). Based on 
the outcome of this review, the COCOMs submit their shortfalls during 
the Program Budget Review to OSD and the Joint Staff, which then works 
with the Services to meet requirements. The Army considers the COCOM 
requirements within the scope of the Army priorities, alongside lessons 
learned from continuous operations. The FY10 budget reflects Army 
decisions that incorporate this input and fields adaptive, trained 
forces to meet the Nation's missions.
    Question. Please elaborate on the process you go through to ensure 
that the right type forces, in the right numbers, are available, 
properly equipped, and well trained. Is the process responsive?
    Answer. The Army continuously strives to design and field the most 
effective force possible across all three components within our 
authorized end strength. We continuously analyze current and 
anticipated requirements for the Army capabilities combatant commanders 
deem necessary to support ongoing operations and successfully 
accomplish the National Security Strategy. Based on this analysis we 
seek to build a sufficient number of organizations of each required 
capability to not only meet but also to sustain employment of those 
capabilities over time in a way that enables the Army to sustain it's 
all volunteer soldiers and professional leaders.
    Total Army Analysis (TAA) is a robust, systematic, cyclical process 
by which we routinely relook at force structure to validate Army 
emerging requirements prioritization and resourcing strategy across all 
three components. While the Army has been progressively adapting since 
the end of the Cold War, it is through TAA that we are able to take 
advantage of what we continue to learn in our current operations, 
leverage emerging technology and continuously adapt to build a balanced 
Army to meet the demands of 21st Century conflict.
    The requirement to generate rotational forces for combatant 
commanders, defend the homeland, and provide Defense Support of Civil 
Authorities (DSCA) led to the 2005 Army decision to shift from a 
tiered-readiness system to a cyclic readiness process, called Army 
Force Generation (ARFORGEN). The Army continues to implement the 
ARFORGEN process to meet the strategic requirements for a campaign-
quality, expeditionary Army, and to preserve the All-Volunteer Force in 
an era of persistent conflict.
    The overarching purpose of ARFORGEN is to provide combatant 
commanders and civil authorities with a steady supply of trained and 
ready units that are task organized in modular expeditionary packages 
and tailored to joint requirements for each specific mission. ARFORGEN 
is inherently more responsive than the tiered readiness because 
operational requirements drive the prioritization and synchronization 
of institutional functions to recruit, organize, man, equip, train, 
sustain, mobilize and deploy units on a cyclic basis. ARFORGEN is 
scalable and can be accelerated based on demand to provide additional 
forces for short periods of time.
    The Army continues to improve the ARFORGEN process to ensure 
Soldiers and units remain prepared to meet the strategic land-power 
requirements of the Nation.
    Question. The Committee understands that in some cases, military 
personnel are assigned to work in mission areas that are not ordinarily 
associated with the usual unit mission. For example you might have an 
artillery unit performing an infantry mission or provincial 
reconstruction mission. Please explain how such manning decisions are 
made and how that information is transmitted to units as they prepare 
for deployment.
    Answer. In-lieu-of manning decisions are made in coordination with 
Combatant Commands, the Joint Staff, Joint Forces Command and U.S. 
Forces Command (Army's force provider) when specific type units are not 
readily available and the in-lieu-of sourcing solution is capable of 
performing the mission. Units selected are manned, equipped and trained 
to execute the missions and tasks outside their core competencies. 
Units selected for in-lieu-of sourcing solutions are notified by the 
Army's force provider via deployment orders. All in-lieu-of units are 
provided the time to be fielded the necessary equipment and to become 
proficient with new equipment training and mission-specific training in 
accordance with the Secretary of Defense approved Latest Arrival Date 
for the specified mission.
    Question. Army units have little time to prepare for operations 
other than counter insurgency. What are your concerns regarding overall 
readiness to respond to potential threats across the full spectrum of 
warfare?
    Answer. As a key component of a very capable joint force, the Army 
remains focused on Counterinsurgency (COIN) operations, but trains for 
full spectrum operations (FSO). Our current operational commitments 
have produced a combat experienced force and our units are also 
beginning to benefit from marginal increases in dwell time at home 
station, thus providing greater training opportunities and we see this 
trend continuing. The Army remains committed to achieving a balanced 
force capable of executing across the full spectrum of conflict and in 
environments including peace operations, peacetime military 
engagements, limited intervention, and irregular warfare all the way up 
to major combat operations.
    Due to the demand from combatant commanders for combat, combat 
support, and combat service support (all Army functions), the Army 
finds itself strategically fixed on operations in OIF or OEF--that is--
our forces are manned, trained, and equipped for those two unique 
operational environments. This limits the Army's strategic flexibility 
and contributes significantly to the overall risk to the National 
Security Strategy. The Army consumes its readiness as quickly as it is 
built and challenges the Army to achieve a 1:2 (Active) and 1:4 
(Reserve) dwell rate by the end of 2011.

                 Armed Reconnaissance Helicopter (ARH)

    Question. One of the Army's key acquisition programs had been the 
Armed Reconnaissance Helicopter. The program was designed to produce a 
replacement and capability upgrade for the Vietnam era OH-58 series 
helicopter. The ARH program had advanced to the production phase in 
2008 and 2009. The Army had planned to procure 512 aircraft with a 
total program cost of $5.9 billion. Funding appropriated for Aircraft 
Procurement, Army for fiscal year 2009 included $242 million for 
aircraft production. However, in October 2008 following a Nunn-McCurdy 
review of cost and schedule breaches, the program was terminated. The 
ARH was to be a simple, inexpensive, modified off-the-shelf aircraft. 
What caused the schedule slip and cost growth?
    Answer. The scheduled slip was initially caused by a slow start 
within the program management at Bell Helicopter. Beyond managerial 
issues, integration of key elements of the mission equipment and 
availability of parts for manufacturing the prototype aircraft 
contributed to schedule slips in the program.
    The decision to cancel the production contract with Bell was based 
on growth in both the development and unit procurement costs of the 
ARH. Significant increases in manufacturing labor rates, manufacturing 
labor hours and materiel costs in the production phase of the program 
were the primary contributing factors to the cost growth.
    Question. The Army Audit Agency conducted a review of the Armed 
Reconnaissance Helicopter program termination and concluded that the 
decision to limit the initial production cost to $5.2 million stifled 
competition and was based on faulty assumptions. General Casey, please 
explain how this cost cutting strategy was supposed to work and how it 
failed in the end?
    Answer. The $5.2M initial production cost, for the first 36 Low 
Rate Initial Production aircraft, was established to steer industry to 
provide existing platforms, to minimize development/modifications, and 
to use technologically mature mission equipment already in the Army/DoD 
inventory. Theoretically, this strategy would aggressively and rapidly 
field the ARH--replacing the aging OH-58 series helicopter. The 
strategy failed when selected mission equipment which was required to 
meet the strict cost and schedule criteria was less technically mature 
than anticipated. This resulted in development cost and schedule 
growth.
    Question. Does the Army still have a valid requirement for a new, 
modern armed reconnaissance helicopter?
    Answer. Yes, the Army has an enduring Joint Requirements Oversight 
Council (JROC) approved requirement for a light, armed reconnaissance 
capability. The termination of the ARH program as a result of the Nunn-
McCurdy process did not decrease the Army's continuing need for an 
armed scout capability. The Army is initiating an analysis of 
alternatives to determine the best way to meet the armed scout 
requirement including a detailed analysis of manned-unmanned teaming.
    Question. What is the current status and way ahead for the ARH 
program?
    Answer. On April 14, 2009, the Secretary of the Army approved a 
revised Armed Scout Helicopter Strategy. The new strategy will reinvest 
in the OH-58D to provide sustainment until a viable replacement is 
procured, modernize the four remaining National Guard AH-64A battalions 
to AH-64D battalions, review and revise requirements, and conduct a 
comprehensive Analysis of Alternatives (AoA) to determine the best way 
to meet the Army's enduring Armed Scout Helicopter requirement. 
Currently, the Army is seeking a Material Development Decision from the 
Defense Acquisition Executive to initiate the AoA. The AoA will take a 
holistic look at the still valid requirements for the armed scout 
capability to include manned systems, unmanned systems, and the 
possibility of a manned-unmanned team. The AoA is expected to take 12 
months to complete with a final report in September 2010.
    Question. The Committee understands that the Army has lost 45 OH-
58D Kiowa Warriors in combat operations. What is the status of the 
current fleet of OH-58D Kiowa Warrior armed reconnaissance aircraft?
    Answer. The current Kiowa Warrior fleet is down to 338 aircraft. Of 
those, 249 are assigned to MTOE units (51 short of required) while the 
others are for training (36 aircraft) or in test/maintenance status to 
include the Safety Enhancement Program.
    Due to these shortages, it is increasingly difficult to provide 24 
aircraft for units in garrison while ensuring that deployed units 
remain at required quantities (30 each).
    Cabins from divested OH-58A models will be retained and converted 
into D model cabins to provide OH-58D Wartime Replacement Aircraft 
(WRA). This WRA effort is dependent on congressional support for OCO 
Supplemental funding. Even with OCO funding, the Army will continue to 
experience shortages until FY13.
    Life Support 2020 is the program that will sustain the OH-58D for 
the near future by addressing performance enhancement through weight 
reduction, improved sensor, and survivability. Initial production for 
this effort will begin in FY13 and full rate production will likely 
start eight months later. This program is funded almost entirely in the 
POM FY10-15 with a projected completion date of FY17.
    Question. How well suited is the OH-58D for operations in 
Afghanistan?
    Answer. There are currently two squadrons of OH-58D Kiowas deployed 
to OEF (60 aircraft). Although the Kiowa Warrior is limited in power 
and incapable of performing in some of the high/hot areas of 
Afghanistan, the scout helicopter crews flying the OH-58D are 
significantly contributing to the warfight through the expert 
performance of reconnaissance, security and close combat attack 
missions in support of our Soldiers on the ground.

                       Joint Cargo Aircraft (JCA)

    Question. The Joint Cargo Aircraft (or C-27J) is a medium sized, 
multi-purpose cargo aircraft that supports a full range of sustainment 
missions. The JCA program was initiated by the Army to relieve pressure 
on rotor craft for near-front-line logistics. The program eventually 
was made a joint Army and Air Force effort. However, the fiscal year 
2010 budget request proposes to make the program entirely an Air Force 
program, and to cut the number of aircraft to be fielded from 78 to 38. 
The Army had planned on replacing a number of older, small fixed wing 
utility aircraft with the JCA. Given the decision to transfer the 
entire program to the Air Force, what is the Army's plan for replacing 
its fleet of small utility fixed wing aircraft?
    Answer. The Army is conducting an assessment of the remaining 
useful life of its current small fixed wing utility fleet of C-12, C-
26, and UC-35 aircraft to determine a required replacement timeframe. 
Given the transfer of the C-27J program, the Army will conduct an 
analysis to re-assess the required composition and quantity of its 
small fixed wing utility aircraft fleet.
    Question. Please explain the command and control of JCA aircraft 
that are operated by the Air Force but have the mission of performing 
front line resupply for Army Units.
    Answer. Air Force C-27J aircraft that are providing direct support 
to the Army will be co-located and under the tactical control (TACON) 
of the senior Army Aviation unit commander. Direct support missions 
will be assigned by the senior Army aviation unit commander in 
accordance with priorities set by the ground component commander.
    Question. How many JCA have been delivered to the Army, and where 
are they based? Have JCA been deployed to Iraq or Afghanistan?
    Answer. Two JCA have been delivered to the Army and they are based 
at Robins AFB, Georgia. These aircraft are currently supporting 
required test and training activities. The initial US forces deployment 
of the C-27J is planned for the fall of 2010 to Afghanistan.
    Question. Where are the JCA assembled and where does integration of 
military hardware take place? When is the final assembly operation 
scheduled to move from Italy to the United States? Will production move 
to the United States if only a small number are ordered or will they 
all be made in Italy?
    Answer. JCA are assembled in Caselle, Italy, and the integration of 
U.S. military hardware is done in Waco, Texas. The final assembly 
operation move from Italy to the United States is on hold. This was a 
business decision made by Alenia after the U.S. reduced the JCA 
procurement quantity from 78 to 38.
    Question. Many of the JCA that had been planned for the Army were 
to be assigned to Army National Guard units. Without JCA, will these 
units be without aircraft and without a mission?
    Answer. The Army, in close coordination with the National Guard 
Bureau, will make a determination whether to stand down the C-23 
equipped aviation units or transform them into other type aviation 
units.

                     M113 Armored Personnel Carrier

    Question. The M113 Armored Personnel Carrier, or APC, is a lightly 
armored, flat bottomed vehicle that is prolific in mechanized unit 
formations. In various configurations, it has been used as a troop 
carrier, ambulance, mortar carrier, engineer squad vehicle, command 
post vehicle and for other purposes. The Committee understands that in 
the current conflicts in Iraq and Afghanistan the M113 vehicles are not 
used for patrols, or other missions, off of the operating bases. 
General Casey, if the M113 is not suitable to participate in missions 
in Iraq and Afghanistan, what substitute vehicles are used?
    Answer. Currently, Mine Resistant Ambush Protected (MRAP) 
ambulances replace M113 ambulances for units deployed in Theater. 
M1064A3 120mm Mortar Carrier Vehicles and M1068A3 Command Post Vehicles 
continue to be utilized in Iraq on bases. M113 Family of Vehicles (FOV) 
is not fielded to Stryker Brigade Combat Teams and Infantry Brigade 
Combat Teams. M113s are authorized by Modified Table of Equipment to 
equip Heavy Brigade Combat Teams (HBCT) only. There are no deployed 
HBCTs in Afghanistan.
    Question. Does the Army have a requirement to replace all M113s 
throughout the Army?
    Answer. The Quadrennial Defense Review (QDR) will assess force 
structure and force mix which may result in future adjustments for Army 
combat vehicle requirements.
    Question. Will M113 replacement vehicles be wheeled vehicles or 
tracked vehicles? Will they be based on a variant of an existing 
vehicle such as a Bradley Fighting Vehicle or Stryker?
    Answer. The design configuration of the replacement vehicle(s) for 
the M113 FOV has not yet been determined. M113 replacement will be 
informed by the results of the QDR.

                              M109 Paladin

    Question. The Army's current self-propelled howitzer, the M109 
Paladin, dates back to the 1960s. The M109 lacks the mobility, speed 
and agility of the Abrams tanks and Bradley Fighting vehicles which it 
accompanies in heavy brigade combat teams. The Paladin was to be 
replaced by the Crusader 155mm self-propelled Howitzer; however, the 
Department of Defense canceled the Crusader program in May 2002. 
Technologies developed for the Crusader were to be used to produce a 
lighter and more deployable cannon, the Non-Line-of-Sight Cannon, a 
system within the Army's Future Combat Systems (FCS). The Non-Line-of-
Sight Cannon is the most advanced of the FCS manned ground vehicles, 
and the program had produced several operational pre-production 
prototypes. However on April 6, 2009, Secretary of Defense Gates 
announced termination of the FCS manned ground vehicles, including the 
Non-Line-of-Sight Cannon. General Casey, what is the status of the 
Army's modernization effort for the M109 series 155mm self-propelled 
howitzer?
    Answer. The Army will modernize the M109 series 155mm self-
propelled Howitzer through the Paladin Integrated Management (PIM) 
program. The PIM program will insert new technologies to address 
obsolescence and sustainment issues to ensure the long-term sustainment 
of the platform and provide a viable life cycle solution through 2050. 
The Paladin PIM program delivers a ready, relevant, and sustainable 
platform. The Army is investing over $169 million in the development of 
the PIM program between fiscal years (FY) 2008 through FY10. Starting 
in FY10, the first 13 Paladin PIM and Field Artillery Ammunition 
Support Vehicle (FAASV) sets will be produced. The current program 
continues through FY21 totaling 600 Paladin PIM and FAASV sets.
    Question. General Casey, the fiscal year 2010 budget request 
includes $96 million for M109 modernization. What sort of modernization 
does the funding buy? What is the Paladin Integrated Management 
Program?
    Answer. The $96 million requested in the budget will procure and 
field 13 Paladin Integrated Management (PIM) vehicle sets (Paladin and 
Field Artillery Ammunition Support Vehicle (FAASV)) as part of Low Rate 
Initial Production. Technology insertion and system improvements to PIM 
consist of:
    --Improved commonality and reliability through integration of 
Bradley common components (engine, transmission and suspension),
    --Leveraging FCS NLOS--Cannon (NLOS-C) Azimuth and Elevation 
Electric Drives and Rammer Design,
    --Common Modular Power Supply (CMPS),
    --Vehicle Health Management System (VHMS),
    --Improved Survivability (new chassis structure, Growth to 
accommodate Add on Armor (side and belly)).
    The PIM program is a sustainment program to address obsolescence, 
increase sustainability, and reduce operation and support costs of the 
Paladin and FASSV fleet. The PIM program utilizes the existing M109A6 
main armament and cab while integrating more sustainable and reliable 
Bradley common components (engine, transmission and suspension) into a 
new more survivable chassis. PIM also integrates selected technologies 
from the NLOS-C (modified electric projectile rammer and electric-gun 
azimuth and elevation drives) to replace the current hydraulically 
operated elevation and azimuth controls. The program also leverages the 
PEO Ground Combat Systems 600 volt Common Modular Power System and 
Vehicle Health Management System (VHMS) to improve vehicle power 
management and provide on-board vehicle diagnostics/prognostics. 
Execution of the PIM program will ensure that the Paladin/FAASV systems 
continue to meet the needs of the Army's Heavy BCT maneuver commander.
    Question. What is the impact on the overall Army artillery program 
of the termination of the Future Combat Systems (FCS) Non-Line-of-Sight 
Cannon (NLOS-C)?
    Answer. The Army's original plan was to replace the M109 Paladin 
with the FCS NLOS-C in 15 Heavy Brigade Combat Teams. With the 
termination of the NLOS-C program, we will upgrade the 15 Paladin 
battalions through the Paladin Integrated Management (PIM) program. The 
PIM program will insert new technologies to address obsolescence and 
sustainment issues to ensure the long-term viability of the platform 
and provide an efficient life cycle solution through 2050.

                                Stryker

    Question. The Army received $951 million in fiscal year 2009 
appropriations for procurement of 119 Stryker vehicles, including 40 
Nuclear, Biological and Chemical Reconnaissance vehicles, and 79 Mobile 
Gun Systems. The request for fiscal year 2009 Supplemental 
Appropriations for Overseas Contingency Operations proposed $112.7 
million for six Stryker Mobile Gun Systems plus survivability 
enhancements on existing Strykers. The House bill added $338.4 million 
to procure additional Stryker vehicles. The final amount will be 
settled in conference with the Senate. The additional funding also 
would keep the Stryker industrial base warm while the Army establishes 
the way ahead for Stryker. The fiscal year 2010 budget request of 
$388.6 million provides for safety and survivability upgrades but no 
additional production of vehicles. General Casey, what is the way ahead 
for the Stryker program?
    Answer. The Quadrennial Defense Review will assess force structure 
and force mix. This may result in future adjustments to Army Stryker 
requirements. Until then, the fiscal year (FY) 2009 and anticipated 
FY10 funding is sufficient to keep the Stryker industrial base viable 
while the Army establishes the way ahead for Stryker.
    Question. Will the Army replace certain M113 variants, such as the 
ambulance, with Strykers?
    Answer. The Quadrennial Defense Review will assess force structure 
and force mix which may result in future adjustments for Army Stryker 
requirements. Currently, Mine Resistant Ambush Protected (MRAP) 
ambulances replace M113 ambulances for units deployed in Theater.
    Question. Will the Army create additional Stryker brigades?
    Answer. The Army continuously evaluates and adapts to a versatile 
mix of tailorable and networked organizations, operating on a 
rotational cycle, to provide a sustained flow of trained and ready 
forces for Full Spectrum Operations and to hedge against unexpected 
contingencies at a tempo that is predictable and sustainable for our 
all-volunteer force. The Army's strategic estimate, based on the 
premise of the unforeseeable future, is we will need a robust multi-
weight force, composed of Infantry Brigade Combat Teams augmented with 
the protection and versatility of the Stryker Brigade Combat Teams and 
Heavy Brigade Combat Teams.
    Question. Is a Stryker type of vehicle a likely candidate for the 
manned ground vehicle replacement program as part of the Brigade Combat 
Team Modernization?
    Answer. All current vehicle systems are potential candidates for 
the manned ground vehicle replacement program. The Army will use the 
requirements identified from current operations and other assessed 
requirements to determine the capabilities the ground combat vehicle 
must meet. The analysis of alternatives will assess the current 
platforms' ability to meet these capability requirements.

            Mine Resistant Ambush Protected Vehicles (MRAPs)

    Question. The Army has had a goal of procuring approximately 12,000 
MRAPs and DoD acquisition reports indicate that just over 11,000 have 
been received by the Army with 8,344 in Iraq and 1,020 in Afghanistan. 
In addition, the MRAP Joint Program Office is in the process of 
procuring 1,080 new MRAP-All Terrain Vehicles (or M-ATV), which are 
lighter and more maneuverable off-road, but still offer MRAP level of 
protection. General Casey, the Army now owns and operates a fleet of 
over 11,000 Mine Resistant Ambush Protected (MRAP) vehicles and will 
soon receive approximately 1,000 MRAP All Terrain Vehicles which are 
lighter and more maneuverable. Please describe the Army's strategy for 
incorporating MRAPs in various units throughout the Army, beyond 
Afghanistan and Iraq.
    Answer. The Army has been working on this for a while. We know they 
will be needed for training for the foreseeable future and started 
flowing vehicles to training sets several months ago. Additionally, we 
have identified a requirement for over 1,400 Medium Mine Protected 
vehicles in our Explosive Ordnance and Route Clearance formations. We 
will harvest approximately 1,000 of our MRAPs to fill this requirement 
when they are no longer needed for ongoing operations. In an effort to 
determine the best uses for the remaining MRAPs, we have engaged 
multiple agencies to study different aspects of the vehicles ranging 
from operational capabilities, mobility, and survivability to 
maintainability to determine how many of each variant to place in the 
force and where to place them. We anticipate seeing the recommendations 
from these efforts at the end of the year and then we will begin 
finalizing plans to place MRAPs in the force structure.
    Question. What functions that were to be performed by Future Combat 
Systems maimed ground vehicles can be performed by MRAPs?
    Answer. The plan for Future Combat Systems manned ground vehicles 
included eight separate vehicles with different mission roles. These 
included: Infantry Fighting Vehicle; Mounted Combat System; 
Reconnaissance; Cannon; Mortar; Command and Control; Maintenance and 
Recovery; and Medical Treatment and Evacuation. Today's MRAP vehicles 
perform several roles for combat with the primary one being the 
transport of Soldiers to protect against IED blasts. However, MRAPs are 
not fighting vehicles designed for assaulting objectives against 
multiple threats and rapid transitions from mounted to dismounted 
operations in close combat, tasks essential to dealing with today's and 
tomorrow's hybrid threats. Additionally, MRAP vehicles are not 
generally well suited for use as recovery vehicles for other platforms 
due to center of gravity and chassis designs. However, we are assessing 
the current use of MRAP vehicles for medical evacuation for future 
applications. MRAP vehicles are part of the Army's vehicle fleet for a 
long time to come. The key for Army formations is a variety of vehicle 
options from which the commander can choose to meet specific mission 
requirements against adaptive enemies.
    Question. In order to more rapidly field MRAPs, the Joint Program 
Office contracted with several producers for each of them to produce 
their version of the MRAP as quickly as possible. What have been the 
maintenance challenges in maintaining and repairing a fleet of vehicles 
consisting of several different models built by several different 
companies?
    Answer. The DoD's strategy was to procure and field MRAP vehicles 
as rapidly as possible, and in order to do that it was necessary to 
procure MRAPs from multiple manufacturers. This is of course not 
optimal from a supportability standpoint; however, it was the right 
thing to do--and by getting MRAPs into the field quickly, we have saved 
lives and reduced casualties. There is no question that the fielding of 
several different MRAP variants has created maintenance and sustainment 
challenges, particularly in our most forward maintenance activities, 
not the least of which is a lack of commonality of repair parts across 
these multiple variants, which has caused our tactical supply support 
activities to have to stock around 40% more parts than would have been 
required if there was commonality. The problem with repair parts is 
further compounded by the necessity for frequent modifications to each 
of the variants, many of which would not have been required if there 
had been time to do more deliberate testing, where many of these needs 
for modification would have been identified and addressed before 
fielding. Despite the maintenance challenges, the operational readiness 
rate for the Army's MRAP fleet remained at 90 percent or higher for the 
last several months. The Army is responding to repair parts challenges 
by making the most frequently demanded vehicle components for all 
variants, such as engines, transmissions, starters, alternators, and 
generators available through the standard Army supply system, and 
positioning them well forward in Iraq and Afghanistan; additionally, 
the Joint Program Office has an extensive contractor logistics support 
network in both Iraq and Afghanistan, to assist with maintenance, 
especially the more difficult to repair battle-damaged MRAPs.
    Question. The Army has had a goal of procuring approximately 12,000 
MRAPs and DoD acquisition reports indicate that just over 11,000 have 
been received by the Army with 8,344 in Iraq and 1,020 in Afghanistan. 
In addition, the MRAP Joint Program Office is in the process of 
procuring 1,080 new MRAP-All Terrain Vehicles (or M-ATV) which are 
lighter and more maneuverable off-road, but still offer MRAP level of 
protection. When will MRAP-ATVs be fielded in Afghanistan? Will the 
MRAP-ATV satisfy the requirements for the Joint Light Tactical Vehicle?
    Answer. On June 30, 2009, the government awarded an initial 
production delivery contract to Oshkosh Corporation for the M-ATV. 
Initial fielding to Army units in Afghanistan is scheduled to begin in 
December 2009.
    The M-ATV will not satisfy all of the requirements of the Joint 
Light Tactical Vehicle (JLTV). Two key areas in which the M-ATV will 
not meet required capabilities are transportability and payload. The M-
ATV is too heavy to be transported by rotary-wing aircraft. This is a 
critical requirement for the JLTV. In addition, the M-ATV is too heavy 
to carry the projected payload of the JLTV. The Army intends to apply 
lessons learned in development and testing of the M-ATV to the JLTV 
program.

                              Outsourcing

    Question. A March 23, 2009 Defense Subcommittee letter to Secretary 
Gates called attention to the need to revise the Department's policy on 
outsourcing. Over the past eight years OMB Budget Circular A-76, the 
policy which governs public private competitions, has been misused and 
has become a mandate for pushing more and more work into the private 
sector. The letter advised that, in light of the Omnibus Appropriations 
Act, the Secretary should cease to initiate or announce new A-76 
studies. The letter also suggested the Secretary halt A-76 studies 
pending OMB review of the A-76 program. On April 15, then 
Undersecretary for Acquisition, Technology and Logistics responded ``. 
. . the Department is reviewing the current program and will look at 
the status of ongoing competitions.'' However, the Department continues 
to proceed with A-76. Plans are now in process to outsource functions 
at West Point in June. Secretary Geren, why have you not halted A-76 
outsourcing, particularly given:
    <bullet> Your insourcing efforts in fiscal year 2009 (which are 
commendable),
    <bullet> The further insourcing reflected in year 2010 budget 
request, and
    <bullet> The GAO's findings that an error in the A-76 calculation 
of ``overhead'' wrongly and unfairly has resulted in work performed by 
federal employees being contracted out?
    Answer. Although the Fiscal Year 2009 Omnibus Appropriation Bill 
prohibits the start of any ``new'' public-private competitions pursuant 
to the OMB Circular A-76 for the remainder of the fiscal year, it did 
not stop on-going A-76 competitions. Significant time, money, and 
resources have been invested on these competitions, and the Army 
anticipates a savings of 20-25% over the next five years as a result of 
implementation. The A-76 competitive process includes provisions for 
resolving any protests submitted by interested parties. Stopping the 
competitive process after a decision has been rendered would not be 
prudent in that such action will have significant financial impact and 
may lead to legal action. Continuing on-going competitions meets the 
requirements placed on the service pursuant to the OMB circular and is 
in the best interests of providing efficient service at the lowest cost 
and minimizes further adverse impact on the workforce.
    Question. Will you proceed with the plan to outsource jobs at West 
Point?
    Answer. The Fiscal Year 2009 Omnibus Appropriation Bill prohibits 
the start of any ``new'' public-private competitions pursuant to the 
OMB Circular A-76 for the remainder of the fiscal year, it did not stop 
on-going A-76 competitions such as those conducted at West Point. 
Significant time, money, and resources have been invested on these 
competitions, and the Army anticipates a savings of 20-25% over the 
next five years as a result of implementation. The A-76 competitive 
process includes provisions for resolving any protests submitted by 
interested parties. Stopping the competitive process after a decision 
has been rendered would not be prudent in that such action will have 
significant financial impact and may lead to legal action. Implementing 
the decisions at West Point is the best course of action for the 
Department of Defense. The Army will make every effort to minimize 
adverse impact on the workforce.
    Question. On December 1, 2008, the Deputy Secretary of Defense 
issued guidance elevating the importance of ``irregular warfare'',\1\ 
to be as strategically important as ``traditional warfare'', and \2\ 
the policy requires that the Department integrate irregular warfare 
concepts and capabilities into doctrine, organization, training, 
material, leadership, personnel and facilities. The Army and the Marine 
Corps have de facto changed doctrine and training due to their 
prolonged intense involvement in Iraq and Afghanistan, but the planning 
and curricula has not changed. The irregular warfare policy is intended 
to substantially change the way the DoD plans and prepares for future 
conflict. Secretary Geren, has irregular warfare doctrine (DoD 
Directive 3000.07) been reflected in your 2010 budget request?
---------------------------------------------------------------------------
    \1\ DoD defines ``Irregular Warfare'' as a violent struggle among 
state and non-state actors for legitimacy and influence over the 
relevant population. Irregular warfare favors indirect and asymmetric 
approaches, though it may employ the full range of military and other 
capacities, in order 10 erode an adversary's power, influence and will.
    \2\ DoD defines ``traditional warfare'' as combat operations 
between regulated states in which the objective to defeat the 
adversary's armed forces, destroy an adversary's war-making capacity, 
or control territory to change an adversary's government.
---------------------------------------------------------------------------
    Answer. Yes, the Army is meeting and exceeding DoDD 3000.07 
guidance with revised doctrine and the operational concept of ``Full 
Spectrum Operations'' as outlined in the recently published Army Field 
Manual, 3-05 Unconventional Warfare. The Army has redefined itself 
along each of the capability functions to institutionalize a shift in 
focus from Major Conventional Operations toward Irregular Warfare (IW).
    The Army has taken measureable steps to include IW in the FY10 
budget request. This includes the issuance of the Army Training and 
Leader Development Guidance/Strategy and a change in Professional 
Military Education shifting emphasis toward IW. There has been 
investment in new equipment and technology to enhance survivability, 
lethality, mobility, and situational awareness for units and individual 
Soldiers operating in IW environments. The Army has created modular 
units to increase options available to Combatant Commanders shifting 
from division/corps-centric forces required for major conventional 
operations to brigade-centric forces required for distributed 
operations in an IW environment. The Army has also instituted an Army 
Force Generation model to provide sustainable, predictable, adaptable, 
and appropriately trained supply of forces for operations, as required, 
anywhere on the spectrum of conflict or in any phase of the campaign.

                           Irregular Warfare

    Question. Is the Army doing anything to revise doctrine, 
organization, training, material, leadership, personnel and facilities 
to reflect a sharpened focus on irregular warfare (IW)?
    Answer. The Army recognizes that IW is an important aspect of 
today's conflicts. Of the four roles of land forces in the 21st 
century, three address IW. First, the Army must prevail in protracted 
counterinsurgency (COIN) campaigns, both in current and future 
operations. Second, the Army must engage to help other nations build 
capacity and to assure friends and allies and prevent future conflicts 
by increasing the capacity of other nations' security forces--both 
military and police. Third, the Army must deter and defeat hybrid 
threats and hostile state actors. With these complex and dynamic 
demands of 21st century warfare in mind, the Army has institutionalized 
significant IW-related changes since 2001. Doctrinally, the Army has 
revised several Field Manuals, including the Army capstone doctrine, FM 
3-0, Operations to account for IW-related operations and published over 
500 IW-related handbooks with lessons learned. Organizationally, the 
Army has developed and fielded new organizations to provide commanders 
a more holistic perspective on operations conducted among the 
population; established new organizations to provide Army-wide 
solutions for complex asymmetric threats, weapons of strategic 
influence, and other challenges; and embedded Information Operations, 
Public Affairs, Civil Affairs, Psychological Operations (PSYOP), 
Explosive Ordnance Disposal, Electronic Warfare, and Human Terrain 
Teams into Brigade Combat Teams (BCT). Today in Iraq, in addition to 
Special Operations Forces, Army General Purpose Force (GPF) Advise and 
Assist Brigades (AAB), like the 4th Brigade, 82nd Airborne Division, 
are task organized and augmented with additional senior level mentors 
to deliver SFA. With regard to training, the Army has adopted the 
contemporary operating environment at the Combat Training Centers, 
created COIN academies in Iraq and Afghanistan, supported COIN Centers 
of Excellence in Iraq and Afghanistan, and established a permanent and 
enduring training formation--162nd Training Brigade at Fort Polk--as 
the center for institutional development for the delivery of SFA. 
Regarding leader development and education, the Army has updated 
Professional Military Education curricula at all levels to address IW. 
In terms of materiel, the Army has created the Rapid Equipping Force 
and the Army Requirements and Resourcing Board to accelerate fielding 
of material solutions to meet emerging war fighter needs, adjusted FCS 
and complementary programs fielding to provide needed IW-relevant 
capabilities to infantry units first because they are at the highest 
risk, and equipped Soldiers with advanced situational awareness systems 
required to defeat irregular threats. In terms of personnel, the All 
Volunteer Force remains the center of gravity for the United States 
Army. People are what matter most and operations in complex 
environments against irregular and hybrid threats require motivated, 
highly trained, and experienced professionals. The Army continuously 
evaluates recruitment, retention, promotion, and separation programs 
and policies to ensure the quality of the All Volunteer Force remains 
capable of conducting full spectrum operations. To this end, the Army 
has improved balance across all components to provide more capacity of 
high demand/low density capabilities essential for conducting IW. 
Increases include Infantry and Stryker BCTs, Engineer Construction 
Companies, Military Police, Contracting Support Teams, Civil Affairs 
Companies and Tactical PSYOP detachments. Additionally, Army SOF will 
increase by one third through 2013. With regard to facilities, the Army 
constructed new, enhanced, and more realistic Urban Operations Training 
facilities at Fort Knox, Fort Benning, and the Combat Training Centers. 
Since 2001, the Army has made dramatic changes in its capability to 
perform IW and will continue to do so in the future in order to best 
posture the Army to win in the current conflicts and prepare for future 
Full Spectrum Operations.
    Question. How has the Army's training curriculum for tank miles and 
flying hours been substantially updated since the Berlin wall came 
down? When did it occur? When will the training curricula be updated to 
reflect the new and different skills needed to sharpen the focus on 
irregular warfare while remaining capable to dominate and prevail in 
major combat operations?
    Answer. The Army continuously updates the training strategies and 
training scenarios used to prepare units for deployment/employment, 
based on lessons learned during operations, changes in Army doctrine, 
transformation of Army force structure and organizational design, 
advances in training technology, and changes in other factors over 
time. For example, the Army recently adjusted training strategies to 
reflect adoption of the doctrinal imperative to always conduct some 
level of stability operations along with offense and defense 
operations--full spectrum operations--regardless of where the unit 
operates along continuum of operations. As a consequence, Army current 
training strategies/requirements provide flexibility that adequately 
enables units to prepare for irregular warfare, for major combat 
operations, or for any assigned mission.
    Over the preceding two decades, the Army has adjusted doctrinal 
training strategies principally for the contribution of virtual 
training (primarily in FY01, FY02, and FY04), for unit stabilization 
achieved with life cycle management of units (primarily in FY04-05), 
for transition to a modular force and the adoption of Army Force 
Generation construct (during FY06-07), and for adoption of stability 
operations doctrine (primarily in FY08).
    The Army is currently conducting a review of the way we determine 
training requirements to ensure we best represent training required to 
prepare forces to conduct operations including irregular warfare or 
major combat operations.
    Question. With no outyear data available, how can the Congress be 
assured that ``rebalancing'' has been reflected in the budget?
    Answer. A journey rather than a destination, the rebalancing of 
Army structure is a continuous effort requiring frequent review and 
adjustment to meet projected operational demand within authorized 
resources. Moreover, execution of force structure change is not 
immediate, it requires time and resources. These changes are, and will 
continue to be, reflected in Army budgets. Some examples of programmed 
growth from FY06 to FY15 include 47 military police combat support 
companies, 9 air ambulance companies, 12 explosive ordnance disposal 
companies, 117 civil affairs companies, and 107 psychological 
operations detachments.
    The President's Budget Request for FY10 adds additional Army force 
structure for Echelons above Brigade, with over 100 new Army units of 
various sizes (detachments to full size battalions). These new units 
are part of the phased implementation of Grow the Army and other force 
structure initiatives. They provide the Army with operational depth 
needed to sustain enduring levels of force deployment to meet global 
commitments. Included are many high demand engineer, military police, 
signal, intelligence, air defense, and transportation units. This 
growth will help reduce the stress for these high demand units. In 
addition, this budget provides increased home station training funding 
to support the modular force design which will bring the Army closer to 
a balanced training program for the entire force.
    Question. With no outyear data and no movement to change doctrine 
and training curricula significantly, how can the Congress be assured 
that ``irregular warfare'' isn't just a convenient excuse to cut 
programs that have a big impact on local economies?
    Answer. The Army has been and continues to be committed to 
updating, developing, and refining Irregular Warfare (IW) related 
training and doctrine in light of the current operating environment. At 
the center of this effort is the Army's Training and Doctrine Command, 
which is focused on preparing versatile leaders and units through 
integrating IW-related capabilities, concepts, and doctrine. Current 
Army doctrine emphasizes full-spectrum operations, which includes IW. 
New and updated principle field manuals include FM 3-0, Operations; FM 
3-07, Stability Operations; FM 7-0, Training; FM 3-24, 
Counterinsurgency and FM 3-07.1, Security Force Assistance. Additional 
manuals with IW focus include FM 2-91.6, Soldier Surveillance and 
Reconnaissance: Fundamentals of Tactical Information Sharing, FM 2-
91.4, Intelligence Support to Urban Operations, FM 3-36, Electronic 
Warfare in Operations, and FM 3-90.119, Combined Arms Improvised 
Explosive Device Defeat Operations. The Army has created 
Counterinsurgency (COIN) Academies and Centers of Excellence in Iraq 
and Afghanistan and a permanent and enduring training institution at 
162nd Training Brigade to train the Joint Force with skills crucial for 
advisors and mentors. Advisor Core Competencies trained at 162nd 
Training Brigade--the central training location for Brigade Combat 
Teams (BCTs) assigned the SFA mission--include Counterinsurgency (COIN) 
fundamentals, application, and Political, Military, Economic, Social, 
Infrastructure, and Information (PMESII). Typical training for BCTs 
training for Iraq deployment when they cycle through 162nd Training 
Brigade includes Iraqi Culture, History, and Islam; Security Overview 
and Host Nation Security Forces Overview; Implications of Rapport, 
Influence, and Negotiations; Interpreter Management; Border/Point Of 
Entry Overview; Operational Framework and COIN/Stability Operations 
(SO) Overview; and Role of Advisors and Team Dynamics. Mission 
Essential Task Lists used in training at 162nd Training Brigade and 
home station training focus upon training the key skills required when 
operating in an IW environment, including language training, cultural 
awareness, and advising. The tasks associated with IW, including SO and 
SFA tasks, include Establish Civil Security, Establish Civil Control, 
Support to Economic and Infrastructure Development, Develop and enable 
the ISF, Restore Essential Services, and Support Governance. All of 
these tasks are trained as part of a BCT train-up for full spectrum 
operations deployment, to include IW-related deployments. With 1,000 
train-the-trainers at 162nd Training Brigade and the capacity to train 
IW-related tasks at Fort Polk, the BCT home station, or in theater, 
each BCT, and the 3,500 Soldiers assigned to the BCT as well as 
augmentees, receive IW-related training prior to deployment. 
Additionally, the Army has institutionalized an IED-Defeat Strategy, 
funding initiatives and developing them into a core capability. Current 
Mission Readiness Exercises at the Army's Combat Training Centers at 
Fort Polk, Fort Irwin, and in Germany replicate the operational 
environment with IW-focused scenarios and include language- and 
culture-proficient civilians, host nation security forces, other 
government agencies, and non-governmental organizations to create 
realistic and complex situational training. The Army has updated 
training curriculum at all levels to address IW and has incorporated 
training capabilities and cultural aspects into individual and unit 
training through various ranges, training lanes, simulators, computer 
exercises, seminars, workshops, computer software, and tactics, 
techniques and procedures. The Army's IW enhancements are likely to 
impact local economies in a positive manner with the additional 
employment of civilian role-players and associated net growth to local 
community jobs.

                           Contract Services

    Question. The cost of the contracted workforce compared to the 
military and federal civilian workforce has grown extraordinarily, 
fueled in part by OMB's ``competitive sourcing'' direction. In 1997, 
DoD spending on contract services and supplies was less than half, and 
now it is greater than half, of the DoD budget. Further, spending on 
government payroll fell from a third to just over a quarter of the DoD 
total spending. President Obama's 2010 defense budget request may begin 
to reverse this trend. On March 4th, President Obama stated ``. . . we 
will stop outsourcing services that should be performed by the 
Government. . . .'' Then on April 6th, Secretary Gates stated that the 
2010 budget request will reduce. . . . the number of support service 
contractors from the current 39 percent of the workforce to the pre-
2001 level of 26 percent and replace them with full-time government 
employees. Our goal is to hire as many as 13,000 new civil servants in 
FY10 to replace contractors with up to 30,000 new civil servants in 
place of contractors over the next five years.'' Are you aware of GAO's 
and DODIG findings that an error in the A-76 calculation of 
``overhead'' wrongly and unfairly has resulted in work performed by 
federal employees being contracted out?
    Answer. Yes, we are aware that there are some GAO and DODIG 
findings that have challenged the overhead calculation methodology in 
some DOD competitions. In response, the Director, Housing and 
Competitive Sourcing, Office of the Deputy Under Secretary of Defense 
(Installations and Environment) modified cost estimating software to 
flag the proper use of economic price adjustments in estimating the 
government cost estimate to prevent erroneous data entry in the future. 
DoD continues to use the standard cost factor for overheard required by 
OMB Circular A-76, which continues to be an acceptable method for 
capturing federal agency overhead costs. After competing over 32,000 
positions over the last several years, the Army has reduced DoD's cost 
of operating the services they perform by 40% compared to the costs 
before competition. Annual recurring savings are over $660 million.
    Question. Why are you converting federal jobs to contractors at 
West Point in June 2009, rather than just holding pat until OMB 
finishes its review of A-76?
    Answer. The two West Point public-private competitions were 
conducted in accordance with OMB Circular A-76, the Federal Acquisition 
Regulation, and related statutes. Both competition decisions were 
protested, and the Army is not implementing the competition decision in 
order to comply with the GAO decisions made in response to the GAO 
protests.

    [Clerk's note. End of questions submitted by Mr. Murtha. 
The Fiscal Year 2009 Army Posture Statement follows:]

[GRAPHIC] [TIFF OMITTED] T6286B.064

[GRAPHIC] [TIFF OMITTED] T6286B.065

[GRAPHIC] [TIFF OMITTED] T6286B.066

[GRAPHIC] [TIFF OMITTED] T6286B.067

[GRAPHIC] [TIFF OMITTED] T6286B.068

[GRAPHIC] [TIFF OMITTED] T6286B.069

[GRAPHIC] [TIFF OMITTED] T6286B.070

[GRAPHIC] [TIFF OMITTED] T6286B.071

[GRAPHIC] [TIFF OMITTED] T6286B.072

[GRAPHIC] [TIFF OMITTED] T6286B.073

[GRAPHIC] [TIFF OMITTED] T6286B.074

[GRAPHIC] [TIFF OMITTED] T6286B.075

[GRAPHIC] [TIFF OMITTED] T6286B.076

[GRAPHIC] [TIFF OMITTED] T6286B.077

[GRAPHIC] [TIFF OMITTED] T6286B.078

[GRAPHIC] [TIFF OMITTED] T6286B.079

[GRAPHIC] [TIFF OMITTED] T6286B.080

[GRAPHIC] [TIFF OMITTED] T6286B.081

[GRAPHIC] [TIFF OMITTED] T6286B.082

[GRAPHIC] [TIFF OMITTED] T6286B.083

[GRAPHIC] [TIFF OMITTED] T6286B.084

[GRAPHIC] [TIFF OMITTED] T6286B.085

[GRAPHIC] [TIFF OMITTED] T6286B.086

[GRAPHIC] [TIFF OMITTED] T6286B.087

[GRAPHIC] [TIFF OMITTED] T6286B.088

[GRAPHIC] [TIFF OMITTED] T6286B.089

[GRAPHIC] [TIFF OMITTED] T6286B.090

[GRAPHIC] [TIFF OMITTED] T6286B.091

[GRAPHIC] [TIFF OMITTED] T6286B.092

[GRAPHIC] [TIFF OMITTED] T6286B.093

[GRAPHIC] [TIFF OMITTED] T6286B.094

[GRAPHIC] [TIFF OMITTED] T6286B.095

[GRAPHIC] [TIFF OMITTED] T6286B.096

[GRAPHIC] [TIFF OMITTED] T6286B.097

[GRAPHIC] [TIFF OMITTED] T6286B.098

[GRAPHIC] [TIFF OMITTED] T6286B.099

[GRAPHIC] [TIFF OMITTED] T6286B.100

[GRAPHIC] [TIFF OMITTED] T6286B.101

[GRAPHIC] [TIFF OMITTED] T6286B.102

[GRAPHIC] [TIFF OMITTED] T6286B.103

[GRAPHIC] [TIFF OMITTED] T6286B.104

[GRAPHIC] [TIFF OMITTED] T6286B.105

[GRAPHIC] [TIFF OMITTED] T6286B.106

[GRAPHIC] [TIFF OMITTED] T6286B.107

[GRAPHIC] [TIFF OMITTED] T6286B.108

[GRAPHIC] [TIFF OMITTED] T6286B.109

[GRAPHIC] [TIFF OMITTED] T6286B.110

[GRAPHIC] [TIFF OMITTED] T6286B.111

[GRAPHIC] [TIFF OMITTED] T6286B.112

[GRAPHIC] [TIFF OMITTED] T6286B.113

[GRAPHIC] [TIFF OMITTED] T6286B.114

[GRAPHIC] [TIFF OMITTED] T6286B.115

[GRAPHIC] [TIFF OMITTED] T6286B.116

[GRAPHIC] [TIFF OMITTED] T6286B.117

[GRAPHIC] [TIFF OMITTED] T6286B.118

[GRAPHIC] [TIFF OMITTED] T6286B.119

[GRAPHIC] [TIFF OMITTED] T6286B.120

[GRAPHIC] [TIFF OMITTED] T6286B.121

[GRAPHIC] [TIFF OMITTED] T6286B.122

[GRAPHIC] [TIFF OMITTED] T6286B.123

[GRAPHIC] [TIFF OMITTED] T6286B.124

[GRAPHIC] [TIFF OMITTED] T6286B.125


 
                           W I T N E S S E S

                               __________
                                                                   Page
Alexander, Jay...................................................   457
Bye, Dr. Raymond, Jr.............................................   449
Casey, General G. W., Jr.........................................   355
Conway, General James............................................   259
Donley, M. B.....................................................   199
Embrey, Ellen....................................................     1
Finney, Sally....................................................   467
Geren, Pete......................................................   355
Mabus, Ray.......................................................   259
Mateczun, Vice Admiral J. M......................................     1
Peluso, Karen....................................................   443
Robinson, Vice Admiral A. M......................................     1
Roudebush, Lieutenant General J. G...............................     1
Roughead, Admiral Gary...........................................   259
Rowles, J. S.....................................................   461
Schoomaker, Lieutenant General Eric..............................     1
Schwartz, General N. A...........................................   199
Tenenbaum, Cara..................................................   453
Visco, Fran......................................................   436
Volpe, Brigadier General Philip..................................     1

                                  <all>

</pre></body></html>
